<html>
<title> - CBO'S BUDGET AND ECONOMIC OUTLOOK: FISCAL YEARS 2017-2027</title>
<body><pre>[Senate Hearing 115-88]
[From the U.S. Government Publishing Office]




                                                            S. Hrg. 115-88

          CONCURRENT RESOLUTION ON THE BUDGET FISCAL YEAR 2018

=======================================================================

                                HEARINGS

                               before the

                        COMMITTEE ON THE BUDGET
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

          FEBRUARY 1, 2017--CBO'S BUDGET AND ECONOMIC OUTLOOK

           MAY 3, 2017--THE ECONOMY AND PRIVATE SECTOR GROWTH

        MAY 10, 2017--GROWTH POLICIES FOR THE NEW ADMINISTRATION

             MAY 17, 2017--RUNNING THE GOVERNMENT FOR LESS

     MAY 25, 2017--THE PRESIDENT'S FISCAL YEAR 2018 BUDGET PROPOSAL

  JUNE 13, 2017--THE PRESIDENT'S FISCAL YEAR 2018 BUDGET AND REVENUE 
                               PROPOSALS


             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                
             
                                     
                                     
                                     

                                 ________
                       
                  U.S. GOVERNMENT PUBLISHING OFFICE
                
26-915                     WASHINGTON: 2018
                                     
                                     
                                     


                                     
                                     

                        COMMITTEE ON THE BUDGET

                   MICHAEL B. ENZI, Wyoming, Chairman
CHARLES E. GRASSLEY, Iowa            BERNARD SANDERS, Vermont
MIKE CRAPO, Idaho                    PATTY MURRAY, Washington
LINDSEY O. GRAHAM, South Carolina    RON WYDEN, Oregon
PATRICK TOOMEY, Pennsylvania         DEBBIE STABENOW, Michigan
RON JOHNSON, Wisconsin               SHELDON WHITEHOUSE, Rhode Island
BOB CORKER, Tennessee                MARK R. WARNER, Virginia
DAVID A. PERDUE, Georgia             JEFF MERKLEY, Oregon
CORY GARDNER, Colorado               TIM KAINE, Virginia
JOHN KENNEDY, Louisiana              ANGUS S. KING, Jr., Maine
JOHN BOOZMAN, Arkansas               CHRIS VAN HOLLEN, Maryland
LUTHER STRANGE, Alabama              KAMALA D. HARRIS, California
                 Eric Ueland, Republican Staff Director
                Warren Gunnels, Minority Staff Director
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              

                                HEARINGS

                                                                   Page

February 1, 2017--CBO's Budget and Economic Outlook..............     1
May 3, 2017--The Economy and Private Sector Growth...............    51
May 10, 2017--Growth Policies for the New Administration.........   117
May 17, 2017--Running the Government for Less....................   147
May 25, 2017--The President's Fiscal Year 2018 Budget Proposal...   265
June 13, 2017--The President's Fiscal Year 2018 Budget and 
  Revenue Proposals..............................................   413

                    STATEMENTS BY COMMITTEE MEMBERS

Chairman Michael B. Enzi..................... 1, 51, 117, 147, 265, 413

Ranking Member Bernard Sanders.................... 4, 53, 149, 274, 415




                               WITNESSES

Dodaro, Hon. Gene L., Comptroller General of the United States, 
  U.S. Government Accountability Office..........................   151
    Prepared Statement of........................................   154
    Questions and Answers (Post-Hearing) from:
        Chairman Michael B. Enzi.................................   238
        Senator Mark R. Warner...................................   247
        Senator Kamala D. Harris.................................   243

Dunkelberg, William C., Ph.D., Chief Economist, National 
  Federation of Independent Business.............................    66
    Prepared Statement of........................................    73
    Questions and Answers (Post-Hearing) from:
        Chairman Michael B. Enzi.................................   114
        Senator Debbie Stabenow..................................   116

Gramm, Hon. Phil, Former Senator from the State of Texas.........   120
    Prepared Statement of........................................   126
    Questions and Answers (Post-Hearing) from Chairman Michael B. 
      Enzi.......................................................   144

Hall, Hon. Keith, Ph.D., Director, Congressional Budget Office ..6, 206

    Prepared Statement of ...................................... 9, 208

    Questions and Answers (Post-Hearing) from:
        Chairman Michael B. Enzi .............................. 34, 260

        Senator Bob Corker.......................................    42
        Ranking Member Bernard Sanders...........................    37
        Senator Debbie Stabenow..................................    46
        Senator Sheldon Whitehouse...............................    48
        Senator Mark R. Warner...................................   263
        Senator Chris Van Hollen.................................   261
Mnuchin, Hon. Steven T., Secretary, U.S. Department of the 
  Treasury.......................................................   417
    Prepared Statement of........................................   419
    Questions and Answers (Post-Hearing) from:
        Chairman Michael B. Enzi.................................   447
        Senator Patty Murray.....................................   456
        Ranking Member Bernard Sanders...........................   449
        Senator Mark Warner......................................   464
        Senator Ron Wyden........................................   460

Mulvaney, Hon. Mick, Director, Office of Management and Budget...   276
    Prepared Statement of........................................   278
    Questions and Answers (Post-Hearing) from:
        Chairman Michael B. Enzi.................................   325
        Senator John Boozman.....................................   327
        Ranking Member Bernard Sanders...........................   331
        Senator Patty Murray.....................................   341
        Senator Ron Wyden........................................   356
        Senator Debbie Stabenow..................................   394
        Senator Sheldon Whitehouse...............................   398
        Senator Mark R. Warner...................................   405

Sachs, Jeffrey D., Ph.D., University Professor, and Director, 
  Center for Sustainable Development, Columbia University........    80
    Prepared Statement of........................................    83

Strain, Michael R., Ph.D., Director of Economic Policy Studies 
  and Resident Scholar, American Enterprise Institute............    55
    Prepared Statement of........................................    58
    Questions and Answers (Post-Hearing) from Chairman Michael B. 
      Enzi.......................................................   112




 
       CBO'S BUDGET AND ECONOMIC OUTLOOK: FISCAL YEARS 2017-2027

                              ----------                              

                      WEDNESDAY, FEBRUARY 1, 2017

                                       U.S. Senate,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:31 a.m., in 
room SD-608, Dirksen Senate Office Building, Hon. Michael B. 
Enzi, chairman of the committee, presiding.
    Present: Senators Enzi, Crapo, Toomey, Perdue, Gardner, 
Boozman, Sanders, Stabenow, Whitehouse, King, Van Hollen, and 
Harris.
    Staff present: Dan Kowalski, Republican deputy staff 
director; Becky Cole, Republican budget analyst; Warren 
Gunnels, minority staff director; Mike Jones, minority deputy 
staff director; and Joshua Smith, minority budget policy 
director.

         OPENING STATEMENT OF CHAIRMAN MICHAEL B. ENZI

    Chairman Enzi. Good morning. I will call to order the 
Senate Budget Committee. Good morning and welcome to our 
hearing on the Congressional Budget Office (CBO) budget and 
economic outlook for fiscal years 2017 through 2027.
    First, let me say thank you for this report. Speaking for 
all members of the committee, I appreciate the dedication with 
which CBO carries out its responsibilities to Congress under 
the Budget Act, but the contents of this report are concerning. 
After 8 years of failed fiscal policies and wasteful and 
unaccountable spending, America is faced with a mammoth 
national debt that totals almost $20 trillion and a sluggish 
economy that is holding it back.
    This year alone, overspending is projected to be $559 
billion and will continue to grow over the next 10 years to 
$1,408 billion--that would be $1.4 trillion--in 2027. It is a 
$9,426 billion budget hole over the next 10 years. Gross 
national debt will hit $30 trillion in 10 years, outpacing our 
projected economic growth. As Congress considers our country's 
budget over the next decade, we must look beyond the annual 
appropriations process. Almost 70 percent of Federal spending 
is already on autopilot, and that portion is growing rapidly.
    CBO's report states that 70 percent of the total increase 
in outlays over the next 10 years is from Social Security, 
Medicare, and net interest on America's debt. Social Security 
taxes will stop paying for benefits by 2019, which will result 
in a $1.06 trillion deficit for 2027. Medicare will be in the 
red by 2010. In less than 20 years, automatic spending will 
consume all the taxes and revenues the Federal Government 
collects.
    While many entitlement programs have dedicated revenues to 
pay for benefits, the dollars coming in cannot keep pace with 
the tsunami of baby-boom retirements that are just now 
beginning. About 10,000 boomers reach 65 each day.
    Mandatory spending used to mean that there was a dedicated 
stream of money sufficient to cover the cost of the program 
without dipping into the general fund. I have a chart up there 
that shows how we are doing on that score. The blue bars on the 
chart are the upward climb of the mandatory spending. The 
yellow bars show the slow growth of the dedicated taxes and 
fees. And the red line shows the shortfall between the two.
    [The referenced chart follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Enzi. Dedicated taxes and fees currently are 
paying for less than half of total mandatory spending. As more 
of our workforce becomes eligible to retire, the shortfall for 
benefits paid by dedicated revenue will only increase.
    Where does the growing difference come from? It either has 
to be stolen from the future or taken from the present, which 
means that even less can be done under the regular budget.
    The problem is that Congress is not regularly reviewing 
automatic spending programs like Social Security and Medicare. 
Our Government makes promises to pay for these programs without 
identifying a source of revenue that will ensure their 
sustainability.
    Congress is also not successfully providing oversight over 
the 30 percent of Government spending controlled through the 
annual appropriations process. We have only completed 
appropriations on time four times in the past 40 years. 
Continuing resolutions and omnibus funding bills have become 
too commonplace, and they ignore Congress' constitutional duty 
to carefully consider how taxpayer dollars are spent, and spent 
timely.
    Last month, CBO provided another example of spending 
without oversight as it released its annual report on 
unauthorized and expired programs. By the end of fiscal year 
2017, there could be 73 authorizations that will have expired, 
but will likely continue being funded regardless. This adds up 
to $649 billion for 1 year. We need to get to work and review 
these programs before allocating additional dollars.
    Over the past 8 years, little has been done to relieve the 
pressure of our debt on America's economy and a good deal more 
to make it worse. We are left today with enormous debt and 
little evidence that we are prepared at all for the troubling 
future CBO has been warning against for decades and does again 
in this publication. I look forward to our conversation today 
about the true drivers of overspending and your thoughts, Dr. 
Hall, on what actions Congress could take to foster a stronger 
U.S. economy.
    Senator Sanders.

          OPENING STATEMENT OF SENATOR BERNARD SANDERS

    Senator Sanders. Thank you very much, Mr. Chairman, and 
thanks for calling the hearing. And, Dr. Hall, thanks very much 
for being with us.
    Memories are sometimes short, and Senator Enzi talked about 
the deficit and the debt, which clearly are very serious 
problems, but neglected to mention one of the key--some of the 
key reasons as to why we have the deficit and neglected to 
mention, in fact, that the deficit now--what is it, one-third 
of what it was when President Bush left office? Dr. Hall, is 
that about right?
    Chairman Enzi. Deficit or debt?
    Senator Sanders. The deficit is now about one-third of what 
it was when President Obama first came in, I believe, roughly 
correct?
    Dr. Hall. It may have gone down a little bit.
    Senator Sanders. Yeah, maybe. It is a rough estimate. So, 
in other words, we have made significant progress. But when we 
talk about the debt, we might want to remember that we went 
into a war in Iraq that some of us voted against, some of us 
voted for; that we gave huge tax breaks to the wealthiest 
people in this country that added to the debt; and that we 
passed a Medicare Part D prescription drug program, but we 
forgot to tell the pharmaceutical industry that we wanted to 
negotiate prices with them. All of those factors helped raise 
the deficit and the accumulated national debt.
    What is always interesting about hearings like this, it is 
kind of like somebody saying that the operation was a success 
but the patient died. We talk about the budget in the abstract 
without talking about the reality of life in America today.
    So what do we forget about? We forget about that during the 
last 30 years, there has been a massive transfer of wealth--
and, Dr. Hall, if I am saying anything you disagree with, 
please jump in--that what we have seen is trillions of dollars 
flowing from the hands of the middle class into the top 1 
percent; that we now have more income and wealth inequality 
than any other major country on Earth.
    So we talk about the deficit without talking about the fact 
that we are today the richest country in the history of the 
world. The richest country. We are not a poor country. We are 
the richest country. The problem is the top one-tenth of 1 
percent now owns almost as much wealth as the bottom 90 
percent. How is that, Dr. Hall? Is that a fair--thank you. All 
right.
    So my friends are not concerned about that issue. The very, 
very rich are getting richer; the middle class is shrinking; 43 
million people living in poverty. Not an issue. It is only the 
debt and the deficit, and we do not even talk about how we got 
there.
    Second of all, if you listen clearly to what my friend 
Chairman Enzi says--and he is a friend; he is an honest man. If 
you read between the lines, what he is saying basically is we 
have got to cut Social Security, we have got to cut Medicare, 
we have got to cut Medicaid.
    Now, No. 1, I would hope that my Republican colleagues 
would respect the words of President Trump when he ran for 
office when he said exactly the opposite. You did not campaign 
on that. I understand that. But he did. And maybe we might want 
to have our President keep his campaign promises to the 
American people.
    But, second of all, is cutting Social Security, whether it 
is raising the retirement age, cutting back benefits, is that 
the only solution to the Social Security crisis?
    Dr. Hall, I introduced legislation, which got verified by 
the Social Security administration, which said that if you lift 
the cap--that in the midst of massive income and wealth 
inequality, if you lift the cap on taxable income from people 
making $250,000 a year or more, if you do that, in fact, you 
can extend the life of Social Security for 50 years. Nobody but 
the top 2 percent would pay a nickel more in taxes, and you can 
expand benefits.
    I know you do not have those numbers in front of you, Dr. 
Hall. Does that sound consistent?
    Dr. Hall. Yes, it does.
    Senator Sanders. All right. So you have got an alternative. 
And the question is: Do we have the guts to tell the 
billionaire class who are doing phenomenally well that they are 
going to have to pay more in taxes so that we can extend and 
expand Social Security? Or do we do what many of my Republican 
friends want to do, and that is cut Social Security benefits, 
benefits for the disabled, benefits for disabled veterans? So I 
think there is a lot of need to broaden the discussion we are 
currently having.
    Thank you very much, Mr. Chairman.
    Chairman Enzi. Thank you, and I hope that you did not 
interpret my remarks as saying that we ought to cut things.
    Senator Sanders. I did interpret it----
    Chairman Enzi. I left the option of everything out there, 
which would include----
    Senator Sanders. Well, I did interpret it that way.
    Chairman Enzi. Which would include what you suggested.
    Senator Sanders. Well, then I will tell you I would--and I 
say this sincerely. If the chairman now wants to say that he 
believes we should not cut Social Security, I would love to 
hear him say that, not cut Social Security benefits.
    Chairman Enzi. I have tried to keep from cutting Social 
Security benefits since I first got here.
    Senator Sanders. Well, then you have an ally in me. I would 
hope that we can do that. But it is important for you and 
others to say we will not cut Social Security benefits. I would 
hope you can say that.
    Chairman Enzi. And the longer we wait, the less likely we 
are to be able to make that promise.
    Senator Sanders. I have just introduced an idea that Dr. 
Hall has confirmed is accurate, and that if we go the approach 
that I suggested, you do not have to cut Social Security 
benefits.
    Chairman Enzi. I appreciate that. Thank you for your 
remarks.
    Our witness this morning is Dr. Keith Hall, the ninth 
Director of the Congressional Budget Office. The CBO serves an 
instrumental role for the Budget Committees. The agency 
provides necessary information important to assessing the 
budget impact of proposals from both the administration and 
Congress. As well, CBO continually examines the state of the 
economy and the budget to keep us apprised of the fiscal 
context in which we operate.
    Dr. Hall has served as Director of CBO since April 2015. He 
has over 25 years of experience in various Government 
positions, including serving as the Chief Economist and 
Director of Economics at the International Trade Commission, 
Chief Economist for the White House Council of Economic 
Advisers, and Chief Economist for the Department of Commerce. 
Dr. Hall has also served in academia with George Mason 
University and the University of Arkansas. This morning, Dr. 
Hall will be talking with us about CBO's latest baseline, which 
is their outlook on the economy and the Federal budget over the 
next 10 years as it sits now.
    We look forward to receiving your testimony, Dr. Hall. We 
all want to understand the reasons for ballooning deficits and 
the implications to our standard of living on a national debt 
that is expected to grow by almost $10 trillion over the next 
10 years.
    Welcome, Dr. Hall. Please begin.

    STATEMENT OF THE HONORABLE KEITH HALL, PH.D., DIRECTOR, 
                  CONGRESSIONAL BUDGET OFFICE

    Dr. Hall. Thank you. Chairman Enzi, Ranking Member Sanders, 
and members of the committee, thank you for inviting me to 
testify about the Congressional Budget Office's most recent 
analysis of the outlook for the budget and the economy. I will 
discuss a few highlights of our updated budget and economic 
projections which were released last week. After my brief 
remarks, I will be happy to take your questions.
    The economic forecast that underlies CBO's budget 
projections indicates that, in real terms, gross domestic 
product (GDP) will expand at an average annual pace of 2.1 
percent over the next 2 years if current laws generally remain 
unchanged, after rising last year at an annual rate of 1.8 
percent. We expect that growth to boost employment, virtually 
eliminate the remaining slack in the economy, and drop the 
unemployment rate to 4.4 percent by the end of 2018.
    Further ahead, according to CBO's projections, GDP will 
expand at an average annual rate of 1.9 percent over the second 
half of the coming decade. That growth rate remains a 
significant slowdown from the average over the 1980s, 1990s, 
and the early 2000s mainly because of the slower growth 
projected for the Nation's supply of labor, which largely 
results from the ongoing retirement of baby boomers and the 
relative stability in the labor force participation rate among 
working-age women.
    As slack diminishes over the next 2 years, we expect the 
rate of inflation to rise to the Federal Reserve's goal of 2 
percent and to stay there, on average. We also anticipate that 
the Federal Reserve will steadily raise the target for the 
Federal funds rate and that interest rates over the next few 
years will be significantly higher than they are now.
    CBO's current economic projections differ a bit from those 
it published in August 2016. The agency now expects GDP in 2016 
to be modestly lower than it projected last summer. It also 
expects lower interest rates in the next 5 years but projects a 
higher rate of labor force participation throughout the next 
decade than it projected in August.
    In fiscal year 2016, for the first time since 2009, the 
Federal budget deficit increased in relation to GDP. CBO 
projects that over the next 10 years, if current laws remain 
generally unchanged, budget deficits will eventually follow an 
upward trajectory, the result of three main trends: first, 
strong growth in spending for retirement and health care 
programs targeted to older people, especially Social Security 
and Medicare; second, rising interest payments on the 
Government's debt; and, third, modest growth in revenue 
collections.
    By the end of the period, the accumulating deficits would 
drive up debt held by the public from its already high level. 
Moreover, three decades from now, if current laws remain in 
place, that debt would be nearly twice as high as it is now, 
and it would reach a higher percentage of GDP than any 
previously recorded. Such high and rising debt would have 
serious negative consequences for the budget and the Nation, 
including an increased risk of a financial crisis.
    Our estimate of the deficit for 2017 is lower than our 
August estimate, primarily because we now expect lower 
mandatory spending. The current projection of the cumulative 
deficit for the 2017-26 period, however, is about the same as 
we published in August.
    I am often asked specifically about our projections for 
Medicaid and Federal subsidies for health insurance purchased 
through the marketplaces established by the Affordable Care Act 
(ACA). We describe these estimates in this report. They were 
prepared before the new administration took office and do not 
incorporate any effects of Executive orders or other actions 
taken by that administration.
    By CBO estimates, an average of 12 million people under age 
65 will have health insurance in any given month in 2017 as a 
result of the expansion of Medicaid under the ACA. In addition, 
CBO and the staff of the Joint Committee on Taxation (JCT) 
estimate this year 9 million people per month on average will 
receive subsidies for the non-group coverage purchased through 
the marketplaces. An additional 1 million people are projected 
to be covered by unsubsidized insurance purchases through the 
marketplace. We estimate that 27 million people under age 65 
will be uninsured on average in 2017.
    CBO and JCT currently estimate that in 2017 Federal 
spending for people made eligible for Medicaid coverage by the 
ACA will be $70 billion and that net Federal subsidies for 
coverage obtained through marketplaces will be $45 billion. For 
the 2018 to 2027 period, if current laws remain in place, those 
two types of costs would total $1.9 trillion.
    It is important to note that CBO's baseline is not intended 
to be a forecast of what will happen; rather, it is meant to 
provide a neutral benchmark that policymakers can use to assess 
potential effects of policy decisions. CBO's budget and 
economic projections are predicated on the assumption that the 
laws that currently govern Federal taxes and spending generally 
remain in place for the entire projection period. Even if that 
occurred and there are no changes in laws before the end of 
that period, it would still not be possible to predict 
budgetary and economic outcomes precisely because many other 
factors are uncertain. Our goal is to construct budget and 
economic projections that fall in the middle of the 
distribution of possible outcomes, given both the fiscal policy 
embodied in current law and the availability of economic and 
other data.
    I would be happy to answer your questions.
    [The prepared statement of Dr. Hall follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Enzi. Thank you, Dr. Hall.
    Now we will turn to questions, and let me take a minute to 
explain the process for the committee members before we start. 
Each member has 5 minutes for questions, beginning with myself 
and then Senator Sanders. Following the two of us, I will 
alternate questions between the Republicans and the minority. 
All members who were in attendance when the hearing began will 
be recognized in order of seniority. For those who arrived 
after the hearing, it will be in the order that they arrived.
    I want to thank you for your testimony. I do have a few 
questions. CBO projects 50 percent of the growth in outlays 
over the next decade will be from Social Security and Medicare. 
In the past, Congress has balanced a budget using a surplus in 
these programs. Now we will need to do it while paying for the 
deficits. Congress has had many opportunities to reform 
mandatory spending. CBO has been telling us for decades that 
the demographic shift will make these programs no longer 
sustainable.
    I have proposed a Concepts Commission to work on these 
matters and propose solutions to Congress, but our annual 
budget does not allow Congress to address Social Security under 
the budget. So the tools to balance a unified budget are 
limited, especially as more of the growth is automatic.
    Does it make sense to you that the budget continues to be 
balanced as one pot?
    Dr. Hall. Well, I think the last Concept Commission from 
1967 emphasized that all Federal spending and receipts should 
be included in the budget, and I think the quote is something 
like, ``Different and competing budgets confuse the public and 
congressional understanding and impede decisionmaking.'' So I 
think we certainly support the idea of a Budget Concepts 
Commission, and we certainly support the idea of producing 
estimates like we do as if it is a unified budget for you.
    Chairman Enzi. All right. I appreciate that because I have 
looked at some of the revenues coming in and find that with 
Social Security we are about 18 percent short on what we are 
paying out each month. And under Medicare, it looks like we are 
about 46 percent short. So we will have to look at those things 
evidently under a commission concept since we are limited on 
what we can do under budget unless we make some reform changes, 
and I think we have talked about that in committee in a 
bipartisan way.
    Now, I have proposed including long-term debt-to-GDP 
targets in the Federal budget process, as have several members 
of the committee, which would provide goals for the budgets of 
both Congress and the President. If baseline projections do not 
comply with the targets, the administration would need to 
submit a plan to bring current law projections back into 
compliance. In 30 years, CBO projects our debt-to-GDP will be 
almost 150 percent. Taking into account the impact of our aging 
population, what is a realistic target for long-term debt-to-
GDP? How much deficit reduction is necessary to maintain our 
debt-to-GDP ratio currently?
    Dr. Hall. Well, we have certainly been consistently saying 
and we are still saying that the path of the debt hitting 150 
percent in 30 years and, maybe as importantly, it is rising, so 
if we extend it from 30 years to 35 years, it gets larger; to 
40 years, it gets larger. So it is on an unsustainable path, 
and we believe that.
    One of the difficulties for us is the idea that how much is 
too much is very difficult to define. We do know that as the 
debt grows--and it is already at a very high level--it 
increases the risk to the financial markets and a risk to the 
economy. It is hard to pick a number, however. Because in some 
respects it is like any other organization that puts up debt, 
it is hard to say how much debt is too much. The United States 
is somewhat unique in its ability to sustain debt, but 
certainly we are on a path that is very, very difficult.
    We certainly would support the idea of helping you use a 
target and certainly support you in what sort of changes you 
would need to hit that target.
    Chairman Enzi. Thanks. I think that will be helpful, and we 
will do some research to see what other countries do in order 
to have some kind of a constraint on what they do, either in 
spending or revenues.
    Some in Congress have argued against deficit reduction in a 
weak period of economic growth. I think we need to weigh these 
concerns against the negative consequences laid out by your 
report if we continue to allow high and rising debt. One of 
those consequences is that lawmakers would have less 
flexibility to use tax and spending policies to respond to 
unexpected challenges. What types of policies can Congress 
implement that would improve our deficit and our GDP growth 
simultaneously?
    Dr. Hall. Sure. I think that is actually an important 
question. Right now we see the economy, although it is modestly 
growing, and we think it will be modestly growing over the next 
2 years, that will eliminate all of the slack in the economy. 
So in terms of stimulus, stimulus might help us speed that 
along, but what would really help in terms of the long-run 
deficit would be things that focus on the supply side of the 
economy, focus on things that affect the labor supply, affect 
productivity, affect innovation, things like that. It is sort 
of--almost any sort of increase in spending or decline in taxes 
gives you some demand stimulus. But I think the important thing 
is the longer-run impacts on the supply side of the economy.
    Chairman Enzi. Thank you. My time has expired.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. And, Dr. Hall, 
it is great to see you, and I just want to echo the comments of 
the chairman, thanking you and your team at CBO for your great 
work.
    We talked a little bit about economic growth and the impact 
on deficits. There are some practical things we could do to 
both increase economic growth as well as reduce the deficit.
    There has been a lot of talk lately about reducing 
immigration to the United States, and I think it is important 
to remind our colleagues that CBO did an analysis of the 
bipartisan immigration reform bill that passed the Senate a 
couple of years back. Isn't that right?
    Dr. Hall. That is correct.
    Senator Van Hollen. And if I have got my facts right, the 
economic impact report that you did in June 2013 indicated that 
that immigration reform bill would increase economic growth in 
2023 by 3.3 percent beyond what would be otherwise anticipated. 
Is that right?
    Dr. Hall. That is correct.
    Senator Van Hollen. And it would continue to grow in 2033. 
It would be 5.4 percent greater in that year than otherwise 
anticipated.
    Dr. Hall. Yes.
    Senator Van Hollen. And I remind my colleagues that that 
was a piece of legislation that also dramatically increased 
border security. In fact, almost $20 billion was invested. In a 
letter you sent to Senator Leahy July 3, 2013, you indicated 
that the net impact after you take the money for additional 
border security, because of the economic growth, you would 
actually reduce the deficit over that period of time by $135 
billion. Do you recall that finding?
    Dr. Hall. I do not, but that sounds right.
    Senator Van Hollen. Right, more economic growth, more 
reduction in the deficit. In addition to the fact, you found 
that it would improve the long-term solvency of Social 
Security. Do you recall that as well?
    Dr. Hall. I do not, but that sounds----
    Senator Van Hollen. More people, right?
    Dr. Hall. Yes.
    Senator Van Hollen. So I hope that in this, a lot of the 
heated rhetoric around immigration, this was a bipartisan bill 
which would increase economic growth, reduce the deficit, 
improve the solvency of Social Security.
    Dr. Hall, just a couple questions with respect to the 
Affordable Care Act, because CBO recently issued a report, 
January 17th, about the impact of repealing portions of the 
Affordable Care Act, and you looked at the 2015 reconciliation 
bill that passed the Congress and went to the President. Do you 
recall that?
    Dr. Hall. I do.
    Senator Van Hollen. All right. One of the findings in that 
report, as I understand it, is that the number of people who 
are uninsured would increase by 18 million in the first year of 
the new plan if we adopted that reconciliation bill. Is that 
right?
    Dr. Hall. That is correct.
    Senator Van Hollen. And that the premiums in the non-group 
market, the individual market, on policies purchased would 
increase by 20 percent to 25 percent in the first year relative 
to current law. Is that right?
    Dr. Hall. That is correct.
    Senator Van Hollen. All right. So just to translate, that 
means if you were to adopt the bill, the reconciliation bill, 
the Republican repeal of the Affordable Care Act that went to 
President Obama, which he vetoed, we would immediately see 
premiums go up even further, significantly further, 20 to 25 
percent in the individual market, and you would see 18 million 
people becoming uninsured in the first year of the plan.
    So we have heard over the years it is going to be repeal 
and replace. We are all still waiting for the replace, a 
replace that would at least make sure those 18 million 
continued to have access to affordable care, and that they do 
not see their premiums go up even more than they have.
    Just in my last minute, I wanted to ask you a question 
about tax expenditures and other mandatory programs, because 
the chairman referred to mandatory expenditures. I do not see 
it in the material here, but I believe when you released your 
budget to the press recently, your analysis, you indicated that 
tax expenditures were, in fact, the greatest category of 
mandatory spending, higher than what we spend on Social 
Security on an annual basis, higher than what we spend on 
Medicare. Is that right?
    Dr. Hall. That is true.
    Senator Van Hollen. All right. So that means that, 
according to CBO, all those tax credits and tax deductions and 
tax breaks, when you add them all up in the Tax Code, that 
amount exceeds the amount we spend on an annual basis on Social 
Security, right?
    Dr. Hall. That is correct.
    Senator Van Hollen. All right. And so one of the things 
that Senator Sanders has been pointing out is that we can 
actually do a lot when it comes to trying to improve the 
solvency of Social Security through reducing some of those tax 
expenditures and his proposal to raise the cap. And I would 
just say I also believe that CBO recently found in your options 
report that if you apply the same payroll tax to income over 
$250,000 that we currently apply to income below $127,200, that 
that would also increase the solvency of Social Security until 
around 2041. Is that right?
    Dr. Hall. That sounds about right.
    Senator Van Hollen. So, I mean, just when we are 
considering options, Mr. Chairman, there are options that we 
can apply that do not require cutting Social Security benefits, 
and that is a very practical one that has been put into the 
mix. So I thank you, Dr. Hall. Thank you, Mr. Chairman. And I 
look forward to working with you.
    Chairman Enzi. Thank you.
    Senator Perdue.
    Senator Perdue. Dr. Hall, thank you. Here we are again, 2 
years in, nothing has changed. But I want to correct the record 
about a couple things, Mr. Chairman. You know, we hear these 
superficial conversations about growth. You know, there are two 
ways, Dr. Hall, to grow GDP, right? You can grow your 
population, or you can grow your productivity. That is it.
    Dr. Hall. Yes.
    Senator Perdue. So, of course, if you say, OK, you know, in 
a world of flat innovation and flat technology growth or 
whatever, OK, we can grow our population. So the answer is, of 
course, more immigration. Well, we are immigrating more people 
now, twice--a little more than two and a half times, frankly, 
than our 100-year average. And yet in the last 8 years, this 
economy has grown on a per capita compound basis 0.61 percent 
in the last 8 years. It is the weakest recovery in history. 
That is the lowest economic growth of any President in U.S. 
history.
    My concern, Mr. Chairman, is that we are not talking about 
the real issues, and I applaud you for having this hearing, and 
I applaud the CBO for what you are doing to remind us again 
what you reminded us of last year, that this is not 
sustainable. And we know that the two 800-pound gorillas in the 
room are Social Security and Medicare. And I want to set the 
record straight, Mr. Chairman and Dr. Hall. I for one have 
never called for cutting Social Security. You do not have to 
cut Social Security benefits for people on Social Security to 
solve this. But every year that goes by, the solution gets 
harder and more difficult and more painful for people 50 to 100 
years from now.
    To oversimplify this, I want to get at a couple things. Dr. 
Hall, in Social Security there are only a few levers--some 
people say four, some people say five, but basically you can 
change the age, you can look at means testing, you can look at 
the inflator that is embedded in there that is incorrect, and 
you can also talk about the revenue formula. Beyond that, if we 
were to, for example, on the debt that we have--and I like to 
look at the public debt because I happen to think that the debt 
that we owe Social Security and Medicare trust funds is real 
debt and that we will eventually have to pay the piper there. 
And you talk about the interest rate going up. I think the 
assumption is it would be at the higher level, about 2.5 or 3 
percent, during the life of this.
    Dr. Hall. That is right.
    Senator Perdue. And so what would happen, Dr. Hall, if 
interest rates were to go to their 30-year average of about 5.5 
percent on the full--both public debt and the debt owed to 
mainly the Social Security trust fund?
    Dr. Hall. Well, higher interest rates would have a really 
significant effect on our forecast, and it would actually 
pretty significantly raise our estimate of the budget deficit. 
Because we have such a large and growing debt, raising that 
interest rate has a really big impact on the net interest 
payments.
    Senator Perdue. So the last few years, we have seen the 
annual deficit--not the debt, the annual deficit--decline I 
would actually say fairly significantly. But the budget that we 
are operating under right now under the past 3 or 4 years, that 
performance projected out over the next 10 years, as I look at 
this, we move right back to $1 trillion annual deficits within 
a very short period of time. Is that correct?
    Dr. Hall. That is correct.
    Senator Perdue. And that the total here is--I have not 
totaled it up. Somewhere we are going to add--if we do not do 
anything from our baseline budget, which is what we are talking 
about at CBO, we will add another $9.5 to $10 trillion to the 
current $20 trillion of total debt. Is that fair?
    Dr. Hall. Yes.
    Senator Perdue. So when I look at the solution, can we grow 
our way out of it? Because if that is all we did, hold 
everything else constant and all we did was grow the economy, 
can we solve that $30 trillion problem?
    Dr. Hall. I think the short answer is no.
    Senator Perdue. No. Second, if we were to tax the top 3 
percent of our earners in this country, the ones demonized by 
certain Members on the other side of the aisle, if we were to 
take the entire income of those people over the next 20 to 30 
years, would that solve the debt crisis?
    Dr. Hall. I would have to look at that, but I----
    Senator Perdue. We have run the numbers. Directionally, I 
am correct. It would not.
    Dr. Hall. No.
    Senator Perdue. So a single-faceted attempt to solve Social 
Security and to solve the debt crisis is really very naive, in 
my opinion, as a business guy. And when I look at this, we have 
got several areas of opportunity. The one thing I think we all 
agree is there are opportunities, but let us get at talking 
about the opportunities. The budget process is broken. We know 
that. I am not going to have time to lay out all the problems 
with that. But I will say this: In the last 42 years, since the 
1974 Budget--and, by the way, it took that commission 7 years 
to write the Budget Act, and that Budget Act has only worked 
four times in 42 years. And over those 42 years, we have only 
appropriated--and I want everybody to listen to this. We have 
only appropriated an average of two and a half appropriation 
bills per year. This is a fraud on the American people, and it 
has been perpetrated for 42 years, and it is time we deal with 
it. That is just one area that we can use to help arrest this 
runaway Government spending. $2.4 trillion is what we spent in 
2000. We spent $3.8 trillion last year. And that is constant 
dollars. We have got to look at redundant spending. We have got 
to grow the economy. I think we have got to save Social 
Security and Medicare over the long term, and that makes it 
viable for our kids and grandkids. And, last, we have got to 
get at the spiraling driver for health care cost inflation.
    I am running out of time, Mr. Chairman, but I will hold the 
other questions for a second round. Thank you.
    Chairman Enzi. Thank you.
    Senator King.
    Senator King. Thank you, Mr. Chairman. Welcome, Dr. Hall. 
Nice to have you here.
    Dr. Hall. Thank you.
    Senator King. I appreciate your comments, Senator Perdue. 
Senator Perdue, in Maine, we have a saying that summarizes 
exactly what you were talking about. There is rarely a silver 
bullet. There is often silver buckshot. It takes multiple 
approaches to solve a problem of these magnitudes, and there is 
no single solution.
    Dr. Hall, in listening to your testimony and reading it, it 
seems to me that underlying a lot of your assumptions is 
demographics in a couple of ways: the demographics of baby 
boomers retiring, which is a big bulge in the population; 
demographics of more people going on to Medicare, I believe 
something like 10,000 people a day are now signing up for 
Medicare; and the demographics of not replacing those people in 
the workforce, which you note on page 4 is the significant drag 
on the growth of the economy, which is labor supply. Is that 
all correct?
    Dr. Hall. That is all correct.
    Senator King. And where I would disagree with Senator 
Perdue, if the demographics--Congress can repeal a lot of 
things, but one of them we cannot repeal is the law of 
demographics. And if we are at replacement or below--and in 
Maine, for example, we are below replacement now in terms of 
our birth rate. The only solution is immigration, isn't it? The 
people have to come from somewhere.
    Dr. Hall. Well, I do not know what--I do not know if that 
is the only solution, but clearly, increasing the labor supply 
does have an impact on revenues. There are other sorts of 
impacts which one should probably consider, depending on what 
kind of immigration that you have.
    Senator King. Of course, and I am not saying unlimited, 
open the borders, or anything else.
    Dr. Hall. Right, right.
    Senator King. But to say we can close our borders and stop 
having people come to this country and maintain continued 
economic growth just does not square with economic principles.
    Dr. Hall. Well, certainly we do need to have a continuing 
growth in the labor force, and that is sort of the really 
simple recipe. You have to have your labor force growing, you 
have to have productivity growing.
    Senator King. I can tell you, as I talk to businesses in 
Maine now, as I travel throughout the State, which I do every 
weekend, the No. 1 problem they are telling me is finding 
qualified workers.
    Now, the important word is ``qualified'' because that 
speaks to education, training, improved job training. I think 
that is a big part of this. But that is the problem that we are 
seeing.
    A couple of comments about where the budget has been going. 
What we are seeing basically is the entire discretionary budget 
being crowded out by entitlement growth and tax expenditure 
growth. Tax expenditures back in the 1960s were about 4.5 
percent of GDP; now they are 8 percent. Defense spending, for 
example, in 1967 was 8.5; it was 5.2 in 1991; it was, I think, 
4.7 in 2010; and it is 3.2 today. In other words, a steady 
decline, and even a significant decline, almost 25 percent, 
since 2010. And also since 2010, we have had China's buildup of 
its military, North Korea's nuclear weapons, ISIS, Syria, 
Ukraine, Crimea, all of those have occurred. And yet we are 
still on this steady downward trend in terms of defense 
spending. Do those figures sound consistent with what you are 
seeing?
    Dr. Hall. Yes, I think they do.
    Senator King. And, of course, domestic spending is going in 
exactly the same way, from over 4 percent back in 1967, 3.5 
percent in 1991, and down to 3.3. Both defense and non-defense 
discretionary, as I understand it, are at the low point for the 
last 70 years. So that is--what bothers me is a lot of the 
debate about the budget around here is about Head Start slots 
and aircraft when the real growth is basically in health care 
costs, which is driving Medicare, Medicaid, and those 
expenditures, and I think that is something we need to be 
talking about.
    Let me ask a more general economic question. A lot of 
people have been talking about 4 percent GDP growth. Is that 
realistic in a mature economy? A developing economy can have 
those very high growth rates, and 4 percent was what we had. 
But do you see any combination of policies that would get us to 
4 percent GDP growth?
    Dr. Hall. Well, if we are talking about the short term, 
just basic stimulus, we could accelerate the elimination of the 
output gap over the next 2 years. We could accelerate that. But 
for having anything lasting, we need to worry about the supply 
side of things.
    To give you some idea of how----
    Senator King. When you say the supply side of things, you 
are not talking about supply side Arthur Laffer; you are 
talking about the supply side of like labor force and 
productivity.
    Dr. Hall. That is right, the labor force, the capital 
stock, innovation, those sorts of things.
    Senator King. Right.
    Dr. Hall. But I wanted to couch this a little bit, and 
right now over the next 10 years, we are seeing the labor force 
grow at about half a percentage point a year, and we are seeing 
labor force productivity grow at about 1.3 percent a year. That 
adds up to about 1.8 percent GDP. That is our forecast for 
potential GDP. So if you want to get potential GDP up, you have 
got to raise----
    Senator King. One of those two items.
    Dr. Hall. One of those two things, or both. That is right.
    Senator King. I am out of time, but I think hopefully, Mr. 
Chairman, we will have additional time for questions.
    Chairman Enzi. Certainly. We do not want to pass up an 
opportunity like this with an expert.
    Along the same lines that Senator King was asking about, do 
you have any projections on what our unemployment is and what 
our actual unemployment is? Senator Sanders usually puts this 
in his speech.
    Dr. Hall. I do not have that handy, but in some respects, 
the unemployment rate is being a little bit misleading because 
the unemployment rate is already below what we think is the 
potential full employment. And the reason it is below is 
because there are so many people still out of the labor force. 
We still think there are a good million and a half people who 
are not even in the labor force that we need to find jobs for 
to hit that full employment.
    So if you wanted to do some sort of calculation, I suppose 
you could take the current unemployment rate and add in about a 
million and a half people into the unemployment, and it gives 
you some number that maybe gives you some idea of how short we 
are of full employment.
    Chairman Enzi. Yes, which goes back to Senator King's 
comment that his employers were having trouble finding 
qualified employees. And from my time in business, that was 
always a problem. And I go to a lot of businesses in Wyoming 
when I am there on the weekend and ask them what kind of 
decisions they have to make, how long in advance they have to 
make them, and what some of their biggest problems are. And the 
biggest one there is qualified employees, too. We have got some 
training programs, and we need to take a look at those and see 
if they are actually effective.
    We had a question earlier about increase in interest 
payments, and I think the largest percent increase in spending 
is a projected tripling of the interest payments in your 
document, almost doubling relative to GDP. And that is with the 
interest rates remaining low. Do you have an effect on CBO's 
projections if the interest rates move up further, perhaps to 
the historic average?
    Dr. Hall. Yeah, we have some good rules of thumb to give 
you some idea. If interest rates, say, are 1 percentage point 
higher per year for the next 10 years, then that adds something 
like $1.6 trillion to the deficit. So that almost doubles it. 
So it is a really significant increase going forward. And on 
something related, at the end of 10 years we anticipate just 
the net interest payments are going to hit something like 2.7 
percent of GDP. That is a really high number. And, again, it is 
because the debt is so high, and you raise that, you really 
raise our forecast, I think.
    Chairman Enzi. I went to one of our bond sales and was 
surprised at how fast they got snapped up and found out that 
some people are actually bidding a negative interest rate at 
the moment because they have so much confidence in our 
Government that they will get their money back, even though 
they had to pay a little bit for us to keep that secure. The 
interest rate depends a lot on how much people think we are 
secure, I assume, and how much debt we have got per person. We 
are a lot worse off than Greece.
    Dr. Hall. That is right, and one of the things that we 
anticipate would happen if the deficit continues to grow is it 
is going to put pressure on that interest rate and increase 
that interest rate and raise the cost of our already existing 
debt, let alone new debt.
    Chairman Enzi. Thank you.
    Changing a little bit, in the last Congress CBO and the 
Joint Committee on Tax produced dynamic cost estimates for 
major legislation, including the tax proposals. How would 
comprehensive tax reform affect GDP growth? How can we make our 
tax system more efficient so growth is not impeded by our Tax 
Code?
    Dr. Hall. Well, any sort of estimate, of course--I want to 
tip my hat to the Joint Committee on Taxation. They would be 
doing the scoring on that. But there are certainly things in 
the Tax Code that we could do that would impact the efficiency 
of taxes and would maybe impact productivity going forward if 
it helps eliminate some misallocation of resources that are 
sort of created by the Tax Code now. That certainly is one of 
those sources of policy choices that would impact potentially 
long-run growth in the economy.
    Chairman Enzi. Tell me a little bit more about 
misallocation of resources.
    Dr. Hall. Right, well, you know, a lot of it is the impact 
on capital, capital investment. For example, doing something 
like reducing taxes on the capital stock would potentially help 
productivity and help long-term growth. Doing something to 
increase the tax base, you know, right now there are lots of 
things that sort of cause the tax base to decline over time, 
like offshoring sort of behavior, that sort of thing. Those 
would all potentially impact productivity and help the long-run 
growth.
    Chairman Enzi. Thank you.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. Again, Dr. 
Hall, thank you for your testimony.
    Just when we talk about the aging of the population and the 
immutable law of demographics, we have talked about 
immigration, I just think when we are talking about this within 
the budget context, it is important that we remember that no 
matter what we do in the budget, those costs are going to grow 
in aggregate for the country and for the people. In other 
words, health care costs will grow. The costs of long-term 
health care will grow. And so really the debate here is how 
much of that cost should be shouldered by the average American 
and how much should be shouldered by trying to shore up things 
like Social Security, Medicare, and other things. Isn't that 
one way to look at it?
    Dr. Hall. Yes.
    Senator Van Hollen. So someone is paying for this at the 
end of the day, and the question is how we as a society decide 
to allocate those costs and whether or not we should ask folks 
at the very high income scale to, for example, pay more payroll 
taxes because if they do not, the costs are going to go up to 
seniors who are on retirement, on Social Security. And it is 
not that there are not other things we can do, but that has to 
be a major part of this conversation.
    In terms of productivity, we talked about different levers, 
and obviously there are productivity gains through the private 
sector. We have talked, you and I in the past, about the 
different kinds of Federal investments, and some Federal 
investments can make a greater impact on innovation and 
potentially productivity than others.
    If you were looking at the set of discretionary spending 
options and investments, have you done any analysis at CBO as 
to which could most impact in a positive way on productivity?
    Dr. Hall. We do not have a lot on that because, frankly, 
the literature is very thin on the impact of different kinds of 
investment. One of the things that is really clear is different 
kinds of Federal investment have really different effects, but 
we just do not know that much about how the different kinds 
differ on things.
    Senator Van Hollen. Is that something that could be 
determined through analysis, do you think? Is that something 
that CBO--for example, investing in education, which we believe 
increases productivity if you have a more educated workforce. 
Is there a way for CBO to do that kind of analysis? After all, 
a lot of the research and development investment that helped 
innovation--DARPA and the Internet--a lot of those things began 
at least with Federal investment, not that the private sector 
does not quickly come in with a lot of its own. Is that 
something that CBO could undertake as a guide to the Congress 
with respect to investments that we might want to look at?
    Dr. Hall. I am happy to get that question out because we 
have, in fact, been doing some work on that, and we are very 
close, for example, to putting out a little blog post talking 
about what we see in the evidence on the effects of something 
like education on productivity and some of those good things. 
And it is generally pretty positive. One of the issues, of 
course, with education is how much lag there is before it has 
an effect. But we do talk about the evidence in there, and we 
have something coming out actually very soon on that.
    Senator Van Hollen. Good. I look forward to seeing it. 
Thank you.
    Thank you, Mr. Chairman.
    Chairman Enzi. Senator King.
    Senator King. Thank you. A couple of different questions.
    I think I remember there was a report several years ago 
that the overall analysis--and I think it was by the CBO--of 
the deficit impact of the Affordable Care Act was positive, 
that it would reduce the deficit over a 10-year period 
something like $1 trillion. Have you done any recent analysis 
of what the repeal, what a full repeal--which included repeal 
of all the taxes and fees that support the subsidies--what a 
full repeal would mean in terms of its economic effect on the--
--
    Dr. Hall. Yeah, we, in fact, did that last in--to be 
honest, I cannot remember if it was June of last year or June 
2015. I think it was maybe 2015. We did do an estimate of the 
full repeal, and we did have the dynamic analysis as part of 
that.
    Senator King. Could you give us a summary of what you 
found? Was it a net or a--was it a negative or a positive?
    Dr. Hall. It was a positive. So the exercise was if you 
eliminate the ACA, it would actually have a negative impact and 
make the deficit worse on the whole.
    Senator King. OK. That is important. If you eliminate the 
ACA, it would make the deficit grow. Is that correct?
    Dr. Hall. That is right.
    Senator King. OK. If you could supply that study, I would 
appreciate it.
    Dr. Hall. Absolutely.
    Senator King. No. 2, with regard to investments, I have 
always thought, looking historically, that the GI bill is 
probably the best single investment that the U.S. Government 
ever made in terms of economic growth after World War II, and 
that may be a model for us.
    Vice President Cheney once famously said, ``Reagan proved 
deficits do not matter.'' Do deficits matter?
    Dr. Hall. We think they do, and I think our deficit is at a 
high level, and the debt is at a high level, and I think it is 
already having an effect. It does create a drag on the economy 
and a drag on growth.
    Senator King. I agree with you. My problem is deficits 
around here seem to matter sometimes and then not others, and 
it seems to me if we could establish a consensus that deficits 
are a problem, are a drag on the economy, and do ultimately 
have to be paid back, we could then start to move toward 
solutions. I think they do matter, and I hope we can establish 
that kind of consensus.
    We have got two levels of debt: the so-called public debt 
and then, as Senator Perdue mentioned, the Social Security debt 
that we owe. Why aren't they the same? I mean, I think, 
frankly, the picture is worse than it looks because we do not 
count Social Security as part of public debt. Most people want 
checks in the mail, not IOUs.
    Dr. Hall. Actually, in our numbers we do include all the 
debt together. So our debt held by the public does include 
that, and that is sort of why we focus on that because we think 
that is the important number for the economy.
    Senator King. And the other issue is: How do we--again, to 
get back to my silver buckshot image, there is no single 
solution. We have to have economic growth. That would help 
considerably. We also have to have control of spending in a 
variety of areas. But there may be a question, again, because 
of the demographics. We are in a moment of a huge increase in 
demand on our Social Security and Medicare. Maybe we have to 
talk about where revenues are. Revenues historically for 50 
years have been 17.4 percent of GDP. But for 50 years, we did 
not have 10,000 people a day signing up for Medicare. Do you 
see what I mean?
    Dr. Hall. Yes.
    Senator King. That there needs to be an adjustment in our 
thinking about revenues to adjust to the reality of the 
demographic tidal wave that we are facing. Would you agree?
    Dr. Hall. Well, that is right, although I do want to say 
the growth in revenues is already historically at a high level.
    Senator King. By about four-tenths of a percent.
    Dr. Hall. Right, and they are projected to grow. So we are 
already starting from a high level on revenues. We are at an 
even higher level on spending. So it is sort of this race 
really of both things, and spending is just outpacing revenue.
    Senator King. But the spending growth is in the Social 
Security and Medicare, not in discretionary, defense, and Pell 
grants and those areas. I think it should be clear.
    Dr. Hall. Right.
    Senator King. We need to make it clear that those are 
actually declining.
    Dr. Hall. That is right, they are. As a share of GDP, they 
are declining.
    Senator King. Finally, do you know of any economic studies 
or evidence that tax cuts stimulate economic growth? Because 
that is a kind of theological position around here, and I in my 
own research have not been able to find the data to support it. 
The evidence from the Bush tax cuts did not seem to stimulate--
significant tax cuts in the middle of the last decade and in 
the State of Kansas where they have gone through this kind of 
giant economic experience, it does not seem to be working. You 
do not have to answer now, but if there is economic data on 
that, I would like to see it.
    Dr. Hall. There is research on that, and we do think that 
tax cuts generally do, in fact, stimulate the economy, do 
increase growth. One of the big questions sort of is how much. 
You know----
    Senator King. Well, I can see a tax cut from President 
Kennedy when it was 90 percent down to 35. The question I would 
have is: Does going from 35 to 28 or 31, a kind of marginal 
change, does that have the kind of effect that, frankly, many 
people represent?
    Dr. Hall. Well, we do think it has an effect, and I would 
be happy to give you some of the literature that we have 
written up about it, and we would actually be happy to come by 
and talk about it and talk our way through what we think the 
evidence is on it.
    Senator King. Because I think that is important, because 
that is a principle that drives a lot of the debate around 
here, and I think we ought to try to get to the data that 
underlies it. Thank you. I appreciate it.
    Dr. Hall. Sure.
    Senator Van Hollen. Mr. Chairman, could I just ask the 
Director for clarification? Just on the revenue level, I think 
you mean in aggregate terms the absolute dollar amount. But as 
a percent of GDP, we are still like in the early 2000s, 2001, 
where it was 20 percent, 19 percent of GDP. So it is not higher 
as a percent of GDP today, right?
    Dr. Hall. Well, it is higher than the average over the last 
50 years.
    Senator Van Hollen. Right.
    Dr. Hall. But it has been higher before.
    Senator Van Hollen. Thank you. I just wanted that 
clarification.
    Chairman Enzi. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. I apologize for 
sneaking out. We have an Environment and Public Works hearing 
going on at the same time.
    Thank you for being here. As you know, Congress has become 
increasingly reliant on short-term continuing resolutions (CRs) 
to fund the Government. Can you talk briefly about the impact 
that the CRs have on the debt long term, and then, also, just 
on the efficiency of Government in general with the agencies?
    Dr. Hall. Sure, sure. I suppose in my mind one of the 
things with the CRs constantly is there is sort of no plan 
there. There is no effort to sort of plan on what you are going 
to do over the next 10 years or something like that. So it 
winds up being perhaps very short-run thinking.
    With respect to affecting the Government, I can draw back 
on my experience. I run an agency----
    Senator Boozman. So it affects your agency.
    Dr. Hall. Well, it affects our agency, and I spent some 
time heading the Bureau of Labor Statistics, and I know what it 
is like for an agency not to know what their budget is going to 
be. And maybe more importantly at some point getting halfway 
through the fiscal year before you know if you have got any 
money to finish the year out, that makes it hard to have as 
efficient a Government as we should have.
    Senator Boozman. Right. Very good. In 2027, discretionary 
spending will be at the lowest level as a percentage of GDP 
that it has been since 1962. Despite this, both deficits and 
the overall debt are expected to increase dramatically. Is it 
correct then to say that Congress' current approach to reducing 
the deficit--that is, only reducing discretionary spending--is 
sustainable in the long term?
    Dr. Hall. That will be very difficult, and I can give you a 
good example. Right now, in 10 years we forecast that the 
deficit is going to be about $1.4 trillion. Total discretionary 
spending in 10 years will be about $1.5 trillion. So it is 
essentially--if you did it all with discretionary spending, 
both defense and non-defense, you would wipe out all the 
discretionary spending to balance the budget.
    Senator Boozman. One final thing. Is there a risk of 
inflation rising past the 2 percent target set by the Federal 
Reserve? If that happens, you know--and, again, you can 
evaluate the risk. If so, what impact would it have on the 
national debt? And then, also, that triggering interest rate 
rise, you know, what impact would that have on the national 
debt?
    Dr. Hall. Sure. Well, we already anticipate that the Fed is 
going to raise the Federal funds rate to try to keep inflation 
under control, and that is a big part of our forecast that 
interest rates are going to rise.
    Senator Boozman. So what does a 1 percent, half percent 
rise cost?
    Dr. Hall. About a 1 percent rise in interest rates over the 
10-year period, it comes out to be something like $1.6 
trillion, which is a really big number. So that interest rate 
is one of the more important things on the debt.
    Senator Boozman. And, traditionally, the service of the 
debt is so much higher than it is--what is it today, 2 percent, 
something like that?
    Dr. Hall. Yeah, it is pretty low.
    Senator Boozman. So, historically, I think it is 5, 6 
percent. So, you know, that is not an imaginary scenario. That 
is something that has a very real chance, you know, of coming 
back up where we are going to increase 2 or 3 percent, which 
would cause what kind of troubles?
    Dr. Hall. Well, it is certainly going to raise the debt 
service, the net interest, and we are going to start seeing the 
net interest payment being a really big chunk of the Federal 
budget. It is going to do a lot of things not only sort of 
restricting your flexibility to do things with the budget, but 
also those rising interest rates affect the economy. It 
probably crowds out some private investment. We probably do not 
get as much capital stock, and we probably do not have the 
productivity growth that we would like to have in terms of 
long-run growth.
    Senator Boozman. All right. Thank you, Mr. Chairman. Thank 
you.
    Chairman Enzi. Senator Whitehouse.
    Senator Whitehouse. Thank you, chairman. Welcome back, 
Director. Good to see you.
    Dr. Hall. Thank you.
    Senator Whitehouse. With a new Congress and a new 
administration, I wanted to just briefly review the bidding 
with you on some of the issues that we have talked about in the 
past. The first is whether you still believe that tax 
expenditures remain a form of Federal spending.
    Dr. Hall. Well, I do not want to make a judgment on that, 
but tax expenditures are a very large number, and they do dwarf 
a lot of categories of Federal spending.
    Senator Whitehouse. And a tax expenditure of $1 has the 
same effect on the debt and the deficit as direct spending of a 
$1.
    Dr. Hall. Right, right. And this is, you know--well----
    Senator Whitehouse. All other things being equal, 
obviously, being the understood----
    Dr. Hall. Yes.
    Senator Whitehouse. Second, do you continue to believe that 
reform of the delivery system in health care has promise to 
reduce health care costs on a going-forward basis?
    Dr. Hall. We certainly think that about some of the reforms 
that have happened as part of the ACA. We still--it is very 
hard to forecast. We still see the health care costs continuing 
to grow faster than GDP does, so it is going to start taking--
continue to take a bigger and bigger share of the pie, and that 
is----
    Senator Whitehouse. Adjusted for the demographic change or 
incorporating the demographic change?
    Dr. Hall. Yeah, even adjusted for the demographic change, 
we still see expenditure per person or per patient being one of 
the growing parts of the budget.
    Senator Whitehouse. Well, I think it is a great place for 
us to continue to work on, because I am seeing primary care 
provider groups in Rhode Island that have declared themselves 
accountable care organizations within the program that the ACA 
set up who are changing the way they do business and changing 
the way they are paid by different payers, and the result has 
been happier customers, better-served patients, and a lower 
cost per capita of their patient network. And there have been 
very significant shared savings between the Federal Government 
and these practices, and I think this is really just the 
leading edge, because they are kind of cutting-edge providers 
who have worked terribly hard to do this. But the fact that 
they are already seeing significant results, big numbers by 
Rhode Island standards, I think gives us some confidence.
    Last September, I asked you what CBO was doing to study how 
the ACA has affected Federal health spending, and you replied 
that, ``We are going to be getting data and looking at real 
data.'' Since September to now, give us an update on where you 
are on that project.
    Dr. Hall. Sure. We are getting--obviously, we are getting 
data. We are getting--obtaining it to adjust our estimates of 
the spending. I think right now our current estimate is that 
spending on the Medicare expansion is about $70 billion, and I 
think on the subsidies it is about $56 billion. So we are--we 
have actually been pretty accurate in our forecasts on those 
things.
    Senator Whitehouse. I think we were talking more about this 
graph, which I think is yours, that shows the adjusted forecast 
Federal spending, and CBO has repeatedly dropped the forecast 
since the ACA was passed. And the question was: To what extent 
has that reduced forecast of Federal spending in the out-years 
been connected to programs contained within the Affordable Care 
Act?
    Dr. Hall. Yeah, I see----
    Senator Whitehouse. But it shows $3.3 trillion in net 
savings just in the 2018-2027 window vis-a-vis the 2010 
projection. So if I could make a question for the record to get 
an update on where you are in terms of evaluating that 
connection, that would be helpful.
    Dr. Hall. OK.
    Senator Whitehouse. And the last question is that climate 
change portends out-year costs for the Federal Government that 
ought to be budgeted, does it not?
    Dr. Hall. Well, we have certainly just recently put out a 
report on the likely impact of climate change on hurricane 
frequency and sea levels and what that means for the Federal 
budget with some recommendations about what you all can look at 
to impact that.
    One of the issues, of course, is that it is looking 30 
years ahead, and a lot of the impact is perhaps beyond 30 
years. But we do have some estimates of that. I do not have 
them handy.
    Senator Whitehouse. Mr. Chairman, we just got the updated 
report from the National Oceanic and Atmospheric Administration 
(NOAA) on the anticipated sea level rise for Rhode Island by 
the end of this century, and they have raised it from 6 feet to 
9 feet. And while it makes a shorter drive to the beach for 
somebody in Wyoming, it is a very deadly serious matter for 
Rhode Island. And I hope that we can look forward to a day when 
we can have a sober and sensible discussion about that here in 
Congress.
    Thank you, sir.
    Chairman Enzi. We have a little bit of room yet in Wyoming 
for a few additional people if they want to move to higher 
ground.
    Senator Whitehouse. Well, interestingly, the Majority 
Leader's home State did a study that showed that Kentucky might 
actually expect an influx of population from people fleeing 
battered coasts as a result of climate change. So even Kentucky 
sees it coming. They just see it in a different light.
    Chairman Enzi. In light of climate change, Wyoming has been 
completely underwater three times.
    Senator Whitehouse. So you sympathize with what I see 
coming.
    Chairman Enzi. Absolutely, yes. It can be easier to get 
sailing lessons there. I have been there, done that.
    I am going to change the topic pretty dramatically here in 
my questions, because we are dealing with some pension deficits 
in the private sector that are huge, and we have required the 
private sector to do some substantial investment so that they 
could keep ahead of that. But that prompted me to worry a 
little bit about how States are handling their pensions, and 
that led me to worrying about how the Federal Government is 
handling its pensions.
    What kind of resources do we have set aside to handle the 
pensions? At the last hearing that we had, I was shocked to 
hear--and I do not know whether it is an accurate figure, but I 
imagine it is pretty close--that one-third of our Federal work 
force will retire by 2020. What kind of assets do we have set 
aside to be able to fund our pension plans?
    Dr. Hall. You know, I do not have that information in front 
of me, but we have actually been doing some work on sort of 
forecasting looking at that. So we can follow-up and see what 
we can get you on that.
    Chairman Enzi. OK. Do you have any idea where that pension 
money comes from now?
    Dr. Hall. Why, I presume it is part of spending.
    Chairman Enzi. Part of the general fund?
    Dr. Hall. Yes.
    Chairman Enzi. We have no money set aside for----
    Dr. Hall. Oh, I am sorry. I see where you are going. That 
is right. We do not have any money set aside. That is right.
    Chairman Enzi. So part of the deficit problem that we have 
will be when one-third of the Federal work force retires and 
expects their pensions.
    Dr. Hall. That is right.
    Chairman Enzi. And that is probably another pension crisis 
that we better be figuring on.
    Did you have some more questions, Senator King?
    Senator King. Just one more. I would be interested--and 
maybe this has to be done for the record--in what your 
estimates are or what your assumptions are that are built into 
these projections of health care inflation? I noticed, for 
example, that Medicare, adjusted for October 1st, was about a 5 
percent increase last year, and the general economy was--
inflation was 1.5 percent. What I am interested in is a 
sensitivity in the projections to various estimates of health 
care inflation. My impression is that, of all these things we 
are talking about, one of the most important factors in growth 
of the Federal deficit is health care inflation, and if that 
could be held, for example, to half of 5 percent through a 
variety of changes, that would be a significant--that would 
improve these numbers considerably. Isn't that so?
    Dr. Hall. Yeah, I think that would have certainly a 
noticeable effect, and I would be happy to follow-up and see 
what we can tell you about what our forecast is and give you 
some idea.
    Senator King. What I would like to see is, you know, a 
range.
    Dr. Hall. Sure.
    Senator King. Starting with your similar interest rate 
assumption to 5, 6, or whatever you are using. I think it 
points to an underlying issue that we really need to be talking 
about. With all the debate of the Affordable Care Act and the 
issues surrounding it, we are not really talking about the 
underlying cost of health care, which is going to be a driver 
of our economic stress, both in our Federal budget and in our 
household budgets, regardless of who is paying, of what the 
insurance mechanism is. And I am concerned that we have not 
really focused sufficient attention on that, and delivery 
mechanisms and how the system can be made--because we are, as 
you know, paying about twice per capita for health care as any 
other developed country in the world. And that is an underlying 
problem that it seems to me we need to address.
    Dr. Hall. Sure. Like I say, we would be happy to follow-up.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman Enzi. Senator Boozman, do you have any additional 
questions?
    Senator Boozman. No, sir. Thank you, though.
    Chairman Enzi. I have one additional one that I see here, 
and that is, it is often said that the longer we wait to reform 
Social Security, the more difficult it will be. In 2015, 
Congress had an opportunity to reform the disability program. 
Instead, we punted and transferred money from the retirement 
program and postponed reform. The latest CBO estimates show the 
disability trust fund will be exhausted in 2023. Can you give 
us a sense of how much more difficult it will be to reform 
Social Security if we wait until 2023?
    Dr. Hall. It would be a lot harder, and this is one of the 
recurring themes, I think, of our entire report. It is Social 
Security, it is disability. These are problems that we have 
seen coming for decades, and they are getting closer now. And 
absolutely the quicker we do something, the better. If we look 
at achieving, say, a 75-year solvency for the Social Security 
trust funds, just right now that would require a 33 percent 
reduction in benefits. And if we wait 6 years, something like 
that, that goes up to 38 percent. So it goes up about 5 
percentage points every 6 years, something like that.
    So there is a real cost to waiting, because the longer we 
wait the bigger the cut in benefits or the increase in taxes 
that we need.
    Chairman Enzi. Thank you. In conjunction with Senator 
Sanders, we will have some additional questions on the levers 
on Social Security. I invite Senator Boozman and Senator King 
to be a part of that, too, because I think it is some 
information that we really need to gather quickly.
    Thank you very much for----
    Dr. Hall. Thank you.
    Chairman Enzi [continuing]. Being willing to do this and 
for your answers and for the conciseness of your answers.
    Now, if anybody has additional questions, those are due by 
6 p.m. today, with a hard copy delivered to the committee in 
624, and we would ask that you respond to those as quickly as 
possible.
    So with no further business, this meeting is adjourned.
    Dr. Hall. Thank you.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following submitted questions were not asked at the 
hearing but were answered by the witness subsequent to the 
hearing:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


                 THE ECONOMY AND PRIVATE SECTOR GROWTH

                              ----------                           


                         WEDNESDAY, MAY 3, 2017

                              United States Senate,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:31 a.m., in 
room SD-608, Dirksen Senate Office Building, Hon. Michael B. 
Enzi, chairman of the committee, presiding.
    Present: Senators Enzi, Crapo, Johnson, Perdue, Gardner, 
Kennedy, Boozman, Strange, Sanders, Wyden, Kaine, King, Van 
Hollen, and Harris.
    Staff present: Eric Ueland, Republican staff director; and 
Warren Gunnels, minority staff director.

         OPENING STATEMENT OF CHAIRMAN MICHAEL B. ENZI

    Chairman Enzi. I will go ahead and call this hearing to 
order, mostly because we have a 10:45 vote this morning, and 
that will add a degree of difficulty to it. So I will go ahead 
and make my opening statement. If Senator Sanders is here, he 
can give his when I complete mine. Otherwise, we will do some 
introductions and get started on the testimony. And then when 
the vote starts, we will have a quick recess to run over and 
vote and come right back again, because there is just one vote 
in the process.
    Good morning, and welcome to our hearing on the economy and 
private sector growth. First, let me thank the witnesses for 
agreeing to testify this morning. It is important for 
Government to focus on policies that promote private sector 
growth. As we enter into a period of higher than historic debt 
with projected economic growth below average, Congress must 
debate how to encourage business growth without raising our 
spending deficits.
    The good news is hard-working families finally have a 
Congress and a President focused on addressing these critical 
issues. The Congressional Budget Office (CBO) recently 
published a report on the macroeconomic and budgetary effects 
of Federal investment. The Federal Government considers annual 
spending bills and authorizations on a regular basis, which 
allocates dollars toward goods and services that are expected 
to increase private sector productivity. This includes 
infrastructure, education, training, research, and development.
    CBO finds the increase in productivity that results from 
Federal investment boosts economic output, but only gradually. 
The macroeconomic effects of Federal spending depend on how 
those dollars are financed. The Federal Government has been 
operating in deficits for over a decade. We have been financing 
investment spending by increasing Federal borrowing. While 
increasing Federal spending boosts demand and the gross 
domestic product (GDP) in the first several years, the 
Government cannot create long-term growth through 
appropriations alone.
    According to CBO, the increase in Federal borrowing reduces 
the amount of money available for private investments, 
dampening GDP in later years. We cannot spend our way out of 
these fiscal challenges. Instead, we have to look to the 
private sector to create long-term growth, and often the 
policies needed to encourage business investment are as simple 
as getting out of the way--regulatory relief, tax reform, and 
simplification, and reducing uncertainty. These policies 
promote business investment and private sector growth.
    As a former small business owner myself, I know firsthand 
the risks and rewards of entrepreneurship. Tough economic times 
make business investment more risky, and the uncertainty 
surrounding Government policies makes it difficult to implement 
a surviving business strategy.
    The U.S. economy has not yet recovered since the last 
recession, and CBO projects long-term economic growth to be 
substantially lower than historic averages. Government needs to 
incentivize entrepreneurship and innovation, not regulate and 
tax it. We need to lower the barriers to entry and simplify 
compliance requirements.
    Our witnesses today will discuss a variety of policy 
options to support economic growth. Regulation reduction and 
tax reform probably ought to be front and center.
    A new study from the Mercatus Center at George Mason 
University finds that regulation distorts investment choices. 
This lack of efficiency reduces innovation and creates a drag 
on the economy. The study finds that over a period of 35 years, 
regulation has reduced the average annual GDP growth rate by 
eight-tenths of a percent, and had regulation been held 
constant at levels observed in 1980, the U.S. economy would 
have been about 25 percent larger.
    Our uncompetitive and complex Tax Code also restricts 
growth. The Tax Foundation's analysis of the Republican tax 
reform proposals shows the increase in the long-run size of the 
economy from 5 to 9 percent. The Joint Committee on Taxation 
has consistently shown potential economic growth when scoring 
past comprehensive tax measures, including proposals that have 
no loss of revenue to the Federal Government.
    Increasing GDP from private sector growth provides 
additional dollars to the Treasury. According to CBO, a one-
tenth percentage increase in productivity growth would reduce 
the deficit by $273 billion over a 10-year period. As Congress 
considers the daunting task of getting our deficits under 
control, growth policies must play a role in getting to 
balance.
    I look forward to our conversation today with the panel of 
these national economists on how Government can foster a 
stronger U.S. economy.
    Senator Sanders.

          OPENING STATEMENT OF SENATOR BERNARD SANDERS

    Senator Sanders. Thank you very much, Mr. Chairman, and 
welcome to our guests. And, Dr. Sachs, thank you so much for 
being here. Two points.
    You mentioned, Mr. Chairman, the Mercatus Center. To the 
best of my knowledge, it is funded largely by the Koch 
brothers, and if, in fact, the tax program initiated by the 
President, repeal of the estate tax, I think that the Koch 
brothers get about a $30 billion--their family will get a $30 
billion tax break. So I can understand why those guys might 
think that this is very good economics. I do not think most 
Americans do, but that is the case.
    But before I get started, I would like to note, Mr. 
Chairman, that it has now been 7 long weeks since the Trump 
administration came out with its budget, and yet our committee 
has not held a single hearing on what he has proposed. Not one.
    This is unprecedented. In 2001, the day after President 
George W. Bush released his preliminary budget, this committee 
heard testimony from the Treasury Secretary, followed up by 
three other hearings with the Budget Director, the HHS 
Secretary, and the Secretary of State. In 2009, after President 
Obama released his preliminary budget, our committee held three 
hearings with the Budget Director, the Treasury Secretary, and 
the Energy Secretary. Up to this point, we have held zero 
hearings.
    Moreover, under Section 300 of the Congressional Budget 
Act, Congress is supposed to complete its work on the fiscal 
year 2018 budget resolution no later than April 15th. It is now 
May 3rd, and we have not even started.
    Now, maybe there is a good reason for this, and maybe you 
will explain it to us. But maybe it is also simply the fact--
and I can understand this--that your side of the aisle is not 
particularly interested in defending a budget which gives 
hundreds and hundreds of billions of dollars in tax breaks to 
the top 1 percent while at the same time it would end an after-
school program--my God, after-school programs, mothers all over 
the country worried about where their kids are after school--
would end the after-school program. It would take away student 
financial aid, Pell grants, from 1.5 million college students 
and eliminate other college grant programs.
    Maybe your side of the aisle is not interested in defending 
a budget which would throw more than 200,000 Americans out of 
their homes by cutting affordable housing programs by more than 
$6 billion or taking away hot nutritious meals from vulnerable 
senior citizens by cutting the Meals on Wheels program. And my 
guess is that many members of this committee actually do not 
want to do that, but that is what is in the President's budget. 
Or maybe to talk about a budget which would force over 6 
million Americans to go cold in the winter by eliminating the 
Low Income Home Energy Assistance Program (LIHEAP) or throw 
some 90,000 kids off of Head Start by cutting that program by 
more than 10 percent.
    But, Mr. Chairman, while the Trump budget may be 
indefensible, that is not an acceptable excuse for Republicans 
not to hold any hearings on it or to work with us to come up 
with a different and better budget. That is our job, and we 
should accept that responsibility.
    Further, Mr. Chairman--and this is really quite 
incredible--just yesterday, as you know, President Trump sent 
out a tweet--we are a Government by tweet--which threatens to 
shut down the Federal Government. Mr. Chairman, how many jobs 
would be lost if President Trump follows through on his threat? 
How many disabled veterans would not receive their benefits on 
time? How many families would not receive health care, child 
care, education, or nutrition assistance? What would happen to 
our military? How many people could be placed at risk?
    Mr. Chairman, I think we need to make it clear to President 
Trump that we will not under any circumstances shut down the 
Federal Government and endanger the lives and economic well-
being of millions of Americans.
    Now, Mr. Chairman, when Donald Trump campaigned for 
President, he told the American people that he would be a 
different type of Republican. He said that he would stand up 
for the working class of this country and take on the political 
and economic establishments. That is what he said. 
Unfortunately, that is not what he did.
    President Trump said that he understood the pain that 
working families across this country were feeling, and there is 
a lot of pain. But when you propose a budget which increases 
military spending by $84 billion over 2 years while slashing 
program after program that addresses needs of working families, 
of the elderly, the children, and the poor, you are not 
addressing the needs of the working class of this country.
    Mr. Chairman, at a time of massive wealth inequality--this 
is unbelievable--Trump wants to repeal the estate tax for 
people who have over $5.4 million in wealth, a $353 billion tax 
giveaway to the richest two-tenths of 1 percent. And I would 
like the American people to listen to this: At a time when the 
middle class is in decline, 43 million people living in 
poverty, what Mr. Trump wants to do is give a tax break to the 
Walton family of Walmart, the wealthiest family in America, of 
up to $53 billion. We cannot afford Head Start, child care, 
after-school programs, but we can afford to give $53 billion in 
tax breaks to one family.
    The Koch brothers, our good friends who fund much of the 
Republican Party, would get a tax break, their family would get 
a tax break of up to $35 billion.
    Sheldon Adelson, who only put $5 million into the 
President's inaugural program, will get a tax break of up to 
$12.6 billion.
    And, coincidentally, last but not least, Donald Trump's own 
family will get a tax break of up to $4 billion.
    Mr. Chairman, I think those are issues that we might want 
to discuss right here on this committee, and I hope and look 
forward to the opportunity of doing that. Thank you.
    Chairman Enzi. Thank you, and we will have that opportunity 
when the President's budget, actual budget comes out. We will 
have hearings on it. There are a number of things you mentioned 
that I would like to talk about, but I feel obligated to get 
the testimony from our folks that have given some of their time 
to present their ideas, and I think we can all agree that 
Congress has to address economic growth as an integral part of 
the quality of life for all Americans. So we need to consider 
how growth affects the Federal budget. As CBO has pointed out 
in their reports year after year, the more we overspend, the 
less flexibility future policymakers have for the economic 
downturns. I am looking forward to hearing from our panel this 
morning on the importance of getting our private sector growing 
again.
    Our first witness this morning is Dr. Michael Strain, who 
is the director of economic policy studies and resident scholar 
at the American Enterprise Institute (AEI). Before joining AEI, 
Dr. Strain worked in the Center for Economic Studies at the 
U.S. Census Bureau and in the Macroeconomics Research Group at 
the Federal Reserve Bank of New York.
    Next is Dr. Bill Dunkelberg, who has served as chief 
economist for the National Federation of Independent Business 
(NFIB) since 1971. Dr. Dunkelberg is also a professor of 
economics at the School of Business and Management at Temple 
University and served as the dean there from 1987 through 1994 
and as director for the Center of Advancement and Study of 
Entrepreneurship.
    Our third witness is Dr. Jeffrey Sachs, a university 
professor and director of the Center of Sustainable Development 
at Columbia University. Dr. Sachs served as the director of the 
Earth Institute from 2002 to 2016, and prior to joining 
Columbia, he spent over 20 years as a professor at Harvard 
University.
    We look forward to receiving the panel's testimony. I want 
to thank all of you for joining us to share your expertise on 
this important subject.
    When the vote starts, at the completion of one of the 
testimonies we will run over and vote and then come back so 
that everybody has the opportunity to hear the testimony.
    With that, welcome, Dr. Strain, and you can begin.

  STATEMENT OF MICHAEL R. STRAIN, PH.D., DIRECTOR OF ECONOMIC 
   POLICY STUDIES AND RESIDENT SCHOLAR, AMERICAN ENTERPRISE 
                           INSTITUTE

    Dr. Strain. Thank you, Mr. Chairman.
    Chairman Enzi, Senator Sanders, and members of the 
committee, thank you for the opportunity to be here today to 
discuss economic growth. Few issues are as important to the 
future of the United States. It is an honor to be here.
    A growing private sector economy is central to the health 
of society. Economic growth drives increases in living 
standards and quality of life. This is perhaps most easy to see 
over long periods of time. Compare life 200 years ago with life 
today. Economic growth facilitated dramatic reductions in child 
mortality rates and poverty rates, increased access to 
education and medical care, increased life spans, and the 
amenities of the modern world we enjoy today.
    It is tempting to say that at this point the Nation is rich 
enough, that the economy is large enough, and that we need to 
worry more about redistributing wealth and income than about 
creating them. But imagine if our forefathers in 1817 had said 
the same. We owe our posterity in 2217 what we received from 
our forefathers, just as we owe our children and grandchildren 
and ourselves.
    Of course, some level of redistribution is clearly 
desirable. Economic growth allows for redistribution to be more 
palatable by increasing the resources that can be 
redistributed. More generally, economic growth is important 
because it mitigates distributional conflict. Without growth, 
the only way for me to do better is for you to do worse. With 
growth, I can do better and you can stay the same. Ideally, of 
course, growth allows you and me both to do better.
    Public policy can affect the growth rate. A specific goal 
of labor market policy should be to increase the rate at which 
adults participate in the workforce. This would increase the 
economy's overall growth rate, among other benefits.
    It is reasonable to argue that labor market regulation is 
suppressing the workforce participation rate, for example, 
minimum wages. Economists debate the employment effects of 
minimum wage increases, but in my view the balance of the 
evidence suggests that by regulating wages Congress is 
suppressing employment. And raising the Federal minimum wage to 
$12 per hour, as has been discussed, would, in my view, have a 
non-trivial effect on employment.
    Beyond regulation, current labor market policies should be 
reformed. Two important policies in need of reform are the 
Social Security Disability Insurance program and the 
Unemployment Insurance program. Between 1989 and 2009, the 
share of working-age adults receiving SSDI benefits doubled, at 
the same time that workplace safety increased, service sector 
employment increased, and the quality of health care increased. 
A just society makes provision for disabled workers, but it 
seems clear that the structure of SSDI is unnecessarily 
discouraging workforce participation and has become for some 
workers a permanent unemployment program.
    Unemployment insurance could also be reformed to increase 
workforce participation. The long-term unemployed who live in 
local labor markets characterized by high unemployment and low 
employment could be offered financial assistance to move to a 
stronger local labor market. This would likely lead to shorter 
unemployment spells, possibly to fewer Federal expenditures on 
unemployment insurance, and to fewer workers leaving the 
workforce altogether. Other safety net programs should be 
evaluated to see whether pro-work reforms could help 
beneficiaries get back to work.
    Public policy should increase the workforce participation 
rate by increasing the number of highly skilled immigrants 
allowed to live and work legally in the United States. In 
addition to increasing the growth rate of the economy through 
increasing the growth rate of the labor force, immigrants start 
more businesses than native-born workers. New businesses create 
jobs, strengthening the economy. And occasionally we hit the 
jackpot and an immigrant starts a Google.
    Public policy should increase workforce participation 
through increasing the generosity of the earned income tax 
credit (EITC). The EITC is an earnings subsidy. Because it 
supplements earnings, it only goes to households that work. 
Because eligibility is conditioned on household income, the 
subsidy only goes to low-income households. Previous expansions 
of the EITC have been shown to significantly increase the 
workforce participation rates of targeted populations. 
Expanding the EITC again would, I believe, have similar 
employment effects.
    In addition to increasing workforce participation, public 
policy should increase the productivity of the workforce 
through increasing the skills of workers. Work-based learning 
offers a promising path toward increasing skills. Such programs 
combine on-the-job training with classroom learning, often at a 
community college. In the case of apprenticeships, 
participating firms post vacancies and hire an apprentice only 
if the hire makes business sense. In this way, the market is 
determining where workers get trained and the content of on-
the-job training. Having the market determine the content of 
training is much superior to traditional, Government-run 
training programs.
    In addition, international trade allows for specialization 
here at home, which increases productivity. The United States 
should maintain a posture of openness toward trading with other 
nations and should not embrace protectionist policies. The 
Congress has a critical role to play in this effort.
    Finally, I would like to highlight the importance of 
corporate tax reform. It has been encouraging to see some 
progress on that front, and that would certainly help the 
growth rate and should be at the top of the list of policies 
Congress is considering. And I would like to echo the Chairman 
in pointing out the importance of entitlement reform to get the 
debt under control. A growing Federal debt is certainly an 
increase to long-run economic growth.
    Thank you.
    [The prepared statement of Dr. Strain follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Enzi. Thank you, and the vote has started, so we 
will have a recess until 5 minutes after 11:00. Then we will 
resume again. But if you can hurry back, we may be able to 
start quicker than that to hear the other two testimonies. I 
apologize to the witnesses. We do not have control over the 
votes. They sure mess things up. It is like it was something 
important to do.
    [Recess.]
    Chairman Enzi. We will resume the hearing, and now we will 
hear from Dr. Dunkelberg. Thank you for your patience in 
waiting for us to do our vote.

  STATEMENT OF WILLIAM C. DUNKELBERG, PH.D., CHIEF ECONOMIST, 
          NATIONAL FEDERATION OF INDEPENDENT BUSINESS

    Dr. Dunkelberg. Thank you, sir. I appreciate the 
opportunity.
    Just a word about the National Federation of Independent 
Business (NFIB). NFIB is the Nation's leading small business 
representative. We represent our 325,000 member firms in 
Washington and in all 50 States. We do surveys, regular surveys 
and special interest surveys, of a sample of our 325,000 
members to find out what is going on in the part of the economy 
that is not covered by the financial news on TV, but it is a 
very, very important part of that economy. So we have done that 
for 42 years, and I have been fortunate enough to be directing 
those surveys for that long, so I am still alive and well.
    I think that the topic is very good. You talked about the 
budget issue. Well, obviously, to support the budget we need 
revenue, and the revenue comes from the private sector. We, of 
course, all like the Fortune 500. They get a lot of attention. 
But we have to keep in mind that half of the private sector 
jobs are at small businesses. Census says that 90 percent of 
the employer firms in the U.S. have under 20 employees. So 
small business collectively is very big business. There are 28 
million firms of various sizes out there that are basically 
characterized as ``small businesses.'' So when you want to talk 
about revenue and revenue base, these people are very 
important.
    Now, if I could have Slide 1 put up there, if you look at 
the last 10 years, you can see that we have really had a subpar 
recovery. This is the Index of Small Business Optimism. It is 
basically based on 10 questions, forward-looking questions, 
like: Do you plan to hire, make capital expenditures? Do you 
think the economy is going to be better or worse? Those kinds 
of questions. And you can see that we have had a terrible time 
in this recession, much worse than the 1980-82 period. Optimism 
is back. And then you did notice that, starting in November, 
optimism soared, really jumped up. We hope that that will 
continue and that will translate into spending because that, of 
course, will give us GDP growth and employment growth that will 
improve revenues. A healthy economy means healthy revenues for 
the Government, and that is what we would like to see.
    [Slide 1 follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Now, we ought to ask ourselves: Well, why did we get this 
subpar performance from this half of the economy? It did not do 
well at all. Obviously, it dragged down the overall GDP 
numbers. If you think about averaging the big firms with the 
little firms, the little firms were not performing up to par. 
And we asked them why. We said, ``What are the most important 
issues that you have?'' Something we have done every 4 years 
since 1982.
    The top issues were: one, the cost of health care 
insurance; number two, the cost of complying with all the 
regulations that we have; and, number three, taxes on our 
income, which is the only place we get capital to grow. We do 
not issue stock. We cannot go out and borrow. We cannot do any 
of those kinds of things. We have to keep in mind that dollar 
for dollar, every dollar we spend on compliance is a dollar we 
cannot spend on investing in growth of the firm and in 
productivity-enhancing equipment and knowledge and technology. 
And that is not happening.
    So on the taxes side, you know, the profits are the source 
of capital that we have, and the things that really are the 
most bothersome things that make the top 10 list are the 
complexity of the Tax Code--you have got to pay a lot of money 
just to get help to file your taxes. Most of us probably do--
and, of course, frequent changes in the Code.
    So what we forget when we look at all of this regulatory 
stuff is that the most important asset these firms have is the 
time of the entrepreneur, the owner. And the more of that time 
we divert into all this compliance time, the less time they 
have to think about growing the firm and financing the capital 
expenditures that we need to have growth.
    If I could have Slide 2 up there, we all know the growth 
equation. Basically, growth is the function of productivity 
gains and population growth. So population growth is going to 
do what it is going to do. Productivity--that is the issue that 
we have to really worry about, and that is a function of, of 
course, capital expenditures, getting new knowledge, new 
techniques, investing in all these kinds of things which 
improve the output per worker hour, and that is productivity, 
and that is the thing that makes it possible to pay workers 
more, is when they produce more per hour.
    [Slide 2 follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    So if you look at the sentiment we have had, the chart we 
just looked at, we have not been optimistic about where the 
economy is going to go for 10 years. And when you have a 
pessimistic view about the future, you do not bet on the 
future. You are not going to put your money, your own personal 
money down when you are not really sure that the economy will 
support it. As you spend money, invest in growth, you need to 
have customers come and grow, and, of course, that will help 
create jobs.
    So we really need confidence, which we now seem to have, 
and then, of course, we need incentives. And one way to get 
incentives, of course, is to remove disincentives, and the 
regulatory structure that small business owners face not just 
at the Federal level but also State and local are impediments 
to growth.
    So tax reform is certainly one of the things that we would 
like to see. It is very complicated. I do not have to tell you. 
We have all seen the stories about how high the stack is and 
how complicated it is. It costs a lot of money. It would be 
really nice to have a simple Tax Code where we all paid the 
same tax rate, we all knew what it was. Over the 40 years that 
I have been collecting data from NFIB members, we have seen 
them switching their status from self-employed or single 
proprietorship to some kind of an incorporated thing because 
the tax rates were different. And it is just a waste of 
resources for us to be jumping back and forth and changing our 
status, getting an attorney, doing all that. Why? Let us just, 
you know, have a simple Tax Code that we can understand and we 
can all believe in and not waste our money doing--
simplification would be great.
    We would like to see a set of budget priorities that make 
sense to us. You know, you need us to grow, we need to grow, 
and so we need to see a sensible set of budget priorities which 
will improve the regulatory process. We would like to see more 
cost-benefit analysis. That is not done except in a few cases.
    If you look at a small firm out there, they can have half a 
dozen different regulators. None of those regulators is looking 
at what the other regulators are doing. None of them is really 
asking the question: Is this regulation I am going to impose 
going to really be beneficial compared to the cost? Because 
they do not really worry about the costs they impose on the 
firm. And so if you want to get something done, there are two 
ways for the Government to do it. One is to tax us and then use 
the money to get something done. Or they can make us do it, and 
that seems to be a popular strategy.
    So when you talk to our people, a third of them say that 
the cost of compliance is just one of their biggest issues. It 
costs an awful lot of money, and as I pointed out, dollar for 
dollar, every dollar we spend on compliance is a dollar we 
cannot spend on new equipment, on a new truck, on new whatever 
we need to improve worker productivity.
    Half of them worry about the volume of regulations. There 
are so many. They say they spend way too much time, have to 
spend way too much time trying to figure them out. For one in 
five, they said they just really cannot figure out what the 
regulation is requiring them to do and how to comply with it. 
So all this entrepreneurial time is being wasted by really a 
not very effective set of regulatory policies, and we really 
need to straighten that out.
    So when we get a change in the management team, obviously, 
we liked it. You saw the first chart with the index spiking 
from below 95 reading, which is 3 points below the 40-year 
average, to 106 in the last few months--105, 106. We have not 
seen that since 1983 when we came out of the last recession 
that had 10 percent unemployment rates. So this is an 
opportunity for us to get something done. These people are 
ready to go. They have got the energy. They have been kind of 
sitting around for the last 8 years with slow growth. We have 
certainly had a very rough time. We lost, you know, tens of 
thousands of firms in the 2008-09 period, and now, you know, we 
are there, but we need a reason, and if we have it, why, if you 
will give it to us, I think we can really--so we are prepared 
to grow, produce jobs, and produce revenue. We just need to see 
action from Congress to remove the disincentives, give us some 
incentives, and stop using so much of our capital complying 
with regulations of doubtful value in so many cases. So we 
really need to have a hard look at that.
    Government cannot create new jobs, right? Only the private 
sector can do that. The Government can help by getting things 
out of the way. There are certain areas in the economy where we 
do not think the markets work as well as they should and the 
Government has to intervene there. But if Congress will allow 
the private economy to grow, I think we can help you a lot on 
the budgetary issues.
    If I could have my last chart here, this is a result of our 
last 4-year survey. It was done almost a year ago now; it was 
early 2016. You can see those are our top issues. The one 
interesting thing about this chart is that, for the first time 
since 1982, when Paul Volcker was at the top of the list, 
right? Credit availability and so on was the top. This is the 
first time we have seen a real kind of business problem show 
up. In the top 10, finding qualified workers is a real issue. 
That is not something I think the Government should be dealing 
with. It just is something they told us was their major 
concern. But we are happy to have you address these issues, and 
then we will get busy and help you get the revenue you need to 
get the budget done.
    [Slide 3 follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    [The prepared statement of Dr. Dunkelberg follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Enzi. Thank you.
    Dr. Sachs.

STATEMENT OF JEFFREY D. SACHS, PH.D., UNIVERSITY PROFESSOR, AND 
    DIRECTOR, CENTER FOR SUSTAINABLE DEVELOPMENT, COLUMBIA 
                           UNIVERSITY

    Dr. Sachs. Mr. Chair, thank you very much, and Senators, it 
is a great honor and privilege for me to be here. And I want to 
say that the decisions before our country on the budget are 
probably the most significant in at least a generation, if not 
more. We are in a very precarious situation as a Nation, and 
the budget being out of alignment with our national needs is a 
very, very important part of this reality.
    We are in the midst of very deep structural change, and we 
have not addressed that in our country as a society or 
politically in an appropriate way. Our country has become two 
countries, and I am sure that you know that among your 
constituents.
    If you have a bachelor's degree or better, you are doing 
well in this country. In fact, incomes at the very top are 
soaring. The restaurants are packed. The entertainment is 
booming. If you have a high school degree or less, you are 
suffering, if not literally dying in this country. We alone of 
the high-income countries have soaring mortality of white, non-
Hispanic population, middle-aged, opioid epidemics, suicide, 
depression, falling wages, lack of attachment to the labor 
force. And every one of your constituents, constituencies, 
every State, every congressional district, has this divide. And 
the divide is widening.
    And there are deep reasons for that. I had a look, Mr. 
Chair, at your State, our national producer of coal. Coal 
production more than doubled from the 1980s until today, but 
the employment in the coal sector fell to one-sixth of what it 
was because you had the biggest automated machines, the 
highest-tech mining imaginable. There are no jobs in that 
industry. Very, very few, about 6,000 left in your State, I 
believe, and nationwide a tiny number, because basically we 
have gone to autonomous mining, autonomous vehicles, autonomous 
driving in the mine sites. And the remaining jobs are going to 
disappear as well.
    Whoever owns that stuff might be doing very well, so the 
stock markets are booming, profits are high. The number of 
billionaires we are creating is beyond imagining. I live in 
their neighborhood. I see what it means in Manhattan. It has 
never been better.
    But if you just look a little bit farther along, we have a 
disaster brewing at the bottom half of our country, and it is 
showing up--can you imagine America with rising mortality rates 
of middle-aged Americans, with a suicide epidemic in this 
country? We never have seen anything like this in a century.
    Now, the other problem we have is that our public debt is 
soaring because, in my view, both parties have been 
irresponsible in managing the public sector for 40 years. Both 
parties have been addicted to tax cuts, and the only argument 
is tax cuts for who? Maybe on the Republican side it is for 
companies or for high tax brackets. On the Democratic side, it 
is for working-class Americans. But nobody wants to pay taxes. 
Of course not. But how can you run a Government without 
revenues?
    And so just in the last decade, the public debt as a share 
of GDP doubled--unbelievable--from about 37 percent of GDP to 
75 percent now. It will be 77 percent before the end of this 
year. And if you look at the CBO baseline, which I think is as 
good as any, we are on our way to 140 percent of GDP on our 
current baseline because we are getting older, because of 
health care costs, because we have burdens. And then we have 
proposals for more tax cuts. I cannot think of anything less 
timely, more weird, except for the greed of the top--the 
richest people in this country. I do not know what they want to 
do with their extra billions, but absolutely from a public debt 
point of view, this would destroy our budget. And so this is 
why this is such an absolutely fundamental crossroads for us.
    Let me say just very briefly a couple of points.
    Tax cuts are not useful when they open up big budget 
deficits, reducing national saving rates, and basically burden 
the future generations. So it is an attack on young people if 
these proposals go through. It is just a war on the young who 
are going to have a hard enough time finding jobs in this 
automated economy.
    Second, please let us get out of our minds the typical, 
what used to be true--I used to teach it at Harvard for 20 
years--that growth and job creation is the same thing. It is no 
longer the case. Smart machines, artificial intelligence, 
robotics mean that growth and jobs have been separated. We can 
have growth that is absolutely job-destroying now, and we are 
seeing a lot of it. So the idea that growth means jobs means 
income of your constituents, it is no longer an automatic 
linkage. And that is why the share of labor and national income 
is plummeting right now, and the share of income to the wealth 
holders is soaring right now, because this is a deep, 
technological transformation that we are living through right 
now.
    The third point I want to emphasize is the difference of 
jobs and decent jobs. You can always create jobs if people are 
working at basically unlivable incomes, have no benefits, 
cannot cover any of their basic needs. Sure, you can find a job 
if the difference of that is starvation. Jobs will be created. 
Markets are wonderful. They will pay workers almost nothing, 
and people will struggle. But what we want is decent jobs. And 
for decent jobs, you need decent skills and you need decent 
benefits. And in our country, we make a mistake that no other 
country makes. We tell the small businesses, ``You have to 
provide the health coverage.'' In every other high-income 
country, the government finances the health coverage by taxing 
people who can afford it, and then the small businesses do not 
have to cover the health costs. That is how every normal 
country does it except for ours. And so we put this very heavy 
burden, and we think that jobs is the point, but what we are 
after is decent jobs.
    And a final point I want to make is regulation. You know, 
there is regulation and there is regulation. And the idea that 
deregulation unleashes something, well, deregulation often 
unleashes monsters, like when we repealed Glass-Steagall. It 
unleashed Citigroup. That was a monster for our economy 10 
years later because it was a creation that never should have 
been there. It was a gift to a few powerful constituents, and 
it ended up creating the calamity of our time.
    So I do not personally like to think of regulation as a 
category so broad that it is good or bad. It is a matter of 
content, and the financial deregulation was a disaster at the 
end of the 1990s. We know the history of it so thoroughly 
because we have examined every nook and cranny of it since the 
2008 financial crisis. We should not think of deregulation as 
some job spur, as a gimmicky slogan. We should think about what 
rules do we want to have a decent society, one that is creating 
safety for people and livable incomes and decent opportunities.
    To conclude, if I may, Mr. Chair, tax cuts and anything 
that gives up net revenues right now is marching our country in 
a disastrous direction. It is so untimely, it is unbelievable. 
We do not have the revenues we need to run the Government as it 
is right now. We do not have the revenues we need to run a 
decent country as it is right now. And to give it up on some 
slogan that we are going to get growth out of it is a nightmare 
in my mind. It has no economic merit, it will create nothing 
good for our country, and it will basically tell young people, 
``There is no hope for you.''
    Thank you.
    [The prepared statement of Dr. Sachs follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Enzi. Thank you. I thank all of you for your 
testimony.
    We will begin with the questions now. I think everybody 
understands the order that we go in with the questions, making 
one slight change, and that is, I am going to relinquish my 
time to Senator Johnson, who I know has another committee that 
he needs to be at.
    Senator Johnson. Thank you, Mr. Chairman.
    I was in manufacturing for 30-some years, and certainly 
what I found out, what I needed to grow my business and create 
really good, high-paying jobs was I needed labor and I needed 
capital. And so I think Government policies, I mean, to make it 
simple, we ought to do everything we can to make sure we have 
enough labor, and I am actually going to talk about a guest 
worker program governed by the States to make sure we have the 
labor in the States in the right industries. And we have to 
have capital. Two things that obviously affect our stock of 
capital are overregulation and overtaxation.
    But I want to use two analogies, a little bit talking to 
Dr. Sachs' point. Would anybody argue that America would be 
better off if we had the same composition of our workforce as 
100 years ago where so much of American labor was directed 
toward growing food? Because of capital, because of 
productivity gains, machinery, we have a much smaller share of 
Americans producing the food that feeds the world. That is a 
good thing. The same thing is happening in manufacturing today.
    The other analogy or the other anecdote was Milton Friedman 
visiting China, when he saw, you know, people digging a ditch 
with shovels. Why aren't they using equipment? Well, it is a 
jobs program. Well, then give them spoons.
    So I want to talk about, first of all, taxation. Dr. Sachs, 
I agree with you. I am highly concerned about the deficit. I 
think that is very harmful in terms of economic growth. If you 
are a family and you are in debt over your head, you cannot 
grow your economy. You are paying for the basics and then 
servicing your debt. Well, the same thing is true on a national 
basis.
    I just gave a short summary to Senator Wyden about my 
corporate tax reform, which would tax corporate income at the 
ownership level. You know, Dr. Dunkelberg, 81 percent of 
American businesses are pass-through entities. It would be a 
true Warren Buffett tax, by the way. It would eliminate double 
taxation of dividends. It would allow more efficient allocation 
of capital. I do believe there is some growth-oriented aspects 
to it; 100 percent expensing, I want to talk a little bit about 
that, to get the different opinions on that. It could be 
revenue neutral based on the economic activity it provides. So 
I am hoping Senator Wyden--I have given that to an awful lot of 
my fellow Senators--will take a look at that as one method of--
and here is what we ought to be talking about, instead of tax 
reform, tax simplification and tax rationalization, because I 
am highly concerned about the deficits.
    There is a debate whether 100 percent expensing is really 
pro-growth or would we be better off lowering tax rates, you 
know, if we are going to see a static score that is going to 
lose revenue but we are going to hope to regain that revenue 
through economic growth.
    I just want to ask the panel: What is better, 100 percent 
expensing so that manufacturers, if they are encouraged to 
invest in equipment, have that capital and can grow their 
business, or is cutting tax rates better? I will start with 
you, Dr. Strain.
    Dr. Strain. Well, thank you, Senator. I think the devil is 
in the details on a lot of these things. I think expensing is a 
good idea. It is certainly worth discussion and worth further 
consideration. It creates some issues. You know, what happens 
if you purchase capital equipment that is well in excess of 
what your tax revenues are? You know, are we comfortable with 
refunds and things of that nature? But I think moving the tax 
system away from a tax system that taxes savings, that taxes 
investment, that taxes income, and toward a tax system that 
taxes consumption is good public policy. I think it will make 
the economy bigger. I think that along the path to that bigger 
economy we will have increased economic growth.
    How that stacks up against tax rate reductions I think 
depends a lot on how the tax rate reductions are financed. It 
depends a lot on how large the tax rate reductions are. You 
know, on the corporate side, I think we should be looking at 
lower tax rates. I think our corporate tax rate is----
    Senator Johnson. We are just simply uncompetitive. I mean, 
if you benchmark--I am running out of time. I did want to get 
to the kind of labor part of this. And, Dr. Dunkelberg, I am 
interested in your latest survey that says locating qualified 
employees is now for the first time since 1982 in the top 10 
concerns. Not one manufacturing company I have visited in 
Wisconsin in 6 years can hire enough people. I would fault two 
things. We tell all of our kids, ``You have got to get a 4-year 
degree,'' which implies, oh, factory work, that is not good 
enough for my kid, as well as we pay people not to work. There 
is an extremely good article written by Nick Eberstadt in 
Commentary magazine going through this dramatic, drastic 
reduction in labor force participation rate, talking about, for 
example, our Government policies that pay people not to work. I 
would recommend everybody read it.
    But can you just talk about how that is a really big 
problem, severe problem for especially small businesses? It is 
not that we do not have enough jobs for people. We do not have 
enough workers.
    Dr. Dunkelberg. That is right. Just a quick comment on 
expensing. You know, if we do not get rid of the concept of 
depreciation, then really, you know, over time I either can 
write off 100 percent of my capital asset now and really lower 
my taxes, right, if I expense it, or I spread it over some 
period of time. But if you think about----
    Senator Johnson. It is just a timing difference.
    Dr. Dunkelberg. Yeah, I mean, it is really--expensing is 
simpler. Let us go for that.
    Senator Johnson. I like that.
    Dr. Dunkelberg. Because we really like that idea. 
Expensing, we do not have to do the bookkeeping and accountants 
do not have to do it.
    On the employment side, if you look now at the detail in 
our survey, you know, the highest percentage of our firms are 
complaining about not finding qualified workers is in 
construction. Then, of course, the number two group is 
manufacturing, no surprise, and then professional services and 
then on down the list.
    We asked a couple years ago--we did a special survey and 
said, ``Well, what makes people unqualified?'' And, of course, 
about 50 percent said typically it is you do not have the right 
skill set. That makes sense. But what was astounding to us is 
about 20 percent said lack of social skills, poor appearance, 
unreasonable wage expectations, you know, take a bath. All 
kinds of stuff that these people could fix if they wanted to 
and did not have some other way to support themselves, they 
could fix and get a job. A lot of these people apparently are 
looking for a job because they have to to qualify for, you 
know, the other kinds of support that they are getting.
    So, you know, when we are paying people not to work, make 
it comfortable enough for a person that does not have a lot of 
ambition to work, that is the problem. So you do not have to 
have a college degree to make a lot of money. The last 2 weeks 
reminded me, my electrician makes a ton of money, and my 
mechanic makes a ton of money. I mean, there are so many jobs, 
and we have made a mistake of--you know, the baby boomers, we 
probably did it--saying go to college, take anything you want, 
get a degree, and you will be happy. Well, not a lot of jobs 
for art history majors at the undergraduate level out there. So 
we really need to focus on that.
    In terms of attracting people and solving this problem, we 
are doing it the best way we can. We have record numbers who 
are raising worker comps, so the way the market solves that 
problem is try to offer more money to get you to come. But, of 
course, there are all kinds of other complicating issues, 
including are you where the jobs are and so on, that are 
slowing that down. So we have lots of openings. We would love 
to hire people, and we are going to figure out how to do it.
    Senator Johnson. Thank you.
    Thank you, Mr. Chairman.
    Chairman Enzi. Time has expired. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    First, a question for you, Dr. Sachs, with respect to this 
tax proposal, because there is much that troubles me about this 
Republican proposal that came out last week. But I am 
particularly concerned about one feature of the proposal, and I 
want to kind of walk you through it because it strikes me as a 
prescription for more inequality in America, and I want to get 
your reaction.
    Right now, the mom-and-pop small business that operates 
locally pays taxes as an individual. That is how it works for 
them. It is called ``tax pass-through.'' The new Republican tax 
proposal creates a giant loophole for the super wealthy to 
abuse pass-through policy so, in effect, they can avoid paying 
their fair share of taxes as well as shortchanging Social 
Security and Medicare. The way this works is that they can, in 
effect, recharacterize their salary income as investment income 
that gives them a lower rate than lots of working people would 
have, and at the same time lets them skip out on their fair 
share of contributions with respect to Social Security and 
Medicare.
    I would be interested in your reaction because my take--and 
I have gone through this now several times as the Ranking 
Democrat on the Finance Committee--is this really is a 
prescription for more inequality in America.
    Dr. Sachs. Everything we know, Senator, about the scoring 
of these proposals is that, though we have not seen all the 
details of the White House proposals, what we have seen and 
what, I would say, the consensus view is that the overwhelming 
benefits would go to the top of the income distribution at a 
time when we have more income inequality than at any time in 
our modern history. So the specific provisions you mentioned, 
the kinds of loopholes that are hidden in these proposals, but 
the whole point of deep cuts of the corporate tax rate and the 
personal tax rates by themselves would overwhelmingly accrue to 
people who have done very well at a time when most Americans 
are facing income stagnation or decline.
    I think the discussion we just had about jobs is very 
anecdotal but not correct, and this is important to understand. 
High school graduates in this country have had falling real 
incomes now for more than 30 years. That is the overwhelming--
you can find maybe your plumber is doing better, but if your 
advice is do not worry about that college degree, there are 
plenty of jobs out there, this is absolutely false. We have a 
divide in this country that is serious, real, and unaddressed. 
And the way we have handled it is today it was reported that 70 
percent of our kids from high school are going on to college, 
which is a record, which is great. But a large proportion of 
those will fail because they will end up with student debt, 
crushing debt, and they will not be able to continue, and they 
are not finishing their 4-year degrees.
    And so we have created a mountain of $1.2 trillion of debt 
on young people who do not finish the degree, cannot find a 
decent job, and end up getting crushed for decades. This is not 
the right advice, with all respect.
    Senator Wyden. Let me see if I can get another question 
that builds on your comment, Dr. Sachs, for you and your 
colleagues. So Senator Johnson said that people he meets--and 
there is a study I guess he is citing that people do not want 
to work because somehow they are being paid not to work. I can 
tell you, in my State people overwhelmingly want to work, and 
the big challenge--and I think it relates to something I have 
talked to NFIB about--involves workforce issues and 
particularly technology and automation. Those are the driving 
factors in this workforce challenge. When we go out and meet 
employers and they say, ``I have got to have workers,'' and the 
workforce needs have changed dramatically because of technology 
and automation.
    So why don't any of you who has a fresh idea in terms of 
how we ought to tackle this, because we are looking at this on 
the Finance Committee and, obviously, here in the Budget 
Committee, we are really open for fresh ideas because that is 
the intersection, workforce and technology, for people to 
really go up the path to get a high-skill highways job. Anybody 
have a fresh idea?
    Dr. Sachs. If I could just quickly come in, Senator, our 
manufacturing output is rising in this country. We have a 
strong manufacturing base, and employment has declined from 19 
million to 12 million. Those jobs are not coming back because 
we have a productivity soaring through--especially now through 
automation and artificial intelligence. And the kind of jobs 
that are being created in that sector are skilled jobs, highly 
skilled jobs. But if you have a high school degree, you will 
not find decent work except if you are extremely lucky. And we 
will have two countries, which is what we have right now, and 
we need to help kids complete their education because we are 
the only country that piles on $1 trillion of debt on the back 
of our young people rather than paying for the tuition. That is 
the first point.
    And, second, we need to take on through the budget burdens 
like job training or like health care that are now on our 
companies that cannot afford them, and so we need absolutely a 
budget that is able to pay for that. We are going in exactly 
the opposite direction.
    Senator Wyden. Let your colleagues take a crack at it. A 
fresh idea with respect to technology and automation, the 
driving factors in the workforce.
    Dr. Dunkelberg. Well, you pointed out that the big issue is 
kids coming out of the high school. Other countries do have 
different plans to get kids trained in the kinds of things that 
we need.
    I remember when I became dean of the business school at 
Temple. We did not have any computers, and we really should 
have had, so we had to do computer labs and so on. And then I 
said to the faculty, ``You have to use computers in the 
curriculum,'' and they were, like, shocked. But, anyway, they 
did not know how because they were all older people who did 
not--you know, had not been brought up--so one of the problems 
we have in the high schools, we are finding that doing 
financial education as well, and nobody can teach it. But also 
on the technology side, it is really hard to get that switched 
over because the people there need to be trained. You know, the 
students are trainable. They are there. But the people in the 
schools resist this kind of thing. They do not want to change. 
They do not want to do it because that is hard. So we really--I 
do not have a fresh idea how to make them do it. I gave my 
staff a free computer if they would do it. You know, that is a 
budget problem I had to deal with.
    So we have to give them the incentive to change what they 
are doing, because they can.
    Senator Wyden. The Chair was gracious enough; because of 
the importance of this question I will not talk, Dr. 
Dunkelberg.
    Dr. Strain. Senator, I certainly think it is a very 
important question. You know, right now we have basically two 
tracks for young people who are in high school. You can 
graduate high school and go to college, or you can graduate 
high school and enter the workforce. We need a third option, 
which is to graduate high school and to get some training and 
build some skills beyond what are taught in high schools but 
that do not involve a traditional 4-year college experience 
where you spend time as an art history major or doing whatever 
else.
    Other countries are able to do this. If you look at 
Germany, for example, they are very successful with 
apprenticeship programs. If you look at Great Britain, they are 
very successful with apprenticeship programs. I talk a little 
about this in my testimony, in the written testimony, for a 
paragraph or two. Work-based learning as a postsecondary option 
that builds credentials, that involves classroom time, but that 
also involves on-the-job training to get people into 
occupations that are skilled--not as skilled as being a brain 
surgeon, but more skilled than being a cashier--that I think is 
of critical importance.
    Senator Wyden. Many thanks. Thank you, Mr. Chairman.
    Chairman Enzi. Thank you.
    Senator Perdue.
    Senator Perdue. Thank you, Mr. Chairman, and thank you, 
guys, for being here.
    I am really confused. I think the evidence is there that 
the connection between bigger Government and more equality has 
been disproven not just here in the United States, but in other 
mature Western economies, over time, not just in the last 
decade, over the last 100 years. I would argue that the Great 
Society was our attempt at a bigger Government solution to 
something we all wanted to solve, and that is poverty. And yet 
the poverty rate today is exactly the same as it was in the 
1960s.
    So I am really confused at the debate here about whether 
growth is good or bad. The connection between growth, job 
creation, and income is a precept that I personally subscribe 
to.
    Now, I recognize that when you are coming from the ag 
industry to an Industrial Age to an Information Age--and the 
cycle of that change is much more rapid today than either of 
those other two changes, but I have a hard time believing that 
making a buggy whip survivor--or a company survive because it 
has X number of jobs today and if we bring in an automobile 
manufacturer and that is going to create fewer buggy whip 
makers, I do not get that logic in terms of solving the growth 
problem. And the reason you want growth is to keep people 
working, let people have a viable way to provide for themselves 
inside our Government. But let me--or inside our economy. But 
let me highlight a couple concerns I have.
    This Federal Government has grown from $2.4 trillion to 
$3.9 trillion under the last two Presidents--one Republican, 
one Democrat. And yet we have got nothing to show for it 
basically except a burnt-up military after two wars we 
perpetrated and a dead economy right now.
    The last 8 years we have generated a recovery that is the 
worst in 70 years. We have allowed 4 million women to fall into 
poverty. This is not a formula for success in my mind, and both 
parties are guilty.
    But I want to talk about the debt, and this is the question 
I am getting to. I argue that it is $20 trillion. I actually 
believe that we actually do owe that money to Social Security 
and Medicare. So when you guys talk about it being 70 percent 
of GDP and, you know, $14 trillion, that is wrong, in my 
opinion. The total debt is approaching $20 trillion. I have a 
debt clock in my office, and it is going to turn any day now to 
$20 trillion. And we know right now that over the next decade 
the baseline budget we have that both Democrats and Republicans 
have authored will add another $10 trillion to that debt.
    We have heard people tell us that we cannot tax our way to 
solve that. We have heard people in this room tell us we cannot 
cut our way to solve that. And we have also now heard people 
tell us that we cannot grow our way out of here.
    My question to all three of you, very quickly, is: What are 
the three things that you would do with regard to this debt 
crisis as it relates to growth and the well-being of our 
citizens to, within that, help solve this debt crisis? Which, 
by the way, all of our discretionary money today is borrowed, 
by definition, because of the size of our mandatory side of the 
equation. So just be very brief. I have got about 2 minutes 
left. I dedicate the rest of it to you guys.
    Dr. Strain. Yeah, thank you, Senator, and I agree with you 
about the importance of the debt.
    The first thing I would do is get our entitlement programs 
under control, Social Security and Medicare, middle-class 
entitlement programs.
    The second thing I would do is try to reform our health 
care system in such a way that there is downward pressure on 
costs. And if you look at what is driving increases in the 
debt, those really are the two main factors.
    Dr. Dunkelberg. Well, I think the best measure of the 
burden of Government, you know, the tax burden is really the 
Government budget plus all the regulatory stuff that we do not 
measure very well. I mean, I think you have to ask yourself, 
isn't Government really too big and doing the wrong things? And 
so we really are going to depend on you to ask those questions 
and get answers from us and streamline what the Government is 
doing. It is wasting a lot of resources.
    Senator Perdue. So the model right now, we are about a 
little less than 18 percent of our GDP as the Federal 
Government. You know, European nations went as high as--some 30 
percent, some a little higher than that. Is the argument today 
that we are at 18 percent, do we need to be at 25 percent? I 
mean, what is the question? How big is Government going to be? 
And then how is it going to spend the money? And every dollar 
that the Government spends is a dollar that is sucked out of 
this equation that created this economic miracle in the last 70 
years, in my opinion, is innovation, capital formation, and the 
rule of law. So that is the question that I have.
    Dr. Sachs, do you have a comment?
    Dr. Sachs. First, Senator, nobody should talk about trying 
to protect the buggy whip industry. The point I am making is a 
different one, which is that the nature of economic growth 
which expands the pie is also slicing it in a different way 
now. So you can have growth, but you are not getting good jobs 
alongside it.
    Senator Perdue. Great, but isn't that the transition we are 
talking about coming out of an Industrial Age into an 
Information Age?
    Dr. Sachs. Not quite. It is the difference of machines that 
can do the job of what----
    Senator Perdue. So are you saying that we should stop 
technological development and innovation?
    Dr. Sachs. No. No, no, no. What I am saying is that when 
you have a bigger pie and some are losers of it, you should 
redistribute.
    Senator Perdue. And how would you redistribute?
    Dr. Sachs. First, I would make sure that all our kids can 
get the education they need without the student debt of $1.2 
trillion.
    Senator Perdue. You know, I worked my way through college. 
I have to tell you, I am offended by that argument personally. 
And I have a lot of good friends who worked their way through 
college.
    Dr. Sachs. What was the tuition you paid at that point, 
Senator?
    Senator Perdue. In current dollars?
    Dr. Sachs. Yes.
    Senator Perdue. About exactly the same at that institution 
as it is today.
    Dr. Sachs. That surprises me, because the real cost of 
tuition----
    Senator Perdue. In constant dollars.
    Dr. Sachs [continuing]. Has soared.
    Senator Perdue. In constant dollars.
    Dr. Sachs. Tuition has soared.
    Senator Perdue. Agreed. So have wages.
    Dr. Sachs. No. No, wages have been stagnant. If you are a 
high school grad----
    Senator Perdue. Over that long period of time----
    Dr. Sachs [continuing]. Wages have been stagnant for 35 
years.
    Senator Perdue. I was not a high school grad. I had college 
education.
    Dr. Sachs. For 35 years now. But on your question, so if we 
have our mega wealth earners, if we have the Googles and the 
Microsofts and the Apples and the Amazons putting all their 
profits in the Cayman Islands and Bermuda, where they do right 
now, or in Ireland, so they do not pay their taxes, so the 
bigger pie has escaped taxation, which is exactly what has 
happened. And I can tell every one of those companies what they 
have----
    Senator Perdue. I would like to have a longer--I am out of 
time, but I would like to have a longer discussion about the 
corporate tax rate.
    Dr. Sachs. Then we cannot fund our Government. But you ask 
a very good question, Senator, which is: What tax should we 
have? We are the lowest-taxed country, measuring tax as a share 
of GDP, of any high-income country.
    Now, I spent a lot of time in Germany, in the Netherlands, 
in Sweden, in Denmark. The average person there is living 
better than the average person in the United States. They have 
vacation time. They have guaranteed health care. They have free 
tuition. They have 6 weeks off in their summer vacations, paid 
leave, because they are taking care of themselves; whereas, we 
are letting the bottom half of our country fall to pieces in 
opioid epidemics and in suicide and in depression and in 
falling real incomes, because no one is taking care of them, 
all the benefits are going to the top. We need to tax some of 
that income so that we can share it with all of Americans and 
help people get the help that they need to be able to survive 
this transition.
    Senator Perdue. Thank you. I am out of time, but I do want 
to make one comment real quick, and that is, if the Government 
has done such a great job, then why isn't the VA doing a better 
job? And look at what we have done with regard to how we spend 
the money solving the poverty issue. That is all. Thank you.
    Chairman Enzi. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman. Thanks to the 
witnesses.
    You know, I think everybody on this committee, anybody in 
the Senate, believes economic growth is very important. If I 
could sort of summarize, you do have two sort of different 
theories. The Republican position tends to be that you get 
growth by less taxes, less regulation. The Democratic position 
tends to be that you get growth through better skills, better 
jobs, and better wages.
    Now, we do not, as Democrats, say taxes and regulation are 
irrelevant, and I am not saying the Republicans say skilled 
jobs and wages are irrelevant. But we just have a fundamentally 
different view about the way to promote economic growth. If it 
was less taxes, less regulation, we would not have had the big 
bust in 2008. We had a big bust after deregulating and less 
taxes, the worst since the 1930s. Deregulation did not help us. 
Deregulation hurt us.
    There is good agreement on this panel. You have agreed--two 
of you have agreed that the earned income tax credit is good 
for promoting labor force participation in your written 
testimony. I think you all agree that innovation and 
creativity, we should do things that promote that. That is such 
a strength. You all agree that we in Congress ought to do a 
better job of debt management. You all agree on career and 
technical education. So there is some uniformity there.
    I want to talk about something that this committee hates. I 
am like Johnny One Note in this committee. I grew up in a small 
business household, helped run a small business. I was a mayor, 
I was a Governor. I think a huge drag is uncertainty.
    Could you put up Dr. Dunkelberg's list? Here are the 10 
things that businesses are concerned about in 2016, small 
businesses. Number four is uncertainty over economic 
conditions, 25 percent. Number six is uncertainty over 
Government action, 26 percent. That is 50 percent uncertainty.
    But if you look at the others, cost of health insurance, 
what is the premium going to do next year? It is not just the 
cost. It is the volatility of the cost. Look at number two, 
unreasonable Government regulations, regulations that are being 
written, are they going to come out or aren't they? There is an 
uncertainty factor there.
    Number three, Federal taxes on business income. We have 
been talking up here for years are we going to do tax reform or 
not. People do not know what tax policy will be.
    Number five, tax complexity. Complexity generates 
uncertainty.
    Number seven, frequent changes in Federal tax laws and 
rules. The first seven all have an uncertainty element to it.
    Should Congress try to give as much certainty about policy 
as we can if we want to have strong economic growth? Does 
anybody disagree with me on that proposition?
    Dr. Dunkelberg. I will jump in and just say yes. I mean, 
again, the time of the owner of this small firm, all 25, 28 
million of them, you know, needs to be not spent figuring out 
what the tax changes are going to be, not waiting until 
December to find out whether we can expense or not, et cetera, 
et cetera. None of that. That is bad stuff. It wastes our time, 
wastes our valuable resources. And they would be devoted to 
much more productive use.
    Senator Kaine. And do you generally agree, Dr. Sachs and 
Dr. Strain?
    Dr. Strain. Yeah, I----
    Senator Kaine. We should reduce uncertainty if at all 
possible?
    Dr. Sachs. The biggest uncertainty we have right now is we 
have no fiscal framework for the next 15 to 20 years. We do not 
have a vision that the debt is going to remain under control. 
In fact, if the President had his way, we would destroy the 
budget for a generation to come. And so there is such basic 
uncertainty right now that nobody can plan.
    Senator Kaine. Dr. Strain?
    Dr. Strain. In a one-word answer, yes, I think Congress 
should do much more to create an environment of certainty. I 
agree that a fiscal framework is part of the issue. I think 
that businesses had a lot of uncertainty about the Affordable 
Care Act and what shape----
    Senator Kaine. Especially this week.
    Dr. Strain. Sure. And that uncertainty has continued in the 
new administration and was present in the previous 
administration, and it just makes it hard to plan.
    Senator Kaine. I support a number of the budget process 
reforms that the Chair is promoting. He is promotion the notion 
of 2-year budgets. States and cities do it. I think that would 
be great. I think we ought to do a calendar year budget instead 
of doing an October 1 budget, and when we do budgets, it is 
always in December, so, you know, build the sidewalk on the 
place where people are walking. You know, we are doing budgets 
when we do them in December. Why not more certainty?
    But here is my last point. Yesterday morning the President 
tweeted this out: ``Our country needs a good shutdown in 
September to fix the mess.'' I mean, a good shutdown. This is 
the CEO, this is the Commander-in-Chief. This is the Chief 
Executive of the Article II branch of the greatest Government 
in the history of the Earth. Is there one good thing a shutdown 
would do to promote certainty in this economy? We lived through 
a shutdown in 2013. It was a 13-day shutdown. And I could go 
small business after small business that were near the 
Shenandoah National Park during leaf season, and then the park 
closed down, and they lost their best season of the year. Or 
contractors or others who had contracts, and now they did not 
know whether they could meet them, or people who were getting 
furloughed from their jobs, 170,000 Federal employees in 
Virginia, many getting furloughed from their jobs.
    A shutdown is the worst thing we could do to this country, 
and I cannot imagine why a President is promoting a shutdown. 
You are saying here what I believe to be true and what any 
reasonable economist would say. We should be in the certainty 
improvement business, not in the uncertainty wrecking ball 
business. And I will just close with that comment. Nobody 
should be using a shutdown as a good thing for this country, 
especially the Commander-in-Chief.
    Thank you, Mr. Chair.
    Chairman Enzi. Thank you for being the closest to 
maintaining your time.
    [Laughter.]
    Chairman Enzi. Senator Boozman.
    Senator Boozman. I will try and do the same thing. Thank 
you, Mr. Chairman. And thank you all for being here. I think 
this is really a very, very good discussion.
    I want to ask about community banks for you to comment on 
that because I think that is a huge problem in much of America. 
But the one thing about education is I think when I went 
through, probably the State paid for 70 percent, I probably 
paid for 30 percent. We have reversed that now. You know, the 
student is paying for 70 percent, the State is paying for 30 
percent. And the way that we have allowed that to go on to make 
it work is by giving them loans. They cannot be refused. There 
is no counseling at all regarding that. And it truly is 
financial malpractice.
    The other problem is that we have not done anything to 
really look at what is feeding the inflation in higher 
education. What is the frustrating thing for us here, I think, 
is you push more money to the States, invariably, to higher 
education or whatever, you do not get ahead because the State 
then--because they are all broke. Most of them have balanced 
budget amendments. All that is going to prison, it is going to 
K-12, and their Medicaid budget. So it is something that we 
need to look at.
    I agree totally, you know, that education is the answer. I 
do not know what you do as an unskilled laborer these days, or 
not so much now but looking at 10 years ago. And the one thing 
I do do that I think is so important--I used to be on the 
school board, and I tell these school board members, ``You need 
to go to a factory now, and the first thing you do when you are 
there is you wonder where everybody is at,'' you know, because 
you have got these big places, and then the skill set that it 
takes to run the equipment and fix it. So often people in those 
positions are my age, a little bit younger, whatever, a little 
older. They look back at a factory how it was 10 years ago. So 
I think education in that regard to our educators is a key 
component.
    I want to ask you, though, about the community banks. I am 
out and about as much as anybody. I agree totally, you know, as 
far as regulating the big entities. But a lot of that 
regulatory atmosphere really has come down on our community 
banks. I hear stories about the regulators come in and they 
literally have to get card tables out because there are more 
regulators there than there are employees in the bank.
    My brother was an ophthalmologist. I am an optometrist. We 
started a little practice. It grew to where we had 75 
employees. I do not think now if we went down to get that 
loan--we had an education, but that was all. I do not think we 
would be able to check the boxes to get that business, which 
became--you know, those were good-paying jobs. We could not 
have gotten that started.
    So can you comment about that? Why don't we start with you, 
Dr. Sachs, if that is okay?
    Dr. Sachs. Senator, I am not really an expert on community 
banks, but I do want to agree with you on----
    Senator Boozman. But one of the things----
    Dr. Sachs. But may I just say one word about----
    Senator Boozman. No, but let me just finish my thought in 
the sense that--because my thoughts just kind of come. What we 
are trying to do is take the risk out of capitalism, and you 
just cannot do that. Now, you can diminish it some when 
appropriate, but go ahead, sir.
    Dr. Sachs. I was going to come back to your financing of 
college because I think you put your finger on it exactly. We 
are imposing a burden for exactly the skills that are needed 
that cannot be sustained. And you are also right that costs of 
higher education could come down because technology now permits 
us to do things better, more cheaply. So you could combine more 
financing with ceilings on tuition, and that is the direction 
we should go.
    Same with health care, by the way. Our biggest problem with 
health care in this country is that we empower monopolies all 
over the place--our drug companies, our local providers--so 
that the costs of health care in this country are at least $1 
trillion a year more than you would pay for exactly the same 
services in any other country. In other words, we have put 
about 5 to 6 percent of GDP extra because we allow a company to 
charge $1,000 for a pill that costs $1 to make, and we call it 
a ``market'' when there is no market. They have a patent for 20 
years, exclusive monopoly. And then we say we do not negotiate 
with them because that is about R&D. Well, this is a little bit 
of an aside. If you want to save money, save it through putting 
price controls on the health system. We are out of control. We 
tell these monopolists, ``Charge anything you want.'' We do not 
say a word.
    Senator Boozman. Talk to me about community banks real 
quick, guys, or the Chairman is going to yell at me. Actually, 
he going to gavel me.
    Dr. Dunkelberg. Let me talk briefly. First, I would point 
out that, you know, I used to be able to earn my tuition and 
some extra money with a summer job, which is an impossible 
thing. Having been the dean of a business school and been in 
this business for a long time--maybe Jeff would agree with me--
professors are either overpaid or underworked, in general. I do 
not know where all that is coming from. And we are also turning 
our campuses into amusement parks with lazy rivers and climbing 
walls and all kinds of wonderful things that are really 
expensive, and that is--anyway, okay.
    So now I will put on my hat. I am chairman of the board of 
Liberty Bell Bank. We started about 11 years ago. We have now 
been making money for a couple years. We are happy we got 
through the bad thing. We have three branches and 40 employees, 
and we serve basically small businesses. You know, your story 
about the regulators coming in, the amount of time we spend. I 
mean, almost all of our board meeting time is spent putting 
things into the minutes to show the regulators that we talked 
about this or that.
    All of our staff hiring over the past couple years has been 
to hire more people to check that all the boxes and the 
mortgage applications were done right, et cetera, et cetera. 
There is no value added here to the consumer, but our costs 
just keep going up. So you see the small banks are disappearing 
because we cannot support that overhead. So we are operating 
under a set of regulations designed for a Citigroup, and we are 
not Citigroup. There are 6,000 of us out there doing community 
stuff, and it is going to be hard for us to do that in the 
future.
    Senator Boozman. Thank you, Mr. Chairman.
    Chairman Enzi. Thank you.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. And I want to 
thank all of you for your testimony today. As Senator Kaine 
said, there are some points of overlap that I think we can work 
on going forward.
    I do want, Mr. Chairman, to point out that a comment was 
made earlier that a lot of the efforts we have undertaken since 
the mid-1960s to fight poverty have not been successful. It is 
absolutely true that we have a big poverty problem in the 
United States.
    On the other hand, as a result of things like Social 
Security, Medicaid, and food nutrition programs, we saw 38 
million Americans who were not in poverty who would otherwise 
have been in poverty. We had a big conversation about this just 
a few years ago, and it was pretty clear that if you were to 
eliminate a lot of those programs, you would have close to 40 
million more Americans in poverty.
    I want to pick up on something, Mr. Chairman, where it 
sounds like people are on the same page, and I do want to cite 
the report from the CBO 2 months ago, and I am quoting: ``Large 
and growing Federal debt over the coming decades would hurt the 
economy and constrain future budget policy. The amount of debt 
that is projected under the extended baseline would reduce 
national savings and income in the long term.''
    My question for each of you: Do you each agree with that 
CBO conclusion?
    Dr. Sachs. That is absolutely correct, and we have been on 
a path that is already not in control. If you take into account 
what we also all agree on, expanding earned income tax credits, 
expanding support for training, for education, and so on, we 
need more revenues, not lower revenues. And I am shocked by the 
very idea that we might give up net revenues. And if you give 
it up on some guise of dynamic scoring--I have now been through 
that, because I am old enough to know that trivial gimmick, 
several times in the last 30 years. Please do not do it again. 
This is bogus. It is a fig leaf for giveaways to rich people. 
And dynamic scoring is not the point here. The point here is 
there is no space for losing revenues right now, and it would 
cripple us for another generation.
    Dr. Dunkelberg. Well, I think it is a well-established 
principle that if you borrow money and do spending today, you 
cannot do it tomorrow if you have to pay the money back. The 
silly game we are in, nobody asks us to pay the money back, so 
we can just pile it up and people seem happy. We pay them a 
pretty good return on all those bonds out there. But, you know, 
Greece found out that did not work, and everybody else is going 
to find--and we may be the last ones to find out that does not 
work. But it will not. So we just really need to get sensible 
about how we are financing Government and what it does and how 
we allocate the funds. We want the money to be used 
effectively, not just thrown away.
    Senator Van Hollen. Right. Do you agree with the CBO 
conclusion?
    Dr. Strain. I do agree with the CBO conclusion. At the same 
time, I think it is important not to be hysterical about it. I 
mean, we are not going to wake up--we are probably not going to 
wake up next week and have some sort of a terrible debt crisis 
on our hands. There are reasons that the United States is very 
different than other nations. Dollars are where people put 
their money in U.S. Government bonds or where people put their 
money when they are concerned about risk, et cetera, et cetera. 
But I think there is no question that the debt is on an 
unsustainable trajectory under current law, and I think that 
there is no question that getting it on a sustainable 
trajectory should be a top priority of Congress. I think the 
right place to start with that is reforming----
    Senator Van Hollen. Let me just ask, if I could ask--let me 
just ask this, though, and I think Dr. Sachs has already 
answered this question. And I am going to give the other two 
witnesses the benefit of the doubt her. Let us say CBO does use 
dynamic scoring--and I agree with Dr. Sachs' conclusion about 
that. But let us say CBO looks at whether it is President 
Trump's plan or the Republican plan, and even with that little 
extra bump, they conclude that it adds to our Federal debt, 
would that be a bad idea, to adopt a tax plan that adds to the 
Federal debt under CBO's conclusion, even if they include 
dynamic scoring?
    Dr. Sachs. This would be a terrible idea right now given 
the baseline is already out of control.
    Senator Van Hollen. Thank you.
    Dr. Dunkelberg.
    Dr. Dunkelberg. Well, the dynamic scoring is not going to 
solve the problem. I mean, it gives you a bump, but as you 
point out, it does----
    Senator Van Hollen. Right, so my question is: Under those 
circumstances, should we add to the debt with a tax reform 
plan?
    Dr. Dunkelberg. We should try not to add to the debt, but 
not just on the tax side. How about on the spending side?
    Senator Van Hollen. Okay. But the fundamental question is 
we hear a lot of talk, which I agree with, about the dangers of 
accruing debt, so----
    Dr. Strain. Yeah, so I agree that the spending side is 
really the most important side, particularly----
    Senator Van Hollen. So if I can just stop you, so debt from 
your perspective, it is not a problem with debt, it is a 
problem with spending. In other words, debt is debt. Right? And 
how you work that out, to Dr. Sachs' point, is a fiscal 
question for the Congress, whether it is revenue or whether it 
is cuts. My question is not how you would do it. My question 
is: Whatever tax plan may come before the Congress, whether it 
is Donald Trump's or somebody else's, if even after the CBO's 
dynamic scoring it adds to the Federal debt, should the 
Congress still support that given the situation we are in?
    Dr. Strain. I think the devil would be in the details.
    Senator Van Hollen. No, this is not devil-details question.
    Dr. Strain. I would not----
    Senator Van Hollen. Just does it add to the debt?
    Dr. Strain. I would not support a debt-financed reduction 
on labor income taxes. I think if we put together a good 
corporate tax reform and there was a projection that it would 
add to the deficit, but the projections were modest, then that 
might be a sensible thing to do because our corporate tax rate 
is so high, and we do not really know what the economic effects 
would be from a 15-percentage-point reduction in the corporate 
tax or a 10-percentage-point reduction in the corporate tax. 
But I think the right way to do tax reform is to do it revenue 
neutral.
    Senator Van Hollen. Thank you.
    Thank you, Mr. Chairman.
    Chairman Enzi. Thank you.
    I have not taken my turn yet, but I will not right now. Go 
ahead, Senator Harris.
    Senator Harris. Thank you, Mr. Chairman.
    Dr. Sachs, you are probably aware that the President's 
skinny budget is cutting the Department of Labor's budget by 21 
percent, and the Department of Labor has many responsibilities, 
including job training and employment grants and senior 
employment programs and things of that nature.
    Given that there is that significant cut to the Department 
of Labor, how do you suggest that we as the Federal Government 
and perhaps through the budget create incentives for retraining 
these populations of folks that are losing their jobs even 
though there is a growing economy, as you have described?
    Dr. Sachs. We know that we need more than ever active labor 
market policies that include job training and support for 
higher education and also other ways to supplement income and 
help make work, jobs, more decent for those who have low 
earnings. The idea that we would cut the Labor Department at 
this moment when we are in a jobless growth environment or a 
growth environment even if it produces jobs, it is not 
producing decent jobs; even if it is producing some decent 
jobs, it is not producing decent jobs for many millions of 
people. It is simply the wrong approach.
    Senator Harris. And I heard your testimony earlier, which I 
agree with, about the need for decent jobs, which requires 
decent skills and benefits.
    Dr. Sachs. Yes.
    Senator Harris. With the emphasis at this moment being on 
the skills piece and the training piece.
    Dr. Sachs. I think for the Department of Labor it would be 
on skills and, also, since so many workers are abused at work, 
they do not have rights, they are not protected by unions 
because we basically have so little union coverage in this 
country, the other area where the Labor Department has a 
special role to play is defending basic rights of workers, 
which is against sexual harassment, against an unsafe physical 
environment. And given how the bottom is falling out of the 
bottom half of our country, we should be bulking up the Labor 
Department, not cutting it back.
    Senator Harris. Please talk with me about your thoughts 
about how we will train the American workforce to take on the 
jobs of the so-called 21st century. As we understand, 
automation is taking hold around a lot of industries. Where are 
the jobs of the 21st century? I know that there has been 
testimony by all three of you about manufacturing and 
construction and then professional services.
    So here is my question: For that population of people right 
now who are between the age of 30 and 50, who want to work and 
are unemployed, how do we train them to take on those jobs 
where we have a demand for skilled labor? Is there a way to 
transition them, they who are now between the age of 30 and 50, 
who are going to have a life expectancy of about another 30 to 
50 years, how do we transition them into the jobs that we 
actually need to be performed? Because I cannot believe we are 
going to have to give up on them. I have to believe that there 
is a way and there is a plan that you all might recommend for 
how we transition them smoothly and rather swiftly to take on 
those jobs.
    So I would like the ideas from each of you, and I will 
start with Dr. Sachs.
    Dr. Sachs. I think that there are two parts to keep in 
mind. Because of this technological transformation, the 
earnings that many people will face will not be very good. They 
may be stagnant or even falling, even with training, because we 
are really moving in a period where there is an elimination of 
a lot of jobs, and we are just in the beginning wave of that. 
And the way that countries are successfully handling it--not 
our country--is that the job is only one part of their broader 
income. The government is guaranteeing the health coverage. The 
government is guaranteeing tuition for their kids. The 
government is guaranteeing early childhood development, pre-K. 
The government, in other words, is providing through that 
growing pie--because this is productivity gain, so the income 
is going up. But it is saying to Larry Page and Sergey Brin and 
others, you pay taxes and then we can share the benefits of 
your miracles broadly so that even if the market earnings are 
not great, the life of the people is good. That is what we need 
to offer, where a $60,000 average income economy per capita 
income in our country is still rising a lot, but it is all 
going to the top.
    So it is not only the job training, but it is also ensuring 
that around whatever working-class people earn, they are not 
desperate. But we forgot all about that coverage around the 
jobs.
    Senator Harris. Mr. Chairman, if I can just have a minute 
from each of the other two panelists on this point?
    Chairman Enzi. Okay.
    Senator Harris. Thank you.
    Dr. Dunkelberg. Well, I will just quickly suggest that, you 
know, we have to--it has to really be in our high schools that 
we change really dramatically what we are doing there, because 
that is where----
    Senator Harris. The 30- to 50-year-old right now is the 
population I am talking about.
    Dr. Dunkelberg. That is where we get started, I mean----
    Senator Harris. The 30- to 50-year-old right now, that is 
what I am--that is what keeps me up at night, thinking about 
those folks. They are beyond high school.
    Dr. Dunkelberg. They are beyond high school, but you have 
to--you know, if you do not--you want to focus on them, then 
how are you going to backfill if you do not fix that problem? 
You have to start it there, making sure that we do not roll 
this problem further.
    Senator Harris. I am still waiting for the training 
solution for transitioning the 30- to 50-year-old today. Maybe 
our last panelist can give me that answer.
    Dr. Strain. I think we need to do a much better job with 
work-based learning. And so if you are a 35-year-old guy or a 
40-year-old guy and, you know, you lost your job and you want 
to enter into a profession that requires skills, there should 
be pathways to do that where you can spend some time in a 
classroom and earn a credential, but at the same time you can 
fill a vacancy as an apprentice or as some sort of a trainee 
with a plumbing company or with an electrical company or with a 
construction company. And at the end of your training, you will 
have spent a lot of time actually working, and you will have 
earned some kind of a credential that is not actually a degree.
    Now, in order to make that work, we have to take a hard 
look at minimum wage laws, and we have to take a hard look at 
other labor market regulations, because we need to make it 
attractive for the business to actually want to hire the 
person, and it has to make good business sense for that to 
happen. But if we create that kind of a framework, then the 
labor market itself is determining the content of job training 
as opposed to the Department of Labor, which has a pretty bad 
track record at determining the content of job training.
    So I think there are things we could do. We just have to, 
you know, try them out and see how they work.
    Senator Harris. Mr. Chairman, thank you for your 
generosity.
    Chairman Enzi. You are welcome, and thank you for your 
questions. In fact, I appreciate everybody's questions, and I 
will mention that anybody can turn in questions, too, until the 
close of business today.
    I also have some questions that I will be submitting, and 
then when I get answers, I will share them with everybody that 
was here and was not here. I will also be giving a little bit 
of a summary, and I will do that right after Senator Kennedy 
asks his questions. So I appreciate anybody that comes and has 
some questions.
    I would mention on this job training thing that there are a 
lot of job training programs out there, and we are just not 
getting the people into them. That is a huge disappointment to 
me. I think we have too much duplication in the kinds of job 
training out there, and we ought to be picking out the best and 
funding those better and then putting more concentration on 
getting people into them. But it also had to do with our 
attitude toward different kinds of work.
    I visited schools in Sweden, and in Sweden, when you 
graduate from high school, you go to tech school. If you finish 
tech school, you can go to college. And then while you go to 
college, you can be working part-time on weekends and paying 
part of your debt. But the biggest thing that it does over 
there is take the stigma off of normal jobs, and I think that 
helps a lot.
    As far as automation, I have been trying to get my computer 
on the floor of the Senate for 20 years now.
    [Laughter.]
    Chairman Enzi. And we still cannot do it. People have told 
me that they do not know how to type, so if I did it, they 
would have to learn how to type, and they do not want to do 
that. So thank you for your questions.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman. I apologize for 
being late. I was in another, less important committee.
    I want to talk to you just for a few minutes about Dodd-
Frank and its impact on the American economy, and specifically 
community banks. And by community banks and small credit 
unions, I mean institutions of less than $10 billion.
    I asked Chairwoman Yellen in a Banking Committee hearing a 
few months ago--I am going to paraphrase, but I think it is 
pretty close. What did the community banks do wrong in 2008? 
And her response was, ``Nothing.''
    Dr. Strain, what do you think about the idea of exempting 
community banks and credit unions that are less than $10 
billion in assets from Dodd-Frank?
    Dr. Strain. Well, Senator, I am not an expert in Dodd-
Frank, and I cannot offer an expert opinion about that. My kind 
of generalist understanding is that Dodd-Frank is hurting the 
abilities of community banks to make loans and to service 
customers and to provide a valuable function to local 
economies. And to the extent that we can change regulatory 
requirements to allow that type of important economic activity 
to take place, I think that is important.
    You know, whether or not that means exempting some banks 
from regulations and enforcing regulations for other banks or, 
you know, where the cap should be drawn, things of that nature, 
I cannot say.
    Senator Kennedy. Doctor?
    Dr. Dunkelberg. Well, I am the chairman of the board of a 
$200 million community bank with three branches that has 
survived. We are living under regulations designed for 
Citigroup and half a dozen other very big firms with all the 
risk rating problems that we have, what we can count, what we 
cannot count, and the complexity of having to deal with all 
that, you know, gobbles up huge amounts of our time. We seem to 
have regulators in our bank more often than not, and it takes 
up huge amounts of staff time. We hire staff just to keep 
records to make the regulators happy so that we can pass the 
Bank Secrecy Act (BSA) or we can get the Community Reinvestment 
Act (CRA)----
    Senator Kennedy. If I could interrupt just a second, and I 
apologize for that, but we have to be mindful of time 
constraints. You are a $200 million institution?
    Dr. Dunkelberg. Not big.
    Senator Kennedy. You are not exactly a threat to the 
American economy.
    Dr. Dunkelberg. No, I do not think so. If we went down, we 
probably would not be missed except by our community----
    Senator Kennedy. Of course.
    Dr. Dunkelberg [continuing]. That we are very much involved 
in and all the local stuff. And, of course, we can do a better 
job--our loan committee is so good, I mean, they know the whole 
market really well. They know the people who are going to come 
in and apply.
    Senator Kennedy. It is called ``relationship banking.''
    Dr. Dunkelberg. Exactly.
    Senator Kennedy. Excuse me for interrupting, but----
    Dr. Dunkelberg. Go ahead. I am done.
    Senator Kennedy. Thank you for those comments.
    Doctor?
    Dr. Sachs. Senator, no doubt the regulations should be both 
different and less onerous on small banks, and the attention 
should be on the large financial institutions.
    Senator Kennedy. Would you support exempting them?
    Dr. Sachs. Probably not exempting them, because small banks 
also fail, and then they hurt their communities. The basic 
principle of finance is you are using other people's money, 
which means that you tend to have a tendency to get into 
trouble and too many bad accidents happen. I subscribe to 
financial regulation, but I feel this man's pain. And I am sure 
that it is right that it is onerous when you have the 
regulations for mega institutions apply to small institutions.
    Senator Kennedy. Let me just ask you a philosophical 
questions, Doctor, and I do not mean this--if this comes out as 
in some way pejorative, I do not mean it. It is an honest 
question. What makes you think, why do you believe that people 
who work for the bureaucracy in Government know better than 
everybody else, know better than the private sector, know 
better than the people who choose to invest in a small bank or 
not? What is it--I mean, honestly, why do you believe--I work 
with a lot of folks in the bureaucracy--I do not use that 
critically--every day at the Federal level, and I worked with 
them for 16 years at the State level. I do not think they are 
vastly superior to people who make their own decisions in terms 
of intellect or insight or knowledge. Why do you believe what 
you do?
    Dr. Sachs. I do not think it is a matter of intellect. I 
think it is a matter of incentives. I know a lot of people on 
Wall Street. Many of them are crooks. They use other people's 
money. If they are not regulated, they will steal. I know them. 
I sit with them. I eat with them. I deal with them. I do not 
trust them for a moment, and yet they have billions of dollars 
under their control.
    I do not feel the same way about Federal regulators. I do 
not----
    Senator Kennedy. Can I just interrupt? What percentage?
    Dr. Sachs. Well, I could introduce you to a lot of them.
    Senator Kennedy. No, I mean what percentage of--it is a 
pretty bold statement you made, and I know a lot of people who 
believe that. But of all the folks on Wall Street, what 
percentage do you believe are crooks?
    Dr. Sachs. I think enough of people in the hedge fund 
industry that gives--scares the wits out of me.
    Senator Kennedy. But, I mean, is it like 1 percent or 10 
percent or 80 percent?
    Dr. Sachs. I could put it this way: enough to make a 
calamity of our economy. Because it is not the proportion, it 
is what resources they command. And 2008 did not just happen by 
itself. It happened by malfeasance, massive malfeasance. Almost 
nobody paid the price for it, by the way. The Obama 
administration protected them. The Justice Department was 
afraid. The Securities and Exchange Commission (SEC) does not 
go after individuals. And so a lot of crooks walked away, and I 
see them at gala dinners in New York, and I do not trust them 
to turn my back on them.
    Senator Kennedy. Do you blame President Obama for that?
    Dr. Sachs. Certainly I do, President Obama and President 
Bush, both of them. And President Clinton, by the way, because 
he was President when this was deregulated. It was dangerous 
then. President Bush continued this. Alan Greenspan let it 
happen. And President Obama in my view did not exercise justice 
after the fact.
    Senator Kennedy. I have gone way over. I am sorry, Mr. 
Chairman, but I found all three of you interesting. Thank you. 
Again, I am sorry I was late.
    Chairman Enzi. That is okay, and those were different 
questions than we had had before. So I will add that to my 
list.
    One overriding thing that I saw through the whole thing was 
a lot of comment about debt and how much in debt we are and how 
that is affecting the economy. I do not get invited to speak 
many places because I am too depressing. I know those numbers. 
And I agree that it is overwhelming and we are passing it on to 
the next generation, and people do not even know how we are 
passing it on to the next generation. We have a custom user fee 
that we like to use for offsets for different things. But we 
have already spent that through 2025 to do current projects. So 
as that money comes in, there is not really anything to spend 
it on. But we will. We will spend it again. So now we are 
spending the money from the year after that to do another 
offset. There are just so many things that are really piling 
debt on to the next generation, some of it not even showing.
    But enough of depression. I was glad to hear the comments 
about budget reform. We really have to do that. And Senator 
Kaine has talked a lot about the debt-to-GDP ratios with 
guardrails. I hope we can institute that; biennial budgeting, 
calendar year, and something that we are just beginning to talk 
about, which is portfolio budgeting. We have 160 housing 
programs administered by 20 agencies. No agency is in charge of 
any one of those programs. So nobody is setting goals. Nobody 
is doing oversight. I think we could do it with five agencies 
and--five programs. Of course, that would mean that we would 
get complaints from 155 managers that they might be losing 
their job. But it is money that could be put into housing 
people instead so I hope we will begin to talk about that.
    I think that my overseas tax plan is beginning to reemerge, 
and it was mentioned that there is a lot of money in the Cayman 
Islands. I do not know where all the money is, but I know that 
yesterday there was an article about $250 billion in cash, and 
I realize that a lot of companies overseas do not have their 
money in cash, so my international tax plan makes us more 
competitive overseas, but it also gives some incentive to 
return the money to the United States over a period of time--or 
pay the taxes. They can return it at any time they want.
    I could ask some questions. I do not have the audience of 
the Senators that I would have if I had used my time right at 
the beginning, but as I said, I am going to submit some 
questions which may have some more import now than they would 
have even then, and I will share those answers with my 
colleagues.
    Chairman Enzi. I want to thank you for your time and your 
expertise. If you have any publications you want to suggest 
that I read, I am happy to do that. I read about 100 books a 
year and do a book report on each of them. That saves me having 
to go back and re-read them again unless I want to review what 
I read before. I find it very helpful, as you have been, so 
thanks for your time and your preparation and your testimony, 
which I will encourage people to read as well. And keep those 
ideas coming.
    Thank you. The hearing is adjourned.
    [Whereupon, at 12:32 p.m., the committee was adjourned.]

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following submitted questions were not asked at the 
hearing but were answered by the witness subsequent to the 
hearing:]
  Questions Submitted to Dr. Michael R. Strain by Chairman Michael B. 
                                  Enzi
    Question. Decreasing taxes on individuals and businesses has a 
well-established demand effect. In the case of labor, reducing taxes 
increases wages and the trade-off of work to leisure. In the case of 
capital, reducing taxes increases profits and incentivizes investment. 
How would tax simplification, even if it is revenue-neutral, create 
economic growth? Does certainty in tax structures support long-term 
investment?
    Answer. Tax simplification would have important efficiency 
properties that would result in a larger economy, and an increased rate 
of economic growth as we move from today's economy to that larger 
economy.
    Eliminating or reducing tax expenditures--for example, the mortgage 
interest deduction and the state and local tax deduction--would, even 
if part of a revenue-neutral reform, result in a more efficient 
allocation of scarce resources. Concretely, some money that Americans 
would spend today on larger houses would be spent in a different way. 
To the extent that the decision to spend money on larger houses today 
is driven by the mortgage interest deduction, spending that money in a 
different way would increase the productive capacity of the economy, 
and would result in an increase in income per capita, which would be 
reflected in the short-term growth rate.
    Regarding the second part of your first question, yes, I think it 
is safe to say that certainty in the tax code supports long-term 
investment. Senator Kaine made this point very well during the hearing: 
the Congress should have as a goal to provide an environment of policy 
certainty so that business decisions are not driven by concern and a 
lack of clarity over the future course of public policy.
    Question. The American workforce has a variety of labor policies 
adopted based off the laudable goal of protecting workers--minimum 
wage, unemployment insurance, and occupational licensing. Dr. Strain, 
your testimony references how these types of policies can actually 
impede economic growth. How does economic growth support the average 
worker?
    Answer. Economic growth supports the average worker because a 
growing economy is an economy in which businesses are creating new 
jobs, labor markets are tight, and wages and incomes are rising.
    Of course, longer term, structural issues are still at play in an 
economy with economic growth. And those issues--for example, the 
automation of jobs requiring ``routine tasks,'' and downward pressure 
on wages in industries exposed to international trade--still affect 
many American workers. But those structural issues are easier to manage 
in a strong-growth environment.
    It is also the case that in a strong-growth environment incomes for 
some workers rise more rapidly than incomes for other workers. But this 
argument does not mitigate the desirability of broad-based growth.
    Having said that, in my view public policy should complement 
economic growth in an effort to increase economic opportunity for 
American workers. I discussed many policies that I think would increase 
opportunity--for example, EITC expansion, a greater emphasis on work-
based learning, and reforms of existing policies--in my written 
testimony, and during the hearing. To support American workers, we 
should not rely only on economic growth. But economic growth is 
critical in that effort.
    Thank you again for the opportunity to appear before the committee. 
It was an honor. And I am eager to be helpful to you and to any member 
of the committee in the future.


               GROWTH POLICIES FOR THE NEW ADMINISTRATION

                              ----------                             


                        WEDNESDAY, MAY 10, 2017

                                       U.S. Senate,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m., in 
room SD-608, Hon. Michael B. Enzi, chairman of the committee, 
presiding.
    Present: Senators Enzi, Crapo, Johnson, Corker, Gardner, 
Kennedy, Boozman, and Strange.

         OPENING STATEMENT OF CHAIRMAN MICHAEL B. ENZI

    Chairman Enzi. We will go ahead and call this hearing to 
order. I will go ahead and do my opening statement, and if 
Senator Sanders makes it, whenever Senator Sanders makes it 
here, we will allow him to do his opening statement. There was 
a vote this morning, and I am not sure exactly how it came out 
yet, but I know that has got quite a bit of interest over 
there. But they should be back here pretty quick.
    So good morning, and welcome to our hearing on Growth 
Policies for the New Administration.
    First, I want to thank Senator Phil Gramm for agreeing to 
testify this morning. He has always been one of my heroes of 
the Senate. He was one of the first people that I met when I 
got to Washington, and after listening to a few of his debates, 
when I could see terror in the face of his opponents, I 
actually got to sit down and visit with him about some critical 
issues.
    I was on the Banking Committee that he was the chairman of 
at the time, and I learned a lot. And I wanted specifically to 
have him here for a hearing because of his past experience, not 
while I was in the Senate, but before that, when he worked with 
Rudman and Hollings to do some specific stuff with the budget, 
and that has had a carryover effect on us today. And that was 
quite a while ago, so there needed to be some revisions in it, 
and so we will be relying on him and others who have chaired 
the Budget Committee to come up with some solutions that will 
make it more possible for us to actually get control of the 
budget while we improve the economy.
    So Senator Gramm's decades of experience serving as an 
elected official, both in the House and then in the Senate, 
both as a Democrat and as a Republican--not at the same time, 
of course--provide insight into which policies have 
historically led to growth upon implementation as well as which 
are most politically attainable for the new administration and 
for Congress.
    The rules that govern budget information are incredibly 
outdated. The last time Congress updated its accounting rules 
was long before any of us here in the committee were in Federal 
office. The last comprehensive change was 50 years ago. I am 
proud to say that last month, the members of the committee 
unanimously approved reforms to the broken budget process that 
will lead to more orderly, meaningful, and transparent 
consideration of budget resolutions in the Senate Budget 
Committee, not on the floor yet. We will handle that one later.
    In addition to the budget process reforms adopted by the 
committee, I have also proposed a budget concepts commission to 
review Government budget rules and ensure that they keep pace 
with advances in economics, with accounting, and with finance.
    This should be a bipartisan exercise, with each party 
receiving an equal number of appointments. The commission of 
experts should comprehensively review the quality of budget 
information used by the executive and legislative branches. 
Congress writes policies based on their budgetary impact. All 
of us want to ensure that legislative estimates are clear, 
concise, and accurate.
    For example, past scoring practices did not include the 
reaction of the general economy to major policy changes. We 
know, however, that big policy changes can and do alter the 
size of the economy. Dynamic scoring can add missing economic 
information that static scoring does not provide, making the 
score more complete. This is critical information for 
policymakers to better understand how legislation affects the 
economy as a whole, how macroeconomic feedback or dynamic 
scoring interacts with Congress' official cost of legislation, 
which is important for the committee to discuss.
    These budget rules are particularly relevant when Congress 
considers policies with the goal of increasing economic growth. 
Tax reform is a prime example. In last week's hearing, we 
discussed with national economists how taxes influence economic 
growth. Both the Congressional Budget Office (CBO) and the 
Joint Committee on Taxation (JCT) recognized the link between 
taxes and output of the economy. According to the JCT, tax 
policy can directly influence the level of labor supply, the 
physical capital, the human capital, and technology in an 
economy by changing the after-tax returns to certain economic 
activities or changing the cost of pursuing them.
    Our Tax Code is a mess, and it is riddled with 
inefficiencies and loopholes. People are demanding some 
simplicity. Reform that makes it simpler and fairer for 
everyone would require bold policy changes, not tweaking around 
the edges of a broken structure. Broadening the base and 
lowering tax rates will limit Government distortion of market-
based decisions. It will increase efficiency and growth of 
business.
    Our projected economic growth is below average, and we need 
to continue discussing the root causes of our lethargic economy 
in order to promote policies that grow it.
    As you can see from this graph, a 1 percent increase in 
gross domestic product (GDP) significantly changes the 
trajectory of expected Federal revenue. The blue line is the 
current level, and the orange line is the revenue with higher 
growth. The gray line is Federal outlays. Regardless of growth, 
our spending still exceeds our income. Cutting the growth of 
spending is something this committee will continue to address.
    [The referenced graph follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    I look forward to our conversation today on how Congress 
can work with the new administration to foster stronger U.S. 
economy and the impact of that growth on the Federal budget.
    So since Senator Sanders is not here, I will go ahead and 
introduce our witness. Our witness this morning is the former 
Senator Phil Gramm, a visiting scholar at the American 
Enterprise Institute (AEI). Senator Gramm served 6 years in the 
U.S. House and 18 years in the U.S. Senate. His legislative 
record includes landmark bills like the Gramm-Latta Budget, 
which mandated the Reagan tax cut; and the Gramm-Rudman Act, 
which placed the first binding constraints on Federal spending. 
As chairman of the Banking Committee, Senator Gramm steered 
through legislation, modernizing banking, modernizing 
insurance, and modernizing securities law, which had been 
languishing in Congress for 60 years. That is our normal pace, 
I think.
    Phil Gramm holds a Ph.D. from the University of Georgia in 
economics, the subject he taught at Texas A&M University for 12 
years. He has published numerous articles and books on subjects 
ranging from monetary theory and policy to private property and 
the economics of mineral extraction.
    This morning, Senator Gramm will testify on growth policies 
and how a new Congress and administration can get our economy 
going again. We have talked, not only about the chart that I 
had up, but other times, with how much a slight increase in the 
economy makes it bring in more revenue.
    So I look forward to hearing your testimony. Senator Gramm.

STATEMENT OF THE HONORABLE PHIL GRAMM, FORMER SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Gramm. Mr. Chairman, thank you so much. I am 
obviously very honored to be here.
    I remember first meeting you as this young accountant who 
had this annoying habit of wanting things to add up. For the 
last two decades, I have watched your career, as I am sure the 
people of your State have watched it, and as a person who 
worked with you when you were a very young Senator, I am very 
proud of your career and what you have done.
    Today, I want to talk about the budget. I have always taken 
an interest in the budget because behind these numbers with a 
sort of endless row of zeroes behind them is a vision for 
America's future. I have always thought the budget, in trying 
to set out what we wanted Government to be and, therefore, what 
we wanted America to be, was very important. So from my very 
first day in the House until the day that I left here in 2002, 
I have paid very close attention to the budget.
    What I would like to do today is to talk about where we are 
in the economy, why the economy is performing poorly today, at 
least from my perspective, and how we change it. I realized in 
trying to write this testimony that when you are talking about 
the performance of the economy during the Obama presidency and 
you are talking about the Reagan program and the performance 
following the implementation of the Reagan program, that no 
matter how you want to be nonpartisan, that we are all invested 
in those things, and so it is very difficult to talk about them 
without it becoming a partisan issue. And I think it is too bad 
that is the case. I want to try today to the best of my ability 
to not inject partisanship into what I have to say. I would 
like to talk about what happened in these years and then the 
programs that gave rise to that performance and then look to 
the future.
    First of all, we have a lot of experience about America's 
economic performance. This is an extraordinary country where 
labor from somewhere else and capital from somewhere else met 
here, fell in love, and with very few exceptions lived happily 
ever after.
    Even in postwar America, American exceptionalism has meant 
that we have out-produced and grown faster than any developed 
country in the history of the world. From 1948, the beginning 
of the postwar era, until 2008, counting recessions, 10 
recessions, 10 recoveries, we averaged an astonishing 3.4 
percent real growth. In good years and bad, under Democrats, 
under Republicans, we consistently grew. Until 2009, we had not 
had a President in 135 years that did not have at least 1 year 
during their term where we had 3 percent real economic growth. 
And I picked 135 years ago because that is where the data 
begins on an annual basis. I suspect it is true that never in 
American history had that been the case.
    In 10 of those recessions and recoveries, the American 
economy behaved basically the same. We used to have a cliche in 
teaching freshman economics when I was a college professor that 
the bigger the bust, the bigger the subsequent boom, and that 
pattern held throughout the postwar period until 2008.
    And then in 2008, we had a recession, the subprime crisis, 
and following that recession, we had far and away the slowest 
economic expansion, the slowest recovery in American history. 
The economy grew by an astoundingly low 1.47 percent.
    Now, obviously, the question is why, and people can give 
whatever interpretation of the facts they want to give, but let 
me give you my interpretation. Our policies beginning in 
January 2009 were distinctly different than the policies we had 
followed in every recovery in postwar America.
    There was a dramatic increase in marginal tax rates on 
individuals. Because Congress and the President could not agree 
on reforming corporate taxes, we ended up with the highest 
corporate tax rate in the world. Eligibility standards for 
Social Security disability and food stamps were dramatically 
reduced, and enrollment exploded. We expanded Medicare and 
Medicaid. Obamacare was adopted. The work requirements were 
suspended under the welfare program, and through legislation, 
through agency action, and through executive action, a layer of 
regulation was applied like a wet blanket over the economy that 
literally choked the economy. And as a result of the policies 
being so different than the policies we had followed before 
during other postwar recoveries, the net result was very low 
economic growth.
    In fact, I do not think it is an overstatement to say that 
as our Government came to look more like a European government, 
our economy performed more like a European economy.
    Now, let me just give you a contrast to that. The two 
policies in postwar America that are the most distinct are the 
Obama policy, on one hand, and the Reagan policy, on the other. 
And it is I do not think a coincidence that the performance of 
the economy following those policy implementations represent 
the high and low of America's postwar economic performance in 
terms of economic growth and achievement.
    When Reagan took office, we were coming off a slower period 
of economic growth, 2.5 percent in the late 1970s. The 
inflation rate was 13.5 percent. Prime interest rates had 
peaked at 18.9 percent. And there was a general discussion in 
America, serious discussion, about how economic and political 
malaise and how the scarcity of resources meant that America's 
future was going to be dramatically different.
    Mr. Chairman, you may be old enough to remember the Time 
magazine headline, ``The Joy Ride for America is Over.'' Well, 
Ronald Reagan was elected and dramatically changed policy, and 
what happened? The performance of the American economy changed 
dramatically. Reagan cut marginal tax rates dramatically. I am 
being dramatic, but these were dramatic times. He cut 
nondefense spending and entitlement spending, and he lifted 
regulatory burden. When that program was in effect, the economy 
in the last 6 years of the Reagan Administration grew by 4.6 
percent, and in 4 of those 6 years, Federal revenues grew on 
average by over 10 percent per year.
    Now, this comparison is important because the question we 
are faced with now is, are we in a secular stagnation, or is 
this a policy-induced stagnation? My belief is--and I think an 
objective reading of the policies of the postwar period and the 
performance of the economy in the postwar period--is that 
policy makes a difference. American exceptionalism is based on 
freedom and market efficiency, and when Government policy 
reinforces those things, the economy grows and has no equal on 
earth. When Government policy stifles those things, the growth 
of the economy is stunted, and I believe that that is what 
happened beginning in 2009.
    Now, the question is, what can we expect when we move from 
a policy that was implemented in the last 8 years to a policy 
that is closer to the Reagan policy? What happens when we 
dramatically reform the Tax Code, when we reduce rates, when we 
strip out provisions of the Tax Code that misallocate 
resources? What happens when we lift regulatory burden? What 
happens when banks begin to hire people to make loans rather 
than hiring compliance officers?
    Well, what happens is I think we will begin to see the 
economy move back to what we knew for 60 years was the economic 
norm in postwar America. Through 10 recessions and 10 
recoveries until this last recession and recovery, we averaged 
3.4 percent real growth. If by changing policy, we could get 
that growth back, as you showed in your chart, if we could get 
back the normal growth America experienced for 60 years in 
postwar America, revenues would rise by $4.6 trillion over 10 
years. If we could just get half that difference back, if we 
could just get halfway back to the norm by implementing 
policies that have been the normal policies in postwar America, 
we would get $2.3 trillion of new revenues in the American 
economy.
    Now, I want to digress real briefly to make the point that 
growth is the key factor for Federal revenues, and I will just 
give you two examples. And I give them because they show how 
powerful growth is, and I picked two examples of tax increases.
    In 1990, there was a Budget Summit Agreement, and part of 
that agreement was to raise taxes. And a tax bill was adopted, 
and that tax bill was projected over 5 years to raise revenues 
by $159 billion. But because of subsequent poor economic 
performance, because the growth rate fell as the economy 
slipped into a recession, revenues actually declined by $206 
billion because of a decline in economic performance.
    Probably, the most dramatic one in American history 
occurred in 2013. The Bush tax cut expired. A new tax bill was 
adopted that was supposed to raise $650 billion over a decade. 
After that tax bill was adopted, the CBO continually reduced 
its projection of economic growth to the point that those 
reductions in economic growth reduced revenues five times more 
than the tax increase was supposed to increase revenues.
    If you do not have economic growth, you cannot balance the 
budget. If you do not have economic growth, you cannot fund the 
policies that we are committed to fund. Right now, the 
Congressional Budget Office estimates that the economy is going 
to grow by 1.9 percent for a decade. At 1.9 percent, with a 
growing population and with a population that expects to have 
opportunity, that expects to have prosperity, and with a 
disappointment that will come at that growth rate, there is no 
possibility that we are going to be able to meet our 
obligations in programs like Medicaid, Medicare, Social 
Security. So we have got to get out of this rut.
    Now, let me give you two examples of policies that have had 
a pretty big impact economically, and let me start with the 
1986 tax reform. This is not only the standard in America; this 
is a standard in the world. When you talk to economists 
anywhere in the world, they talk about tax reform. They talk 
about 1986. When we adopted the 1986 tax reform, the 
Congressional Budget Office said it would have no effect on 
Federal revenues. That was their official projection. But they 
actually, almost immediately lowered their projection of 
economic growth to 2.9 percent. They did that in January 1987. 
By the time the tax reform was fully in force, over that 
ensuing 5 years, the economy grew by 3.8 percent, and revenues 
grew by a commensurate amount.
    The most dramatic underestimate by CBO occurred when it 
scored the 1997 Balanced Budget Act. You will remember the 
Congress and the President under President Clinton reached an 
agreement to commit to a balanced budget and adopt budget 
numbers to achieve the result. They also agreed to cut the 
capital gains tax. The Congressional Budget Office projected 
that that action would produce $33 billion of new revenues.
    In 1 year alone in the year 2000, the economy generated 
$303 billion more than the Congressional Budget Office 
projected, and by the time the whole budget cycle had been 
completed, revenues had grown by a whopping $1.34 trillion more 
than the Congressional Budget Office had predicted.
    Now, when you write your budget, it is clear that the 
Congressional Budget Office is not going to be able to 
differentiate because it has never really been able to 
differentiate between policies that cause growth and policies 
that impede growth, and so if you adopt a major tax reform 
package, my guess is that the Congressional Budget Office is 
not going to score it as generating much in the way of 
revenues.
    I believe that we have every right to assume that if we 
change policies, especially if we adopt policies that have 
worked in the past, that they are going to have an impact. If I 
were writing the budget and I were going to dramatically change 
policies with tax reform and with regulatory relief, I think 
you certainly have the right to assume that we are going to get 
halfway back to norm with this policy. I think that is a 
conservative estimate.
    Now, what this will mean is, when you write the tax reform 
bill, part of it will be permanent, and part of it will go away 
in 10 years if, in fact, we have not achieved what we set out 
to do, which was to write one that was self-financing. If it 
works and if revenues grow, you have got to assume that public 
support would be sufficient to make it permanent.
    But I want to say something about permanence. If there is 
anything that you learn in being in Government, it is that 
nothing is permanent. The great 1986 Tax Act was changed twice 
in 10 years.
    This idea that the economy will not respond to tax 
provisions that are going to potentially expire in 10 years is 
invalid. There are very few business people that I have ever 
met anywhere that have confidence as to what Government policy 
is going to be 10 years from now, because most of the people 
that had such confidence have gone out of business long ago.
    Finally, to conclude and then throw it open, I want to 
mention two dangers, two things I worry about that I think we 
ought to be paying attention to as we are trying to get the 
economy going, as we are trying to get this lift-off, and there 
are sort of two problems that are out there that do not show up 
today. One of them is the debt servicing cost of the doubled 
Federal debt that has occurred in the last 8 years. Fifty-five 
percent of that debt was bought directly and indirectly by the 
Fed, and then the interest payments were rebated to the 
Treasury. And we have had historically low interest rates. So, 
actually, in the last 8 years, we doubled borrowing, and the 
cost of servicing the debt actually went down. But when we have 
a full-blown recovery, every recovery in the postwar period has 
been driven by exactly the same things and produced the same 
results. It has been driven by strong private investment and by 
home building, and in every recovery that has been a normal 
robust recovery, interest rates have risen. If we get a full-
blown recovery and interest rates go up, debt servicing costs 
are going to explode.
    Now, you have seen the numbers where in 10 years, debt 
servicing costs alone will exceed Medicare, but let me give you 
an even more frightening number to me, and that is, 
historically, in a recovery, Government borrowing has grown at 
about 1.7 percent a year. In the recovery we hope to start, 
within 5 years with a full-blown recovery and interest rates 
returning to the normal levels, debt servicing costs will rise 
to 6.6 percent of GDP.
    Historically, the Federal Reserve Bank has offset some of 
this by expanding the money supply to meet the needs of trade, 
and they have created enough liquidity so that the net 
Government borrowing has been 1.4 percent, but now they 
quadrupled their balance sheet with all of the monetary easing 
programs. So, when interest rates rise, banks are holding over 
$12 of reserves for every $1 they are required by law to hold. 
The Fed is paying them interest, so they really turn these 
reserves into a Treasury note, a Treasury security. But if we 
get a full-blown recovery, interest rates start to rise, banks 
are going to start to lend, and when banks start to lend, the 
money supply is going to start to grow.
    And so despite all the Fed's reassurances about all the 
things they can do--they can sell securities, they can pay 
higher interest on deposits, they can let the securities they 
hold mature on their balance sheets, they can borrow against 
the securities with reverse repos--all of those things have the 
same thing in common, and that is they are all competing with a 
private sector for available capital.
    When you look at where they are in their balance sheet, if 
you assume that in a 5-year recovery that the Fed sold off the 
balance sheet, which is what Bernanke has now predicted, they 
would have to sell over $500 billion worth of securities a year 
and absorb 3 percent of GDP in competing directly against 
private investment for loanable funds.
    So what is the message here? One, we need a strong 
recovery. Two, once a recovery is in place, interest rates, I 
believe, based on the debt problem and the Federal Reserve Bank 
balance sheet problem--that interest rates are going to rise 
faster than they have in the average recovery, and they are 
going to be higher as the recovery reaches maturity. This is 
going to force us to look at things like spending control and 
entitlement control quicker than the Congress or the President 
want to do. It is very important that this be done.
    Final point. Mr. Chairman, thank you for your patience. If 
we do not break out of this rut we are in, if we continue at a 
1.9 percent growth rate, or if we break out and we cannot do 
the things necessary to keep the recovery going, we could 
easily end up in a secular stagnation. And America cannot be 
the America we know if it is not growing and prosperous. 
Everything our country stands for, all of the opportunities 
that we believe should be there for every American depend on 
growth, and so I think we need to be bold in getting the 
economy growing, and then we need to be vigilant about what we 
do to keep it growing.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Gramm follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Enzi. Thank you. I am always fascinated to hear 
you. You put things very clearly.
    I am going to defer to Senator Corker to ask the first 
questions, but before I do that, I want to mention that once I 
had an opportunity to talk to all of the head accountants for 
the Securities and Exchange Commission (SEC). And when I was 
asking questions, my people back in the office were noticing 
the camera did a little wedge like that, and everybody behind 
them was asleep.
    [Laughter.]
    Chairman Enzi. There are not many people that can talk 
about numbers and keep people awake, so I was keeping track, 
and everybody was awake. You do an outstanding job of 
presenting.
    Senator Gramm. Thank you.
    Chairman Enzi. Senator Corker.
    Senator Corker. Well, thank you, Mr. Chairman. I will be 
very brief. I have folks waiting on me.
    That was a very fulsome presentation, and, Senator Gramm, 
all of us here like to listen to you.
    I am just generally going to observe what I see here right 
now, and that is a party-like atmosphere, where nothing is 
going to be done to deal with spending. Certainly, it's hard 
when you have a President that is not willing to deal with 70 
percent of our budget, mandatory spending, which is where the 
dollars are, and is where all the growth is too. It is growing 
very rapidly.
    And then at the same time, we hold numbers of discussions 
about tax reform and tax cuts. Those are two very different 
things, obviously. Sometimes they can take place in a combined 
way.
    I think you have always been, generally speaking, a fiscal 
hawk. I agree with you 100 percent. There is no way to deal 
with the issues that we have before us without growth rates 
substantially increasing.
    I do think that we will move ahead in a strong way on 
regulatory reform. I think that is one thing the President is 
committed to. He can do a lot of that himself. I am convinced 
we will pass substantial Dodd-Frank reforms under the 
leadership of Senator Crapo, and so some of the things you 
alluded to are going to happen.
    Let me just digress for a second. Under Reagan, no doubt, 
the 1986 law is one we all look at and certainly admire the 
economy that took place under Reagan. I will say, however, that 
the national debt doubled, and we never got things under 
control. The national debt doubled, and the mantra for 
Republicans became, unfortunately, deficits do not matter 
anymore. So somehow or another, with your leadership and 
through caucus meetings and all that, we have to figure out a 
way to not just do the sugar side of this, but to do the 
spinach side. And I am just going to tell you right now, I see 
no evidence whatsoever--no evidence--of us being willing to 
deal with the spinach side of the equation.
    So I think we are in a hell of a mess right now, hell of a 
mess, and while I am someone who happens to believe we ought to 
give some countenance to dynamic scoring, my sense is there is 
going to be a push by supply siders to carry that to levels 
that are beyond belief and beyond reality. And I would just 
love to have any comments, and I will stop, but I am telling 
you----
    Senator Gramm. Well, let me----
    Senator Corker [continuing]. We are in a hell of a mess 
right now from the standpoint of where the Nation is and the 
lack of ability here to deal with the spending side of the 
equation.
    Senator Gramm. Well, let me say that we are getting along 
now because we do not have any recovery. We do not feel the 
fever of this big debt, and we do not feel the impact of this 
massive build-up in the Federal Reserve Bank's balance sheet 
because there is so little pulse. But when the economy starts 
to grow and interest rates start to rise, it is not me saying 
that servicing the debt we have right now is going to cost as 
much as we are spending on Medicare annually. Those numbers are 
numbers that are out there that are easy for anybody to 
calculate.
    Senator Corker. No debate. No debate.
    Senator Gramm. And if we can break out of this rut and get 
the economy going, it gives us a chance to gain control, but 
we--and I am not trying to be an alarmist, but I do not think 
we will be able to keep the recovery going if we do not begin 
to deal with spending. And I think at some point, we will be 
forced to do it, and my guess is what will force us to do it is 
rising interest rates.
    Senator Corker. Well, if you want----
    Senator Gramm. Now, if you do not ever get the economy 
going, then this problem will get worse without warning signs, 
but if we ever get the economy going and rates go up, these 
bills come due.
    Senator Corker. Yeah. Well, just as one Senator--and it is 
going to take 50 Senators. It is going to take 50 of us. As one 
Senator, I think we need to be really careful when we do this 
tax reform to not over-project revenues.
    I mean, the fact is you talked earlier about $4.6 trillion 
in additional revenues over the next 10 years--I do not know 
which particular plan you are looking at, but----
    Senator Gramm. Well, no. That is if we could get back to 
the average growth we had over the previous 60 years. That is 
what the number would be.
    Senator Corker. Yeah.
    Senator Gramm. What I said was, even if you could get back 
half that growth--so splitting the difference between the 1.9 
that is projected now and the 3.4 percent we were able to get 
through recessions and expansions for 60 years, if we could get 
to that level, that would be $2.3 trillion over 10 years. That 
to me would be a conservative number.
    But, look, I do not fear having to give part of the tax 
reform cut back if it does not work. In fact, it is somewhat of 
a disciplining agent that part of it would be temporary.
    Like I said earlier, this deal where people will not 
respond if it is not forever until Jesus comes back, the 1986 
tax bill was changed twice in 10 years, and it is still the 
gold standard for tax reform.
    Senator Corker. Thank you, Mr. Chairman, for deferring, and 
thank you so much for your continued contributions to all of 
us. Thank you.
    Senator Gramm. Thank you for your contributions.
    Senator Corker. Thank you, sir.
    Chairman Enzi. And I cannot possibly let him leave without 
asking this question: What overarching goals should Congress 
focus on when debating tax reform for individuals, for 
corporations, internationally? How do we ensure that these 
marginal tax rates incentivize growth?
    Senator Gramm. Well, the one thing I would emphasize, Mr. 
Chairman, is that everybody focuses on the 1986 act and what it 
did to marginal rates, but that was only part of its 
productivity. It also eliminated all kinds of subsidies in the 
Tax Code where people were incentivized to do all kinds of 
things that made no sense economically.
    So the first thing I would do is get rid of every provision 
that you can possibly get adopted in the current Tax Code that 
pays people to do things. All of the--and I know some of them 
reach almost religious fervor in terms of support some have for 
them, but to the extent that you can eliminate deductions and 
credits and subsidies, do it, and use the money to lower rates. 
That would be my first advice.
    I think we will have to assume that we are going to have 
some success. I do not think we can make this work assuming 
that after we lift regulatory burden and after we reduce tax 
rates and reform the system that we are going to have the same 
economy we have got now. If CBO is anything close to form, that 
is what they are going to assume.
    I do not think we can or should assume that. I think that 
will mean that the tax cut part of the reform will have to be 
for 10 years, but like I said, the greatest tax reform in 
American history was amended twice in 10 years. And, quite 
frankly, if it does not work, having it snap back may not turn 
out to be a bad idea.
    Now, my belief is if we are conservative, if, for example, 
we assumed that by implementing all these reforms, we could 
just get back to half of where we were for 60 years prior to 
January 20th of 2009, I think that is a conservative estimate. 
I believe that is doable.
    Now, we need to be relentless, and I just would throw in--
Senator Corker made the point about regulatory burden. 
President Reagan used to say to those of us that were involved 
in his program that we underestimated what they were doing in 
lifting regulatory burden. I did not pay a lot of attention to 
it, but looking back, he was right. Regulatory burden today is 
at least as big a problem as the Tax Code, at least as big a 
problem. And the arbitrariness of it in finance, there is no 
rule of law. The law is whatever the regulator says it is, and 
it is a terrible situation. And it wilts confidence, and it 
wilts investment. And if we change it, America will change.
    Chairman Enzi. Thank you. And the Democrats have invoked a 
rule. It means that this hearing has to end at 11:30. So in 
order of arrival, I have Senator Gardner, then Senator Crapo, 
then Senator Boozman, so if we can keep it as brief as 
possible.
    Senator Gardner. Thank you, Mr. Chairman. I am only going 
to use 14 of the 15 minutes left, so I will leave some time for 
everybody else, if that is all right.
    [Laughter.]
    Senator Gardner. No, I will be quick.
    Senator Gramm, thank you for your service. Thank you for 
your expertise before the committee.
    Just one question, and then I will make sure everybody else 
has time as well. Senator Lee and I have been working on 
legislation addressing the regulatory burden that you talked 
about, also addressing the deficit situation, the debt 
situation this country faces, by tying the issue of regulatory 
burdens on our businesses, which slow the economy, with the 
fact that we need a thriving economy in order to address our 
debt crisis. And so the idea that we have come up with is this. 
If we are faced--and we will be faced--with increasing the debt 
limit of this country again, then in order to increase that 
debt limit, shouldn't we then face and shouldn't we put in 
place some kind of a mechanism to spur economic growth at the 
same time? Because if you are just increasing debt without 
economic growth, it is a spiral that results in more broken 
credit.
    So the idea would be this--say you increase the debt limit 
by a trillion dollars. Then you would at the same time have a 
regulatory reduction, reduce the regulatory burdens on 
businesses by some percentage, so maybe you have a 15 percent 
reduction in the cost of regulations for every X amount that 
you increase the debt. So what do you think about that kind of 
approach, to find the regulatory cost, to limit that and use 
that?
    Senator Gramm. I think anything you can do to reduce the 
regulatory burden would be good. I think you might end up with 
some problems with Senate rules in trying to do that.
    Another idea that I have thought about is, what about 
adopting a 10-year debt limit increase, where you set out in 
law the debt limit for 10 years, where the debt limit falls to 
the increase would be zero in the tenth year?
    Senator Gardner. So it will snap back within the 10 years?
    Senator Gramm. So that then that would have two big 
advantages. One, you are voting for a balanced budget, which 
makes the vote a lot easier. Second, you would--even if 
Congress went over in a year, the number would not be so large 
as to make debate irrelevant. Today, the debt ceiling, the debt 
ceiling increase will be so large, there is no way you could go 
back and make changes in policy to deal with it. But here, they 
would be much, much smaller, and you might actually be able to 
control them. You could also keep up with it and basically stop 
bills saying this is going to take us over.
    And if I were a Member of Congress and we did that policy, 
I would just say, ``Look, I have increased the debt ceiling for 
10 years in 10 equal amounts. I am not going to do it again.'' 
So that, I think, would be a good approach to it.
    What happened on the debt ceiling, real quickly, because I 
think it is important, in World War I, they changed the law 
because they had to adjust the debt ceiling to be able to pay 
for bills, and it was real cumbersome. And so they let it be 
done over an extended period of time because they were spending 
so much money on the war effort.
    I wish we had gone back to the old system because what 
better way to stop spending than to make people vote to raise 
the debt ceiling to pay for it.
    You might go back, Senator, and look at the pre-World War I 
law and how it worked.
    Another nice reform would be to raise the debt ceiling and 
change the law, so beyond that point, any bill of any 
significance beyond what is in the budget, you would have to 
vote on a debt ceiling. And that would thin the ranks for 
spending.
    Senator Gardner. Thank you, Senator.
    Chairman Enzi. Senator Crapo.
    Senator Crapo. Thank you very much, Mr. Chairman, and I 
thank you for inviting Senator Gramm to be with us. Senator 
Gramm, it is welcome to see you. We miss you here. I am glad 
that we are getting some of your advice today because we still 
need your wisdom.
    I just want to go quickly into two things. I really want to 
get some numbers out, and I apologize. I was not here in the 
beginning, so you may have already said this. But how many 
years has it been since we have not achieved greater than a 2 
percent growth? Do you know, in the economy? I think it is 
approaching 10 years.
    Senator Gramm. Let me put it this way. There is no 
President in the last 135 years that has not achieved at least 
1 year of 3 percent growth in their presidency, and I say 135 
because annual data is not available before that. But I am 
convinced that if we actually had the annual data, that the 
Obama presidency was the first presidency in American history 
that never had a 3 percent economic growth in any single year.
    Senator Crapo. Well, I think you are headed where I am 
trying to get at. I believe that it is correct to say that we 
have not had an economic growth rate over 2 percent for at 
least 8 years, probably closer to 10.
    Senator Gramm. That is about right.
    Senator Crapo. And you have indicated that the average for 
the last, I think, 60 years was 3.4 percent?
    Senator Gramm. For the 60 years, from 1948 through 2008. 
That is counting the recession.
    Senator Crapo. Counting part of the recession, yeah.
    And I believe you have indicated that if there were--if we 
were able to achieve just half of that difference, that it 
would be over 2--how many----
    Senator Gramm. $2.3 trillion of revenues.
    Senator Crapo. Do you have the number of what it would be 
if we could actually get back to just the average?
    Senator Gramm. Yeah. 4.6.
    Senator Crapo. So if we were able to get back to just the 
average, we would have $4.6 trillion of additional revenue to 
the Treasury?
    Senator Gramm. Yeah. And the point I made in the testimony, 
Mr. Chairman, is that our policies in the last 8 years have 
been so dramatically different from our policies in the 
previous 60 years that you got to believe if we change the 
policies, that the problem is not America. The problem is its 
Government.
    Senator Crapo. Correct.
    Senator Gramm. We are getting Europe's results because our 
Government looks more and more European.
    Senator Crapo. And that leads to my next question, which is 
the regulatory burden, which you have already referenced. My 
understanding is that some of the analysis shows that the 
yearly cost of regulatory compliance in the United States is 
approaching $2 trillion. It is $1.8 trillion-plus cost per 
year. Now, that does not translate into its impact on the 
budget, on our congressional budget, but my question to you is, 
again--and I think you have discussed this--if we were to 
address the excessive regulatory burden that we have put on our 
economy in an effective way right now, that would also add to 
the generation of economic growth and revenue to the Treasury 
with which we could deal with our national debt. Correct?
    Senator Gramm. If you gave me a choice of eliminating the 
Obama-era regulatory burden or adopting the Trump tax reform, I 
would take eliminating the regulatory burden.
    Senator Crapo. I understand.
    Senator Gramm. I cannot overemphasize the fact that people 
cannot do business when they do not know what the rules are, 
that financial institutions are being shaken down in this 
country every day on trumped-up violations.
    You have got a Government bureaucrat sitting in the board 
room of every major financial company in America, like the old 
commissar from the Soviet Union was in the factory and on the 
submarine.
    Senator Crapo. Well, that is right, and I would want to----
    Senator Gramm. Government dominates everything in America.
    Senator Crapo. I want to get back at least 20 seconds of my 
time because we are running out for those who have not had a 
chance yet, but that is a critical additional issue, and I 
appreciate you bringing it----
    Senator Gramm. You do them both; we are going to get 
America back.
    Senator Crapo. That is right.
    Chairman Enzi. And people can ask, put questions in 
writing, which I am sure Senator Gramm would be happy to 
answer.
    And we have 3 minutes left. Senator Boozman.
    Senator Boozman. Let me just take a minute, Senator Gramm. 
Thank you for being here. We really do appreciate your work on 
this.
    You mentioned historical averages and things. The 
historical average of serving the debt is 5, 6 percent. So, if 
we heat up the other things, then we are going to have that to 
contend with. At what point do we have the balance of the debt? 
And this is an actuarial thing. This is something that we 
actually can figure out pretty easily. Where is the tipping 
point there?
    Senator Gramm. I do not know about a tipping point, but let 
me tell you, if the economy started to grow and interest rates 
rose, which they have in every recovery in the postwar period 
except this one, debt service costs are going to rise very 
rapidly. The Federal Reserve Bank is going to have to start 
sopping up liquidity by selling assets, and interest rates are 
going to rise.
    And just to give you a number, in the average recovery in 
postwar America, Government borrowed 1.7 percent a year in 
competing with the private sector. At normal interest rates in 
the fifth year of a full-blown recovery, Government would be 
borrowing 6.6 percent of GDP.
    We do not feel the problem because we do not have any 
growth, but if we had real growth, you are going to get the 
fever fast. And so what it is going to mean is, if we can get 
the economy going, we are going to have to deal with spending 
quicker than the political part of our country wants to deal 
with it. It cannot--we cannot let it pass.
    Senator Boozman. Thank you.
    No, no, no. I will yield to Mr. Kennedy.
    Chairman Enzi. I just got word from one of the attorneys 
that, looking at the Senate standing rules, it appears that we 
are exempt from the 2-hour rule. So, if you have another 
question, go ahead.
    Senator Boozman. Well, let me go ahead and take my time, 
then.
    The other thing is, again, looking at the historical 
average of our labor force, 1.4 percent historical average, we 
anticipate about a .5 percent. Arkansas now has very low 
unemployment rates. How is that going to--what do you do about 
that? How do you impact that with our ability to grow in the 
future?
    Senator Gramm. Let me give you a number. When the Reagan 
program was adopted, the disability rolls under Social Security 
plummeted.
    I hate to sound like a name dropper, but I used to could 
always get a smile from President Reagan by saying--when those 
numbers came out, I would show them to him. I said, ``Mr. 
President, people got up out of wheelchairs today and went to 
work.'' And that is not that farfetched.
    Our labor force participation is very low. It can go up and 
will go up if there are really good jobs out there and if we 
quit paying people not to work. Another thing we need to do 
desperately is--President Obama waived the work requirements in 
virtually every welfare program in every State in the Union. We 
need to put those requirements back.
    So I am not worried about Americans being willing to work 
if we are willing to provide the incentives for them to go to 
work.
    Senator Boozman. I appreciate you mentioning the regulatory 
burden and what it is doing to our community banks and the fact 
that we are moving into this European style of doing things, 
where you are really trying to take the risk out of capitalism 
with our community banks, and the regulatory burden that they 
are facing that is simply making it so difficult for small 
business, people with good ideas to be able to get out and 
actually make those come to fruition and create the jobs that 
we need.
    So thank you very much for being here.
    Senator Gramm. When you take the risk out of capitalism, 
you take the life out of it. That is the problem.
    Senator Boozman. That is exactly right. Yeah.
    Chairman Enzi. Senator Kennedy.
    Senator Kennedy. Senator, I am sorry I am late. I am going 
to take your testimony home and read it.
    I wanted to test a thought out on you as to why we are 
not--we are creating some jobs, but we are still about $6 
million short of where we ought to be in recovering from a 
normal recession, and the larger concern in my State in 
addition to jobs not being created is wages are not going up.
    I agree with you that part of that is the smothering of our 
businesses by regulations and rules, but we are growing at less 
than 2 percent. Pre-2008, for 30 years, we averaged about 3.1 
percent growth.
    The other problem, it seems to me, is productivity. We are 
rocking along at about 1 percent increase in productivity every 
year. It ought to be at least 2 percent.
    I have noticed that a lot of our businesses are making 
record profits, but they are not reinvesting. They are doing 
stock buybacks. They are paying dividends. And at least part of 
the problem, according to one economic theory, is that our 
capital is not being reinvested in plants, in machinery, in 
equipment, in technology, which means we are not creating jobs, 
and we are not increasing productivity.
    We have tried doing something about that on the monetary 
side. I think we have done just about all we can do and maybe 
even some harm. I do not see any choice but to address it on 
the fiscal side.
    Senator Gramm. Well, let me address the productivity thing. 
I think just to bring together the regulatory burden and the 
productivity, you have obviously seen the number that community 
banks have hired more compliance officers since the adoption of 
Dodd-Frank than they have hired loan officers.
    My son has a little hedge fund. Hedge funds had nothing to 
do with the financial crisis, but he now has a compliance 
officer.
    We have imposed all of these costs that in many cases do no 
good and often do some harm, and when we lift this regulatory 
burden, Americans have not run out of ideas. What has happened 
is that we have made it hard to do business. We have created 
tremendous uncertainties. We have got a regulatory apparatus 
that is hostile to business.
    There are people that want to milk the cow, and you can 
have a successful economy and do that. But you cannot have a 
successful economy if you are trying to do the cow harm, and I 
think what has happened is that we now have an environment 
where regulators are hostile to the very people they regulate.
    And I can remember when I was working in a bank. There was 
not an adversarial situation between us and the FDIC auditor. 
They were doing their job. We were supposed to be doing our 
job. They wanted us to be successful.
    I think all of that has changed. Money, we have proven the 
limits of monetary policy. Now we are going to prove the cost 
of it, but I do believe that fiscal policy is important. But I 
never thought 20 years ago, I would ever believe this: 
Regulation is the No. 1 problem in this country. It is bigger 
than the tax burden, and we need to deal with it. And thank 
goodness, the bills that were adopted in the last 8 years are 
all shells, where the regulator decides what the Volcker Rule 
rules, what the stress test tests, and that can all be changed. 
And we need to be relentless in changing it.
    And I do believe tax reform will help us. It just cannot 
make sense for us to have the highest corporate tax rate in the 
world, when you bring in State rates, 39 percent, when you can 
operate in Ireland for 13 percent. You are not serving your 
investors by doing business here.
    Senator Kennedy. I have received more complaints from my 
business people, small and large in Louisiana, about regulation 
than I have about the Tax Code.
    Senator Gramm. Oh, yeah.
    Senator Kennedy. Now, that does not mean they are happy 
with the Tax Code.
    In my opinion, some of these are fairly easy fixes. I have 
introduced a bill that says if you are a financial 
institution--bank or credit union--and you have less than $10 
billion in assets, you no longer have to comply with Dodd-
Frank.
    I asked Chairwoman Yellen in front of our Banking Committee 
when it was my turn to ask her questions. I said, ``Explain to 
me what the community banks, defined as less than $10 billion 
in assets, did wrong in 2008,'' and she said they did nothing 
to contribute to the meltdown.
    Now, I do not know if that bill will pass, but even former 
Congressman Frank has been quoted as saying, ``We went a little 
too far on the small institutions.'' I am not saying all is 
well with the larger banks, but I am saying that it has been my 
experience, these community bankers are relationship bankers. 
They do not do derivatives. They do not do mortgage-backed 
securities. They loan to small business people, and they are 
able to monitor their creditworthiness. And the average small 
bank is less than 100 employees. We have lost 1,700 of them, 
and the reason is they are having to sell or merge because of 
the regulatory cost, which ironically is creating institutions 
that have more assets which Dodd-Frank was supposed to help 
with.
    Senator Gramm. Yeah. Well, the big banks have gotten 
bigger.
    Senator Kennedy. Yeah.
    Senator Gramm. And the small banks have gotten fewer. That 
is true.
    Look, anything we can do to reduce this burden will have a 
big impact, and today, you cannot make a character loan.
    Senator Kennedy. That is right.
    Senator Gramm. Today, it is all formula-driven, and if your 
loan violates that formula, you are going to get called in one 
of the four or five audits you do a year. Imagine you are 
running a little bank, and you get audited four different 
times. So you have got to prepare for the audit for a week or 
two, and then you are audited for a week. And then for a week 
or two, you have got to respond to things they found that you 
got to correct. When you multiply that times four, you are not 
knowing your customer very well. You know your regulator real 
well.
    Senator Kennedy. You mean the commissar?
    Senator Gramm. Yeah. So how did we get into this mess, and 
how do we get out of it? Well, we got into it because there was 
an agenda that was waiting to happen.
    Senator Kennedy. Yeah.
    Senator Gramm. Dodd-Frank had nothing to do with the 
financial crisis. It was an agenda to have the Government 
dominate the banking system. It has been an agenda of the 
progressives for a hundred years, and they had the opportunity, 
and they got it. Now we are paying for it in lower growth.
    Now, they had the authority, and they did it, and people 
voted for them. So did people vote to do this? I guess you can 
say they did, but they did not know what it was going to cost. 
That is a point I would argue.
    And I think, again, on this regulatory thing, we need to be 
absolutely relentless. I just cannot state it too strongly. It 
is more important than anything else.
    Now, these other things are important. If we cannot get out 
of this 1.9 percent growth rate, we are never going to be able 
to deal with the financial problems of the country. You cannot 
balance a budget in America with the commitments we have made 
with a 1.9 percent growth rate. This cannot be done. So we have 
got to break out of this cycle.
    Senator Kennedy. Thank you, Mr. Chairman.
    Chairman Enzi. Senator Johnson has joined us. He is the 
other accountant, and he is the chairman of the Homeland 
Security and Government Accountability Committee. And they had 
a hearing, but theirs had to end because they did not have the 
same statutory capability that we do, so Senator Johnson.
    Senator Johnson. We have rules.
    [Laughter.]
    Senator Johnson. Well, thank you, Mr. Chairman. Senator 
Gramm, real great to see you here.
    I am sorry I missed the whole first part of this, but I 
think I can hop in. When we are talking about economic growth, 
I know a little bit about what it takes to grow a company. And 
I think you can kind of take that little micro example right up 
to a macro example as well.
    But from my standpoint, you certainly need security. You 
need the rule of law. You need to make sure that your physical 
location is safe and secure. It cannot be vandalized. You need 
labor. You need people to work, and then you need capital.
    Of course, I just came from a hearing on cybersecurity. So 
from a national level, you need a safe and secure national 
security and homeland security, but let us concentrate on labor 
and on capital.
    I come from the viewpoint, having come from a manufacturing 
sector in Wisconsin, in the last 6 years, I have not visited 
one manufacturing plant in Wisconsin that can hire enough 
people, not one. We have a real problem in terms of Wisconsin 
dairy, not having enough people to milk the cows, and they 
really rely on immigrants to do that.
    Can you just kind of address that situation 
demographically, what your thoughts are in terms of our labor 
pool, what is happening, why do we have such a low labor 
participation rate?
    Just an article in the Wall Street Journal today, even with 
a very tight labor market, we are not seeing real wage growth, 
not for years. What is causing that? I would throw a little 
editorial opinion in there. We have this regulatory burden that 
translates out to about $14,800 per year per household, might 
be a drag on wages, but just talk about the whole labor 
situation in America.
    Senator Gramm. Well, first of all, the work requirement has 
been waived in virtually every welfare program, every State in 
the Union. My guess is it has been waived in your State. We 
need to re-institute those work requirements.
    The eligibility standards on food stamps have been reduced 
dramatically, and the eligibility for disability under Social 
Security has been reduced dramatically. You have got some 
unions where 75 percent of their members get disability 
designation when they retire. This program is clearly abused.
    So we need to require people to work, able-bodied people, 
to get welfare or to at least go to school, and we can do all 
this stuff by computer. The labor force participation rate is 
down. I said it earlier--you were not here--that back during 
when the Reagan program first took hold, one of the most 
astonishing numbers was the number of people on Social Security 
disability declined. And I used to say, not totally joking, 
``People are getting up out of wheelchairs and going to work.'' 
So I think that is part of the problem.
    I think another part of the problem is we are wasting huge 
amounts of labor. There are high schools in my State where more 
people go to prison than go to college.
    If we reformed our education system, gave people a choice 
as to where they spent public money in educating their 
children, we could revolutionize the labor force in America. I 
wonder how many people in these schools, these failing schools, 
have got real ability. My guess is a lot of them, and that is 
something we could fix. These all require changes in policy.
    Senator Johnson. Well, also changes in attitude. I have 
always said we pay people not to work, which you have just 
addressed. We also tell all our kids, ``You have to get a 4-
year degree,'' which implies, being a carpenter or a laborer or 
somebody in the manufacturing sector, there is something wrong 
with that. So we need to stop denigrating the trades.
    But my final question is, just demographically, when you 
look at head--there is a great piece written by Nick 
Eberstadt--I think you are familiar with him--over at AEI. You 
can take a look at America long term in terms of our fertility 
rates. What do you think we need in terms of immigration and 
policies that really do promote people coming to this country 
to take advantage of the opportunity, but are here, that are 
coming into this country to work, and provide that labor that 
we are going to need? That is certainly what I believe we need. 
What are your thoughts on that?
    Senator Gramm. Well, let me just say one thing about the 
previous problem, and then I want to answer this question.
    There are a lot of things we could do to get Americans to 
work longer. I do not understand. That does not affect me one 
way or another, but why should we make somebody over 70 pay 
Social Security and Medicare taxes if they are still working? 
Why wouldn't we want them to keep working and get the benefit 
they have qualified for? So there are a lot of ways that we 
could get people to work longer by just making it easier.
    Look, America cannot be America without immigrants. This is 
an issue I am hard over on. I do not think people ought to come 
here illegally. Illegal immigration has a big problem: It is 
illegal. And I think we ought to gain control of our border.
    I am willing to build a wall. I got fences around my ranch. 
But we need people to come to America, and I think we ought to 
let people come that can bring things that help us, people that 
can bring the education they have, can bring the skills they 
have, can bring the capital they have. I want a vigorous legal 
immigration program, and I do not buy it. I am sorry. I just do 
not buy it that some brilliant engineer coming here from 
wherever is taking a job away from somebody.
    Senator Johnson. No, we need the best and the brightest, 
and by the way, I did introduce a piece of legislation that 
makes that legal immigration system governed by the States. I 
think States would be a better judge of what sectors they want 
them working in, what wage rates, to make sure we do not 
depress American labor, so I am on the same page with that.
    Mr. Chairman, you have been very indulgent. I appreciate 
it. Great hearing.
    Thank you, Senator Gramm.
    Senator Gramm. Thank you, Senator.
    Chairman Enzi. Thank you for coming, and thank you for all 
the complementary things that get done in your committee to 
what we are trying to do here, and we will have to work 
together on more of those.
    Senator Gramm, I cannot thank you enough for being here 
today, for your outstanding comments, and then your answers to 
questions.
    Incidentally, anybody on the committee that wants to submit 
questions can until close of business today, and we would hope 
that you would answer those for us too. Some of them would be 
more specific. I have some that will deal with a lot more 
numbers that I would appreciate someone putting together for me 
because it would be a help.
    But I love the ability you have to phrase things. You make 
it simple. You make it understandable. You even make the 
numbers seem exciting. Not many people have that talent. So I 
appreciate you making the case for doing something, doing a lot 
of things that would keep this country from imploding, and you 
have made some excellent suggestions, so thank you.
    Senator Gramm. Well, Mr. Chairman, I appreciated coming 
today. I am sorry that we got this dispute going on and we do 
not have our Democratic colleagues here.
    But let me say that just in conclusion that anybody that is 
writing off America is making a big mistake. We have stagnation 
because we have had bad policy. If we change these policies, we 
are going to change America, and anybody who does not believe 
that policy matters, all they got to do is look at the history 
of our country. America had better government, less of it, more 
efficient markets, and we took the huddled masses yearning to 
breathe free that nobody else in the world wanted and produced 
more empirical evidence of what you can do with a good system 
than any nation in history has ever done.
    So I do not understand how people can look you in the face 
and say, ``Well, our poor economy has nothing to do with the 
policies we followed for the last 8 years,'' or ``The good 
economy for the previous 60 years on average had nothing to do 
with the policies we followed there.'' I guess the Soviet Union 
did not collapse because of bad policies. Well, what did they 
collapse from? We have grown faster than Europe for our whole 
history. Is that just an accident? I do not think so.
    So I think these are the points we need to get back to, and 
you have been very flattering to me, because we are old 
friends, and I appreciate it. Thank you very much.
    Chairman Enzi. Thank you. I have got pages of notes here 
that I will have to go through some more, and I will be sending 
some more questions. Thank you very much.
    Senator Gramm. Thank you.
    Chairman Enzi. The hearing is adjourned.
    [Whereupon, at 11:52 a.m., the committee was adjourned.]

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following submitted questions were not asked at the 
hearing but were answered by the witness subsequent to the 
hearing:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



                    RUNNING THE GOVERNMENT FOR LESS

                              ----------                             


                        WEDNESDAY, MAY 17, 2017

                                       U.S. Senate,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:33 a.m., in 
room SD-608, Dirksen Senate Office Building, Hon. Michael B. 
Enzi, chairman of the committee, presiding.
    Present: Senators Enzi, Grassley, Crapo, Toomey, Johnson, 
Perdue, Gardner, Kennedy, Boozman, Sanders, Warner, Kaine, 
King, Van Hollen, and Harris.
    Staff present: Eric Ueland, Republican staff director; and 
Warren Gunnels, minority staff director.

         OPENING STATEMENT OF CHAIRMAN MICHAEL B. ENZI

    Chairman Enzi. I will call this hearing to order. Good 
morning, and welcome to all here. A packed house today. I 
apologize for being 4 minutes late. We had to get a bunch of 
bills out of Homeland Security today, and we did, I think about 
15 bills. That is a lot of roll calls.
    We are here today to discuss ways to reduce the operating 
costs of the Federal Government and make it more efficient and 
effective for hardworking taxpayers. Budgeteers and the entire 
Nation eagerly await next week's release of the President's 
full budget proposal. I expect it will kick off a new round of 
debates about whether various Federal Government programs 
should be increased, decreased, or eliminated.
    What is sure to get less attention are the numbers in the 
budget reflecting the overhead costs of running our Government, 
the hundreds of billions of dollars we spend each year as the 
cost of doing business. I am talking about the personnel, the 
procurements, the information systems, the payment processing, 
and the innumerable other low-profile expenditures that consume 
a surprisingly big portion of the budget, particularly of the 
discretionary spending totals that are hotly debated each year. 
These are costs that we tend to view as fixed and immutable 
while we debate the relative merits of more visible grant or 
transfer programs.
    But Congress' own support agencies have raised important 
questions about these operating costs. For instance, as the 
Nation's largest employer, the Federal Government paid $215 
billion last year to compensate a work force of more than 2 
million employees, and that is on the non-defense side alone. 
As the pie chart on the screen indicates, one-fifth of all 
discretionary spending is in that category.
    [Slide 1 follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    

    We will hear today about a new Congressional Budget Office 
(CBO) report that finds a significant disconnect between the 
compensation paid to Federal workers and that received by 
private sector counterparts with similar training and 
experience.
    The Federal Government is also the world's biggest 
customer, purchasing more than half a trillion dollars of goods 
and services annually. This includes, for instance, more than 
$80 billion spent on information technology systems that 
warehouse and process data. In light of the size and scope of 
Government purchasing, we should be alarmed by the host of 
inefficiencies the Government Accountability Office (GAO) has 
chronicled in Federal procurement practices. The GAO also 
informs us that in the normal course of business, the U.S. 
Treasury now issues more than $100 billion in improper payments 
each year. That is 93 percent of the $144 billion in improper 
payments issued last year that were overpayments in which we 
sent money to individuals or entities who either were not 
supposed to get it or got more than they were supposed to.
    As you can see from the chart up on the screen, more than 
three-quarters of these improper payments governmentwide are 
issued by just three programs: Medicare, Medicaid, and the 
Earned Income Tax Credit (EITC). It is important for Congress 
to ask if we are using taxpayer dollars wisely and operating 
the Government as efficiently and effectively as the managers 
of a private sector company would.
    [Slide 2 follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    

    Are the more than $1 trillion in improper payments reported 
since 2003 just a necessary cost of doing business? Or could we 
be saving tens of billions annually by reducing the error rate? 
Is it possible to better align Federal employees' compensation 
with counterparts in the private sector such that we are 
neither underpaying nor overpaying different types of Federal 
employees but, rather, compensating individuals appropriately 
and in accord with their skills, their training, their 
experience, and their work product?
    How much could we save if the Government effectively 
leveraged its economies of scale to purchase information 
systems and various other goods and services?
    We are fortunate to have before us today the heads of two 
major congressional support agencies that have both produced 
substantial bodies of work identifying ways the Government can 
operate in a more efficient and cost-effective manner. I hope 
that we can have a substantial conversation today about the 
budgetary implications of their findings.
    But before we hear from the witnesses, I will turn the 
floor over to the ranking member for his opening remarks.
    Senator Sanders.

          OPENING STATEMENT OF SENATOR BERNARD SANDERS

    Senator Sanders. Thank you very much, Mr. Chairman. And let 
me welcome Dr. Hall and Mr. Dodaro. We thank you very much for 
being with us.
    Mr. Chairman, we very much look forward to the hearings 
that will be held on the President's budget, and, obviously, at 
this point we do not know exactly what will be in that budget. 
But based on some of the information that we have seen from his 
so-called skinny budget and other proposals, including tax 
ideas, I believe that what we are going to be looking at are 
proposals way, way, way out of touch with where the American 
people are and where they want to go.
    These proposals will include hundreds and hundreds of 
billions of dollars in tax breaks for the top 1 percent at a 
time when we already have a massive level of income and wealth 
inequality. And while the President's budget will propose tax 
breaks for billionaires, the budget will also talk about 
massive cuts to Pell grants, to Head Start, to after-school 
programs, for the Meals on Wheels program, to the WIC program, 
which provides nutrition for low-income pregnant women and 
their babies.
    To my mind, the American people do not believe that the 
wealthiest families in this country deserve incredible tax 
breaks while we cut programs that the working people of this 
country desperately need. So I look forward to those hearings.
    Mr. Chairman, I wanted to say a few words this morning on 
some of the work that Dr. Hall and the folks at CBO have done. 
And as you know, they did an analysis of the original Trump-
Ryan health care bill, which was signed into law, and this is 
what the CBO estimated would happen. I think it is important 
that all Americans understand this. This is not from Bernie 
Sanders. It is not from Tim Kaine. This is from the CBO, and I 
would hope that if I am making a mistake, Dr. Hall, please jump 
in and tell me if I am incorrect.
    What the CBO reported was that an additional 14 million 
people would be uninsured in 2018. We are the only major 
country on Earth not to guarantee health care to all of our 
people. This legislation will result in an additional 14 
million people being uninsured. In other words, we are moving 
in the wrong direction. Instead of insuring more people, we are 
throwing people off of health insurance. An additional 24 
million people would be uninsured by the year 2026.
    Medicaid provides health insurance not just to lower-income 
Americans but about 60 percent of Medicaid funding goes to 
nursing homes, so when middle-class people are forced to see 
their parents enter a nursing home, Medicaid in many cases is 
paying that bill. Medicaid would see cuts of more than $800 
billion over the next decade, denying health insurance to 14 
million Americans.
    In 2026, as a result of that legislation, the original 
legislation that was proposed, a 64-year-old with an income of 
$26,500, an older worker, would see his or her premiums 
increase from $1,700 under current law to $14,600. This is 
somebody with an income of $26,000. Preposterous. More than 
half their annual income.
    According to CBO, if Planned Parenthood is defunded, which 
was in the legislation that was passed, ``The people most 
likely to experience reduced access to care would probably 
reside in areas without other health care clinics or medical 
practitioners who serve low-income populations.''
    So we should also be very clear that the so-called 
Republican health care plan that the House recently passed 
really in all honesty is not a health care bill at all. It 
continues the obsession of our Republican colleagues for tax 
breaks for the wealthiest people in this country. So we are 
throwing millions of people off of health insurance, raising 
premiums for older workers in a significant way.
    But here is the good news: If you are in the top 2 percent, 
the top 2 percent would receive a $299 billion tax break, and 
hundreds of billions more in tax breaks will go to large 
insurance companies, drug companies, and other corporate 
interests. That is what that bill is about.
    In my view, that bill--not my view. Poll after poll after 
poll shows this is exactly what the American people do not 
want.
    So, Mr. Chairman, I look forward very much to holding 
hearings here on that legislation, to holding hearings on the 
proposed President's budget, hearings on his tax proposals. And 
I thank you very much for holding this hearing.
    Chairman Enzi. Thank you for your comments, and we will be 
doing lots of hearings, and doing those, that will be a more 
proper time to debate some of those things. And it will be 
after the Senate input on it, too, which is always important.
    On today's hearing, we all agree that we need to strive for 
the most effective, efficient Government possible, and I think 
we are going to hear evidence from our witnesses in a moment 
that there is plenty of room for improvement and plenty of 
potential for budgetary savings. Both of our witnesses this 
morning have testified before this panel before, so I will make 
their introduction brief.
    Our first witness is the head of the Government 
Accountability Office, Comptroller General Gene Dodaro, and Mr. 
Dodaro was confirmed by the Senate back in 2010, and he has 
worked at GAO in a variety of capacities for more than 40 
years. He has probably lost track of how many times he has 
testified before Congress. But committees keep inviting him 
back because he is a great witness who always has a lot to 
teach us.
    Our other witness is Dr. Keith Hall, who is the Director of 
the Congressional Budget Office. Dr. Hall became the ninth 
Director of CBO a little more than 2 years ago. Before that, he 
was the Commissioner of the Bureau of Labor Statistics and, 
before that, the Chief Economist for the White House Council of 
Economic Advisers.
    We look forward to receiving the panel's testimony. Thank 
you both for joining us and being willing to share your 
expertise and, of course, any questions that might be submitted 
later by those who are not here or those who are here.
    So welcome, Comptroller General and Director of the CBO. 
General Dodaro, you can go ahead and present.

STATEMENT OF THE HONORABLE GENE L. DODARO, COMPTROLLER GENERAL 
  OF THE UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Thank you very much, Mr. Chairman. Good morning 
to you, Ranking Member Senator Sanders, members of the 
committee. It is a pleasure to be here today to talk about how 
the machinery of Government could operate more efficiently and 
effectively.
    I will focus my opening remarks on two pervasive 
governmentwide issues that I think should be the subject of 
this committee's oversight.
    First is the area of improper payments in the Federal 
Government. These are payments that should not have been made 
or were made in the wrong amounts. Since the Congress has 
required the executive departments and agencies to estimate the 
amount of improper payments every year since 2003, the 
cumulative number of improper payments that has been reported 
was in excess of $1.2 trillion. So it is a significant amount 
of money. The annual figures that have been reported have grown 
over the last 3 years from $125 billion to $137 billion to the 
most recent estimate in 2016 of $144 billion. This includes 
estimates for 112 programs at 22 Federal agencies, so it is a 
pervasive problem.
    As you pointed out, Mr. Chairman, in your opening remarks, 
three large Federal programs constitute the majority of 
estimated improper payments: Medicare, Medicaid, and the Earned 
Income Tax Credit. But there are a number of programs across 
Government where this problem is an issue. There are 14 Federal 
programs where there is over $1 billion reported in improper 
payments; 11 programs report estimates of over 10 percent error 
rates across the Federal Government.
    Now, as significant as these numbers are, they are 
understated. There are 18 risk-susceptible programs--large 
programs like Temporary Assistance for Needy Families (TANF), 
and for 2016, the SNAP program, Supplemental Nutrition 
Assistance Program, that did not report estimates at all. And 
there are some Federal agencies that do not report that they 
are susceptible to improper payments.
    So for a number of years now, we have identified a material 
weakness in our audits of the Federal Government's financial 
statements. This is because the Federal Government really is 
not able to determine the extent of this improper payment 
problem across the Government or have a reasonable prospect 
that it is managing it properly in order to reduce these 
improper payments.
    Now, we have many recommendations to Federal agencies, and 
some matters for Congress to consider in terms of legislative 
changes that I would be happy to talk about in the question-
and-answer period. So we think this is an area where there 
could be considerable savings and proper stewardship is needed 
over these programs.
    What I am very concerned about are the high rates in 
Medicare and Medicaid, which are two of the fastest-growing 
programs in the Federal Government. So these are areas that I 
believe require additional and more aggressive congressional 
oversight.
    The second area I wanted to mention is the Federal 
Government's investment in information technology, which has 
averaged over the years over $80 billion. In 2015, we 
designated it one of the high-risk areas across the entire 
Federal Government, for several reasons.
    One, there are continual cost overruns and schedule delays, 
and often the investments did not produce a material return and 
added little to mission outcomes of the agencies that have been 
investing in those IT programs.
    Now, the Congress passed the Federal Information Technology 
Acquisition Reform Act to give additional authorities to Chief 
Information Officers. It also required more transparency and 
risk management associated with the Federal Government's 
investment in information technology, and to reap more savings 
in consolidating agencies' data centers, and to eliminate 
duplicative investments in information technology. And so there 
is a lot that could be done.
    A troubling trend is of the $80 billion or so that is 
invested every year, a significant proportion of it goes into 
supporting existing legacy systems. Almost three-quarters of 
the $80 billion goes to support these old systems, some of 
which are 30, and in some cases almost 50 years old. And these 
older systems also introduce security risk.
    We also have designated cybersecurity across the Government 
as a high-risk area since 1997 and protecting critical 
infrastructure protections since 2003. So we identified the 
information technology area both in investments, not getting a 
good return on investment, as well as security. Both are 
disturbing issues that require attention.
    So I thank you very much for inviting me, and I look 
forward to answering questions at the appropriate time.
    [The prepared statement of Mr. Dodaro follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Enzi. Thank you.
    Dr. Hall.

STATEMENT OF KEITH HALL, PH.D., DIRECTOR, CONGRESSIONAL BUDGET 
                             OFFICE

    Dr. Hall. Senator Enzi, Ranking Member Sanders, and members 
of the committee, thank you for your invitation to testify at 
today's hearing.
    My written testimony is devoted to CBO's recent report on 
the compensation of Federal employees. The Government's 
personnel costs reflect the number of workers and average cost 
to employ them. For the past 30 years, the number of civilians 
employed by the Federal Government has not changed much but has 
been a declining share of the growing U.S. labor force. Federal 
civilian employees now account for just 1.5 percent of total 
employment.
    Our report compared Federal and private sector compensation 
from 2011 to 2015. We concluded that total compensation was, on 
average, 17 percent higher for Federal workers than for private 
sector counterparts, after accounting for geographic location 
and some other characteristics that affect compensation.
    However, the comparison varied by education level. For 
example, average Federal compensation for workers with a high 
school diploma or less was 53 percent higher than for similar 
private sector workers. But for workers with a professional 
degree or doctorate, compensation was 18 percent lower for 
Federal workers than in the private sector.
    In my remarks this morning, I would like to put personnel 
costs in a broader context to clarify their impact on the 
Federal budget. I will focus on potential efficiency gains in 
the executive branch agencies other than the Postal Service and 
Defense Department since funding for the Defense Department 
affects combat power in complex ways that warrant a separate 
discussion.
    To understand the potential for such gains, it is useful to 
distinguish administrative from programmatic costs. In some 
cases, efficiency gains might allow for reductions in 
programmatic costs. For example, new technologies that allow 
medical services to be delivered more efficiently could lower 
the cost of health care programs.
    More typically, efficiency gains involve reductions in 
administrative costs. For example, efficiency may be gained by 
combining the management structures of programs with similar 
goals. However, efficiency gains cannot eliminate 
administrative costs entirely. Certain levels of management 
staffing, for example, are needed to provide oversight and 
prevent fraud, waste, and abuse.
    Administrative costs are a relatively small part of the 
overall budget. In 2015, 87 percent of direct obligations by 
executive agencies--that is, spending that is not reimbursed by 
another entity--were in categories that were mainly 
programmatic. These categories include benefit payments, grants 
to States and local governments, and interest on the public 
debt. The remaining 13 percent of Federal spending fell into 
three categories, each of which represented a mix of 
administrative and programmatic costs.
    The first category, contractual services and supplies, was 
just 6 percent of spending. Most of that spending cannot be 
easily characterized as administrative or programmatic. 
However, payments for travel, transportation, rent, 
communications, and utilities were more likely to represent 
administrative costs.
    By comparison, contracts for research and development, the 
operation and maintenance of equipment, and the operation and 
maintenance of facilities, notably the Energy's Department 
National Labs, were more likely to represent programmatic 
costs.
    Members of Congress often ask CBO about the number and cost 
of people working under Federal contracts; however, the 
Congress has not required the executive branch to collect that 
information.
    The second category was personnel, which was 5 percent of 
2015 spending. Much of that spending for personnel was 
programmatic rather than administrative. For example, outside 
defense, the Department of Veterans Affairs (VA) employed the 
largest share of the Federal civilian work force. About 60 
percent of its employees worked in various medical professions, 
the most common of which was nursing. The Department of 
Homeland Security employed the next largest share, with the 
most common job being an inspector for the Transportation 
Security Agency.
    The third category, acquisition of assets and certain trust 
fund transactions, was 3 percent of spending. Non-defense 
assets are generally required for use in programmatic 
activities. The largest acquisitions in 2015 were in the area 
of international assistance, primarily capital contributions 
and loans to the International Monetary Fund. Assets can also 
be acquired for administrative support, such as in the case of 
software systems for payroll management.
    Improving the efficiency of Government is an important 
objective, but being CBO, I have to mention that given an aging 
population and rising health care costs, making a significant 
dent in Federal deficits would require broader changes in 
Federal tax or spending policies. To make such changes, 
lawmakers would have to increase revenues above amounts 
projected under current law, reduce spending for large benefit 
programs such as Social Security and Medicare, or combine these 
approaches.
    I would be happy to answer any questions you may have about 
our work on compensation. Thank you.
    [The prepared statement of Dr. Hall follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Enzi. Thank you.
    We will now go to the questions for the witnesses, and we 
do this in a particular order, who were here at the time of the 
gavel, and then order of arrival after that.
    I am going to defer my opportunity to ask questions, 
though, to Senator Grassley, who has some other things to get 
to.
    Senator Grassley. Thank you for that courtesy, Mr. 
Chairman.
    I am going to start with GAO. I always try to thank you 
publicly for all the hard work you do for the investigations I 
ask you to do because you give a great deal of credence to the 
things that we are trying to get information on, and 
particularly to fight the rest of the Federal bureaucracy.
    I have a question that you have already referred to in your 
comments. It is about some of these programs like SNAP or TANF 
not reporting. So I will not give the background because you 
know what it is.
    So a very simple question. Why is it that some programs are 
unable to even estimate improper payments? Is it a structural 
deficiency or a willful defiance?
    Mr. Dodaro. In the case of the Temporary Assistance for 
Needy Families Program, the Department of Health and Human 
Services (HHS) believes it does not have the statutory 
authority to ask the States for information to estimate 
improper payments. Now, the HHS Inspector General has 
recommended that Congress clarify that and make it clear in 
statute that they should do an estimate of improper payments, 
and I agree with that. I think Congress should act statutorily 
to require the TANF Program to develop an improper payment 
estimate.
    Now, the Supplemental Nutrition Assistance Program had 
reported improper payment estimates up through 2015, and then 
the program identified a problem with the quality of the 
information for State quality assurance programs in 42 of the 
53 States, including the territories. So program officials are 
trying to sort through what those quality assurance problems 
are right now, Senator Grassley, and I expect that once they 
do, they will be able to resume making estimates.
    Senator Grassley. Well, I think you gave me a job as a 
member of the Agriculture Committee when we have the next farm 
bill, which includes a lot with nutrition, to bring up that 
reporting requirement on the part of the States.
    A follow-up. How much improper payments are due to people 
defrauding the Government as compared to simple mistakes?
    Mr. Dodaro. It is hard to estimate the amount of fraud. All 
improper payments are not fraud. But all fraud is an improper 
payment by definition. And so it is hard to estimate the 
quantity that is fraud and that that results from errors. But 
we know there are instances of fraud, particularly in the 
health care area, and it is very important that the agencies 
have appropriate controls over payments. In some cases they 
identify the cause of the improper payments is insufficient 
documentation. It may be a paperwork problem, but it might be 
something disguising fraud. Just under 24 percent of improper 
payments are made because the agency has not been able to 
authenticate eligibility properly. That is a problem. And I 
think that agencies need to make more of an effort to ensure 
the payment is right in the first instance.
    Senator Grassley. And one question for you, sir. I 
appreciate the work that CBO does and has done to study the 
compensation of Federal employees compared to the private 
sector. This is what I find troubling, not about your work but 
about the report, the results. According to your analysis, the 
Federal Government is actually overpaying for low-skilled labor 
and underpaying for professional or high-skilled workers 
compared to the private sector. Much of the difference in total 
compensation is due to the cost of benefits, specifically 
defined benefit pension.
    Do you have any thoughts on how to undo this divergence? Do 
you have any suggestions to reverse the trend going forward?
    Dr. Hall. Sure, I appreciate the question. But, you know, 
CBO is very careful not to make recommendations, so we could 
talk about some possible proposals. If we had some proposals to 
work through, we could tell you how it would affect 
compensation, whether it would get you to where compensation 
was closer in the Federal Government to what is in the private 
sector. As far as recommending something, like I say, we would 
shy away from that because of our role.
    Senator Grassley. OK.
    Dr. Hall. Let me just say one thing, though, from what we 
have got as well. There have already been some changes in the 
defined benefit program that are going to have effect in the 
future going forward that are likely to reduce this 
discrepancy. It is the contributions by new employees on 
defined benefit. That contribution is now going up, and that is 
not having much of an effect yet. But once those people get 
into a decade or two decades to retirement, it is going to have 
an effect then, and that will by itself close the gap a little 
bit.
    Senator Grassley. OK. Thank you, Mr. Chairman.
    Chairman Enzi. Thank you.
    Senator Sanders.
    Senator Sanders. Thanks, Mr. Chairman. And, gentlemen, 
thank you both for your very informative presentations. I think 
we can say whether we are progressives or conservatives, we do 
not want to see Government wasting money. We want programs run 
efficiently.
    Mr. Dodaro, let me begin with you. I did find it 
interesting that you did not say much about the largest 
discretionary program in the country, the Department of Defense 
(DOD). The Pentagon currently has a $1.4 trillion acquisition 
portfolio, which currently suffers from more than $469 billion 
in contractor cost overruns. A cost overrun is a contractor 
promises a product at a certain price, ends up costing two or 
three times more.
    Furthermore, as I understand it, virtually every major 
defense contractor in the United States has reached a 
settlement with the U.S. Government because of allegations of 
fraud or have been outright convicted of fraud.
    So you have got huge cost overruns, and we are dealing with 
mega billion-dollar defense contractors who in many cases have 
been charged with fraud and reached settlements or been 
convicted of fraud.
    This is what the GAO said last May about the Pentagon's 
inability to manage its finances. It has ``adversely affected 
DOD's ability to control costs, ensure basic accountability, 
anticipate future costs, measure performance, prevent and 
detect fraud, waste, and abuse, address pressing management 
issues, and prepare auditable financial statements.''
    Tell me about the audit of the Department of Defense. Do we 
have one?
    Mr. Dodaro. No.
    Senator Sanders. Isn't that a little bit of a problem when 
you are dealing with a $600 billion-plus agency?
    Mr. Dodaro. It is a very significant issue. It is one of 
the main reasons we cannot give an opinion on the consolidated 
financial statements of the Federal Government. Senator, I 
would say that the business practices of the Defense Department 
need to be improved, and there is a lot of room for efficiency, 
not only in financial management; but also in weapons systems 
acquisition, inventory management, supply chain management, and 
business system modernization. All these areas are on the High-
Risk List that GAO keeps of programs across the Federal 
Government.
    Now, with regard to improper payments, we have found that 
DOD is not properly sampling and making good estimates of 
improper payments at the Department. We have made some 
recommendations to DOD. I think DOD needs to do a better job in 
that area.
    One of the biggest problems DOD has is they cannot identify 
all of its transactions.
    Senator Sanders. I understand that. But what I am hearing 
you say--and correct me if I am wrong--is this is a very, very 
significant issue that Congress needs to take a hard look at. 
We are talking about many billions of taxpayer dollars.
    Mr. Dodaro. Definitely. And I have been urging that for a 
number of years.
    Senator Sanders. Thank you very much.
    Dr. Hall, let me pick up maybe from a different perspective 
what Senator Grassley was talking about. As I understand it, 
your study indicates that lower-income workers are better 
compensated at the Federal level, but people with more 
education are not as well compensated as the private sector.
    Dr. Hall. That is correct.
    Senator Sanders. OK. Let me just make what is an obvious 
point. In this country today, we have a $7.25 Federal minimum 
wage. To my mind, and I think to most people's minds, that is a 
starvation wage. So we have got millions of workers flipping 
hamburgers, we have millions of workers all over this country 
earning 8 or 9 bucks an hour, and you know what? You cannot 
survive on 8 or 9 bucks an hour.
    So the Federal Government, for a number of reasons, says 
that we are going to hire lower-income workers, people at the 
bottom of the work chain, so to speak; we are going to try to 
pay them a little bit more so maybe they can pay rent and take 
care of their food.
    So I do not think this is all that shocking. The answer is 
not to lower, in my mind, wages for Federal workers. It is to 
raise the wages of lower-income workers all over this country, 
which is why I have proposed, with a lot of support, a $15-an-
hour minimum wage.
    And in terms of pensions, the goal, again, should not be to 
cut pensions for Federal workers. It should be to raise 
pensions and create a system where workers in this country, 
when they reach retirement age, know they have something in the 
bank. Today almost half of workers in America, Mr. Chairman, 
when they reach retirement, have no money in the bank when they 
retire, and this is a national crisis. We should not be talking 
about cutting pensions. We should be talking about a program to 
guarantee that when people retire they can live in dignity.
    Thank you.
    Chairman Enzi. Senator Kennedy.
    Senator Kennedy. Gentlemen, what do we do about it?
    Mr. Dodaro. Well, there are a number of recommendations 
that we have, and some of them require legislative solutions. 
For example, there is a Do Not Pay working system at the 
Treasury Department that a number of agencies can use. But they 
currently do not have access to the full death file that Social 
Security has. Social Security says it does not have the 
authority to give the Treasury Department the file that 
includes all State-reported data, so there are opportunities 
for matching that are lost.
    In the Medicare area----
    Senator Kennedy. Excuse me. You mean they do not have the 
legal authority?
    Mr. Dodaro. Yes, that is what the Social Security 
Administration (SSA) asserts. SSA does not have the legal 
authority to give the full death file to the Treasury 
Department because Treasury is not ``a benefit-paying agency.'' 
But we believe Treasury should have it and----
    Senator Kennedy. What would happen to them if they did? 
They would get put on double secret probation or something?
    [Laughter.]
    Mr. Dodaro. Well, some----
    Senator Kennedy. Why don't they just give it to them?
    Mr. Dodaro. SSA believes it does not have the legal 
authority. I recommend that Congress clarify that authority 
question.
    I have had running battles with a lot of agencies about 
them not feeling they have the legal authority to give GAO 
information. Fortunately, the Congress' act just clarified that 
in a bill that was signed into law this year to give us access 
to the National Directory of New Hires at the HHS Department 
that has the most current wage information so that we can 
compare it to programs that require eligibility based on 
income, to make sure people are self-reporting the right 
information.
    On Medicare and Medicaid----
    Senator Kennedy. May I interrupt you? I do not mean to. I 
just want to understand.
    Mr. Dodaro. Sure.
    Senator Kennedy. What are they afraid of? Since nobody ever 
gets fired around here, what are they afraid of?
    Mr. Dodaro. Well, you would have to ask Social Security 
directly about it. Social Security officials just will not 
share the data because they do not believe they have the 
authority to do it.
    Senator Kennedy. Excuse me for interrupting.
    Mr. Dodaro. That is OK. I am perplexed as well by the whole 
situation, and I empathize with your view. But I cannot compel 
Social Security to give the information. Only Congress can 
compel Social Security to give the information, and I have 
urged Congress to act in that regard.
    There are many things that could still be done. The 
Medicaid program in particular--there are a lot of 
recommendations that we have. The data that the Centers for 
Medicare and Medicaid Services (CMS) has to oversee that 
program is usually 2 or 3 years out of date. CMS needs better 
data. CMS could provide more information to the States from 
databases they use for Medicare matching that the States could 
also use for Medicaid matching. Also the managed care providers 
on Medicaid have not been under a regular system of audit. We 
have recommended that. CMS is supposed to start it this summer.
    With regard to the Earned Income Tax Credit, which is about 
a 24 percent error rate, we have recommended that----
    Senator Kennedy. That means--excuse me for interrupting.
    Mr. Dodaro. Sure.
    Senator Kennedy. That means that 24 percent of the people 
receiving checks should not receive them?
    Mr. Dodaro. That is the improper payment rate. Either they 
should not receive them at all, or they are not in the right 
amount, one of the two things. That is one of the higher error 
rates in the Federal Government.
    There are several things that could be done in this regard. 
One, Congress could lower the requirement for electronic filing 
of W-2 data. This past year, based on our recommendation, 
Congress required employers to provide W-2 information earlier 
to the Internal Revenue Service (IRS), in January. Previously, 
they were not getting it until March or April, which was too 
late to use for verifying tax returns. Congress also extended 
the deadline and instructed IRS not to pay refunds until 
February.
    Senator Kennedy. Let me stop you one more time. I am going 
to run out of time.
    Mr. Dodaro. OK.
    Senator Kennedy. And I do not want to go over.
    Mr. Dodaro. Well, I can give you a list for the record of 
all our recommendations.
    Senator Kennedy. Would you mind if I came to see you 1 day 
at your convenience and we could talk about this further?
    Mr. Dodaro. Sure. You can come see me; I will come see you. 
I would be happy to talk about it.
    Senator Kennedy. In the 40 seconds I have, I want to be 
sure I understand. I want to follow up on Senator Sanders' 
point. On defense spending, we do not have any idea about any 
improper payments because they are not providing it, the 
information?
    Mr. Dodaro. DOD has made some estimates. The estimates, in 
our view, are not accurate estimates. And in other cases, DOD 
is not making improper payment estimates. We have made 
recommendations along those lines. But, also----
    Senator Kennedy. That is extraordinary.
    Mr. Dodaro. Also, DOD is the only major department or 
agency that cannot pass a financial audit, and so that is 
something else that needs to be attended to. That is one of the 
reasons why DOD is having problems making improper payment 
estimates. They cannot document the full universe of 
transactions or provide documentation to support a lot of the 
transactions.
    One clarification, Senator Kennedy, on the Earned Income 
Tax Credit. The 24 percent is the amount of money, not 24 
percent of the people.
    Senator Kennedy. So it is even worse.
    Mr. Dodaro. That is one way to look at it.
    Senator Kennedy. Thank you, Mr. Chairman.
    Chairman Enzi. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair, and thanks to the 
witnesses. There is a lot of meat in the written testimony that 
we will use. A couple of things.
    First, I wanted to say to the chair I appreciated your 
comments, Mr. Chair. The ranking member, Senator Sanders, was 
addressing comments to you, Dr. Hall, about the CBO report on 
the American Health Care Act (AHCA), and the chair in 
response--and I appreciate this--said we will be doing lots of 
hearings after the Senate input, which is important. And I just 
wanted to underline that because a huge concern on this side of 
the aisle about the health care effort right now is that we not 
repeat what was done in the House. The bill that was put up 
before the House, there were not meaningful hearings on the 
bill where experts could testify, where patients, doctors, 
hospitals, small businesses could testify. Democrats did not 
get an opportunity to amend the bill.
    Contrast that with the Affordable Care Act in 2010, the 
extensive hearings, extensive opportunities for testimony. The 
Senate version of it had 145 Republican amendments that were 
accepted. And so I think a fear that we have had on our side is 
that in the Senate it would be done the same way, that there 
would be a small process, there would be a bill pushed to the 
floor, hopefully for a 51 vote, without hearing from patients, 
doctors, hospitals, insurance companies, small businesses, 
without letting the public see the debate, without allowing 
opportunities for amendments. This is the most important 
expenditure that anybody ever makes in their life, and it is 
also the largest segment of the American economy.
    So we recognize we are in the minority. We just want to, on 
behalf of our constituents and the American public, have an 
opportunity to see a CBO report, for gosh sakes, and hear from 
people and try to make sure we get this right. And so the 
comments of the chair that we are going to be having hearings--
and I think ``we'' meant generally in the Senate--hopefully the 
Health, Education, Labor, and Pensions (HELP) Committee on 
which I serve, hopefully the Finance Committee, possibly this 
committee, too, and we would do those after Senate input so 
that we do not make mistakes. I was very heartened by that, 
number one.
    A second question for each of you. When the 2017 budget 
deal was reached recently, the President said we might need a 
good shutdown of the Government in September. He said that via 
a tweet.
    Could either of you tell me whether you think a shutdown of 
the Government of the United States of America is a good thing?
    Mr. Dodaro. I would not endorse that at all. We looked at 
the shutdown that occurred in 2013, here are a couple 
observations that we made.
    One, the Bureau of Economic Analysis issued a report later 
saying it reduced the fourth quarter gross domestic product 
(GDP) by about 0.3 percent, so it had a short-term impact. A 
longer-term economic impact was not able to be determined 
because it just lasted, a 16-day period.
    We also looked at a number of agencies. The National 
Institutes of Health (NIH) had to close down clinical trials 
right away so people could not sign up for them. NIH eventually 
rectified that. A number of grant applications were put on 
hold. The Department of Energy had to lay off some contractor 
employees at their environment management facilities because 
the Department stopped work orders. So there were disruptions 
that occurred during that period of time.
    So I think it is better to keep the Government open, 
operating, and serving the American people.
    Senator Kaine. Dr. Hall.
    Dr. Hall. First, I would not want to offer an opinion even 
on something like that because of our role. But we have not 
done anything, exactly calculated the cost of a shutdown. We 
could do that at some point, but I would echo actually a lot of 
what Gene said. It did seem to have some small effect in the 
short run, economic effect that kind of faded over time. But it 
all depends, of course, on how long it lasts.
    Senator Kaine. Right. Thank you. Well, I would hope that we 
would all, having taken an oath to be part of this enterprise, 
we would all embrace the wisdom of the first Republican 
President, Abraham Lincoln, at Gettysburg, who said government 
by, of, and for the people shall not perish from the Earth, and 
I do not think that means perish for a minute or a day, much 
less 16 days or longer. So the notion of a good shutdown I find 
offensive.
    Let me ask you, Dr. Hall, could I have your written 
testimony here, but your verbal testimony, can you read me the 
last two sentences of it again? There was a point I wanted to 
ask you about, and I want to make sure I heard it correctly.
    Dr. Hall. I am guessing it was the part before, ``I would 
be happy to answer questions.''
    Senator Kaine. Yeah, you can skip that.
    [Laughter.]
    Senator Kaine. We do not view that as a sincere statement.
    [Laughter.]
    Dr. Hall. We will skip over that.
    Well, I will read you the last paragraph: ``Improving the 
efficiency of Government is an important objective, but given 
an aging population and rising health care costs, making a 
significant dent in Federal deficits would require broader 
changes in Federal tax or spending policies. To make such 
changes, lawmakers would have to increase revenues above 
amounts projected under current law, reduce spending for large 
benefit programs such as Social Security and Medicare, or 
combine these approaches.''
    Senator Kaine. And I thought that is what you said, and I 
think that is just an important point to underline. If we are 
going to deal meaningfully with budgetary issues, especially 
debt and deficit, there are a lot of good ideas in both this 
testimony about the way we can be more efficient, but these are 
big policy decisions, the taxes, the revenues, the programs, 
big policy decisions. And if we are going to deal with the debt 
and deficit, that is the way we are really going to deal with 
it.
    And with that, I do not have any other questions, Mr. 
Chair.
    Chairman Enzi. Thank you.
    Senator Perdue, followed by Senator Van Hollen.
    Senator Perdue. Thank you, Mr. Chairman, and thank you both 
for being here again. You are right in the vortex of probably 
the most critical crisis in American history, in my opinion, 
and that is this $20 trillion debt. Our Federal Government has 
grown from $2.4 trillion in 2000, the last year under President 
Clinton, to $3.9 trillion last year. As a percentage, it is 
21.6 percent of our GDP, outlays. We are only collecting about 
18.5 percent in revenue, which although is an all-time high 
relative in aggregate dollars.
    My questions, I have two things. I want to go to the HR 
personnel issues, but first, General, your report for years has 
been outlining excess spending, wasting spending, and all that. 
Government has proven that it is not very efficient. If you 
look at the VA, the Postal Service, Fannie Mae, Freddie Mac, 
the lack of an audit in DOD, the poverty rate today is about 
the same as it was in the mid-1960s. So some of these big, 
sweeping programs just have not worked, and part of it is the 
inefficiency inside the control that we are spending.
    You have identified somewhere between $200 and $400 billion 
over time relative to excess spending out of that $4 trillion. 
Is that a fair statement directionally?
    Mr. Dodaro. Yes. I would say----
    Senator Perdue. Can you give some granularity on that?
    Mr. Dodaro. Sure, sure.
    Senator Perdue. And here is my specific question. How much 
of that is mandatory, which is the $3 trillion we spend, and 
how much is discretionary, the $1 trillion? Can you break it 
out that way?
    Mr. Dodaro. First, in the reports you are referring to on 
overlap, duplication, fragmentation, cost savings, we have made 
in the first 6 years 645 recommendations; 51 percent of those 
have been implemented, and so far that has saved or will save 
$136 billion. So Congress has acted on a number of our 
recommendations. I am very pleased. There are, including new 
ones we added this year, about 300 or 400 open recommendations, 
and 61 specific recommendations to the Congress. Fully 
addressing the remaining recommendations could save an 
additional tens of billions of dollars. Some of that is in the 
entitlement programs, in Medicare and Medicaid. Some is in 
discretionary spending. I would have to go back and sort that 
through.
    Senator Perdue. What is the current outstanding potential 
reduction?
    Mr. Dodaro. Senator, I cannot give you a fixed number. It 
depends on what Congress and the agencies do in implementing 
the recommendations. All I could say is there are tens of 
billions of dollars in potential savings for sure. So far there 
has been $136 billion in savings. That gives you some order of 
magnitude of what could be achieved in the future, but I cannot 
put a number on it.
    But I also endorse what Keith has said. The real crux of 
dealing with our debt and deficit issue is dealing with the 
mandatory spending.
    Senator Perdue. Which is very interesting. Inside our 
budget process, which this committee sits over, that is not 
within our purview.
    Mr. Dodaro. I know.
    Senator Perdue. Our purview is the $1.1 trillion 
discretionary, and that is the reason for the question.
    Mr. Dodaro. Right.
    Senator Perdue. The potential is in the tens, maybe 
hundreds of billions of dollars of not waste but all the errors 
that we have in how we run the Government.
    Mr. Dodaro. Right.
    Senator Perdue. And the question is: How much is in the 
purview of the Budget Committee and how much is outside? I 
would love to come sit with you, and we will do that.
    Mr. Dodaro. Right.
    Senator Perdue. I will get on your calendar to follow up on 
this.
    Dr. Hall, it is interesting. The ranking member made a 
comment that the overpayments seemed to be--his implication was 
that it was mostly on high school and below, but let me ask you 
a question: Half the people that work for the Federal 
Government are GS-11, -12, and -13. Is that pretty much 
correct?
    Dr. Hall. Yeah, that sounds about right.
    Senator Perdue. That is exactly correct. It is your number.
    [Laughter.]
    Senator Perdue. So the question is: GS-11, -12, and -13, 
are they at minimum wage?
    Dr. Hall. No.
    Senator Perdue. They are not, are they? These are 
bachelor's, master's, generally people with some training. Is 
that correct?
    Dr. Hall. That is right.
    Senator Perdue. So their difference between the public 
sector and the private sector is about 21 percent in your 
study, if I remember correctly, with a bachelor's degree, just 
a bachelor's degree. And most of that difference was in non-
salary. It was in benefits.
    Dr. Hall. Right.
    Senator Perdue. Mostly the defined benefit plan. Most of 
corporate America has converted to a defined contribution plan.
    Dr. Hall. Right.
    Senator Perdue. And the Government is still in a defined 
benefit environment. That is one of the big differences between 
the two. My question is: What can be done relative to that 
potential, some $37 billion estimated? But I do not look at it 
that way. That is hard to get at. You have to have turnover, 
and when you replace people, they are coming into the same 
system.
    So my question is this: Are we able to compete for quality 
talent, A? B, do we have the wherewithal to continue to have 
the best and brightest? And what I mean is in corporate America 
if you do not perform, you do not stick around long. Do we have 
the ability in the Federal Government to continue to weed out 
nonperformers and adapt to this level of pay?
    Dr. Hall. I think those are exactly the right questions. 
You know, this study gives you some idea of where we are in 
comparison.
    Senator Perdue. Yes, sir. And it is very good, by the way; 
I have to say.
    Dr. Hall. But the bigger issue is are we able to recruit 
effectively and retain people who are high quality and that 
sort of thing. And I think this is a piece of that----
    Senator Perdue. Sorry to interrupt. Subtly different.
    Dr. Hall. Right.
    Senator Perdue. Not only those two things, but the third is 
are we able to--does the system always have the best and 
brightest move to the top? And are we able to remove people who 
are not productive?
    Dr. Hall. Right. That is probably an issue. We have not--I 
do not want to speak too much because we have not looked 
specifically about what if we changed some things, what would 
be the likely effect? But that is an important part of having 
an efficient Government, right? That people who are top 
performers get rewarded for that, and they stick around. You 
know, that is the issue of retention, I think.
    Senator Perdue. Are we able to incent outside of salary and 
benefits for people in specific situations for specific 
outcomes?
    Dr. Hall. Yeah, it is hard----
    Senator Perdue. I am thinking about an audit in the DOD, 
for one, by the way.
    Dr. Hall. Right. Yeah, I mean, it is hard to generalize, 
and this was just sort of one look. But I certainly think there 
are instances like that where it is difficult. I think 
particularly if you start looking at some occupations where it 
is already hard to hire people, it can be hard to keep people. 
And part of what I am saying is my personal experience. You 
know, I have had a lot of years in the Federal Government, and 
it is sometimes hard to keep really good people. That is 
probably true everywhere.
    Senator Perdue. It is. Well, thank you both. I am over my 
time. Thank you, Mr. Chairman. Thank you both for what you do.
    Chairman Enzi. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. I thank both 
of you for your testimony.
    Dr. Hall, I want to drill down a little bit on some of the 
comments you made about Federal employee compensation. You made 
the point that those with professional degrees were actually 
undercompensated relative to their peers. And Senator Sanders 
made the point with respect to pensions. And you indicated 
yourself that part of the difference in compensation--in fact, 
the largest component--is with respect to pensions.
    You also noted that this Congress has reduced the Federal 
contribution to pensions for new employees. If you are a 
Federal employee joining the work force just 2 years ago, you 
are at a much lower Federal contribution rate.
    So all the figures you have provided here are for the 
current work force in aggregate. Is that right?
    Dr. Hall. That is right.
    Senator Van Hollen. OK. It would be very helpful, I think, 
at least for me, if you could provide what those numbers would 
be in comparison, once this worked through the entire work 
force. Because if we are talking about long-term deficits and 
debt, as more people get hired at the lower pension rates, you 
are going to have a much lower differential. Isn't that right?
    Dr. Hall. That is right. And I think that is why it would 
be useful probably for us to look through----
    Senator Van Hollen. Right, I mean, the alternative would 
be, based on what you said, that we were cutting the pensions 
for current Federal employees, and this Congress made a very 
clear decision not to do that but to apply it on a forward-
looking basis, which is what we did, right?
    Dr. Hall. Right. That is right.
    Senator Van Hollen. OK. Let me ask you about contractors, 
because I noted you made a comment that we are not collecting 
information on the compensation that we are paying to 
contractors. Is that correct?
    Dr. Hall. That is right, although, for our purposes, 
contractors are recruited in the private sector and paid by the 
private sector. So it is not relevant for our particular study.
    Senator Van Hollen. Sure. But these are people doing the 
work of the Federal Government. They are being contracted--
their work is being contracted for by the Federal Government. 
And we have no idea, you are saying, what their compensation 
levels are, do we?
    Dr. Hall. That is correct. We do not.
    Senator Van Hollen. Because there is lots of evidence that 
the folks doing the work for the Federal Government in the 
private sector are getting much higher compensation than 
Federal employees. Have you seen any of that work?
    Dr. Hall. I have not. We have not looked at that.
    Senator Van Hollen. Let me ask you about the deficits and 
debt. CBO's March Long-Term Budget Outlook said, and I quote: 
``Large and growing Federal debt over the coming decades would 
hurt the economy and constrain future budget policy.'' You go 
on to cite a number of other problems that would create.
    So my question to you is very simple, which is: Do you 
agree it would be best for the economy if Congress' budget and 
tax decisions do not increase the Federal debt relative to the 
current baseline?
    Dr. Hall. The answer is without providing a recommendation, 
but yes, the sooner you start to work on this problem, the less 
dramatic a solution you are going to have somewhere down the 
line.
    Senator Van Hollen. Right, and I know a lot of my 
colleagues mentioned things like Medicare and Social Security. 
But isn't it the case that one of the largest categories of 
mandatory expenditures, according to CBO, is in the category of 
tax expenditures?
    Dr. Hall. That is correct.
    Senator Van Hollen. That is right. And, in fact, Mr. 
Chairman, on an annual basis we pay more in tax expenditures 
than we do on Social Security. Isn't that the case?
    Dr. Hall. That is correct.
    Senator Van Hollen. All right. My last question, Mr. 
Chairman, goes to something Senator Sanders raised with respect 
to analyzing the discretionary budget. It is a fact that the 
Defense Department budget is more than half of our 
discretionary budget. Isn't that the case?
    Dr. Hall. Yes.
    Senator Van Hollen. And you pointed out, Dr. Hall, that 
when you look at the compensation levels, $215 billion of that 
Federal civilian employee compensation is going to the Defense 
Department, and the next largest categories are in national 
security-related areas--veterans and homeland security. Isn't 
that right?
    Dr. Hall. That is right. Those combine for about 60 
percent.
    Senator Van Hollen. Right. So when you actually look at 
what we call ``the national security budget,'' it is even 
higher, right?
    Dr. Hall. Yes.
    Senator Van Hollen. Now, Mr. Dodaro, we have not seen the 
Pentagon pass an audit in recent memory, if ever. Isn't that 
the case?
    Mr. Dodaro. The Department or none of the major services, 
that is correct. Ever.
    Senator Van Hollen. Right. Well, they have been on GAO's 
High-Risk List since 1995. Isn't that the case?
    Mr. Dodaro. That is correct, the financial management 
aspects of DOD.
    Senator Van Hollen. And you are aware of a 2015 report by 
the Defense Business Board that found, and I quote, ``We can 
see a clear path to saving over $125 billion in the next 5 
years.'' Are you familiar with that?
    Mr. Dodaro. I am familiar with that report, yes.
    Senator Van Hollen. So I think all of us would like to see 
us spend what we need on our national defense and national 
security. We also all, I would hope, do not want to see money 
wasted there more than anywhere else.
    Can you talk about your assessment of how much taxpayer 
money is wasted at the Pentagon?
    Mr. Dodaro. I think there are a lot of opportunities for 
savings. For example, in strategic sourcing, we looked at 
private sector companies. They put about 90 percent of their 
spending on their strategic sourcing. That is where you look at 
spending patterns and you use leveraged buying power. The last 
time we looked at the Defense Department, less than 10 percent, 
maybe 6 percent was under that approach.
    Headquarters functions have grown for the functional 
commands over 50 percent over the few years. There are a lot of 
opportunities. Congress has already mandated reductions of $10 
billion in headquarters staffing functions over time.
    So there are a lot of opportunity for savings in DOD 
functions. I talked earlier about trying to get DOD to evaluate 
its payment processes for contractor pay and other areas. I 
think DOD needs to be able to come up with estimates on the 
amount of improper payments in areas of known risk.
    The compensation area needs to be looked at too. It is a 
big driver of cost.
    Health care expenditures are a big problem for DOD as well. 
In the TRICARE program, for example, DOD is not making improper 
payment estimates in the same way Medicare is doing it. DOD is 
not looking at whether TRICARE is paying only for services that 
are medically necessary. We have recommended that TRICARE 
improve its estimating methods.
    So there are a lot of opportunities for savings at the 
Defense Department.
    Senator Van Hollen. Thank you.
    Thank you, Mr. Chairman.
    Chairman Enzi. Yes, and now it is Senator Johnson's turn. 
He should have been much earlier because he was chairing a 
committee meeting that is the one that made me late, but 
probably the most----
    Senator Johnson. Sorry about that.
    Chairman Enzi. Probably the most efficient markup that I 
have ever seen, did about 15 bills in 30 minutes.
    Senator Johnson. That is what accountants bring to the 
table here. We bring efficiency, right?
    Chairman Enzi. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Our committee is embarking on a new oversight project. We 
are looking at--I think this is based on an Office of 
Management and Budget (OMB) report--unexpended funds at the end 
of fiscal years, both obligated and unobligated. And I think 
where we have hard data was for fiscal year 2015 we had $1.4 
trillion of obligated funds, $896 billion of unobligated funds 
at the end of the fiscal year.
    When they presented this to me, I was pretty well shocked. 
I am trying to--as long as I have got you both here, I just 
want to ask: Is there some explanation to this before we get 
too far into the weeds on this in terms of committee work? I 
will start with you, Dr. Hall.
    Dr. Hall. I do not know of any obvious explanation for it. 
I mean, certainly it makes sense to look at this sort of thing. 
But we have not looked hard enough----
    Senator Johnson. So you are not really aware of what all 
this is compromised of?
    Dr. Hall. No.
    Senator Johnson. General Dodaro, do you know what I am 
talking about here?
    Mr. Dodaro. Definitely. Every year once a President submits 
a budget, we review what certain agencies have in unobligated 
funds or carryover funds. Now, some of the time there is multi-
year money that is available for obligation and expenditure 
over multiple years.
    Senator Johnson. Again, that would be obligated, right? I 
mean, I can understand that. That would be we have approved a 
weapons program, and it is obligated over the next 10 years, 
correct? That would be the obligated portion, right?
    Mr. Dodaro. Well, sometimes there is multi-year money where 
the agencies have 2 or 3 years to expend the money; unobligated 
and obligated funds can be carried over into the next year. 
That is particularly true in the Defense Department and other 
areas.
    Senator Johnson. That would be obligated, right?
    Mr. Dodaro. No, not necessarily. The budget authority would 
still be available, but they have up to 2 or 3 years to 
actually obligate the money. So some of the carryover might be 
those sorts of authorities and funds.
    But we look and scrub certain agency budgets every year. In 
fact, one of the recommendations, when I testified before your 
committee last month, was about the Advanced Technology 
Vehicles Manufacturing Loan Program. We are suggesting there is 
about $4.2 billion, I believe, in that program that is still 
unobligated and that Congress could rescind that money.
    So in some cases where we identify the fact that the money 
is no longer going to be used, and Congress can rescind that 
money. And then sometimes if agencies have carryover money but 
are also asking for the same money for the next year, Congress 
can reduce the next year's spending on that program.
    Senator Johnson. Of the $896 billion of unobligated at the 
end of 2015, do you have any sense of how much that would be 
considered just sort of like a slush fund?
    Mr. Dodaro. Well, no, off the top of my head, I do not.
    Senator Johnson. We will be doing that oversight, and we 
will be----
    Mr. Dodaro. Well, we are very aware of the issue. We look 
at it systematically, and we would be happy to work with you in 
this area. I think it is a potential area that needs attention.
    Senator Johnson. So, Dr. Hall, I kind of want to get into 
one of my favorite topics, 30-year deficit, and I appreciate 
the work CBO does in doing projections. You always present it 
as a percent of GDP, which I think is a very relevant and 
important figure. But we do not buy hamburgers with a 
percentage sign. So, my staff has always worked, tried to work 
pretty closely with you to try and turn that into dollars.
    Dr. Hall. Right.
    Senator Johnson. Now, you do not do this every year, so I 
have been operating for the last couple of years saying the 30-
year projected deficit in dollars was about $103 trillion. Your 
most recent long-term projection we have converted into 
dollars, about $129 billion. And I do a one-page income 
statement on this, pretty well three components: about $18.5 
trillion of Social Security deficit in terms of what we pay out 
in benefits versus what we bring in in the payroll tax; $39 
trillion of deficit in Medicare; $64.5 trillion of interest on 
the debt.
    Just kind of comment. Is that roughly accurate in terms of 
dollars?
    Dr. Hall. That sounds right. I do not have the numbers in 
my head, but that sounds right.
    Senator Johnson. That is quite shocking, isn't it? And I 
would just point out that if you need more revenue, rather than 
looking to increase taxes, we need to grow the economy. I do 
not think it is widely known that, even with the meager 
economic growth we have had since 2009, revenue to the Federal 
Government has increased by about $1.1 trillion per year with 
meager economic growth. Correct?
    Dr. Hall. That is right.
    Senator Johnson. So, Mr. Chairman, from my standpoint we 
have to look at what can we do--and, of course, we had an 
excellent hearing here with former Senator Phil Gramm. You 
know, what is impeding that economic growth in our market? We 
talked about regulatory reform. It would be nice if we could 
get a bipartisan commitment to actually reduce that massive 
regulatory burden. We have to rationalize our tax system 
simplify it, make it pro-growth. And I would like to use our 
energy resources as well.
    But, again, I appreciate you for your good work. And, 
General Dodaro, we will definitely be working with you to 
figure out these unobligated balances which are, to my mind, 
pretty shocking.
    Thank you, Mr. Chairman.
    Chairman Enzi. Thank you.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. And, Dr. Hall, it 
is great to see you. Gene, it is great to see you. I also want 
to recognize that we have got a number of students from Woodson 
High School in Northern Virginia here. Maybe they can see some 
of the cooperation and ideas that we wrestle with.
    I would simply point out, before my friend Senator Johnson 
leaves the room, that we have had this debate a number of 
times, and I do believe we need to deal with our entitlements. 
But I would simply again point of the 34 industrial nations in 
the world, America ranks 31st in terms of total revenues as a 
percent of GDP. So I actually believe we have a combination of 
the worst: we have the worst, most complicated Tax Code with 
highest nominal rates, yet we on a relative basis, compared to 
all of our competitors, many of which have at least lower 
corporate rates, are way behind them in terms of revenues 
collected.
    But I want to try to drill down from the global to a little 
bit more of the mundane, and one of the areas that I get very, 
very frustrated with, Dr. Hall--and this is a CBO scoring 
change that took place I think around 2012, 2013, and it deals 
with the Veterans Administration leasing of facilities. Up 
until that time, the way those were scored was whatever the 
least cost happened to be that year, that would be what would 
be budgeted. That would be charged against the Government. Now 
CBO has changed the scoring mechanism where you have to, in 
effect, aggregate at least the budget authority for the whole 
10- or 20-year lease. I do not know any business around that 
would say you have to collect all of your 10- or 20-year lease 
payments before you enter into an agreement to provide in this 
case veterans' health care in areas that are desperately 
needed. There are 15-odd different VA facilities that have 
fallen into this category in a whole series of States--Maine 
being one. I know in Virginia we have got the fastest-growing 
veterans population down in Hampton Roads. This is down 
Virginia Beach and Hampton. Our VA facility is one side of the 
water. The growth is mostly on the other side, called the 
``South Side.'' We have been anxiously awaiting this new 
facility, 155,000-square-foot facility, for years.
    It is hard for me to explain to students, or anybody else 
for that matter, why rationally we cannot get those facilities, 
provide that health care, short of aggregating together 10 
years' worth of lease payments on the front end. No rational 
business would do that.
    So, Dr. Hall, I guess my biggest question is: Hopefully you 
are aware of this, and if you are not aware of this, will you 
commit to working with us so that we do not have to go through 
a whole legislative process to change your scoring framework, a 
scoring framework that did not exist prior to 2012, in a way 
that makes some rational approach to this?
    Dr. Hall. Yeah, we would be happy to follow up and talk 
with you.
    Senator Warner. Well, I want more than a follow-up 
commitment. I want a commitment that we are going to work this 
out and we are going to work through this issue, because we 
increased the spending on the VA, yet if we do not translate 
that into service for in this case veterans' health care, there 
is no way I can go back straight-faced and say we have got this 
facility, we have got to aggregate literally tens and tens of 
millions of dollars on the front end, when the actual lease 
payments on an annual basis do not affect the budgetary 
obligations of the Government in any bigger way.
    So I will take that as a commitment that we are going to 
work through this.
    Dr. Hall. Sure.
    Senator Warner. And the next time we visit, the legislation 
that Senator King and I and others, bipartisan, are working on, 
we will not need this because CBO will come to a rational 
conclusion.
    Dr. Hall. OK. We are happy to work with you.
    Senator Warner. I am going to take that as a yes.
    Gene, let me move to you for a minute. I really appreciate 
the fact that you raised the issue on IT modernization and 
legacy systems, and I think your testimony pointed out that 
this is, again, one of the things that people scratch their 
heads. This is almost the reverse of the VA issue. We spend $88 
billion a year on IT at the Federal Government level, I think 
your numbers, of which $75 billion of that are basically 
patching old legacy systems. Senator King and I sit on the 
Intel Committee. We had a brief yesterday on vulnerabilities in 
cyber. Every time you patch, beyond the fact that you have an 
old legacy system that is out of date, but every time you patch 
you create more cyber vulnerability.
    So, you know, Gene, I would love to hear from you. What do 
you think ought to be the ratio in terms of actually investment 
in new systems in IT versus simply patching? And we have got, 
again, some bipartisan legislation that would allow us to kind 
of--again, the reverse, aggregate the dollars so you can go 
ahead and buy those new legacy systems rather than simply 
patch--junk some of those legacy systems and buy new IT systems 
rather than patching.
    Mr. Dodaro. Well, in some cases some of those systems are 
not even supported by the vendors anymore, so I am not sure 
they are even being patched, which is an additional problem. I 
think you ought to have at least about a third in new systems 
and investments to get the best use out of technology. I will 
go back and look at it and give you a better number based on 
private sector practice. But these legacy systems are a 
millstone around the agencies' necks, and are creating a lot of 
cyber problems.
    I mentioned in my statement that we identified 
cybersecurity as a high-risk issue in 1997. This is the 20-year 
anniversary. I have been trying to get agencies to focus----
    Senator Warner. That is when you were still young.
    [Laughter.]
    Mr. Dodaro. That is right.
    Senator Warner. You were only a lieutenant general at that 
point.
    Mr. Dodaro. We have over 1,000 open recommendations that we 
have made to agencies to fix their cybersecurity issues, and 
they have not yet attended to those issues. And this is in the 
face of all these known breaches and other cybersecurity 
problems. We need a cultural change in dealing with these 
activities, and I am very concerned about them because I think 
we remain highly, highly vulnerable. But we have got to get out 
of the legacy systems mode.
    In my statement there is a table of the oldest systems in 
the Government. Some are over 50 years old. You talked about 
VA. The system used for scheduling of VA patients for 
appointments right now is over 30 years old. And we have got to 
go to commercial solutions for a lot of these areas, which I 
think will result in new technologies coming in faster. And the 
Government cannot build them anymore. They ought to buy more in 
that area.
    Senator Warner. Thank you Mr. Chairman.
    Chairman Enzi. In regard to your leasing problem, you and I 
need to get together on capital budgeting.
    Senator Warner. I support that.
    Chairman Enzi. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you all 
for being here. We appreciate your hard work.
    Mr. Dodaro, I was really pleased in your testimony in 
regards to improper payments. As you said, in fiscal year 2016 
those added up to more than $144 billion with around 93 percent 
of those being overpayments. When you look at the deficit for 
that same fiscal year, it was $587 billion. Would it be 
accurate to say that this means that closer to a quarter of our 
deficit in fiscal year 2016 could be attributed to improper 
payments?
    Mr. Dodaro. The numbers work out that way. I am not sure 
you could save all $144 billion at once. I do not think we can 
solve our deficit by reducing improper payments alone.
    Senator Boozman. No, no, no. But I guess my point and your 
point--and I think it is a point that we need to emphasize--is 
that, you know, that is something that being more aggressive in 
that area, that is something that would save a lot of money.
    Mr. Dodaro. Oh, definitely. I think you would save a lot of 
money. It would make it easier to deal with our long-term 
problems. It will not solve it.
    But on the other side, we have a tax gap of over $400 
billion on an annual basis of revenue that should be coming in 
that is not. So we have money going out the door that should 
not and revenue not coming in that should. Both of those things 
would help.
    Senator Boozman. Let me ask you a follow-up on cyber, which 
is so important. One of the things in dealing with Homeland, I 
hear reports that perhaps we make a contract, and then with the 
procurement process that goes on, we are getting this up-to-
date version of whatever we need to do, OK? But with the 
procurement process the way it is, it might be 4 or 5 years 
until that works out, and then what we wanted, which was up to 
date at that point, is no longer up to date. Is that a fair 
statement?
    Mr. Dodaro. There is a lag time in that area that I think 
is important, and I think----
    Senator Boozman. Any lag time--and, again, I do not mean to 
interrupt, but any lag time in that area, with the technology, 
we simply have to figure out with things like that how to have 
a more efficient process, or we waste a tremendous amount.
    Mr. Dodaro. Right. What we have suggested--and this is the 
policy of the administration now for a while--is incremental 
development where an IT project is delivering functionality 
every 6 months. If agencies use that approach, they can stay 
more up to date rather than have these multi-year procurement 
efforts to try to purchase a system that by the time they get 
it, it is out of date. So if agencies use more incremental 
development, they can stay more up to date.
    Senator Boozman. Now, I am hearing even with software 
updates that it might take 2 years to get a software update on 
a piece of equipment in the sense of----
    Mr. Dodaro. That seems awful long to me. I would have to go 
back----
    Senator Boozman. It seems awful long to me.
    Mr. Dodaro. I am not sure that that is always an accurate 
statement. Agency officials might say that. But they could 
purchase a lot of this software and updates off the General 
Services Administration (GSA) list. So, I would have questions 
about the procurement strategy first. But if that is the case, 
it is too long.
    Senator Boozman. OK. Very good.
    One of the charts in your report points out a 76 percent 
error rate within the VA Community Care Program. As a member of 
the Senate Veterans' Affairs Committee, that is bothersome. As 
we focus on the future of these programs and undertake the 
consolidation of community care, are there specific reforms you 
believe could be helpful in getting these improper payments 
under control?
    Mr. Dodaro. Yes.
    Senator Boozman. What do we need to do about it?
    Mr. Dodaro. Well, VA needs to follow the Federal 
Acquisition Regulations. That is really the reason why many 
payments in that program are improper payments judged by the 
Inspector General at the VA. So VA has to follow the rules like 
we require everybody else to.
    Senator Boozman. Very good. Well, that is simple enough.
    [Laughter.]
    Senator Boozman. Thank you, Mr. Chairman.
    Chairman Enzi. The ever patient Senator King.
    Senator King. Thank you, Mr. Chairman.
    First, I want to say you two gentlemen are unsung heroes. 
You do your job professionally, straightforward. In a sea of 
partisan politics, you manage to go through it with grace and 
aplomb, and I appreciate that--except, Dr. Hall, your hero 
designation has an asterisk. We have got to fix this lease 
problem with the VA that Senator Warner talked about. If we can 
get that straightened out--because we have got veterans in 
Maine that want and need care, and we have got a program ready 
to go, and I think this is an accounting issue, and we ought to 
be able to resolve that. So if you want to get your full hero 
status, work with us to get that taken care of.
    [Laughter.]
    Senator King. Mr. Dodaro, you and I talked about this 
sometime before. It is not in your report today, but as I 
recall, there is also a figure for undercollection of taxes.
    Mr. Dodaro. Yes.
    Senator King. What is that number?
    Mr. Dodaro. That number, the net tax gap is $406 billion. 
That is an----
    Senator King. A year?
    Mr. Dodaro [continuing]. Annual estimate. A year.
    Senator King. So $406 billion a year of undercollections, 
about $145 billion of improper payments, add those together, 
interestingly enough, it is almost--well, it is slightly above 
this year's projected deficit.
    Mr. Dodaro. Yeah, both are significant issues, and we have 
many recommendations to address both.
    Senator King. And I appreciate that, and I have seen your 
recommendations. Let me skip to what was going to be my last 
question. You have got all these recommendations. How do we 
systematically be sure that they are implemented? You mentioned 
slight frustration that you have made the recommendations; you 
have got all these agencies. Don't we need somebody in the 
Government whose job it is to wake up every morning and be sure 
that these things are done, somebody in OMB or the White House 
or someplace?
    Mr. Dodaro. I have met with Director Mulvaney. I have sent 
him a letter of open recommendations. I am meeting with all the 
new heads of departments and agencies. I am sending them a 
letter with open GAO recommendations that required priority 
attention of their agencies.
    Senator King. My experience is that unless someone has the 
responsibility for making these things happen----
    Mr. Dodaro. Right.
    Senator King. If it is only eighth on their list of 
everything else they have got to do, it is not going to happen.
    Mr. Dodaro. I agree with that. And you could charge OMB 
with doing it within the executive branch. With all due respect 
and at risk of losing my hero status, a lot of this has to be 
done by the Congress.
    Senator King. Well, I would like your recommendation as to 
how we might further--not in detailed implementation, but is 
there some structural way that we can get at the problem of 
lack of implementation of your very good suggestions?
    Does the $144 billion of improper payments, or what we call 
them, does that include any estimate of the same thing in the 
Defense Department?
    Mr. Dodaro. Only to a limited extent.
    Senator King. It does not. So I assume there is another 
fairly large number there.
    Mr. Dodaro. There could be. And you could have a small 
error rate with the size of DOD's payments and have a very 
significant number.
    Senator King. Yeah, their total budget is about equal to 
the rest of the Federal Government budget.
    Mr. Dodaro. For discretionary spending.
    Senator King. Right, right. Roughly, yeah.
    Mr. Dodaro. Right.
    Senator King. I am interested to note that your estimate on 
improper payments, 75 percent are in three areas: Medicare, 
Medicaid, and the EITC. So that suggests that that is where we 
should be concentrating our attention to get 75 percent of the 
savings.
    Mr. Dodaro. Right. And we have recommendations for the 
EITC, for example, and Congress can act on this. Number one 
would be to give Treasury authority to require more electronic 
filing of W-2s. In mid-February, there were still 17 million 
paper W-2s sitting at SSA that had not gotten to the IRS yet, 
and they could have used such information to review EITC 
claims.
    Second would be to give IRS correctable error authority. 
This would allow IRS to correct tax returns that do not match a 
database that is already in the Government.
    And third is to give the IRS the authority to regulate 
unenrolled tax preparers. For tax returns prepared by an 
unenrolled tax preparer, the error rate for refundable tax 
credits----
    Senator King. I noticed that was one of the big----
    Mr. Dodaro [continuing]. Is higher than people who file 
their own returns themselves. And it is a big part of the 
issue.
    Senator King. Well, not to mention the fact that processing 
an electronic return is about a tenth as expensive as a paper 
return.
    Mr. Dodaro. Right.
    Senator King. I remember when we switched in Maine to 
electronic, and it made a huge difference just in the overhead 
of the department.
    Procurement. I am on the Armed Services Committee, and 
procurement is one of our biggest issues, particularly in Armed 
Services, but throughout the Government. You mentioned it. I 
would say that the Federal procurement system is Byzantine, 
except I would not want to insult the Byzantium Empire.
    [Laughter.]
    Senator King. We have really got to have some kind of 
systematic review of how we do procurement, because my sense is 
it has built up over the years in a kind of accretion way, all 
the rules, regulations, safeguards, prohibitions, to the point 
where--well, for example, we have learned in Armed Services 
that Silicon Valley will not deal with the Pentagon. The small 
and innovative companies just do not want to be bothered 
because it is such a hassle, even though they could be 
contributing significantly to our national security.
    My time is up, but better IT investments, that gets to the 
procurement piece, I think. And as I say, I think in the end we 
have got to have some systematic way--there has got to be 
somebody whose job it is, the saving czar or something--I do 
not know what you want to call them--whose job it is to chase 
these things on a consistent basis. Otherwise, it will just 
fall down into the nether world of various agencies.
    Oh, I had one more question. Do you have a number for 
return on investment in the IRS in terms of undercollection? In 
other words, for $1 invested in the IRS in enforcement, what is 
the return to the Treasury?
    Mr. Dodaro. The Commissioner of IRS says 1:4. You know, for 
every $1 invested, $4 are returned. The caveat I would give on 
that is that IRS does not have enough return on investment 
(ROI) information for specific types of enforcement strategies.
    Senator King. Right.
    Mr. Dodaro. Providing IRS with additional money will 
eventually produce more revenue. But is IRS really maximizing 
the investment that the Congress is making in them to maximize 
that return on the investment? We have said they could do 
better in that regard.
    Also, on enforcement of our recommendations, there is a 
bill that Senator Johnson and Senator McCaskill are working on 
with a lot of our open recommendations for cost savings, and so 
I would just mention that to you as well. They have committed 
to follow up on those recommendations that are addressed to 
Congress.
    Senator King. Thank you very much. Thank you for your 
testimony.
    Mr. Dodaro. Sure.
    Senator King. Mr. Chairman, thank you, and I am looking 
forward to working with you on capital budgeting.
    Chairman Enzi. Thank you. Thank you for your variety and 
excellent questions.
    As an accountant, I am always interested in that number of 
how many dollars are collected versus how much is spent. And it 
does not do any good if you spend just as much as you collect.
    Senator King. I would like to see it go toward Federal 
deficit reduction.
    Chairman Enzi. The accounting firms usually have a much 
better return, but as the Comptroller said, it is because they 
are more selective in who they are auditing. And we have more 
general rules on how they have to do this audit, which means we 
are not going after the worst first, which I think could 
increase it.
    I will not always be leaving my time until last, even 
though I always have to stay for the end of the hearing.
    [Laughter.]
    Chairman Enzi. But I am always pleased with the variety of 
questions that we get and the variety of information that you 
folks have at your fingertips.
    On the Federal IT, we did pass in 2014 the Federal 
Information Technology Acquisition Reform Act, which we were 
hoping would take care of some of the problems. What is the 
status of that implementation? Has it resulted in cost 
reductions yet for the Federal Government? Any estimates on how 
much?
    Mr. Dodaro. There are not any estimates yet on how much has 
been saved, but it is being implemented. If effectively 
implemented, I think it would lead to a lot of improvements.
    One thing I am concerned about, Senator, in this regard is 
that that legislation was to give the Chief Information 
Officers more authority to make sure that they approved the IT 
budgets, and they had a role in the procurements, and that is a 
little bit of a mixed record so far. We are looking at that. I 
think that requires some more oversight by the Congress.
    Also, data center consolidations were supposed to improve 
and lead to cost savings. So far it has saved a couple billion 
dollars. There are more savings to be had there, but the 
agencies are not setting aggressive numbers. We think there 
could be more savings in data center consolidations.
    Also, on portfolio management, there has been a little bit 
of a retrenchment of what agencies think they could save. So we 
are looking at that issue, and it is a very important part of 
what GAO is doing.
    So we will provide you regular status reports, but so far 
it is off to sort of a mixed start, and it is to be determined 
how much will be saved.
    Chairman Enzi. Well, sometimes those things just need a 
little bit of emphasis. Maybe we need to add the emphasis.
    Mr. Dodaro. That would help.
    Chairman Enzi. Thank you. I am going to switch over to the 
pension system now because some people have recommended that 
the pension system be changed to a defined-contribution-only 
plan. Very few private sector companies continue to offer 
defined benefit plans for new employees. How might such a 
conversion score in a budget window? This is for Dr. Hall, of 
course. I assume that the current scoring rules would be a 
problem because any savings would appear outside the budget 
window.
    Dr. Hall. Right, sure. In this case, of course, details 
matter, sort of how it is phased out and how defined 
contributions are set and that sort of thing. But you are 
right, in defined benefit, the savings would take place once 
people retire, so it would be often outside the 10-year budget 
window, while the drop in revenues would occur now. So on the 
10-year budget window, phasing out a defined benefit plan would 
look like a loser over 10 years when, in fact, some of the 
benefits would occur outside the 10-year window, and over a 
long time period it would not look that way.
    Chairman Enzi. One of the reasons we are looking at 
pensions in general is that we require private firms to invest 
money and we have requirements on how much so that there is 
relative assurance that when their employees retire, they will 
get what they were owed. And we discovered that in the Federal 
Government, very little money is contributed by the employees, 
and none of it is invested. So as we run out of money in the 
Federal Government, our pensions, our employees' pensions, the 
administrative branch's pensions, your pensions are not really 
guaranteed. So we need to be taking a look at the entire 
pension system for the Federal Government, and I guess that 
would include the military as well, because we really do not 
budget anything in a mandatory way. We do it out of 
discretionary. And that could create a few problems.
    Again, for the Comptroller General, in the improper 
payments, they could get worse before they get better. Are 
there lessons that we can learn from the private sector, such 
as using some enhanced data analytics to prevent the improper 
ones? Are agencies making the best use of the Do Not Pay 
initiative that was designed for this purpose?
    Mr. Dodaro. First, there are definite lessons that the 
Federal Government can learn from the private sector. Over the 
past several years, I have convened forums that involve various 
people from the Federal, State, and local level as well as 
private sector to get ideas about doing this.
    There is a Health Care Fraud Prevention Partnership that 
involves private sector insurance firms along with HHS and 
others. They have identified hundreds of potential fraud 
schemes and also have led to savings in the Federal Government.
    So I think the private sector definitely has a lot to 
offer, and it is very good to have partnerships. For example, 
the American Council on Technology and Industry Advisory 
Council is a nonprofit educational organization that includes 
private sector entities. We are going to be working with them 
to focus on health care fraud and ideas that the private sector 
has to resolve that. OMB is participating and Treasury as well.
    Now, with regard to the Do Not Pay working system, we have 
found that it was only used in limited circumstances. It could 
be used more. We made recommendations to OMB to have a strategy 
to get agencies more involved in using the Do Not Pay working 
system. And we also made a recommendation to the Congress in 
order to amend the Social Security Act so Social Security could 
give all the death records to Treasury's Do Not Pay program to 
match against.
    Chairman Enzi. Thank you. Thank you, both of you, for all 
of your answers today. Comptroller General, on those open 
recommendations that you have, if you could supply us with a 
copy of that as well.
    Mr. Dodaro. I would be happy to, Mr. Chairman.
    [The referenced information follows:]
                  Use of the Do Not Pay Working System
    (1) To help ensure that agencies use the Do Not Pay (DNP) working 
system--a centralized data-matching service--to help reduce improper 
payments, we recommended that OMB:
    --develop guidance that clarifies whether the use of DNP's payment 
integration functionality is required and--if required--the 
circumstances and process in which agencies may obtain an exemption 
from this requirement.
    --develop a strategy--and communicate its strategy through 
guidance--for how agencies should use the DNP working system to 
complement existing data matching processes and whether and how 
agencies should consider using the DNP working system to streamline 
existing data matching. Such guidance may cover how agencies should 
demonstrate that their data matching processes meet the requirements in 
the Improper Payments Elimination and Recovery Improvement Act of 2012, 
whether agencies can decide on their own which specific databases to 
use, and how agencies should use the functionalities available through 
the DNP working system.
    --provide additional guidance that outlines when and how agencies 
should verify DNP matches against a secondary source and provide 
individuals an opportunity to contest before taking adverse actions as 
a result of DNP matches.
    --develop and implement monitoring mechanisms--such as goals, 
benchmarks, and performance measures--to evaluate agency use of the DNP 
working system.
    (2) We also suggested that Congress should consider amending the 
Social Security Act to explicitly allow SSA to share its full death 
file with Treasury for use through the DNP working system, which could 
strengthen agencies' efforts to prevent improper payments to deceased 
individuals.

    Chairman Enzi. Thank you.
    And I would remind members of the committee, even the ones 
that are not here--I do not know how they hear it, but if they 
have questions or if anybody has additional questions, if they 
submit them by close of business today, we will pass those on 
to you for additional information or clarification.
    Thank you very much for your participation. This hearing is 
adjourned.
    [Whereupon, at 12:01 p.m., the committee was adjourned.]

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following submitted questions were not asked at the 
hearing but were answered by the witness subsequent to the 
hearing:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



            THE PRESIDENT'S FISCAL YEAR 2018 BUDGET PROPOSAL

                              ----------                             


                         THURSDAY, MAY 25, 2017

                                       U.S. Senate,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:47 a.m., in 
room SD-608, Dirksen Senate Office Building, Hon. Michael B. 
Enzi, chairman of the committee, presiding.
    Present: Senators Enzi, Grassley, Crapo, Graham, Toomey, 
Johnson, Corker, Perdue, Gardner, Kennedy, Boozman, Sanders, 
Murray, Stabenow, Whitehouse, Warner, Merkley, Kaine, King, Van 
Hollen, and Harris.
    Staff present: Matthew Giroux, Republican deputy staff 
director; and Warren Gunnels, minority staff director.

         OPENING STATEMENT OF CHAIRMAN MICHAEL B. ENZI

    Chairman Enzi. Good morning, and welcome to all. I will 
call this hearing to order.
    We are here today to discuss the President's budget request 
for fiscal year 2018. I know my colleagues and I have been 
anxiously awaiting the arrival of President Trump's first real 
budget submission. We are pleased to welcome Director Mulvaney 
to hear in detail from him the fiscal aspirations of the 
President and answer questions. We are interested to learn how 
the President proposes to grow our economy and help put our 
fiscal house in order.
    Of course, this is merely the first step in the 2018 budget 
process. While the President has his plan, the United States 
Constitution instills Members of Congress with key tax and 
spending functions and with the responsibility to ultimately 
decide what our Nation's fiscal priorities will be.
    Budgets are an incredibly important part of governing 
because they are the fiscal blueprints for the Nation. It is 
crucial that Congress and the President work together to 
confront rapidly growing deficits born from our Government's 
habitual overspending which plagues America and its taxpayers.
    Over the past 8 years, even as Government took in record 
revenues and taxes, our Nation was still unable to live within 
its means. Since 2009, our Nation's gross Federal debt doubled 
to almost $20 trillion today. To put that in perspective, this 
is larger than the entire U.S. economy and cost taxpayers, even 
with today's historically low interest rates, $241 billion in 
interest payments last year.
    The Congressional Budget Office (CBO) says these interest 
costs will continue to grow and reach $768 billion in 2027 
alone. That is in 1 year. This chart shows the growth of the 
interest rate, and I think they are using some pretty 
conservative interest rates. This amount is based on a 
conservative assumption of future interest rates. CBO tells us 
that a 1 percentage point increase in interest rates any year 
would drive up Federal deficits by a further $1.6 trillion. 
Soon, paying interest on America's debt will become one of the 
largest functions of Government and is poised to represent more 
than we spend on important national priorities like defense, 
education, infrastructure, and our social safety net.
    [Slide 1 follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    

    In other words, these billions upon billions in interest 
payments for the money we have already borrowed will soon crowd 
out our ability to execute our core responsibilities as a 
Government.
    To make matters worse, our automatic spending on mandatory 
programs continues to grow unchecked. In 1967, it represented 
just 32 percent of the budget. But in 2017, it represents more 
than 69 percent. By 2027, it will represent more than 77 
percent of total spending and will consume nearly every single 
penny of revenue that the Government collects. On that chart, 
the gray is the mandatory, the red is the interest, and you can 
see on the revenue that is projected that we will be borrowing 
absolutely everything that we have for defense and nondefense 
by 2027. That means our entire discretionary budget which 
Congress actually debates each year will be completely deficit 
financed.
    [Slide 2 follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Ceding this level of congressional budgetary responsibility 
is not an outcome that Jefferson and Madison could have 
possibly envisioned for our country at its inception. We all 
know that our current debt burden is unsustainable. We are in 
the worst fiscal shape since World War II, and if things do not 
change, we will add another $10 trillion to our debt within 10 
years.
    Even this budget getting to balance adds $5 trillion to the 
debt. We must do better. Congress can help Washington become 
more accountable to hardworking Americans by spending taxpayer 
resources efficiently in order to improve or eliminate 
Government programs that have received little oversight or are 
simply not delivering results. That chart shows some of the 
unauthorized spending that we are doing at the moment. In 2016 
alone, we spent more than $310 billion on unauthorized 
programs.
    [Slide 3 follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    

    Just last week, this committee held a hearing with the 
Comptroller General of the Government Accountability Office, 
which is the Government's top watchdog. He outlined hundreds of 
billions of dollars in savings that can be achieved by reducing 
improper payments or by consolidating duplicative programs. I 
have a little example on that chart of some of the duplicative 
programs. For instance, in housing, there are 160 programs 
administered by 20 different agencies. Nobody is in charge. No 
goals are set. No oversight is done. It is hard to tell if 
anything is really happening with the money, and probably those 
could be condensed down.
    [Slide 4 follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    But I understand the daunting task of slashing $6 trillion 
to get to balance. But I appreciate the effort that has been 
put into this President's budget, realizing the daunting task 
of how you get there.
    I look forward to hearing more from Director Mulvaney about 
how the President's budget will help improve accountability of 
the Federal Government and will strongly support efforts to 
improve and eliminate Government programs that are not 
delivering results. It is also crucial to allocate taxpayers' 
resources effectively so that programs with the best 
performance receive more funding and poorly performing programs 
receive less or none at all.
    I applaud the aggressive approach contained in the 
President's budget to reorganize and reform both programs and 
Federal agencies to ensure that they are both effective and 
efficient. I would also like to commend the President and 
Director Mulvaney on proposing a budget that balances. It has 
been years since the White House has even attempted a balanced 
budget. But here in this very first budget proposal, President 
Trump has provided a plan to get to balance. You may not like 
how he had Director Mulvaney get there, but I am looking for 
suggestions. Please, instead of complaining, share some ways to 
make a difference or at least something that you like.
    This year, we have taken the important first step forward 
in helping to change the way we do business here in Washington 
by focusing on the importance of a balanced budget. The reason 
this work is so important is because we must restore the trust 
of the American people in their Government.
    I will yield the floor to Ranking Member Sanders.

          OPENING STATEMENT OF SENATOR BERNARD SANDERS

    Senator Sanders. Mr. Chairman, thank you very much, and, 
Director Mulvaney, thanks very much for being with us this 
morning. And I would agree with the Chairman on one point. We 
must restore faith with the American people and their 
Government. Sadly, this budget does exactly the opposite.
    The Trump budget that was introduced this week constitutes 
a massive transfer of wealth from working families, the 
elderly, the children, the sick, the poor, the most vulnerable 
people in our country, to the top 1 percent. It follows in the 
footsteps of the Trump-Ryan health care bill which gives 
massive tax breaks to the people on top while throwing 23 
million people off of the health insurance they currently have 
and dramatically raising premiums for older workers.
    This is a budget which says that if you are the wealthiest 
family in America--the Walton family of Walmart--you can get up 
to a $52 billion tax break through the repeal of the estate 
tax.
    Let me repeat that. The wealthiest family in America could 
get up to a $52 billion tax break.
    But at the same time, this budget says that if you are a 
lower income senior citizen, you will not be able to get one 
hot nutritious meal a day that is currently provided to you by 
the Meals on Wheels program.
    This is a budget that says that if you are the second 
wealthiest family in America, the Koch brothers--a family, by 
the way, that has contributed hundreds and hundreds of millions 
of dollars into the Republican Party--your family can get up to 
a $38 billion tax break. But at the same time, if you are a 
working-class young person trying to figure out how you can 
possibly go to college, your dream of a college education will 
disappear because of $143 billion in cuts to student financial 
assistance programs.
    This is a budget which says that if you are a member of the 
Trump family, you may receive a tax break of up to $4 billion. 
But if you are a child of a low-income family, you could well 
lose the health insurance you currently have through the 
Children's Health Insurance Program and massive cuts to 
Medicaid.
    When Donald Trump campaigned for President, he told the 
American people that he would be a different type of 
Republican, that he would take on the political and economic 
establishment, that he would stand up for working people, that 
he understood the pain that families all across this country 
were feeling. Well, sadly, this budget exposes all of that 
verbiage for what it really was: just cheap campaign rhetoric 
that was meant to get votes, nothing more than that.
    At a time when the very rich are already getting much 
richer while the middle class continues to shrink, this is a 
budget of the billionaire class, by the billionaire class, and 
for the billionaire class. This is a budget which will make it 
harder for our kids to get a decent education, harder for 
working families to get the health care they desperately need, 
harder to protect our environment, and harder for the elderly 
to live out their retirement years in dignity.
    This is not a budget that takes on the political 
establishment. This is a budget of the political establishment. 
This is the Robin Hood principle in reverse: You take from the 
poor, and you give to the very rich. The reality is that the 
budget that President Trump has proposed would break virtually 
every promise he made to working people of this country.
    Among many other promises that it breaks is not only 
massive cuts to Medicaid, but cuts to Social Security. This 
budget would make massive cuts to Social Security for people 
who have severe disabilities, children who have lost their 
parents, and the poor. And, Director Mulvaney, please do not 
tell me that the Social Security Disability Insurance Program 
is not part of Social Security. Let us be clear. Social 
Security is not just a retirement program. It is an insurance 
program that protects millions of Americans who become disabled 
or lose their parents at a young age.
    The chairman said we have got to restore faith with the 
American people. He is exactly right. The way to do that is to 
totally reject this budget and create a budget that works for 
working families in this country, not just the billionaire 
class.
    Thank you, Mr. Chairman.
    Chairman Enzi. Thank you, Senator Sanders.
    Our witness this morning is Mick Mulvaney, the Director of 
the Office of Management and Budget. Having only been confirmed 
by the Senate on February 16, 2017, it is safe to say that 
Director Mulvaney has had a busy few months. Prior to his time 
as the Director of OMB, he served the people of the 5th 
District of South Carolina as their Congressman, where he was 
first elected in 2010. During his time in Congress, he served 
on both the Budget Committee and the Joint Economic Committee.
    We look forward to receiving your testimony, Director 
Mulvaney. Please begin.

 STATEMENT OF THE HONORABLE MICK MULVANEY, DIRECTOR, OFFICE OF 
                     MANAGEMENT AND BUDGET

    Mr. Mulvaney. Chairman Enzi, Ranking Member Sanders, 
members of the committee, thank you so much. It is wonderful to 
be back here in this wonderful room to present to you the 
President's fiscal year 2018 budget. The title on the cover is, 
``A New Foundation for American Greatness.'' As you can 
imagine, I spent a lot of time in this document over the course 
of the last couple days and weeks. I wish now that I had 
changed the title on the cover. I wish that the title was ``A 
Taxpayer-First Budget.''
    As I went through it, I said, OK, we have got this title, 
we have got this name. It is the ``New Foundation for American 
Greatness.'' What is new about it? And one of the things that 
is new about it is that we actually did look at the 
expenditures through the eyes of the people who pay for it. I 
think for too long we have probably just looked at the impact 
on the folks receiving taxpayer dollars and not nearly enough 
time focusing on the folks who pay taxpayer dollars. And that 
is new in this budget this year.
    What else is new? It balances within 10 years, something 
the previous administration was incapable or unwilling to do 
for their 8 years in office. It is an opportunity for us to 
have a conversation about borrowing money. We do borrow money 
in this budget, as President Obama did before us and President 
Bush did before him. We do something unusual when we compare it 
to the previous administration. We actually have a plan to pay 
it back, because if you borrow money, if you take money from 
people and have no intention and no plan of ever giving it back 
to them, that is not debt. That is theft. And that is what the 
previous eight budgets offered by an administration did--took 
money with no prospect ever of giving it back to the people 
from whom you borrowed it. And we changed that because we have 
a plan for how to borrow money in the short term and then start 
to pay it back to the people. Every single man, woman, and 
child in this room owes the Federal Government $60,000. My 17-
year-old triplets, $60,000. Every single one of your 
constituents, $60,000.
    You might be able to look them in the eye and say, ``That 
is OK.'' The President decided to look them in the eye and say, 
``You know what? That is not right. It cannot go on forever.'' 
We have to have a plan for figuring out how to start paying 
back the money that we have borrowed from people for all of 
these years.
    The next word in the budget was ``foundation,'' and I tried 
to come up with what was the foundation, what we were trying to 
get to when we picked that word. What was the foundation for 
American greatness? And the foundation for American greatness 
is 3 percent growth. Every single time I am in the Oval Office 
talking to the President, whether it is on budgets, tax policy, 
trade policy, energy policy, regulatory policy, those 
discussions are driven by one goal and one goal only: How do we 
get America back on track in the economy?
    There are some folks who believe--and many of those folks 
happen to work in the Congressional Budget Office--that 1.9 
percent growth is the best we can do forever. We refuse to 
accept in this administration that pessimistic view of the 
future. We refuse to accept that the new normal is 1.9 percent, 
especially when the history of this Nation is above 3 percent. 
And that goes back to the founding. You can go back to World 
War II, if you want to. For some reason, some of us want to 
accept the fact that we will only ever grow at below 2 percent 
growth again. If you are in this room today or watching this 
and you are 30 years old, you have never had a job as an adult 
in a healthy, a truly healthy American economy. And an economy 
at 3 percent is so much different than an economy at 2 percent, 
it is hard to described except like this: In the 1990s, when I 
was a younger man, we had excellent growth in this country. We 
had it under a Democrat administration and a Republican-
controlled Congress. If you got fired back then during a 
healthy American economy, you could find another job easily. If 
you did not like your job, you could quit and start your own 
business. That type of optimism dies in a 1.9 percent economic 
growth world, and we need it back. And everything we do in this 
administration, including the principles in this budget, are 
designed to get us back to 3 percent growth.
    We do all that, by the way--it is still from the 
President's priorities. We have talked about them before: 
national security, border security, law enforcement, veterans, 
school choice, paid parental leave--I hope we get a chance to 
talk about that today--infrastructure, money in here for that, 
we can talk about that.
    We do not touch Social Security retirement or Medicare. I 
look forward to having that discussion. We also focus, Chairman 
Enzi, on unauthorized programs, $310 billion. One of the 
questions I ask, if you think it is so important, why don't you 
vote to reauthorize it? I think that is a fair question when 
you look at this through the perspective of the people who are 
paying for it.
    I have enjoyed watching all the politicians on TV this week 
saying, ``Oh, we wish we spent more money on this program,'' 
and the program is unauthorized. And I cannot go back to the 
taxpayers and say, ``Yes, I want to spend more money on a 
program that Congress does not care enough about to even vote 
on anymore.'' That is no longer defensible.
    So we do all that, and we balance the budget within 10 
years because we look at the Government differently. We are no 
longer going to measure compassion by the number of programs or 
the number of people on those programs. We are going to measure 
compassion by the number of people we get off of those programs 
and back in charge of their own lives. We no longer measure 
success by how much money we spend but by the number of people 
we actually help. And that is the last part of the budget, 
which is American greatness.
    So, anyway, with that, Mr. Chairman, I look forward to the 
hearing today. I look forward to answering your questions. I 
hope I do a decent job with it. And I appreciate the 
opportunity to be here to present the President's budget.
    [The prepared statement of Mr. Mulvaney follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Enzi. Thank you. You are one of the few people 
that ever finished up a minute ahead of time.
    [Laughter.]
    Mr. Mulvaney. I am from the House. We only get 5 minutes 
over there, Mr. Enzi. Seven minutes is very generous.
    Chairman Enzi. Now we do turn to questions, and I will 
explain the process to committee members. Each member will have 
5 minutes for questions, beginning with myself and then Senator 
Sanders. Following the two of us, I will alternate questions 
between Republicans and the minority. All members who were in 
attendance when the hearing began will be recognized in the 
order of seniority. For those who arrived after the hearing 
began, you are on the list in order of arrival. If your turn is 
on the list to be recognized and you are not available, you 
will be moved to the bottom of the list, and the next Senator 
on that side will ask questions. So we will start the 
questions.
    Director Mulvaney, the President's budget reduces deficits 
for OMB's pre-policy baseline by $5.6 trillion. While $3.6 
trillion of this deficit reduction is directly scored to 
policies in the budget, the rest is estimated to come from 
economic feedback. Specifically, the budget projects more than 
$2 trillion in increased revenue from increased economic 
growth.
    What initiatives in your budget do you expect will lead to 
that growth?
    Mr. Mulvaney. Thank you, Mr. Chairman. When Secretary 
Mnuchin, Director Cohn, and I, as members of the so-called 
troika, sat down shortly after I was sworn in, we had a chance 
to look at the CBO numbers that proposed or projected that 1.9 
percent growth. And then we asked ourselves, OK, what are we 
going to do to get that number to 3 percent? That $2 trillion 
worth of additional revenue you mentioned comes from the 3 
percent economic growth throughout the 10-year budget window. 
And so we said, OK, we are going to have tax reform. That 
should increase gross domestic product (GDP). We are going to 
have regulatory reform, which we actually thought had a larger 
increase on GDP than tax reform. We are going to have new trade 
policies. We are going to undo Obamacare, and according to the 
Congressional Budget Office, repealing Obamacare actually added 
to the GDP growth in this country because even the 
Congressional Budget Office recognized that the passage of 
Obamacare created a disincentive for people to work.
    So that is what we did. We went through our policies line 
by line, and depending upon the values that we assigned to 
them, we actually came up with some numbers that were higher 
than 3 percent. The President did mention numbers higher than 3 
percent on the campaign. But we settled on the 3 percent 
growth. We thought it was a conservatively defensible number.
    Chairman Enzi. Thank you. In one of the supporting volumes 
of the budget, I found a truly startling figure. According to 
your documents, in the 10 years ending in 2016, non-independent 
agencies added about $78 to $115 billion in estimated annual 
costs through the finalization of new regulations. And this 
does not capture the entire regulatory burden as regulations 
such as those stemming from the Dodd-Frank Act are imposed by 
independent agencies.
    How does this budget propose to review those rules to 
lessen their impact on the economy and prevent such buildup of 
regulations in the future?
    Mr. Mulvaney. We have actually already taken steps in that 
direction, Chairman Enzi. Shortly after I arrived, OMB reviewed 
and approved an Executive order to address the regulatory 
climate in a couple of different ways.
    Number one, we instituted a one-in, two-out rule, that 
before agencies introduce a new piece of regulation, they have 
to go back and look at two that get off of the books.
    By the way, it has been extraordinarily difficult to do 
that. As we have been through the process, what we have learned 
is it is not that hard to slow down an agency on creating new 
regs. But when you ask an agency, a bureaucratic agency that is 
designed to created regs to start to deregulate themselves, it 
is really, really--it is a muscle that they have not used for a 
long time, if ever. So we have been a little bit surprised by 
the challenges in looking for those two out. So we think we 
have done a pretty good job so far of slowing down the new 
regulations into the pipeline, but we are going to work very 
hard to make sure we spend as much energy on getting old regs 
off of the books.
    We also instituted a net zero dollar policy, that if you 
are going to introduce a new reg that creates $100 worth of 
burden on the American population, you are going to have to 
find some to get rid of that same $100 so that there is a zero 
net regulatory burden on the economy.
    Chairman Enzi. That is what I have been hearing in Wyoming.
    Last November, the GAO issued the results of a study that I 
had requested that found that the cost estimates for the 
Education Department's various income-dependent student loan 
repayment plans have been reestimated upwards by tens of 
billions of dollars. The reason was that enrollment far 
exceeded the prior administration's original estimates. This 
budget includes another huge upward revision of student loan 
program costs with the anticipated cost to the outstanding 
portfolio rising by an additional $39 billion. While the budget 
says $8 billion of this is due to still greater enrollment, 
another $18 billion is due to updated collection rate 
assumptions concerning the roughly $100 billion in defaulted 
student loans the Department currently manages.
    It seems we keep finding that the student loan programs are 
more expensive than the Government expects. How does the 
President's budget proposal attempt to contain student loan 
costs going forward?
    Mr. Mulvaney. I have not reviewed the Federal Student Aid 
(FSA) report, but I think we all know that there was a lot of 
pressure, I think, during the Affordable Care Act debate to 
look to the student loans to be generating money. You can ask 
yourself whether or not there was pressure to show unreasonably 
rosy numbers at the time as part of the Obamacare discussion.
    As we look forward, though, and talk about what the 
President proposed when he was campaigning, the President made 
specific promises regarding taking the variety of repayment 
programs that are out there today to repay student loans and 
condense them into one. And that is exactly what we have done 
in the budget. We take a single income-based program and tie 
your repayments of your student debt to the amount of money 
that you are making after you graduate, and that leads to a 
circumstance where, if you are making less money, you will pay 
back less of your loan; if you are making more, you will pay 
back more.
    When President Obama I think introduced something similar, 
he suggested that we forgive the debt after 20 years. We 
actually move that to 15 years. But by doing it in a single 
plan that is actually easier for folks to use and we expect 
them to use it and buy--making the variables depending on 
income, we actually save a considerable amount of money.
    Chairman Enzi. Thank you. My time has expired.
    Senator Sanders.
    Senator Sanders. Thanks very much, Mr. Chairman.
    Before we go further, I find it a little bit unfair that 
Mr. Mulvaney and many people in the Trump administration 
disparage the Director of the CBO when it was Tom Price, the 
former Republican chairman of the Budget Committee, who 
appointed Dr. Hall in the first place. So let us get that 
clear.
    Mr. Mulvaney, as you know, the United States today has more 
income and wealth inequality than any major country on Earth. 
The top one-tenth of 1 percent now owns almost as much wealth 
as the bottom 90 percent; 52 percent of all new income today is 
going to the top 1 percent.
    But your budget thinks that it is good public policy to 
provide $52 billion in tax breaks for the wealthiest family in 
this country, a family already worth $128 billion. You think 
that a family like the Walton family where one guy owns four 
Ferraris and one Maserati that are worth more than $65 million 
are just in desperate need of massive, massive tax breaks. You 
think that Sheldon Adelson, who, among other things, 
contributed $5 million for the Trump Inaugural, is in need of a 
massive tax break, as well as the Koch brothers.
    So my question is pretty simple, and I want you to tell the 
American people why you think it is a good idea to give $3 
trillion in tax breaks to the top 1 percent at a time when the 
rich are becoming much richer while at the same time you are 
going to throw 17 million children in this country off of 
health insurance because of the unconscionable cut that you are 
making to Medicaid, why you are going to throw seniors in the 
State of Wyoming or the State of Vermont off the Meals on 
Wheels program, maybe the one nutritious program that they get 
a day, why you are going to throw women and low-income babies 
off of the Women, Infants, and Children (WIC) program at a time 
when infant mortality rates in this country are already high. 
Do you really think it is a great idea to tell a low-income 
pregnant woman that you are going to take away the WIC program, 
take away nutrition programs for children, in order to give a 
massive tax break of $52 billion to the Walton family? Please 
explain your logic to the American people.
    Mr. Mulvaney. I will see if I can handle each of those in 
reverse. Actually, let me deal with the CBO first. I cannot 
disparage who I do not know, and I do not think I have ever 
disparaged the Director----
    Senator Sanders. You made a dismissive remark about him. 
``Even the CBO.'' You guys appointed the Director.
    Mr. Mulvaney. And, again, all I am telling you is that the 
results are awful.
    Senator Sanders. But you appointed him, so let us go with 
that.
    Mr. Mulvaney. I measure performance by results, Mr. 
Sanders, and if you continuously put out bad numbers----
    Senator Sanders. Your opinion is that the results are 
terrible. I am suggesting that it was a member of the Trump 
administration who appointed this gentleman, not some kind of 
radical Democrat.
    Mr. Mulvaney. So we can agree that the CBO puts out bad 
data, OK.
    Senator Sanders. No, we cannot. We can agree that you guys 
are beating up on a man that you appointed because you do not 
like his results. But, anyhow, get back to the question, why 
tax breaks----
    Mr. Mulvaney. I do not like the results----
    Senator Sanders [continuing]. For billionaires and cuts for 
working-class----
    Mr. Mulvaney [continuing]. Because they are not right.
    Senator Sanders [continuing]. Kids.
    Mr. Mulvaney. WIC serves all the projected participants. 
There is no change there. Meals on Wheels is not reduced at 
all. The change that we make is through----
    Senator Sanders. The Community Development Block Grant 
(CDBG) program, which you eliminate.
    Mr. Mulvaney. Block grant----
    Senator Sanders. So you eliminate the block grant, and you 
are telling me that funds the program, and you are telling me 
that does not have an impact----
    Mr. Mulvaney. The program is funded, Senator, through the 
Old Age or Senior Nutrition Program, I think through the 
Department of Health and Human Services (HHS), which we do not 
change.
    Senator Sanders. No, that is not true.
    Mr. Mulvaney. That is true, actually. The CDBG program is a 
block grant to the States, and some States do choose--choose--
to use some of that money----
    Senator Sanders. And you eliminate that program.
    Mr. Mulvaney [continuing]. On Meals on Wheels, and that----
    Senator Sanders. The bottom line is----
    Mr. Mulvaney. Senator, I mean, if----
    Senator Sanders. Go ahead. Answer the question.
    Mr. Mulvaney. The total money for Meals on Wheels that 
comes from CDBG is 3 percent. That is it. And I do not know how 
you can possibly contend that we are----
    Senator Sanders. But you are eliminating the program that 
funds not only Meals on Wheels but many other programs at the 
discretion of Governors and mayors.
    Mr. Mulvaney. I would be more than happy to have a long 
discussion about CDBGs. You asked about Medicaid as well. The 
slashing of Medicaid, the dramatic cuts to Medicaid, is a 
slower growth rate in Medicaid. There is a 1-year exception 
during the Affordable Care Act where--excuse me, the Affordable 
Health--the American Health Care Act (AHCA) where the bill 
calls for the end to expansion, and there is a small reduction 
that year. But, generally speaking, over the 10-year budget, 
Medicaid spending goes up every----
    Senator Sanders. Yes, but so does health care inflation. We 
go through these games every single year. Inflation is going up 
a lot faster than the money that you are putting in.
    The bottom line is, tell me--let me get back to one 
question.
    Mr. Mulvaney. Sure.
    Senator Sanders. Why do you think the Walton family needs a 
$52 billion tax break?
    Mr. Mulvaney. My guess is that you are basing that 
assertion on the only tax detail that we have in the budget, 
which is----
    Senator Sanders. The repeal of the estate tax, exactly.
    Mr. Mulvaney. Right. And if we want to have a talk about 
why we are repealing that, I would be more than happy to do 
that.
    Senator Sanders. Good. Tell me.
    Mr. Mulvaney. Because ordinary people are paying more.
    Senator Sanders. No. Ordinary people do not have a wealth 
of $128 billion. That is not an ordinary person.
    Mr. Mulvaney. The average increase across this Nation since 
the inception of Obamacare----
    Senator Sanders. You are not answering the question. The 
question is----
    Mr. Mulvaney [continuing]. Is 105 percent.
    Senator Sanders. Answer the question. The wealthiest family 
in America gets a $52 billion tax break as a result of the 
repeal of the estate tax.
    Mr. Mulvaney. That is correct.
    Senator Sanders. Tell the American people why you think 
that is good when you cut Medicaid and you cut programs for 
kids.
    Mr. Mulvaney. We do not cut Medicaid. We are talking about 
repealing Obamacare. The results that you mentioned----
    Senator Sanders. Throwing 23 million people off of health 
insurance. That is right?
    Mr. Mulvaney. It is a CBO number that I think you just 
agreed could be wrong if----
    Senator Sanders. I did not agree to that at all.
    Mr. Mulvaney. OK. That we repeal Obamacare----
    Senator Sanders. Why does a billionaire family get a $52 
billion tax break? Please tell the American people.
    Mr. Mulvaney. Because we think it is wrong that ordinary 
folks lose coverage, and we want to get rid of the plan----
    Senator Sanders. Ordinary people.
    Mr. Mulvaney. Yes.
    Senator Sanders. Is the Walton an ordinary family?
    Mr. Mulvaney. No, they are not. They are extraordinary. But 
ordinary people are losing coverage today under Obamacare----
    Senator Sanders. I asked you why----
    Mr. Mulvaney [continuing]. And we repeal----
    Senator Sanders [continuing]. The wealthiest family in 
America is getting a $52 billion tax break.
    Mr. Mulvaney. And I am answering the question by saying 
because we repeal Obamacare.
    Senator Sanders. No. You end the estate tax, which applies 
to the top two-tenths of 1 percent.
    Mr. Mulvaney. Senator--well, OK. I am sorry. I thought the 
assumption was we were looking at the tax that--the tax 
reductions that are contained in Obamacare----
    Senator Sanders. No, that is not what we are talking about.
    Mr. Mulvaney. You mentioned the estate tax----
    Senator Sanders. No, no, no.
    Mr. Mulvaney. OK.
    Senator Sanders. We are talking about the repeal of the 
estate tax, which you just mentioned.
    Mr. Mulvaney. The budget assumes a deficit-neutral tax 
plan, because when we wrote the budget, we did not have nearly 
enough specifics to assume what you are assuming, which is the 
specific reductions. Yes, the proposals that the White House 
published about 3 or 4 weeks ago, the principles that set 
forth, does include a reduction of the estate tax----
    Senator Sanders. Repeal of the estate tax, sir.
    Mr. Mulvaney. You are absolutely right. It is a repeal of 
the estate tax. But I think it is mathematically impossible to 
take those general principles and assume a direct impact on a 
particular family. You cannot do it.
    Senator Sanders. No, that is not----
    Mr. Mulvaney. Nobody can do it. I have seen estimates from 
groups that say, oh, it is going to add to the----
    Senator Sanders. No, that is not--that is----
    Mr. Mulvaney [continuing]. Deficit by $2 trillion to $10 
trillion. People were just making up numbers.
    Senator Sanders. That is really not true. I mean, we do not 
know when people are going to be dying, that is for sure. But 
you can make those estimates.
    Mr. Mulvaney. We do not know that people----
    Senator Sanders. No, you do not know when somebody is going 
to be dying. But the truth is that if the family is worth----
    Mr. Mulvaney. They are pretty sure they are going to die 
eventually.
    Senator Sanders. That we can be pretty sure of.
    Mr. Mulvaney. At least we agree on something.
    [Laughter.]
    Senator Sanders. Thank you.
    Mr. Mulvaney. Thank you.
    Chairman Enzi. Senator Graham.
    Senator Graham. That was borderline fascinating.
    [Laughter.]
    Senator Graham. For 8 years, President Obama presented a 
budget, which was a proposal, and got zero votes in the United 
States or the U.S. House. It is fair to say we are going to 
continue that trend.
    Mr. Mulvaney. I might get one or two, Senator.
    Senator Graham. You might get one, but it will not be mine, 
and let me tell you why. I really appreciate you trying to 
balance the budget in 10 years. You got the Budget Control Act 
numbers to deal with. That is correct, right? That is the 
constraint we imposed on you. And if you are going to balance 
the budget in 10 years, there are really no good ways to do it.
    Obama increased taxes by $3.1 trillion in 2017. I think 
that would devastate the economy. That is probably why it got 
no votes.
    Some of the cuts you have made I think will have an effect 
that the country probably does not wish for. But you are in a 
spot of having to balance the budget, increase military 
spending because we need it, and that makes you, with the BC 
Act numbers, make very tough choices. So I appreciate you 
trying.
    Mr. Mulvaney. And we did not touch Social Security 
retirement or Medicare.
    Senator Graham. OK, and so that is my question. Let us not 
fool people. You did a really good job. Meals on Wheels is not 
being gutted. The block grant portion is being eliminated, and 
that is 3 percent of funding, is what you said?
    Mr. Mulvaney. Maximum 3 percent.
    Senator Graham. So please quit saying things that are not 
true. There is enough we can say about this budget that is 
true.
    So the bottom line is I would like to eliminate the death 
tax because I just do not like the concept of taxing people's 
estate when they die because every time they made a move while 
they lived, you tax it. I would rather have the Walton family 
take the money and give it away rather than the Government 
grabbing it after they die, because I think the chief 
philanthropists in this country are a lot of the wealthy people 
you talked about, and they are doing a lot of good things. They 
may have a Ferrari in the garage, but I can tell you, when it 
comes to conservation and other things, the Walton family are 
contributing. So it is just a philosophical difference. If it 
were up to me, we would have no death tax because we tax you 
every time you move while you live. So the bottom line, these 
are just philosophical debates. It is not meanness. We just 
disagree.
    But the one thing I do not want the public to be misled by 
is that you do nothing in terms of Medicare and Social Security 
insolvency, which is coming. Is that correct?
    Mr. Mulvaney. That is correct. We do not make any proposed 
changes to Social Security retirement or Medicare.
    Senator Graham. If you were able to, if you were unleashed 
by the President, would you not want to get a grand bargain 
where we cleanup the Tax Code, take away some deductions for 
the few at the expense of the many, and save Medicare, 
Medicaid, and Social Security--Medicare and Social Security 
from insolvency, which is coming?
    Mr. Mulvaney. Senator, let me answer it this way. When I 
sat here 3 months ago and you all asked me what I was going to 
do, because sometimes I would disagree with the President, 
which I thought was one of the reasons he hired me was that I 
would lay out options for him, and I did that. And I went into 
the office. I think we had 4 hour-long meetings on mandatory 
programs, and I gave him a list of proposed mandatory changes. 
And at the end of the last meeting, he went, ``Yes, yes, yes, 
no, no, no.'' And the answers for ``no, no, no'' were Social 
Security retirement and Medicare, because he said, ``Look, I 
looked people in the eye when I ran for office. I promised I 
would not change them. I am keeping that promise.''
    Senator Graham. But here is what the President needs to do. 
He needs to look people in the eye and tell them that that is 
an impossible promise if you are serious about getting out of 
debt.
    Now, Mr. President, quit playing the game everybody else 
plays up here. By 2042, Medicare and Social Security alone will 
consume all the revenue sent to Washington. That is the 
projection. Is that correct?
    Mr. Mulvaney. I have seen similar numbers, yes, sir.
    Senator Graham. Because the Baby Boomers retire en masse, 
of which I am one. So you cannot skip over Medicare. You cannot 
skip over Social Security if you are serious about preventing 
us from becoming Greece, and to skip over these programs is to 
allow them to die over time. So the one thing I would say to my 
Republican colleagues who believe you do not need entitlement 
reform, including the President, to keep us from becoming 
Greece, you are wrong. And, Mr. Mulvaney, you know the right 
solution.
    Mr. Mulvaney. And I will deliver that message to the 
President.
    Senator Graham. Well, thank you. And you have been the 
solution, in my view. Thank you for what you did with the 
ports, a very innovative solution to funding ports. We will 
have a disagreement about MOX, but let me tell you one thing 
about the budget that does bother me: soft power. Do you agree 
with me that we are never going to win the war on terror just 
through dropping bombs on terrorists?
    Mr. Mulvaney. Senator, I agree it is one of the greatest 
military challenges we face. You know why we did what we did. 
Again, it was the President keeping his promise to spend less 
money on foreign aid.
    Senator Graham. All I can tell you is that I do not know 
what it cost the country to ignore Afghanistan before 9/11 to 
the taxpayer. But when you shoot women in soccer stadiums for 
sport, when you blow up statutes of anybody's religion, to 
expect nothing to come your way is a huge mistake. To the 
American taxpayer, the King of Jordan is the best ally we could 
hope to have. We reduce his funding by $279 million. I got a 
call from the Ambassador of Jordan saying, ``What did we do 
wrong?'' ``Nothing, ma'am.''
    Georgia, a front-line State in the crosshairs of Putin, a 
66 percent reduction in their assistance.
    These people are not owed a dime by the American taxpayer. 
Foreign aid is 1 percent of the budget. But I will tell you 
this, Mr. Mulvaney. From my humble point of view, if we do not 
help the King of Jordan more at a time of critical need, his 
kingdom could fall. If we do not push back from Russia and help 
those in the crosshairs of having their democracy destroyed, I 
do not know what that cost to the taxpayer is, but to me it is 
an unacceptable cost. So the reason I would vote no is because 
soft power is destroyed in this budget.
    Mr. Mulvaney. Thank you, Senator.
    Chairman Enzi. Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Chairman.
    Mr. Mulvaney, can we talk about the tax cuts, tax reform 
proposal? You just said that you assume that the tax reform 
plan is going to be deficit neutral. Is that correct?
    Mr. Mulvaney. Yes, Senator.
    Senator Whitehouse. And your presentation to this committee 
states that it is deficit neutral, correct?
    Mr. Mulvaney. Yes, basically, Senator, we had three 
choices, which is we could assume the tax plan, which is still 
in its very early stages--it is not really a plan----
    Senator Whitehouse. So there is no scoring on it yet. That 
is an assumption at this point.
    Mr. Mulvaney. Either add to the deficit, subtract from the 
deficit, or be deficit neutral, and we picked the third up the 
middle way.
    Senator Whitehouse. And the way that you get to that 
conclusion is that you recognize that there will be immediate 
revenue reductions from lower tax rates and calculate that they 
will be offset by increased revenues from enhanced economic 
activity and that they offset each other to deficit neutrality.
    Mr. Mulvaney. With respect, sir, no, that is not the 
calculation we went through.
    Senator Whitehouse. OK. What was the calculation?
    Mr. Mulvaney. That we went through the list of exclusions 
that are reduced, loopholes that are closed, deductions that 
are removed. I cannot remember what the number that we assigned 
to ending the--the proposal includes to remove the deduction 
for State and local taxes, which is a huge number. We get rid 
of a wide variety of personal deductions, including, I think, 
everything except--I think the proposal has some mortgage----
    Senator Whitehouse. So your testimony here is that you are 
not assuming any growth from tax revenues as a result of 
increased economic activity in reaching the deficit neutrality. 
That is all going to be tax dollars in, tax dollars out, no 
added growth as the basis for deficit neutrality.
    Mr. Mulvaney. I do not know if I am agreeing or disagreeing 
with you, but let me tell you what we did. We assumed economic 
growth. Certainly, it is part of, as I mentioned in my opening 
statement, the assumptions how we got to 3 percent growth. Tax 
policies were part of it. And certainly when we do go to 3 
percent growth, we assume that Government revenues go up. So we 
assume that there is growth, but we did not use those numbers 
to say that the tax policy was deficit neutral.
    Senator Whitehouse. So the tax policy, as you foresee it, 
will be one that is deficit neutral without regard to growth--
without regard to the increased growth that you assign to the 
tax policy itself. There is a circularity where people say we 
are going to change the Tax Code, and that is going to increase 
revenues, and then we are going to bake those revenues back 
into the Tax Code. That is not going to be a manner in which 
you achieve deficit neutrality when you get your Tax Code 
proposal together.
    Mr. Mulvaney. Again, I think we are agreeing, but just to 
use my own words, I am aware of the accusations of double 
counting. I do not believe that we engaged in that.
    Senator Whitehouse. But the only way that that becomes true 
is if, in fact, the tax reform proposal is deficit neutral----
    Mr. Mulvaney. Deficit neutral on its own----
    Senator Whitehouse [continuing]. Without regard to growth 
from the tax proposal.
    Mr. Mulvaney. Exactly. So we are agreeing on that point. 
And keep in mind, when we have to make these assumptions for 
the budget, in fact, we are very early on in the discussion on 
what a tax policy would look like. We have to make certain 
assumptions, and the three options that I mentioned to you were 
the three options we took. I guess we probably could have made 
the assumption that the tax policy by itself would reduce the 
deficit. We chose not to do that. My guess is there are some of 
you who would make the contention that the tax policy by itself 
should add to the deficit. We chose the middle way to say, 
look, we do not know enough about the tax policy. We know some 
of the basic principles of it. We are going to lower rates, we 
are going to simplify, but we are going to get rid of this 
whole host of deductions, some of which are massive, and said, 
look, the most defensible, conservative--with a small ``c''--
way to look at this is to say on its own policies those will be 
deficit neutral.
    Now, whether or not what you all find passing and when we 
negotiate with you on a final tax bill, what it looks like, I 
cannot say. But we have to make certain assumptions early in 
the process to do the budget.
    Senator Whitehouse. So when we look at your tax proposal, 
when it gets to a level of specificity that we can actually 
look at, we will be looking at growth numbers that are a 
constant with and without the Tax Code and the deficit 
neutrality will be the function of changes within the Tax Code 
itself, not projections of growth.
    Mr. Mulvaney. Let me look at it a different way and, again, 
see if we are agreeing by using different words. When we 
offered next year's budget, we will not be able to make those 
assumptions, I hope, regarding what the tax policy would look 
like, because we hope that it is either in law or very close to 
being in law. So we will not be forced with that choice of 
looking at some piece of paper with basic principles and trying 
to do the math on that, but we will have a specific thing that 
we might be able to score and make more detailed assumptions 
regarding.
    Senator Whitehouse. Because you do recognize that if you 
count the growth here in the budget and then you count it again 
in your tax proposal, that is a double count. And you are 
saying it is not a double count because you are not going to 
use it twice in that way.
    Mr. Mulvaney. And I would not want to come now and have to 
answer questions from my good friend Senator Van Hollen if I 
was actually double counting.
    Senator Whitehouse. Thank you. My time has expired.
    Chairman Enzi. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Let us talk about why you want to grow the economy. If you 
go from 2 percent to 3 percent growth, that is about $14 
trillion over 10 years of added economic activity. If you 
assume revenue to the Federal Government is about 18 percent of 
GDP, that is about $2.5 trillion of additional revenue flowing 
to the Federal Government without raising anybody's taxes, 
correct?
    Mr. Mulvaney. We scored it, I think, at $2.1 trillion, but, 
yes, you are in the same ball park.
    Senator Johnson. So that is why you want to grow the 
economy. And I think the whole purpose of tax reform would be 
to rationalize our tax system so it incentivizes growth. So 
from my standpoint, when we are trying to score a tax proposal, 
you actually want to see a static revenue loss made up by 
economic growth so we have a dynamic score that comes as close 
to revenue neutral as possible. I mean, just having a revenue-
neutral tax reform does not do much. It just redistributes 
income. Isn't that what you are trying to do, is you are 
training to rationalize the tax system so we gain the type of 
economic growth that does put more revenue into the Federal 
Government?
    Mr. Mulvaney. Again, I think my answer to you, Senator, 
would be the same as I just gave to Senator Whitehouse.
    Senator Johnson. Well, I do not care about the double--you 
know, that was beyond me.
    Mr. Mulvaney. OK.
    Senator Johnson. I am talking about just basic stuff. $14 
trillion of economic growth yields more than $2 trillion of 
revenue. So you want to have a tax policy that makes America 
more competitive so we can grow our economy.
    Mr. Mulvaney. Looking at it another way, Senator, in a 
world of 1.9 percent growth, we will never balance the budget 
again.
    Senator Johnson. I have got a chart here, my 30-year 
deficit chart. Here are the stark facts, the latest CBO 
projection put into dollars. Over the next 30 years, we have a 
projected deficit of $129 trillion. That would be added on to 
our $20 trillion worth of debt. The net value of all private 
assets, $128 trillion, clearly unsustainable.
    [The referenced chart follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    But let us go to the next sheet. This is what I call my 
``one-page income statement'' over 30 years. Three things are 
yellow--actually, four things, but three things I want to 
highlight. The deficit in Social Security over the next 30 
years is about $18.5 trillion. In other words, we will pay out 
$18.5 trillion more in benefits than we bring in the payroll 
tax over the next 30 years, Social Security $18.5 trillion. 
Medicare is a $39 trillion deficit. The remainder of that $129 
trillion basically is $65 trillion interest on the debt.
    [The referenced chart follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    

    So, in other words, if we do not want to pay $65 trillion 
in interest to our creditors, we better address Social Security 
and Medicare, and I want to focus on Medicare. I want to talk a 
little bit about how do you restrain the growth in health care 
costs. Isn't that what ought to be the primary goal of any 
health care proposal coming out of Congress? How do we bring 
competitive, consumer-driven competition to restrain the growth 
of costs, actually improve quality and access through 
competition? Can you tell me in the American Health Choice Act, 
the A-H whatever, the House bill, what in that bill is going to 
drive consumer-driven competition to restrain the growth in 
health care costs? Because that is the number one thing we have 
got to do if we want to not pay $64 trillion to our creditors.
    Mr. Mulvaney. It is a bunch of different things. I will 
pick one for the sake of the discussion, which is I think 
Medicaid is one of the--Medicaid is one of the larger drivers 
up here as well. You can see it behind us. Medicaid is a State-
administered program. States also pay for it. I remember being 
in the State legislature looking at that line item, which I 
think at that time was the second largest line item in our 
State budget after K-12 education, and thinking, oh, my 
goodness, look at this number, where do we spend it on, finding 
out, and then saying, well, why are we spending it that way 
when we could spend it another way better, more efficiently? 
And they said, well, if you want to do it your own way, you 
cannot get the Federal match. If you want to actually take care 
of the people in South Carolina the way you think you should, 
in a manner that is effective and efficient and delivers that 
care, because we all want to take care of our most needy, we 
could not do that because the Federal Government did not allow 
us to do that.
    The AHCA changes that. It is one of the fundamental sort of 
structural changes that you get with the House version of the 
bill, which is what we would do, is we put the States in much 
more control over how the administer health care at the local 
level. And that changes one of the long-term drivers of cost. 
You get to the very heart of the matter. How do we make health 
care more affordable? Just about everything that we buy is more 
affordable and of higher quality than it was 10 years ago 
except health care. How do we----
    Senator Johnson. In the 1940s, 68 cents of every health 
care dollar was actually paid for by the patient. Today it is 
about 11 cents. We have driven free market competition out of 
it. And let me just use health savings accounts (HSAs), because 
I know that is something else in the House bill. In my own 
businesses, health care costs were escalating. Congress did 
pass the HSA law, and so we went from probably about--I cannot 
remember exactly, about a $1,000 deductible plan to I think at 
the time it was a $2,500 HSA qualified plan. The premium 
savings that we realized, just by making that small little 
change--and let us fact it, Obamacare policies have a far 
higher deductible than that. Just that switch allowed me to 
take that premium savings, divvy it up by the employees, and 
invest $3,000 per year per employee in their HSA accounts. Ten 
years later, they have probably got about $30,000 per employee 
in an HSA. Now they have got that money. That is their money, 
and they are driving consumer choice in things like walk-in 
clinics, Walmart, CVS, Walgreens. It actually does work.
    So you are investing how much in HSAs in the House bill?
    Mr. Mulvaney. I cannot remember what the number is, but I 
know it is a dramatic expansion of the HSA program. I am sorry 
I do not have the numbers.
    Senator Johnson. But, again, isn't that the direction we 
need to go? If we want to solve this long-term deficit--so much 
of Government spending is involved in health care--we have got 
to really focus on restraining the growth in health care costs.
    Mr. Mulvaney. Agreed.
    Senator Johnson. Thank you, Mr. Chairman.
    Chairman Enzi. Senator Warner.
    Senator Warner. Good morning, Mr. Mulvaney.
    Mr. Mulvaney. Good morning, Senator.
    Senator Warner. So much to talk about. I have got a follow-
up on a couple of these.
    Mr. Mulvaney. Sure.
    Senator Warner. I have seen lots of tricky budgets before, 
but this may take the cake. You assume abolishment of the so-
called death tax, estate tax. But when you go to Table S3, 
baseline by category, you still count the revenues from the 
estate and death tax, which is kind of a tricky thing. I would 
call that double counting.
    Your outside experts have assumed that your tax plan would 
cost $5 trillion. As somebody who spent a couple years, as you 
know, trying to wrestle with these numbers and took on 
entitlement reform, took on additional revenues, I do not see--
I do not think there is any way you can get there with 
elimination of tax expenditures, particularly when you take 
charitable, home mortgage, and retirement accounts off the 
table. There are not enough tax deductions to get to those 
numbers, unless you are going to--I imagine you are now saying 
you are going to go ahead and dramatically cut back on the 
deductibility of employer-provided health care plans. That is a 
large number.
    Mr. Mulvaney. I am sorry, sir. A specific question? I was 
making notes.
    Senator Warner. The specific question is: You would have $5 
trillion in costs in your tax plan.
    Mr. Mulvaney. Right.
    Senator Warner. Unpaid for. You cannot pay for it in any 
revenue-neutral basis without double or triple counting or 
dynamic scoring on steroids if you take charitable, home 
mortgage, and retirement accounts off the table as not being 
cut.
    Mr. Mulvaney. Right.
    Senator Warner. You cannot get there. The numbers do not 
add up. And, by the way, I do not think you have told the 
American public yet that to even get close, you are going to 
have to then take off the deductibility of employer-provided 
health care plans. So that is on the table?
    Mr. Mulvaney. Here is what is on the table, which is, I 
think, the one-page set of principles that we sent to the 
Hill----
    Senator Warner. Sir, I have gone through these----
    Mr. Mulvaney [continuing]. A Couple weeks ago.
    Senator Warner. I know you have as well.
    Mr. Mulvaney. Right.
    Senator Warner. I have spent years going through these 
numbers to try to get them to balance. You have got to go where 
the money is if you are talking about any kind of a rational 
revenue-neutral plan. And I do not think you can get there. And 
I do not think your numbers add up. I think they do not pass 
the smell test. And I think, frankly, what Senator Whitehouse 
was pushing at, that you are not double counting, I just do not 
believe that as well because you have put dynamic scoring in 
place. Dynamic scoring assumes the tax cuts, because you cannot 
say dynamic scoring alone is going to come about without the 
tax cuts in place. So if you are counting those on the dynamic 
scoring process, you have got to bake that in. And so it is not 
truly a revenue-neutral tax plan. To get $5 trillion in 
savings, when you take charitable, home mortgage, and 
retirement accounts off the table, the numbers just do not add 
up.
    Let me move to another item because my time is about up. 
You take nondefense discretionary spending down to 3.1 percent 
of GDP. I have still got another year or two before I can say I 
have spent longer in business than I have in Government. I was 
a venture capitalist. I invested in a lot of businesses. I 
would invest in businesses based on their investments in their 
workforce, plant and equipment, and staying ahead of the 
competition.
    For an American tax plan and business plan, that would 
equate to investment in people, which is education; plant and 
equipment equals infrastructure; staying ahead of the 
competition in a global economy means research and development 
(R&D). How can you cut those so draconianly, cutting 
discretionary spending by $1.4 trillion over the next 10 years, 
cut those three areas, and assume that we are going to have all 
this growth you project? I would never invest in a business 
that spent less than 3 percent of its revenue line on 
workforce, plant and equipment, and staying ahead of the 
competition. And that is what you are saying the American 
business plan ought to be.
    Mr. Mulvaney. No, I am not, sir, and I would suggest that 
you would also never invest in a business whose revenues were 
growing dramatically--excuse me, their expenses were growing 
dramatically faster than their revenues, which is what we have 
seen here----
    Senator Warner. Amen to that, so let us deal with both 
sides, both the spending and----
    Mr. Mulvaney. Your capital investment, I think you are 
looking at only one part of the equation. When you look at the 
American business plan--because we agree with you the capital 
investment is absolutely critical. In fact, you cannot get 3 
percent growth without having dramatic increases in capital 
investment. We just simply think that private capital 
investment is a more efficient and effective way to get there--
in fact, history proves that--than Government capital 
investment. So what we do is in our tax plan try to promote the 
type of capital investment that you are looking for. We are 
moving it out of Government capital investment, which we think 
is woefully inefficient, and into the private market capital 
investment, which gets us to----
    Senator Warner. All I would say, Mr. Mulvaney, is that, for 
the most part in our country, education, infrastructure, and 
core basic research and development still remain a Government 
function.
    Thank you, Mr. Chairman.
    Mr. Mulvaney. Thank you, sir.
    Chairman Enzi. Senator Perdue.
    Senator Perdue. Wow, I wish we had 2 hours. Thank you for 
being here----
    Mr. Mulvaney. I am sort of glad we do not, Senator.
    [Laughter.]
    Senator Perdue. I can understand that. I just want to 
highlight a couple things.
    First of all, thank you guys for addressing the debt. It is 
the dirtiest four-letter word in our English language today, 
and it threatens our Republic. And you and I have had private 
conversations about that. In the last 16 years, under one 
Republican President and one Democratic President, this Federal 
Government has grown in constant dollars from $2.4 trillion to 
$3.9 trillion. And I know it is a philosophical debate up here 
between parties about big government, but let us just look at 
results. You talked about results earlier, so I made some notes 
here.
    Big government has failed. It has failed in poverty. In 
1964-65, the Great Society put the War on Poverty. We were all 
for that. We wanted poverty reduced in America. But the irony 
is that the poverty rate today is basically the same as it was 
in the 1960s when that great program was put into place.
    If you think the Government does a great job running 
businesses, how about the U.S. Postal Service, the VA, Fannie 
Mae, Freddie Mac.
    And then we get to Social Security and Medicare. I want to 
come back to that in a minute. They both go to zero--their 
trust funds go to zero in 15 short years or less, and we are 
sitting in the weakest recovery in 70 years.
    I want to get to the point of this exercise that we are 
doing today and call out what a travesty it is relative to the 
bigger issue. In the last 8 years, as a Federal Government, we 
borrowed about 35 percent of what we spend, and right now in 
the 2016 budget that goes through 2027, it was projected--CBO 
projected that we would borrow another 30 percent per year on 
average over that period of time.
    Well, by definition, if discretionary spending is 
directionally $1 trillion on a $4 trillion budget, we are 
spending less than 30 percent on discretionary; the rest of it 
is mandatory. That means by definition if every dollar of 
revenue--and, by the way, we collected more tax dollars last 
year and the year before that, too, than we ever have in our 
history. And yet we still have this growing debt problem.
    So, by definition, every dollar we spend, every dollar we 
are debating here today is borrowed money, by definition. So I 
want America to understand what this travesty is all about up 
here. The travesty is that we are not talking about $4 trillion 
of expenditures to the Federal Government. That is what we are 
going to spend next year. And it will grow from there.
    So what I want to get at here is the fact that the budget 
process itself is absolutely broken. It has only worked four 
times since 1974 in 43 years. And as a matter of fact, we have 
to appropriate this budget. You talk about authorizing. We have 
not authorized things up here. We have $310 billion, some 250 
programs, that are not authorized today, to your earlier point, 
and that is not even being considered today.
    As a matter of fact, over the last 43 years, we have 
averaged two-and-a-half appropriation bills being passed on 
average during that period of time. We have to pass 12 to fund 
the Federal Government. That means that we are headed for a 
train wreck again this year. We will go to September 30th. We 
will not have the Government funded. We will either do a 
continuing resolution, or we will have to do an omnibus where 
six people get in a room, and the rest of us get an up-or-down 
vote about how we spend $1 trillion. And even that does not 
address the $3 trillion of mandatory expenditures.
    Now, I am not arguing programs. I am not arguing cuts. We 
will do that at a later point in time. But I have to say this: 
I applaud the administration for at least addressing the issue 
that we have got to address over the next 5 years or so, and, 
that is, the long-term implication of the debt.
    The specific question I have is: Would you support a budget 
process eventually that would include all expenditures of the 
Federal Government?
    Mr. Mulvaney. Senator, yes. In fact, I had part of that 
discussion with Senator Enzi, believe it or not, in the 
antechamber, before we came into this room. I think it is 
something that we should start discussing.
    Senator Perdue. Well, as we know, to get at debt, we are 
not going to do it by working under $1 trillion.
    Mr. Mulvaney. No, you cannot. You cannot balance the budget 
within the nondefense discretionary portion of the budget at 
all. You simply cannot do it.
    Senator Perdue. Now, let us talk about growth for a second, 
and thank you for telling the American people that 1.9 is not 
acceptable. Let us dial into the 1.9. In the last 8 years, true 
growth here is 0.6 percent. That is without population growth. 
That is productivity. That is the way business guys look at it, 
because I can manipulate population. I cannot manipulate 
productivity growth. Productivity growth, 0.6 percent. You want 
to grow 3 percent, there are two things that we have really got 
to do, in my opinion, just as a business guy. But you have got 
to work on the workforce. There are plenty of people right now 
on the margins of our workforce that are not included in this 
workforce. I understand the low unemployment number, Director, 
but I am concerned about the people that are underemployed, and 
I am concerned about the people that dropped out of the 
workforce. I am concerned about having matching skills with 
jobs that are available. That is number one. That is the first 
constraint on getting to 3 percent growth.
    Second is capital. You mentioned it earlier, but we have 
got $6 trillion of capital, and this is a mistake that 
politicians make. I am sorry, Mr. Chairman, but this is 
important. Politicians think that you want to stimulate 3 
percent growth, we need more capital investment from the 
Federal Government. That is the last thing we need, frankly. I 
believe that right now we need to do whatever we can to free up 
the $6 trillion that are not at work in this economy--$2 
trillion on the Russell 1000 balance sheet because of 
Government policy, not just in the last 8 years, possibly over 
the last 20 years. The second is our small banks and regional 
banks have about $2 trillion on their balance sheets because we 
have taken that capital reserve from 3 percent to 6 percent to 
7.5 percent, unilaterally, by the way, in the Basel III 
agreement, where none of the other countries are really doing 
the same thing. And, last, the repatriation tax has $2 trillion 
or more stuffed overseas.
    So my question, finally, to you quickly is: Are those 
things that you are going to focus on not just in this budget 
but over the next few years to try to continue to develop a 
consistent 3 percent growth in this economy?
    Mr. Mulvaney. Senator, I think you heard that in part of my 
exchange with Mr. Warner, that you must have more capital 
investment to get the productivity up.
    Senator Perdue. But is that capital from the Federal 
Government more productive or from the private sector?
    Mr. Mulvaney. That is the point, and what this budget does 
is try to focus on private capital investment and not public.
    Senator Perdue. Thank you.
    Chairman Enzi. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. It is great to 
see you, Mr. Director.
    Mr. Mulvaney. Thank you, Senator. Good to be here.
    Senator Van Hollen. And you can call this a taxpayer-first 
budget, but this is only really great for taxpayers who are in 
the top 1 percent. They are the only folks that, looking at the 
numbers in this budget, actually get a tax cut, because you 
have incorporated the House health care/Trumpcare health care 
bill into this, which, as we all know, provides millionaires 
with, on average, a $50,000-a-year tax cut. So it is great for 
folks at the very top.
    I should also point out, if we are talking about facts, 
that that revenue in the Affordable Care Act came from applying 
an investment income tax to households over $250,000 and 
dedicated to the Medicare Trust Fund. So your proposal also 
takes 3 years off the solvency of the Medicare Trust Fund.
    You talked a lot about reducing the debt, and I could not 
agree with you more. We have had this conversation for years. 
We have got to reduce the debt. And you talked a lot about tax 
breaks. But isn't it a fact that you do not close a single tax 
break in this budget for the purpose of reducing the debt?
    Mr. Mulvaney. I think I am going to agree with you on that, 
Senator. I think what we do is we close the loopholes--we 
assume--we have to make a bunch of assumptions, as you know, 
because you have written budgets as well. And so the 
assumptions are that those deductions, the loopholes, the 
exemptions go away in order to keep the tax program deficit 
neutral. Then we take the benefits of the tax program in the 
growth.
    Senator Van Hollen. So my point is that we can all talk and 
we should talk about the danger of the debt, but you do not 
take away one special tax break for anybody, hedge fund 
managers, for the purpose of reducing that debt. And that is a 
fact, and we have had a lot of conversations over the years 
pointing out that the largest annual expenditure is the 
category of tax expenditures, tax breaks, even larger than 
Social Security on an annual basis. Isn't that right?
    Mr. Mulvaney. I believe that is close, yes.
    Senator Van Hollen. And yet you talk about going after all 
those other categories to reduce the deficit, but you do not go 
after the category of tax expenditures.
    Now, you know, we have disagreed on a lot of things, but--
--
    Mr. Mulvaney. In fairness, Senator----
    Senator Van Hollen. If I could just--we disagree on a lot 
of things----
    Mr. Mulvaney. I do not think that is entirely true, but OK.
    Senator Van Hollen. But you have had a reputation as a 
straight shooter, OK? You have had that.
    Mr. Mulvaney. I hope to keep it, Senator Van Hollen.
    Senator Van Hollen. Well, now you are working for a 
President who--anyway, I am not going to get into that at this 
moment. But Senator Graham pointed out that when you testified 
here at your confirmation hearing, you said just what you did 
now. You do not want to close one tax break for the purpose of 
reducing the deficit. We have big disagreements on that. The 
reality is that revenue as a percent of GDP is about 18 percent 
today. The last time we balanced our budget it was about 19, 20 
percent, in the early 2000s. But you do not want to go there.
    And what you have done instead of--you do cut the Social 
Security disability. I think that is a bad choice. Those are 
hardworking people. In order to qualify, you have to work a 
long time. You get disabled, the whole point is to have a 
insurance policy there. You go after that. But you do not do 
what Senator Graham mentioned, going further into Medicare and 
Social Security.
    Now, here is the thing. I think we should go after tax 
expenditures. But at least you have got to be honest, and 
instead what you have done is you have made up a number here 
based on no policies. You guys have assumed 3 percent growth. 
It is easy for all of us to say, oh, we wish we had higher 
growth. I do, too. Why don't we wish for 4 percent growth? It 
is not just the CBO. Mr. Director, I am looking at something 
that was just put out that shows all the forecasts that have 
been put out there recently. You have got the Professional 
Forecasters Survey, 2.1 percent long-term growth. You have got 
the Reserve Bank of Philadelphia, about 1.9 percent, around 
where CBO is. You have got the Economist Intelligence Unit, 
around 2 percent long-term economic growth.
    You have a one-page so-called tax plan that has been put 
out by this administration. You have got no backup in this 
budget to tell anybody how you expect to get from 1.9, 2 
percent growth to 3 percent growth. And the only way you 
balance this budget is on that, what is fraudulent accounting 
in the absence of a plan that shows you how to get there. It 
would be $2 trillion short in 10 years if you had not made that 
assumption. Isn't that true? If you had not made your 
assumption about 3 percent growth, you would be $2 trillion 
short after 10 years of a balanced budget?
    Mr. Mulvaney. Well, I will agree with you, Senator, that 
the dynamic impact of the 3 percent growth is $2.1 trillion in 
additional revenues.
    Senator Van Hollen. OK, the dynamic impact.
    Mr. Mulvaney. Yes, sir.
    Senator Van Hollen. So you just had this long 
conversation--I think you and Senator Whitehouse were on very 
different pages. You are talking about what--again, it is a 
one-pager, $6 trillion tax cut, which under most----
    Mr. Mulvaney. It was $5 trillion----
    Senator Van Hollen. That is $5 trillion. That puts you in 
the whole, and somehow you are going to have huge growth that 
is going to sort of recapture that, and you are going to get 3 
percent growth as a result of that, even though you are going 
to also capture that for the purpose of deficit reduction.
    Look, it is flimflam. I understand you are now representing 
President Trump who put the parameters that you described on 
you. But please, as someone who has a reputation as a straight 
shooter, do not come before this committee and pretend this is 
in balance. This is not close to balance. The harm in the near 
term is real. The balance in the 10 years is fantasy, flimflam.
    Mr. Mulvaney. Senator, I will deny that I know that, and 
what I will say to you is that, as I have mentioned--I do not 
remember who it was earlier--that we sat down and came up with 
impacts of our policies, and that is how we got from 1.9 to 3 
percent growth. Keep in mind, President Obama in his first 
budget was assuming 4.5, 4.6 percent growth. We did not do 
that. By the way, he never even balanced while he was still 
doing that. We think this is extraordinary defensible.
    Senator Van Hollen. We know that two major factors in 
economic growth--and, actually, you mentioned it--is population 
and----
    Mr. Mulvaney. Productivity.
    Senator Van Hollen. And your immigration plan--your whole 
administration's position on immigration is to dramatically 
reduce immigration in this country. So you have sort of taken 
off the table one of the major factors, and in place of that 
you have got like a one-pager tax plan. Anyway, I----
    Mr. Mulvaney. Thank you, Senator. I look forward to talking 
to you.
    Chairman Enzi. Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Mr. Director, I do not know you well, but I have watched 
your effort here and that of your staff, and I have to tell 
you, I find it refreshing. I want to offer you just a couple of 
points of view, and I want you to interrupt me if you disagree.
    I want to talk to you just for a second about how your 
budget impacts the people in America who get up every day and 
go to work and obey the law and pay their taxes and try to do 
the right thing by their kids and maybe save a little money for 
retirement. I guess we could call them the middle class or the 
working class. We have a lot of them in Louisiana. And for the 
past, I do not know, 20, 25 years or so, what many of those 
people--in fact, most of those people would tell me about 
Washington is that--they would say our country--I am 
paraphrasing. They would say our country was founded by 
geniuses, but it is being run by a bunch of idiots. How can our 
leadership on both sides of the aisle expect to borrow $4 
billion a day to operate, run up an almost $20 trillion debt, 
run deficits? When we try that in our family, it does not work.
    And this is what they also tell me. They tell me that they 
look around and they see too many undeserving people at the top 
getting bailouts and special treatment. And they see too many 
undeserving people at the bottom getting handouts. And they are 
stuck in the middle, and they are getting the bill. And they 
cannot pay it anymore because their health insurance has gone 
up thanks to the Affordable Care Act and their kids' tuition 
has gone up and their taxes have gone up. But I will tell you 
what has not gone up, is their income.
    And I think that is why this country is so divided. We have 
two groups of people. We have those Americans who believe in 
more freedom, and we have those Americans who believe in more 
free stuff.
    I would like you to tell me how your budget impacts the 
working class of this country that is being hollowed out and is 
not sharing in the great wealth of this country, economically, 
socially, culturally, because the people, the undeserving 
people--not everybody but the undeserving people at the top and 
the bottom who have all four feet and their snout in the 
trough.
    Mr. Mulvaney. Senator, I am going to answer that in a way 
you probably do not expect, because the easy answer would be to 
say that 3 percent growth helps those folks more than they can 
possibly imagine, and if they are above the age of 30, they 
might remember what it was like to work in a healthy American 
economy, when wages were ahead of inflation, people were 
getting better economic opportunities, you could save for your 
kids' education, you could save for your own retirement.
    But I am going to answer it a different way, because you 
asked me a specific question, how does this budget help those 
people. I think, Senator, part of the disconnect that we see in 
the Nation right now is that those folks that you have just 
described, many of whom also live in South Carolina, pay their 
taxes and then hear the stories about how that money is wasted, 
and they wonder why they are paying taxes. And it undermines 
their faith in the system when they hear that there are 11,000 
dead people getting their money to help pay their dead people 
bills, when there are people in prison getting benefits, when 
there are folks who are not in this country legally getting 
benefits. It saddens them and angers them. Some of them react 
in different ways. But they all react negatively toward the 
institution of America, and it helps contribute to that ``us 
and them'' mentality, and I think that is unhealthy. And what 
this budget does is looks them in the eye and says, You know 
what? We are not going to allow that anymore. And if we are 
wasting your money, we are going to stop. If it is going to 
somebody who should not get it, we are going to stop. And we 
are going to respect your money as much as you do. And, 
hopefully, that will help cure some of the ills that you just 
mentioned.
    Senator Kennedy. I want to thank. And thank you, Mr. 
Chairman. I do not agree with everything in your budget, but I 
sure do thank you and your staff for your approach.
    Mr. Mulvaney. Thank you, Senator.
    Chairman Enzi. Senator Murray.
    Senator Murray. Thank you, Chairman Enzi.
    Thank you, Director Mulvaney, for joining us. I would say 
you have got a tough job today. I do not envy you. You have 
been asked to come before this committee to explain the 
unexplainable and defend the indefensible, as I think my 
colleagues on this side have pointed out, especially Senator 
Warner and Senator Van Hollen.
    You know, President Trump spent his campaign promising 
workers he would stand with them. He promised seniors he would 
protect their care. He promised the middle class he would make 
the economy work for them. What we have in front of us today 
with this budget is a perfect summary of all the ways those 
promises have been broken. His promise not to cut Medicaid, 
broken. Promise not to cut Social Security program, broken. 
Promise to help workers get training, broken in this budget. 
Promise to focus tax cuts on the middle class, not the rich, 
broken. And his promise to provide ``insurance for everybody 
that was better and lower cost,'' that has not just been 
broken, it has pretty much been shattered. So a lot of promises 
broken, and we are all looking forward to see how you explain 
this.
    But I do want to say I am very glad to see it is not just 
Democrats but Republicans who are already coming out and 
rejecting this budget. Fortunately, we here were able to reach 
a deal on the fiscal year 2017 spending bill for one and one 
reason alone, and that is that Democrats and Republicans joined 
together, they ignored President Trump's absurd and extreme 
budget proposal. We rejected the ill-conceived and expensive 
border wall paid for on America's taxpayers' dime. We rejected 
the attempts to cut Planned Parenthood. We rejected the $18 
billion in cuts that were sent to us the last time. And we got 
a budget done and moved our country forward.
    So having said all that, I do want to focus today on this. 
I want to start by asking a question on President Trump's 
broken promise on health care that you built into this budget. 
Now, families in my State and across the country are frankly 
scared about the health care chaos that President Trump is 
causing.
    On Monday this week, the Trump administration requested 
another 3-month delay in the House's frivolous lawsuit to take 
away payments that help to lower the cost of care for working 
families. Now, experts all agree and have told us continuously 
that this administration's threats to end the payments are 
driving premiums up today. And I want to just ask you about 
this because the L.A. Times recently reported that the Centers 
for Medicare and Medicaid Services (CMS) Administrator Seema 
Verma attempted to use those payments to try to pressure our 
insurers to support the Trumpcare bill.
    Director Mulvaney, do you believe it would be wrong to use 
families' health care as a political bargaining chip?
    Mr. Mulvaney. Senator, under the theory that I try and find 
things to agree with with folks more than things I disagree 
with, you mentioned that people are scared about the chaos. You 
attribute that to the chaos of the Trumpcare program.
    Senator Murray. That is what insurers have been telling us.
    Mr. Mulvaney. And what I am telling you is that people 
where I am from are scared about the status quo. People in Iowa 
are scared about losing their coverage under Obamacare. People 
are scared in South Carolina about----
    Senator Murray. Look, what I am asking you is specifically 
about Seema Verma. Have you been part of any of those 
discussions about cost-sharing subsidies with Administrator 
Verma or in any way influenced her conversations?
    Mr. Mulvaney. I have been included in various conversations 
over the course of the last 4 months about the cost-sharing 
reduction payments, yes, ma'am.
    Senator Murray. Have you talked with her about specifically 
talking to insurers and threatening them not to support it?
    Mr. Mulvaney. No. What I do know is that we made the 
payments in May, like we said that we would. We have made no 
commitments to the payments that are due in June, and that we 
are considering all the options on whether or not we will make 
those payments.
    Senator Murray. OK. Well, let me ask you about your 
comments about the CBO score of the House bill.
    Mr. Mulvaney. OK.
    Senator Murray. Given what we just learned from CBO just 
last night, do you think the Trumpcare bill keeps President 
Trump's promise to provide ``better insurance'' to 
``everyone''?
    Mr. Mulvaney. Absolutely, because so many people do not 
have any coverage now at all. Any coverage would be better if 
you live in a county that does not have any providers.
    Senator Murray. Well----
    Mr. Mulvaney. And more and more counties are facing zero 
providers. I live in a State where we are down to one, Senator.
    Senator Murray. OK.
    Mr. Mulvaney. One.
    Senator Murray. I am just going to say that is not what the 
CBO report says, and people are not going to find that credible 
when they lose their care. They know what is causing this.
    I only have a few seconds left. I do want to make a couple 
points. I do want you to know I was really disappointed to see 
that you attempted to block the Office of Government Ethics 
request for information on which former lobbyists are receiving 
secret waivers now from President Trump. I think that is really 
wrong, and I urge you to reverse course and cooperate with the 
Ethics Office. And I assure you that we are going to keep 
pushing on that. I wanted to let you know that, number one.
    Mr. Mulvaney. I am happy to respond to that, Senator, if 
you give me the time.
    Senator Murray. OK. Well, since my time is out, let me just 
make this point, and I want to make it very clearly, and I want 
everyone to hear this. OMB has indicated that it is reviewing a 
rule related to the birth control mandate. Should this yet be 
another step by the administration to roll back women's health 
and rights, you better expect a very strong opposition from 
this Senator, Democrats, and women across the country. And I 
just want you to know that.
    Mr. Mulvaney. I am not aware of that specific detail, but I 
hear what you are saying.
    Senator Murray. Thank you.
    Chairman Enzi. Senator Toomey.
    Senator Toomey. Thank you, Mr. Chairman. And thank you, 
Director Mulvaney, for being with us and for really, I think, 
an outstanding job that you are doing.
    I want to particularly commend your emphasis on economic 
growth. It is so important in every single challenge that we 
face. Every problem in America is easier to solve if we have 
strong economic growth than if we do not. And some are 
impossible to solve without strong economic growth.
    The fact is stronger growth means more job creation, means 
higher wages, means a better standard of living for the very 
people that Senator Kennedy was referring to. But it also 
naturally follows that if you have stronger economic growth, 
you are going to have reductions in various welfare payments 
because fewer people will need those welfare payments. That 
should be the purpose. That should be the whole idea, that, 
yes, diminishing numbers of people on Medicaid and food stamps 
and Section 8 housing and you name it because they are able to 
get work that pays enough for them to be able to support 
themselves and their families. So that should be our focus.
    Let me zero in a little bit on how we get there. I think an 
essential part of getting the economy growing at its potential, 
which I think it is easily capable of 3 percent growth, 
requires really pro-growth tax reform. I would point out we are 
still laboring under an $800 billion tax increase from the 
Obama era that had nothing to do with Obamacare. So if we 
repeal all of Obamacare, as I hope we will, we will still have 
this big tax increase that we are still laboring under. I see 
no need to lock that in permanently.
    Second, I think it is just mathematically wrong not to take 
account of the dynamic effect of more growth on Federal 
revenue. As Senator Johnson pointed out, if the economy is 
larger, there is that much more to tax; therefore, more 
revenue.
    Have said that, we all know that we might not get a very 
aggressive dynamic score from our friends at CBO and Joint Tax, 
great men and women who do great work, often do not get the 
credit they deserve. But they might view the economic effect of 
tax reform differently than I would. And so my view is we ought 
to be willing to do tax reform that may not be revenue neutral. 
The goal should be to maximize growth.
    Now, if we cannot persuade our Democratic colleagues to 
work with us on this, then, as you know, we would need to use 
the reconciliation device under the Budget Act to pass such tax 
reform with a simple majority. If we go down that road, one of 
the constraints we have is that if Joint Tax and CBO determine 
that there would be a revenue shortfall outside of the budget 
window, then that is subject to a point of order which 
invalidates the 51-vote threshold.
    So you get two choices in that scenario, it seems to me. 
One is you have the pro-growth tax provisions expire at the end 
of the budget window, and then you have a temporary--you have 
this great Tax Code that is temporary, which is a bad idea. But 
another option is to extend the budget window. We have 
historically often used 10 years, but the Budget Act says it 
must be at least 5, and it does not specify an outer limit.
    So I would like for you to consider seriously a 20- or a 
30-year budget window, something that would allow us to have a 
great growth maximizing Tax Code that lasts a long time. If we 
had a 20-year budget window for this purpose, it would probably 
be about as close to permanent as you get around here because 
within 20 years you will revisit the Tax Code anyway.
    I wonder if you would just comment on your thoughts about a 
budget window that extends longer than 10 years.
    Mr. Mulvaney. Sure. And I actually think so highly of the 
idea, we toyed with possibly adding some consideration for a 
20-year window and simply did not have time to do it. We are 
exploring how difficult it would be to do a 10-year and a 20-
year next year. So you are absolutely right, and you talked 
about several of the benefits of looking at a longer term. 
There are a couple other ones you have not mentioned, which is 
that if you want to make changes that phase in over time, 
especially on age-tested programs, a lot of times you take the 
heat but do not see the benefit because all of the benefit 
falls outside of the 10-year window. So there are many 
attributes to looking at multiple budget windows, and I think 
it is something that we should continue to explore.
    I guess if there was one argument against doing the 
balancing test, I would hate to think we would go to a 20-year 
budget window just so we could tell people, oh, by the way, we 
will balance the budget in 19 years, because I think people do 
not believe us at that point. I think we should continue to 
focus on balancing the budget as quickly as we possibly can, 
regardless of the budget window that we look at. But on the 
whole, I like the program a lot, and we are going to explore 
what options are available to us at OMB going forward.
    Senator Toomey. Well, I look forward to working with you on 
that, because as I say, we have got an opportunity--in fact, we 
have got an obligation to really have a Tax Code that allows 
the American people to be as prosperous as they possibly can 
be. President Trump campaigned among other things on 
significant tax reform. I think his message was clear that it 
would not necessarily end up being revenue neutral. His goal, I 
think, was to maximize growth. That is the right goal, and if 
it takes a longer budget window to do it, then I think that is 
something we should seriously consider. Thank you very much for 
your testimony.
    Mr. Mulvaney. Thank you, Senator.
    Chairman Enzi. In order of arrival, Senator Stabenow is 
next.
    Senator Stabenow. Thank you, Mr. Chairman. And welcome, 
Director Mulvaney.
    I have tremendous concerns about a wide variety of issues 
in this budget and how they do not match up with priorities of 
Michigan families. But I want to talk about one that has caused 
terrific concern in Michigan and all around the Great Lakes, 
and that is the question of completely eliminating the Great 
Lakes Restoration Initiative, which funds the cleanup of our 
beaches, protecting our fish and wildlife. We have challenges 
with Asian carp right now getting into our waters. That is 
funded through this initiative, which was a bipartisan effort 
we started back in 2010. And we have about 40 million people 
that get their drinking water from the Great Lakes. I could go 
through all of it, boating, fishing, hunting, jobs connected 
with the economy.
    So you eliminate all the funding to protect the Great Lakes 
and then on top of that have gone into the farm bill to 
eliminate a voluntary conservation effort to protect watersheds 
that we are now having great success with, partnering with 
farmers and conservation groups like Ducks Unlimited and other 
groups to address runoff and water quality issues in the Great 
Lakes. So on behalf of Michigan families, I would like to know 
why you think it is not important to protect our water.
    Mr. Mulvaney. Thank you, Senator. I will begin by saying we 
absolutely agree. In fact, I had a chance yesterday in the 
House to point out that it might be news to people, but there 
are Democrats who care about national defense and Republicans 
who care about clean air and water. So I think starting from a 
premise that we do not care about clean air and clean water is 
a difficult premise to accept and start the conversation.
    Senator Stabenow. Well, then explain why----
    Mr. Mulvaney. I would be happy----
    Senator Stabenow [continuing]. Your budget zeroes out 
dollars that allow us to protect our Great Lakes.
    Mr. Mulvaney. Consistent with many other things that we did 
across the budget, Senator, we look at programs that should be 
local, programs that are more appropriately local in nature as 
opposed to national in nature. Again, go back to the original 
premise. I am looking at this through the eyes of somebody in 
Arkansas. Can I really look them in the eye and say, look, I 
need to take some of your tax money to go do something in 
Michigan or Wisconsin----
    Senator Stabenow. Yes, that is called having a country, 
with all due respect. Twenty percent of the world's fresh water 
surrounds Michigan and eight other Great Lakes States, and this 
is something that we not only do in the State and by the 
community, but it is a major national resource. And the idea 
that we would not recognize that in this budget is just 
stunning to me.
    Mr. Mulvaney. Well, I would agree that there are certainly 
things that deal with the environment that are national in 
scope, and there are other things that are in national in 
scope. For example, I can look that taxpayer in the eye on 
something like national defense. That helps make us a country. 
On this particular program, we just chose to go another way.
    Senator Stabenow. Let me ask, on another thing that I also 
think is a responsibility for all of us together as Americans, 
and that goes to the question of health care and Medicaid. In 
your budget, you assume that the Affordable Care Act will be 
repealed and that there will be, I would assume, $880 billion 
in cuts or something like that from the House. You add to that, 
and the number gets to $1.5 trillion. And in the tenth year, 
that is about a 50 percent cut in health care for people on 
Medicaid. Three out of five seniors in nursing homes in 
Michigan are there because they have Medicaid health care. So 
what do you say to a family in Michigan whose Mom has 
Alzheimer's and she is in a nursing home and she is not going 
to be able to get the health care she needs under your budget?
    Mr. Mulvaney. That that is entirely false and that this 
Government will continue to take care of that particular 
person.
    Senator Stabenow. Just 50 percent less.
    Mr. Mulvaney. Ma'am, I hate to push back on this, but that 
is not a cut. We have not proposed a cut. With the one 
exception that I mentioned on a year where there is a small 
actual reduction because of the timing of the end of Medicaid 
expansion, all that we do in this budget is slow the rate of 
growth. We spend more money year on year on Medicaid.
    Now, in Washington, many people consider that a cut, but 
that family back home that you have talked about does not 
consider that a cut. They consider that----
    Senator Stabenow. Do you believe, though----
    Mr. Mulvaney [continuing]. To be an increase.
    Senator Stabenow. With all due respect, do you believe, 
though, that as health care costs go up, then the family should 
absorb that, number one? And then, number two, are you also 
saying that the repeal-and-replace effort and the $880 billion 
in cuts in Medicaid is not a cut?
    Mr. Mulvaney. I would suggest to you that it is up to the 
Government to try and right the wrongs that we have committed 
that have contributed to the dramatic rise in the cost of 
health care, not just insurance but health care. And the reason 
that family is worried is because they see the price of health 
care going up year over year. And one of the things I am very 
proud of that the House bill does is try to finally try to deal 
with the actual cost of health care, not just health insurance. 
The Affordable Care Act may--may--have made insurance more 
affordable for some people, but it made health care more 
expensive for everyone, and that is what we are trying to 
remedy.
    Senator Stabenow. I would just conclude by saying the 
reality of what has been done in the House and what is now in 
the Senate is a massive cut to health care in Medicaid and a 
great big additional tax cut for the wealthiest Americans that 
does not reflect the values I know of in Michigan.
    Thank you, Mr. Chairman.
    Mr. Mulvaney. Thank you.
    Chairman Enzi. Senator Crapo, followed by Senator Harris.
    Senator Crapo. Thank you very much. And, Director Mulvaney, 
I appreciate the fact that you have not only today but 
consistently made yourself available to us in Congress and have 
worked with us to try to achieve the significant reforms that 
we are hoping to put into place.
    I want to use the few minutes that I have to talk with you 
about the assumptions in the budget. I know there has been a 
lot of criticism about the rate of growth of the economy that 
the budget assumes.
    First of all, could you tell me what those assumptions are 
for the first year and then for the 10-year cycle?
    Mr. Mulvaney. Yes, sir: 2.3 percent growth in year 1, 2.5 
in year 2, 2.8 in year 3, and then 3 percent growth out through 
the end of the budget window.
    Senator Crapo. And the average for the budget window is 
2.9?
    Mr. Mulvaney. 2.9.
    Senator Crapo. I assume you would know this, but it is my 
understanding that in President Obama's first budget, his 
projected growth rate was 4 percent and was over 4 percent for 
the first 4 years.
    Mr. Mulvaney. It was 3.5, then 4.4, then 4.6, then 3.8.
    Senator Crapo. OK. And the average for the 10 years under--
--
    Mr. Mulvaney. Was 2.9.
    Senator Crapo. Was 2.9. So it is the exact same average 
that President Trump is proposing.
    Mr. Mulvaney. Yes, sir. And dramatically less than the 
second Obama budget, 3.3 over the budget window. The third 
Obama budget was 3.2 percent over the entire budget window. The 
fourth was 3.2. So we are actually lower than the Obama 
administration first four budgets.
    Senator Crapo. All right. I find that very interesting, and 
I also would like to have you compare this not to the Obama 
budget proposals and the Obama economic assumptions, but would 
you compare this to the actuality? What is the average rate of 
growth in the United States for, say, the last 50 years?
    Mr. Mulvaney. Just slightly above 3 percent.
    Senator Crapo. So the proposal that you are talking about 
is slightly below the historic average for----
    Mr. Mulvaney. Which is one of the reasons, Senator, there 
was actually some discussion about raising these to get us to 
the historical norm.
    Senator Crapo. And what is the historical norm?
    Mr. Mulvaney. I think if you look from post-World War II, 
it is 3.3, 3.4, 3.5--someplace in the mid 3s.
    Senator Crapo. And one of the reasons that you are willing 
to make these projections, if I understand it, is that you are 
also proposing significant reforms, like the tax reform, the 
health care reform, a number of other significant reforms that 
would help us to stimulate economic growth in the United 
States. Is that correct?
    Mr. Mulvaney. And do not discount the impact of regulatory 
reform.
    Senator Crapo. I should have mentioned regulatory reform.
    Mr. Mulvaney. When we talk to businesses--we do believe 
that there is pent-up growth in this country, that businesses 
have simply decided not to do thing because the regulatory 
environment has discouraged them from doing so, and that simply 
by telegraphing that the environment is going to change has 
already helped some of the leading economic indicators. We know 
that the GDP numbers for the first quarter were lower than 
everybody wanted to see them, but some of the leading 
indicators are very, very strong, and that the opportunity for 
us moving forward on driving growth through regulation reform 
is dramatic.
    Senator Crapo. I very much agree with and appreciate that. 
As you may know, I am a Bowles-Simpson guy and have been a part 
of the Gang of Six in the Senate fighting for these kinds of 
reforms. And I have talked about the national debt and the drag 
that it is on our economy for years and years and years. But I 
am starting to think that the regulatory burden is beginning to 
approach the national debt in terms of it seriousness for its 
impact on our economy. So I appreciate your focus on that.
    One last aspect of this. We have talked about the roughly 3 
percent projected growth targets that we would like to achieve. 
Is there any reason why we could not hit higher than 3 percent? 
I do not know why we should--let me ask the question this way: 
I understand that a lot of people are saying that the 
projections should be somewhere around 1.9 and we should just 
say we will have a 1.9 percent growth rate for the next 10 
years. That is being argued, isn't it?
    Mr. Mulvaney. Not only is it being argued, it is the 
official position of the Congressional Budget Office.
    Senator Crapo. OK. So why would we set a target one-third 
below the historic average and equal to what we have been 
seeing during the economic crisis that we have been living 
through? Why should we set that as the target that we should 
maintain?
    Mr. Mulvaney. You have to wonder about anyone who would 
argue that 1.9 is where we should be, their view about the 
American spirit, their view about the American worker, their 
view about the American economy, and whether or not there is a 
pessimism that is hard-wired into that number that should 
discourage all of us.
    Senator Crapo. Well, again, my time is out, but I want to 
thank you for setting the target, setting the goal high--and 
``high'' is probably the wrong word--a little bit below the 
historic average, and saying to America that we can get there, 
that we can build this economy in this country back. So thank 
you. I appreciate your efforts.
    Mr. Mulvaney. Thank you, Senator.
    Chairman Enzi. Senator Harris, followed by Senator King.
    Senator Harris. Director Mulvaney, you mentioned in your 
comments that in creating this budget you have considered the 
impacts of your policies. My concern is that you have 
overlooked the impacts as it relates to certain Americans who I 
believe are particularly--they need us to see them and to think 
of them when we create such a budget. So I would like to talk 
in particular about a few.
    The American worker. There has been a lot of talk about the 
American worker, and I think we all know we need to prioritize 
the American worker. Your budget cuts the Department of Labor 
by $2.5 billion and workforce training by $1.3 billion. As you 
probably know, there are a number of major disruptions in our 
labor force, and over the next 20 years there will be more, 
mostly driven by automation and technology, which puts millions 
of jobs at risk, developments like online shopping, automation, 
and fast-food delivery, driverless cars and so on.
    People who are currently between the age of about 30 and 50 
in our country right now who are unemployed, who want to work, 
who had a job, need to be seen. They will have a life 
expectancy of probably another 30 to 50 years, and I believe 
they need the support that your budget does not give them when 
you have proposed a 21 percent cut to the Department of Labor, 
including a 40 percent cut to the Employment and Training 
Administration. So I would encourage you to review the impacts 
of your budget to that population, the population being the 
American worker.
    As it relates to another subset of our population who need 
to be seen and the impact to them needs to be thought about and 
prioritized, it is that population of people that are impacted 
by the opioid epidemic in our country. According to the 
American Psychiatry Association, a survey that came out 
yesterday indicates that more than a quarter of Americans and 
more than a third of millennials report knowing someone who has 
been addicted to opioids or prescription painkillers. Most 
responses believe that treatment is a better option than law 
enforcement to tackle the problem. Seventy-three percent of the 
responses believe people can recover from opioid addiction.
    The Congressional Budget Office, however, estimated that 
repeal of the Affordable Care Act translates to one in six 
Americans losing access to opioid treatment because they live 
in a State that would waive the requirement on covering 
substance abuse and treatment. Your budget would also cut the 
Medicaid program by 40 percent, which is currently the largest 
payer for opioid treatment.
    In considering the impacts of your policies, I would also 
urge you to consider older Americans. As you know, the CBO has 
projected that under the repeal of the Affordable Care Act, a 
number of seniors would see a cost increase or lose their 
coverage. According to the AARP Public Policy Institute in 
California, for example, a 55-year-old of today with a $25,000 
income would pay on average as much as $8,598 more a year than 
today. In Louisiana, that would be $5,920 more; in Iowa, $6,670 
more; Colorado, $6,975 more; in Maine, $7,602; and Alaskans, 
$18,533 more a year.
    So I would like to know how you are interpreting the impact 
of your budget as it relates to these populations when there is 
objective feedback that we are receiving from folks like the 
AARP, the American Psychiatry Association, and the CBO that 
indicates that they will be harmed, perhaps irreparably, 
because of the cuts in your budget.
    Mr. Mulvaney. Thank you, Senator. I will handle as may of 
those as I can in the time.
    The American worker is at the top of the list. When you 
stop to consider what this administration has already done in 
terms of helping the American worker, the emphasis we put on 
trying to bring manufacturing back, the proposals that we have 
in our deregulatory efforts, our tax proposals, our trade 
policies, those are all focused on helping the American worker, 
as does----
    Senator Harris. Director Mulvaney, I think you know that 
the American worker will tell you, those in particular who are 
between the age of 30 and 50 today, who are unemployed, who had 
a job and want to work, that they do not necessarily have the 
skills that industry requires for them to actually be able to 
get a job and keep a job, and that they are in need of training 
and resources to allow them to transition into these new 
economies. The Department of Labor has as its focus and 
responsibility to assist the American worker in acquiring those 
skills so they can get and keep a job. How do you justify 
cutting funding for the American worker to be able to 
transition into these new economies?
    Mr. Mulvaney. We actually increase spending on the 
workforce training programs that work.
    Senator Harris. But cutting the budget by 40 percent?
    Mr. Mulvaney. No, ma'am. We actually--we asked a reasonable 
question, which is we went to the workforce programs and said, 
look, are you successful as measured by the number of people 
that you train that actually get jobs after they go through the 
program. And if a program proved to us that they were 
successful, they got more money. if they proved to us that they 
were not, they got less. That seems to be a fairly reasonable 
approach.
    Senator Harris. I think you need to tell that to the 
American worker.
    Mr. Mulvaney. I would be happy to.
    Senator Harris. Good. Thank you.
    Chairman Enzi. Senator King.
    Senator King. Thank you, Mr. Chairman.
    First, just to clarify a bit, the administration supported 
the AHCA. Is that correct?
    Mr. Mulvaney. That is correct. Yes, sir.
    Senator King. So, really, the AHCA and this budget need to 
be looked at as a unit in terms of dollars and allocation.
    Mr. Mulvaney. I think that is fair. Yes, sir, keeping in 
mind that I think we included--because there were some last-
minute amendments--the Upton amendment I do not think made it 
into our assumptions just because of the timing allowed.
    Senator King. I understand. So that means that we are 
talking not about $800 billion Medicaid cuts just in the CA--I 
mean in the AHCA, but also the cuts that are proposed in the 
budget. My understanding is that those are not identical, that 
there is--in fact, it is about $1.3 trillion combined. Is that 
your----
    Mr. Mulvaney. The number I have heard is 1.4, and that is 
drawn from the 800 from the AHCA and 600 from some of the other 
reforms that we propose--if I may?
    Senator King. Yes.
    Mr. Mulvaney. However, you cannot add those two numbers 
together because there are components of those that overlap. So 
the total would be less than 1.4. It depends on what the final 
version of the bill looks like before you can say what the 
number is.
    Senator King. Well, is it somewhere in that range, 1.3 to 
1.4?
    Mr. Mulvaney. It is someplace between 800 and 1.4. So if 
you wanted to round the difference off, what is that, 1.1?
    Senator King. OK. So it is your position, as you were 
answering questions a minute ago, that you are not cutting 
Medicaid, you are simply cutting the rate of growth?
    Mr. Mulvaney. Yes, sir.
    Senator King. The problem is Medicaid, as you know, now 
pays the cost of a nursing home bed, for example, for an 
elderly person. So if the cost of the nursing home bed goes up 
6 percent and under your proposal Medicaid reimbursement goes 
up 2 percent, there is a differential. Isn't that so?
    Mr. Mulvaney. Under that set of circumstances, I guess 
there would be a differential, but keeping in mind that----
    Senator King. Well, what assumption of growth of Medicaid 
were you using in the budget to create these numbers?
    Mr. Mulvaney. The assumption of the growth rate in 
Medicaid, we dialed it down a little bit, Senator, from what 
was in the AHCA because the research that we had done during 
the preparation for that bill was that the actual growth rates 
in Medicaid were below what they have in the AHCA, and I cannot 
remember----
    Senator King. So are you saying that your Medicaid, even 
with all of these cuts, or whatever you want to call them, is 
going to meet the need of the elderly person in the nursing 
home?
    Mr. Mulvaney. Yes, sir, we do believe that.
    Senator King. So you are essentially saying there are no 
cuts.
    Mr. Mulvaney. We are saying that we are slowing the rate of 
growth that is assumed in the Congressional Budget Office, but 
that the money that we provide for will still be enough to meet 
the population that Medicaid serves.
    Senator King. And so there are going to be no real 
reductions even if--what I am trying to get at is does the 
assumption of your growth rate that is in your projections 
equal also the assumptions of the increase in costs of health 
care? Because as you know, health care has escalated at 
significantly above ordinary inflation.
    Mr. Mulvaney. It has, but Medicaid has not grown at that 
level. And, by the way, before, I say that we only slow the 
rate of growth. As I think I have tried to make clear in the 
couple times we have talked about it, there is 1 year where 
there is an exception, and that is an element of the AHCA where 
you end--the grandfathering of the expansion of Medicaid in the 
various States ends, and that leads to a very small actual real 
drop.
    Senator King. Well, what you are testifying here is that 
you are really not cutting Medicaid and that all this about 
$1.4 trillion is just much ado about nothing? Is that your 
testimony?
    Mr. Mulvaney. Well, we have to measure it against the 
Congressional Budget--the baseline, and the baseline--everybody 
else wants to do it that way. If we measure it against the 
baseline, it is someplace around a $1.1--give or take--trillion 
reduction against the baseline. We think the baseline is too 
high.
    Senator King. So that is the assumption? There will be no 
negative impacts on disabled people, children, elderly, that is 
your testimony?
    Mr. Mulvaney. We care about----
    Senator King. I just want to be clear that is your 
testimony.
    Mr. Mulvaney. We care about the disabled and the children 
and the elderly just as much as----
    Senator King. So is it your testimony that these changes in 
the rate of reimbursement for Medicaid will have no effect on 
elderly, children, disabled people who are now beneficiaries?
    Mr. Mulvaney. We believe that to be the case, yes, sir.
    Senator King. All right. Thank you for that testimony.
    A question on growth, and everybody wants growth. And we 
can talk about whether it is going to be 3 percent or 4 percent 
or 1.8, and, clearly, whatever the assumption is affects 
whether you are balanced in 10 years or 20 years or whatever. I 
understand that. None of us know what it is going to be. We all 
want it to grow.
    My problem is that when you think about it, and Senator 
Perdue talked about productivity, you think about productivity, 
one of the--that is the engine of growth in the end.
    Mr. Mulvaney. Correct.
    Senator King. And one of the ways you--two of the principal 
ways you grow productivity are workforce training and research. 
My concern is that you are significantly cutting workforce 
training and research, both in the National Institutes of 
Health (NIH) but also particularly in the Department of Energy. 
There are elimination--Advanced Research Projects Agency 
eliminated in the Department of Energy, Advanced Technology 
Vehicle Manufacturer eliminates, Fossil Energy Research and 
Development Program cut by 58 percent, nuclear energy cut by 31 
percent, energy efficiency and renewable energy cut by 70 
percent. I do not know how you increase productivity by cutting 
research--and I am not even talking about NIH--by cutting 
research and by cutting job training programs. You cannot--that 
is what you need to grow the economy.
    Mr. Mulvaney. I would love to have time to--it is an 
excellent question, and I think I have at least a reasonable 
answer to it, which is if you look at total R&D spending, it is 
up. If you look at the NIH spending with the reforms that we 
propose--and if I can very quickly--if you get a grant from a 
private foundation, you are only allowed to use 10 percent of 
it toward overhead. The average in the Federal Government is 
about 27, 28 percent. If you take the Federal level to the same 
as the private level, you actually spend as much on NIH 
research this year as you did the year before.
    Senator King. So it is your testimony that actual is just 
like before. What looks like cuts in the budget are not really 
cuts; the end result will be the same.
    Mr. Mulvaney. We are trying to be more efficient with the 
use of taxpayer money. We think we can do it without negatively 
impacting the things that you have mentioned.
    Senator King. I do not have time for another question, but 
I will quote General Mattis with regard to the drastic cuts to 
the State Department: ``If you cut the State Department budget, 
you are going to have to buy me more ammunition.'' I think that 
is a huge policy mistake.
    Thank you.
    Mr. Mulvaney. Thank you, Senator.
    Chairman Enzi. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair, and thank you, 
Director Mulvaney. This is a hearing about the President's 
budget, so you are here getting the questions. But we 
understand these are the President's decisions, and you are 
here to explain them.
    Mr. Mulvaney. This is the job I asked for and the one you 
all saw fit to give me, and I do enjoy doing it.
    Senator Kaine. I am just making the point that these are 
questions directed really about the President's budget. We know 
that you are here as the Director----
    Mr. Mulvaney. Are you getting ready to say something really 
nasty about it, Mr. Kaine? Is that the----
    Senator Kaine. It is not about you. It is about the 
President's budget. But I do appreciate the candor in your 
written testimony, so I am looking at the first page: ``It also 
keeps the President's promise to balance the budget within the 
next decade and reduce our debt without affecting beneficiaries 
of Social Security and Medicare retirement programs, and 
without raising taxes.''
    You do not include in that paragraph the President's 
promise not to cut Medicaid.
    Mr. Mulvaney. Correct.
    Senator Kaine. Because the budget does not keep that 
promise. The President said, ``I will not cut Social Security, 
Medicare, or Medicaid,'' and I think you were smart not to put 
the Medicaid line in this because I do not think it keeps the 
President's promise to not cut Medicaid. And in Virginia, about 
a million people on Medicaid: 600,000 are kids, 112,000 are 
seniors in nursing homes, 186,000 are people with disabilities. 
So I am going to be out talking to a lot of people, and they 
are going to ask me, wait, the President said he was not going 
to cut Medicaid. I am a kid. I am a senior in a nursing home. 
Or my parents or grandparents are in a nursing home. I am 
disabled.
    What do I say to them when they tell me, ``The President 
promised he was not going to cut Medicaid''?
    Mr. Mulvaney. That their quality is actually going to 
improve. I do not know if you were here earlier when I was 
telling my history of being in the State legislature, and I 
cannot remember if you were in the State legislature in 
Virginia or not. But I do remember begging the Federal 
Government for more control over our Medicaid dollars, how we 
served people in South Carolina, because we thought the one-
size-fits-all Federal programs did not serve the rural poor 
that we had in South Carolina.
    And so what I would tell those folks is what the American 
Health Care Act does is, yes, it changes Medicaid, and, yes, it 
spends less. But by giving local control, Governors and State 
legislatures will actually be able to----
    Senator Kaine. But you get my point. They are saying to me, 
``The President said he would not cut Medicaid.''
    Mr. Mulvaney. And if you----
    Senator Kaine. And then I am going to say to them, ``Yes, 
but and there is a cut between $800 trillion and $1.3 
trillion,'' but I am supposed to tell them, ``Your quality is 
going to improve''?
    Mr. Mulvaney. And if you go back to my verbal statement--
you have got the written statement, and they are both fine. I 
stand by both of them. I would tell those folks, look, are you 
really going to measure your Medicaid by the amount of money we 
spent on it or the quality of the care that you got?
    Senator Kaine. Well, how about if they say this to me, they 
say, well, dollars are some of it, and I see that there is a 
Medicaid cut that is somewhere between $800 billion and $1.4 
trillion, and I see that there is a tax cut that is $992 
billion. So why am I getting my health care cut if I am a 
child, my Medicaid cut if I am a child, if I am elderly, if I 
am disabled, and the same budget, the AHCA plus the budget, has 
a $992 billion tax cut? What do I say to them?
    Mr. Mulvaney. Senator, let me put it this way, because I 
represented some of the same sorts of people that you did. I 
represented a relatively rural part of South Carolina. And when 
I had folks on Medicaid, what they cared about was their health 
care. And if they were getting good health care, they were not 
the jealous, envious type that wanted to have what everybody 
else----
    Senator Kaine. Whoa, whoa, whoa. I am not talking about 
jealous, envious people either. I am just saying if folks are 
seeing the headlines saying, ``Medicaid cut by $1.3 trillion, 
tax cut $992 billion,'' that is going to make them scared.
    Mr. Mulvaney. Wouldn't it be great if instead of that, the 
headline said, ``Government providing better Medicaid at lower 
cost''? How do you think they would respond to that one?
    Senator Kaine. How are they going to believe that?
    Let us go to another promise of this President: ``Nobody is 
going to lose coverage. Nobody.''
    Mr. Mulvaney. I believe it is a promise that is already 
being broken by the current status of Obamacare.
    Senator Kaine. Hold on a second. This was a promise that 
this President made. Under Donald Trump, nobody is going to 
lose coverage. The CBO yesterday said 23 million people are 
going to lose coverage. So I have got to go out to them, and I 
have got to say Medicaid is going to be cut by $1.3 trillion, 
$992 billion of tax cuts, a lot of them at the top end, and 23 
million people are going to lose coverage. And when they say to 
me, ``The President promised nobody was going to lose coverage, 
but 23 million are,'' what do I say to them?
    Mr. Mulvaney. And I guess you are right in this case, 
Senator, in the sense is that the President cannot keep that 
promise unless the law changes, because unless the law changes, 
those people will lose coverage.
    Senator Kaine. But if the law changes and 23 million--are 
you telling me that 23 million people losing coverage keeps 
President Trump's promise that nobody loses coverage?
    Mr. Mulvaney. I would love to have a conversation about the 
methodology behind the 23 million people lost coverage. It 
assumes, for example, that----
    Senator Kaine. Should this body try to keep President 
Trump's promises, a health care system where nobody loses 
coverage, nobody pays more, and nobody with a preexisting 
condition has to revert back to a position where they are going 
to get kicked around?
    Mr. Mulvaney. I think you should pass something that 
replaces Obamacare and meets the needs that you have just laid 
out.
    Senator Kaine. We can call it a replacement or repeal, 
whatever. What we should pass is something that should meet 
those three promises that the President made: nobody loses 
coverage, nobody pays more, and nobody gets kicked around 
because they have a preexisting condition?
    Mr. Mulvaney. All I know, Senator, is you cannot keep that 
promise under the current law.
    Senator Kaine. So but any change should be a change that 
would meet President Trump's promises?
    Mr. Mulvaney. I think any change would be a change for the 
better, that is for sure.
    Senator Kaine. I am going to leave it right there. Thanks, 
Mr. Chair.
    Chairman Enzi. Senator Corker.
    Senator Corker. Well, thank you, Mr. Chairman. I was in a 
great meeting with Senator Kaine just a few minutes ago, and 
Senator Merkley, actually, and I am glad to be here finally. I 
am sorry to be here late.
    I want to thank you for your service, and I hope you still 
feel this is the job that you have lived for in life.
    Mr. Mulvaney. In all fairness, it is. So thank you for 
that.
    Senator Corker. I am glad you are in it, and thank you for 
being here.
    Somebody in the administration either yesterday or the day 
before said that the President's tax reform plan will be offset 
on a static basis every year of the budget window. That was a 
statement coming out of the White House yesterday, and I just 
wondered if you would affirm that.
    Mr. Mulvaney. I think that is consistent at least, 
Senator--I am not familiar with that exact statement, but I 
think it is consistent with some of the discussions we have had 
here earlier today about the assumptions that we made in this 
budget. We get accused, as you probably heard about, double 
counting. The assumptions we made with this was that the 
changes in things like the deductions and the examinations and 
the loopholes would result in a tax plan that was revenue 
neutral. We had to make some assumptions early on, right? There 
is only three. I assume increase the deficit, decrease the 
deficit, or kept it the same. We assumed it was right down the 
middle and kept it the same. So that is how we pay for the tax 
proposals that we had to assume, and then we do take the 
benefits of dynamic growth through the 3 percent in order to 
generate new revenues to the Treasury.
    Senator Corker. But the actual policy that will be put in 
place, I mean the way you put the budget together, indicated 
that the tax reform package would be deficit neutral on a 
static----
    Mr. Mulvaney. Correct.
    Senator Corker [continuing]. On a static scoring basis.
    Mr. Mulvaney. Would be deficit neutral.
    Senator Corker. Would be deficit neutral on a static 
scoring.
    Mr. Mulvaney. Yes, sir.
    Senator Corker. And that seems to be consistent with a 
White House official yesterday--I do not know who it was that 
said that. It sounds like the tax policy that the White House 
is planning to put in place would be revenue neutral in every 
year over the next 10 years, which is consistent with what you 
have in the budget. Is that correct?
    Mr. Mulvaney. Keeping in mind, Senator, we have to make--we 
start--in fact, I did not even realize this until I started 
looking at the job. We will start the 2019 budget now. That is 
how much lead time you have to do when you are writing a 
budget. The agencies are already starting--so there is a great 
amount of lead time. So you have to make certain assumptions, 
and when we started to make assumptions about the tax policy, 
all we had to go off was this single piece of paper that laid 
out our principles.
    Senator Corker. Right.
    Mr. Mulvaney. So the ultimate bill probably can and will 
look different than that, but the assumptions we made were 
along the lines of what you just laid out.
    Senator Corker. Well, it sounds like--I mean, I am just 
repeating again. It sounds like the budget proposal, which you 
started working on as soon as you came into office, is 
consistent with what White House officials are saying, and that 
is, it is going to be revenue neutral on a static basis.
    Mr. Mulvaney. That I am not aware of, although the 
discussions are going--I know that Secretary Mnuchin has taken 
the lead on the discussions in the House. He may have met with 
various Senators--well, in fact, I assume that he probably has. 
So I have no idea where we are in that process. I know that 
when we had to lock in our numbers, we made that assumption. I 
do not think that is any indication as to what the final bill 
will actually look like.
    Senator Corker. So I just----
    Mr. Mulvaney. As I mentioned--I do not mean to cut you 
off--we cannot make those assumptions again next year. If I am 
sitting here next year, we will have more details on what their 
budget looks like.
    Senator Corker. Of course. And I listened to the exchange 
you had with Senator Kaine, and I know that the word ``cuts'' 
was used for Medicaid. And I would like to use the word 
``reform'' instead. We need to make sure that people who 
actually benefit from Government services are entitled to, and 
do so in a more efficient way so that these programs are around 
in the future. I would just like to make an editorial comment 
and say that I hope in the 2019 budget you are able to convince 
the administration to look at Social Security and Medicare, 
because if you leave that much entitlement spending off the 
table, it is very difficult, as you know, to solve our Nation's 
fiscal issues. And you and I both know we can deal with those 
issues appropriately, and not do anything in any way to damage 
or harm the people that are currently on those programs.
    So I look forward to working with you, and I hope that you 
are able to alter opinions between now and next year's budget, 
and that is why I am so glad you are in this position.
    I would like just to ask one final question. Yesterday both 
you and Secretary Mnuchin, who I also appreciate working with, 
said Congress will need to raise the debt limit sooner than 
expected. I know that administrations typically play this game 
with us to increase pressure. The default date is always X and 
then you move it up to Y so that there is a little leeway in 
the event we do not raise the debt ceiling. That may not be the 
case here. I am just telling you what has happened in the past. 
You have experienced that. Knowing this, what has changed that 
would require Congress to address the debt limit sooner?
    Mr. Mulvaney. I think in talking with Secretary Mnuchin, he 
and I had about an hour-long meeting Monday, Tuesday--the whole 
week starts to run together--but the receipts were coming in a 
little bit more slowly than he anticipated when he gave his 
last letter to Congress. I think the last letter he sent--and I 
hate to butcher this, but I think it said he expected the debt 
ceiling to be reached about sometime in early September. And I 
think now it has moved a couple weeks in advance, and he may be 
giving additional guides on that out of Treasury shortly, and I 
think that is consistent with his testimony yesterday.
    Senator Corker. Thank you.
    Thank you, Mr. Chairman.
    Chairman Enzi. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    Under the H.R. 1628 Trumpcare 2.0, Medicaid expansion is 
essentially wiped out. In Oregon, that means about 400,000 
people lose their health care coverage. Why do you not consider 
that to be a breaking of the promise for coverage?
    Mr. Mulvaney. No, sir, my understanding is that, generally 
speaking, most folks do not stay on Medicaid very long. It is a 
bridge to something else, and that the AHCA allows a 
grandfather period necessary for the States to allow those 
folks to rotate off of the Medicaid program. So we do not 
anticipate that anybody would be kicked off. Certainly future 
folks who might have qualified under an expanded Medicaid would 
not have access to that program, but that does not mean that 
somebody would be kicked off.
    Senator Merkley. Well, using the churn as a strategy to 
simply eliminate Medicaid expansion means roughly 400,000 fewer 
Oregonians will be covered by Medicaid, by just the expansion. 
That is before you start cutting the heart out of basic 
Medicaid. But let me turn--I think everyone, every analyst, 
every expert, every health care group considers this to be a 
massive reduction for States that have Medicaid expansion and a 
significant reduction for those who have basic Medicaid. And 
you can sit here and spin it all day long, and that is your 
privilege. You are here to testify. But nobody in the world 
buys that story.
    Let me turn to the attack on rural America. This budget 
cuts rural business loans, rural development, rural 
transportation, rural water, essential service to rural 
airports, as well as contract tower support, rural clinics, 
rural hospitals, rural rental housing, rural agriculture, 
which, by definition, is rural, and veterans' vouchers.
    So why does the President have it in for rural America?
    Mr. Mulvaney. We create a new economic infrastructure grant 
account providing $161 million, of which 80 is targeted for 
Appalachia. We increase farm loans by $552 million over the 
enacted level of already $7 billion. We increase community 
facility loans by $400 million to support a loan level of $3 
billion. We provide $6.2 billion in loans to rural electric----
    Senator Merkley. Excuse me. Are you saying that none of the 
reductions that I just mentioned are things that are in the 
President's budget?
    Mr. Mulvaney. No. I am saying there----
    Senator Merkley. I would like you to read the President's 
budget if you are going to sit here and testify and----
    Mr. Mulvaney. No.
    Senator Merkley. Do you acknowledge all these cuts to rural 
America?
    Mr. Mulvaney. No, your question is: What are we doing to 
and for rural America? You would say ``to,'' I would say 
``for.'' And my point to you would be the same points I made to 
other folks here today. I give the Appalachian Regional 
Commission, Mr. Merkley, as a prime example. OK? We were not 
convinced that it worked. We were not convinced that it was 
showing a return on investment for the taxpayers. So----
    Senator Merkley. Are you contending rural America will get 
the same amount of resources it has after you savage all these 
programs?
    Mr. Mulvaney. So what we did with the Appalachian Regional 
Commission, which I think was $144 or $146 million----
    Senator Merkley. I am not interested in the Appalachian 
Commission. That does not affect Oregon. I am asking you about 
all the cuts you are doing to rural Oregon.
    Mr. Mulvaney. I am telling you that we think that we are 
taking care of the rural--the rural--not rural poor, rural 
folks generally. Keep in mind, you are only looking at one side 
of the equation. You are not looking at the policy----
    Senator Merkley. So to the five airports that have contract 
tower support to keep rural air service, which is essential, 
you are saying that they will still have that support in the 
budget?
    Mr. Mulvaney. No. We are saying that----
    Senator Merkley. Thank you.
    Mr. Mulvaney [continuing]. There are absolutely going to be 
changes in the specific program.
    Senator Merkley. OK. So we do not have time to go through 
all these pieces. I have listed them out, the essential damage 
that this budget does to rural America. You can contend 
otherwise, as you spin everything else. But let us turn to the 
direct impact on those who are hungry in Oregon: 370,000 
children at risk of going hungry every day. Have you ever in 
your life gone to bed hungry?
    Mr. Mulvaney. No, sir. And I am thankful that I have not.
    Senator Merkley. Then you feel very comfortable cutting the 
basic program that ensures our children have food in Oregon? 
Because you have never gone hungry, so you cannot place 
yourself into the----
    Mr. Mulvaney. No, sir, because we do not do that. The SNAP 
reductions and the other programs you are looking at deal with 
us trying to involve the States in managing the programs. Keep 
in mind the way SNAP works right now is that we provide 50 
percent of the administrative costs and the State matches that. 
But we provide 100 percent of the actual benefit. And what we 
have found is that is a formula for waste and growth rates in 
costs that are simply unsustainable. So what we do is ask the 
States to pick up some of the costs in order to drive 
efficiencies that we know exist when the people who are 
administering the program have at least just a little bit of 
skin in the game. So the total spending should not go down, or 
if it does, it goes down because of efficiencies and not 
because of reductions.
    Senator Merkley. It is so easy to sit in your chair and 
talk about efficiencies when you have never worked with low-
income incentives who are going hungry.
    Mr. Mulvaney. Senator, that--with respect, sir, you asked 
me if I had ever gone to bed hungry. You never asked me if I 
had worked with folks who had.
    Senator Merkley. Well, clearly what you are doing in this 
budget is going to do a lot of damage to those individuals, 
whether or not you have worked----
    Mr. Mulvaney. I respectfully disagree, but I thank you.
    Senator Merkley. Let us turn to housing. We have 4,000 
housing vouchers eliminated. In Oregon, the housing vouchers 
play an incredibly important role in a state of emergency, to 
help address a state of emergency in housing. Why make it 
worse? Why make a housing emergency worse?
    Mr. Mulvaney. Senator, to be honest with you, I have 
handled a lot of questions over the last 2 days, and I do not 
have the information about the housing voucher program at my 
fingertips, and I apologize.
    Senator Merkley. Thank you. I will follow up with you, 
because I do have it at my fingertips, and it makes a housing 
crisis in Oregon, which has one of the worst crises in America 
because a lot of people have heard what a wonderful place 
Oregon is, and it is, and people are moving to----
    Mr. Mulvaney. I would suggest to you that your housing 
crisis in Oregon is driven mostly by your land-lease policies 
and not by anything dealing with Federal regulations.
    Senator Merkley. I would suggest you know very little about 
housing in Oregon.
    Mr. Mulvaney. Thank you, sir.
    Chairman Enzi. I want to thank everybody that participated 
today. I want to particularly thank Director Mulvaney for his 
answers and for the effort that he has had to put together in a 
very short period of time to come up with something as 
complicated as $4 trillion worth of spending.
    We are going to get to grapple with these same things as a 
committee because, as I have told people as they have come by 
me here, this is a list of suggestions from the President, but 
we are the ones that actually do the budget. And so I am going 
to be relying on all of these folks who have criticism--and I 
think everybody has some criticism--how they are going to solve 
the problems that we have and do it in a responsible way. I 
really appreciate that that is the first balanced budget, even 
though it is over 10 years, that I have seen from a President 
in a long time. And, in fact, for the last 8 years, we have 
voted on a President's budget, and the first 7 years the 
President got zero votes. He did not get a vote from the 
Democrats, and he did not get a vote from the Republicans.
    Now, in the eighth year, he did better. He got one vote. I 
suspect that your budget will do a little better than that, but 
when you are dealing with that much volume, there is something 
in this budget for every single person to hate. And if they are 
going to pick out the thing that they do not like in there and 
vote against the whole thing, we do not stand much of a chance 
of even doing the congressional budget that we are obligated to 
do.
    You were asked a lot of questions about tax reform. I think 
tax reform is up to us, too.
    Mr. Mulvaney. The last time I checked, most legislation is 
up to you, Senator.
    Chairman Enzi. Yes. Thanks again for your suggestions and 
being willing to do that, and I do recognize the difficulty of 
cutting and the fact that around here, in all my time, I have 
watched that it is considered a cut if you do not get as much 
as you ask for, even though it is more than you had before, and 
that makes it very difficult.
    And I appreciate your work on the debt ceiling. We are 
going to have to do that. And, of course, I am hoping that we 
can get some budget reform to get a little better process that 
puts us on a better track. We had testimony from former Senator 
Phil Gramm, who did one of the budget acts earlier, and who is 
an economist, and he actually suggested that your number for 
the rate of growth is a little low. He thought that 3.4 was a 
better answer than that based on both historical and what he 
saw as possibilities for solving some of our problems.
    So thank you for your efforts on this. Thank you for your 
patience and your willingness to answer questions and the 
volume of answers you were able to do on such a diverse set of 
questions.
    So thank you very much. We will work with you to see how 
much of that we can accomplish and what will come out in our 
budget.
    Mr. Mulvaney. Senator, thank you very much for having me.
    Chairman Enzi. The hearing is adjourned.
    [Whereupon, at 12 p.m., the committee was adjourned.]

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following submitted questions were not asked at the 
hearing but were answered by the witness subsequent to the 
hearing:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


     THE PRESIDENT'S FISCAL YEAR 2018 BUDGET AND REVENUE PROPOSALS

                              ----------                             


                         TUESDAY, JUNE 13, 2017

                                       U.S. Senate,
                                   Committee on the Budget,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-608, Dirksen Senate Office Building, Hon. Michael B. Enzi, 
chairman of the committee, presiding.
    Present: Senators Enzi, Grassley, Crapo, Toomey, Johnson, 
Perdue, Gardner, Kennedy, Sanders, Wyden, Whitehouse, Merkley, 
Kaine, Van Hollen, and Harris.
    Staff present: Eric Ueland, Republican staff director, and 
Warren Gunnels, minority staff director.

         OPENING STATEMENT OF CHAIRMAN MICHAEL B. ENZI

    Chairman Enzi. I will call to order this hearing for budget 
and revenue proposals.
    Good morning, and welcome to our hearing on the President's 
fiscal year 2018 budget and revenue proposals. I want to thank 
you, Mr. Secretary, for agreeing to testify today on the 
budget. Your agency, the Department of Treasury, has 
responsibility for fostering our Nation's economic growth and 
ensuring fiscal stability across our financial system.
    Our country's growing debt and underperforming economy 
should be front and center in these conversations. America is 
faced with a mammoth national debt that totals almost $20 
trillion and the sluggish economy that is holding back more 
robust growth. Economic forecasts for the future expand at a 
modest 2 percent rate. Over the next 30 years, the debt is 
projected to nearly double as a percentage of gross domestic 
product (GDP) from 77 percent in 2017 to 150 percent in 2047.
    In order for Congress to tackle this enormous fiscal 
challenge, it must reduce spending and ensure outlay growth 
does not outpace our economy. But we also must focus on the 
other critical part of the equation: growing our gross domestic 
product. I have suggested including long-term debt-to-GDP 
targets in the Federal budget process, which would provide key 
goals and benchmarks for the budgets of both Congress and the 
President. If baseline projections do not comply with these 
targets, the administration would need to submit a plan to 
bring the current law projections back into compliance.
    Congress will be asked to raise the debt ceiling again this 
year to cover spending that is already obligated or essentially 
already spent. We must also prioritize changing the trajectory 
of our overspending. The administration has proposed a budget 
that balances, and it has been years since the White House has 
even attempted to accomplish that goal. But Congress must 
implement these reductions and deficit spending and economic 
growth policies to put our Nation on a better fiscal path.
    One way to promote economic growth is through tax reform 
that does not increase the debt. Both parties and many 
administrations have recognized the inefficiencies in our Tax 
Code and the negative impact it has on economic growth. If we 
can broaden the base while lowering tax rates and simplify our 
tax laws, it will help limit Government distortion of market-
based decisions, increase investment and growth of businesses.
    I appreciate that President Trump and the Treasury have 
identified guiding tax reform principles and want to engage 
Congress about navigating a path forward. We do need a simpler, 
fairer, and more transparent tax system. We all agree that tax 
reform is long overdue, and we need to take the steps to reform 
our tax system while promoting economic and job growth.
    I am confident that having an administration that set tax 
reform and stronger economic growth as priorities and that has 
committed to working with Congress will allow us to get a bill 
across the finish line. How the Budget Committee scores a 
comprehensive overhaul of our tax code is one question we will 
continue to work on with the administration. Past scoring 
practices do not include the reaction of the general economy to 
major policy changes. That means lawmakers are only getting a 
partial picture of how an important policy might actually 
affect the economy. Dynamic scoring can add missing economic 
information that static scores do not provide, making the score 
more complete.
    The Joint Committee on Taxation has multiple dynamic models 
which they combine with different assumptions about Federal 
Reserve policy and labor supply elasticity that produce a range 
of results. They have been running and refining these models 
for decades in order to provide legislators with critical 
information on major policies that can promote growth. And they 
have consistently recognized the link between taxes and output 
in the economy. Having the Joint Tax Committee select a single 
best point estimate for Congress to weigh against the current 
law baseline is how we enforce the budget. This committee 
continues to discuss how dynamic feedback can be used for 
enforcement, and we welcome input from the administration and 
the Treasury on this matter.
    Treasury also plays a key role in many of the other growth 
policies proposed by President Trump: regulatory relief, 
international trade, incentivizing private investment in the 
infrastructure, to name a few. The administration has proposed 
a financial deregulation plan to rid the banking system of red 
tape caused by the Dodd-Frank Act and announced a withdrawal 
from the Paris climate agreement. Each step gets us closer to 3 
percent economic growth, which returns our economy to its 
historic average rate. The Budget Committee sets Congress' 
preferred legislative path for growth. I look forward to 
considering a fiscal year 2018 budget that promotes the 
economy, creates jobs, and tackles our mammoth national debt.
    Thank you for being willing to serve, and I thank you for 
the great people that you have gotten to help you out.
    Senator Sanders.

          OPENING STATEMENT OF SENATOR BERNARD SANDERS

    Senator Sanders. Thank you, Mr. Chairman, for holding this 
important hearing. Mr. Mnuchin, welcome.
    Mr. Chairman, during his campaign for President, Donald 
Trump told us--at a time of massive income and wealth 
inequality, the very, very rich are getting richer, almost 
everybody else is getting poorer--that he, Donald Trump, was 
going to stand up for the working families of this country, he 
was going to take on the establishment, and he was especially 
harsh in his words about Wall Street greed. He said he was 
going to ``drain the swamp.'' He said, and I quote, ``We cannot 
fix a rigged system by relying on the people who rigged it in 
the first place.''
    He said, ``I am not going to let Wall Street get away with 
murder. Wall Street has caused tremendous problems for us.'' 
That is an exact quote from Donald Trump.
    He included language, pushed language into the Republican 
platform, which I happen to agree with, stating, ``We support 
reinstating the Glass-Steagall Act of 1933 which prohibits 
commercial banks from engaging in high-risk investment.''
    He said that he was the only person in America, the only 
one, who could take on the corrupt political and economic 
establishment. He said, ``We are going to send the special 
interests packing, and we are going to once again have a 
Government of the people, by the people, and for the people.''
    Wow, those are really dramatic statements. Here we have a 
President who ran, he was going to take on Wall Street. He was 
going to stand up for the working families of this country. And 
those words no doubt must have gotten the billionaire class 
really, really nervous because he was saying all these things 
during the campaign.
    Unfortunately, as I think most Americans understand, all of 
those words of Donald Trump were never meant to be taken 
seriously. It was just campaign rhetoric--good rhetoric, I must 
say--to get votes but nothing that he ever had any intention of 
actually implementing.
    Donald Trump talked about draining the swamp, talked about 
taking on Wall Street, but he now has more billionaires in his 
administration than any President in American history. Funny 
way to take on the establishment by having more billionaires in 
your administration than any President in American history.
    His administration--this is the guy who was going to take 
on Wall Street--is filled with executive after executive from 
Goldman Sachs, one of the largest and most powerful financial 
institutions on Wall Street. His chief economic adviser is Gary 
Cohn--chief economic adviser, Gary Cohn--who was the president 
of Goldman Sachs and the man who received a $285 million 
severance package. His Treasury Secretary--and we are delighted 
that you are with us today, Secretary Mnuchin--worked at 
Goldman Sachs for 17 years.
    Mr. Chairman, one of the great scandals of our time, which 
is still impacting millions of Americans today, is that 
virtually every major Wall Street institution was involved in 
reckless, irresponsible, and illegal behavior which led to the 
great crash of 2008, which caused massive unemployment in this 
country, people lost their homes, people lost their savings.
    We had financial institutions who sold mortgage-backed 
securities that were worthless while they ripped off low-income 
and working families throughout the country. In fact, among 
virtually every other major financial institution, as a result 
of their illegal activities, Goldman Sachs alone paid a fine of 
more than $5 billion to the Federal Government.
    But instead of reforming Wall Street, which is what the 
President said he would do, instead of reinstating Glass-
Steagall, as he promised he would do during the campaign, 
President Trump endorsed a bill that passed the House last week 
that would deregulate Wall Street, increasing the odds of yet 
another taxpayer bailout even bigger than 2008. Campaigned for 
Glass-Steagall. Now he is deregulating Wall Street.
    In my view, if financial institutions are too big to fail, 
they are too big to exist. It is time to break them up.
    Now, Mr. Chairman, with a Cabinet of billionaires, it 
should come as no surprise that the budget that President Trump 
has proposed has been written by the billionaire class and for 
the billionaire class. Frankly, this budget that we have 
recently received is the most anti-working-class budget, the 
most destructive budget in the modern history of America. This 
budget follows in the footsteps of the Trump-Ryan health care 
bill, which gives massive tax breaks to the people on top and 
throws 23 million Americans off of health insurance, cuts 
Medicaid by over $800 billion, defunds Planned Parenthood.
    The Trump budget--and I hope to be questioning Mr. Mnuchin 
about this--would cause devastating pain to tens of millions of 
families in our country by cutting nutrition programs, by 
slashing Head Start, by making massive cuts to affordable 
housing, by doing away with programs, life-and-death programs, 
for working families. But guess what? Guess what? As part of a 
budget, we are looking at $3 trillion in tax breaks over a 10-
year period to the top 1 percent. So the very rich get richer; 
the working class in this country is shrinking. The Trump 
budget gives unbelievable tax breaks to the wealthiest family 
in this country.
    It is an immoral budget. It is a budget that must be 
defeated by the U.S. Congress.
    So, Mr. Chairman, thank you for holding this hearing. There 
is a lot to discuss, and I look forward to chatting with Mr. 
Mnuchin on some of these issues.
    Chairman Enzi. Thank you, Senator Sanders.
    I will now introduce our witness. Our witness today is the 
Honorable Steve Mnuchin, the Secretary of the United States 
Treasury. The Secretary has a remarkable career, including 
being a partner and chief information officer at the Goldman 
Sachs Group, founder and CEO of the OneWest Bank Group, and 
founder, chairman, and CEO of Dune Capital Management. Prior to 
being sworn in as Secretary of the Treasury, he was a senior 
economic adviser to then-President-elect Trump and finance 
chairman for his campaign.
    Apart from his professional roles, Secretary Mnuchin has 
been committed to various philanthropic and charitable causes. 
Those causes include the UCLA Health System Board, the L.A. 
Police Foundation, and the Hirshhorn Museum and Sculpture 
Garden right here in DC, just to name a few.
    Thank you for taking your time to be with us today and for 
being willing to serve. We look forward to receiving your 
testimony. Please begin.

 STATEMENT OF THE HONORABLE STEVEN T. MNUCHIN, SECRETARY, U.S. 
                   DEPARTMENT OF THE TREASURY

    Secretary Mnuchin. Thank you very much. Chairman Enzi, 
Ranking Member Sanders, and members of the committee, it is an 
honor to be here with you today. I am looking forward to 
working with Members of Congress and this committee on passing 
important legislation for the American people.
    My No. 1 priority as Treasury Secretary is creating 
sustainable economic growth for all Americans. The best way to 
achieve this is through a combination of tax reform, regulatory 
relief, and protecting taxpayers; this also includes making 
some difficult decisions with respect to our budget. We are 
currently bearing the costs of excessive Government commitments 
of previous years, and this has forced us into hard choices.
    But the remarkable thing about economic growth is that it 
builds on itself. If we develop the right policies today, our 
children and grandchildren will reap the benefits of an ever-
growing economy. Indeed, in the next 10 years, if we return to 
the modern historic average of above 3 percent annual GDP, our 
economy would grow by trillions of dollars. This will be 
meaningful to every man, woman, and child in this country and 
future generations.
    Tax reform will play a major role in our campaign for 
growth. It has been more than 30 years since we have had 
comprehensive tax reform in this country. This administration 
is committed to changing that. We have over 100 people working 
at Treasury on this issue.
    We are working diligently to bring tax relief to lower and 
middle-income Americans as well as make American businesses 
competitive again. All of this comes as we simplify the Tax 
Code and make it easier for hardworking Americans to file their 
returns.
    Finally, I would like to speak about the importance of free 
and fair international trade. Few doubt that trade is a crucial 
component of economic growth. But trade deals that disadvantage 
American workers and business can hardly be considered either 
free or fair.
    In meetings with my international counterparts, I have 
stressed this dual importance. Just 2 weeks ago, I had 
productive meetings with the finance ministers of the G-7, and 
earlier, I met with members of the International Monetary Fund 
(IMF) and World Bank. They understand our concerns, and we have 
approached our international dialog with a renewed spirit of 
mutual understanding.
    In the President's Joint Session to Congress, he spoke 
about the marvels that this country is capable of when its 
citizens are set free to pursue their visions. Fundamental to 
that freedom is removing imprudent regulation and uncompetitive 
taxes from blocking their way.
    This has been a significant few months at Treasury. We have 
been studying, developing, and implementing policies that will 
put this country on the path toward sustained economic growth.
    In the current months, we will work with this committee and 
Congress in what we will look back on as an important time for 
this Nation's economy and our history.
    Thank you and I look forward to answering your questions 
today.
    [The prepared statement of Secretary Mnuchin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Enzi. Thank you, Mr. Secretary.
    As we turn to questions, let me take a minute to explain 
the process for the committee members. Each member will have 5 
minutes for questions, beginning with myself and then Senator 
Sanders. Following the two of us, we will alternate questions 
between Republicans and the minority. All members who were in 
attendance when the hearing began will be recognized in order 
of seniority; those who arrived after it began, in order of 
arrival. I will begin with my questions.
    Mr. Secretary, the original estimate for exhaustion of 
extraordinary measures was for the fall for the debt limit, but 
there has been an interest in raising or suspending the debt 
ceiling prior to the August recess. Can you give us an update 
on when the debt limit needs to be addressed?
    Secretary Mnuchin. Sure. Thank you very much, Mr. Chairman.
    First, let me say, as I notified Congress earlier in March 
when we had an issue with the debt limit, my strong preference 
is for the House and the Senate to address this as soon as 
possible, and my preference is for you to do this before you 
leave for the August recess. I think that the U.S. dollar is 
the reserve currency in the world. We have the strongest 
credit, and we need to maintain that. So I would urge you and 
the House to do this.
    In regards to the specific timing, we do have plans, if you 
do not do it beforehand, that we can fund the Government 
through September when you get back. But, again, I urge, given 
the importance of this, that we send a message to the rest of 
the world and to the markets that we take our credit very 
seriously.
    Chairman Enzi. Thank you. The President's budget assumes 
deficit-neutral tax reform and provides core principles for 
discussions with Congress. It assumes a more efficient Tax Code 
can get our economy growing again. Can you expand on the 
administration's view on tax reform and economic growth?
    Secretary Mnuchin. Sure. Let me first say that 
fundamentally we believe that we can get back to 3 percent 
sustained economic growth. That is not this year and that is 
not next year, but we can get there. And that is going to be a 
combination through tax reform, regulatory relief, and trade.
    On the tax side, our fundamental principles are we need to 
simplify personal taxes, cut down the number of brackets, cut 
down special interest deductions, and make it so that most 
Americans can fill out their tax returns on a large postcard.
    On the business side, we have a very uncompetitive system. 
Our taxes are some of the highest in the world. We tax our 
companies on worldwide income. We have a system of deferral 
which leads our companies to leave trillions of dollars 
offshore.
    We want to correct that. We want to make our companies 
competitive, and we want to bring back trillions of dollars so 
it can be invested here in America to create American jobs.
    Chairman Enzi. Thank you, which is a good lead into my next 
question. In 2012, I introduced the United States Job Creation 
and International Tax Reform Act that would help fix our Tax 
Code and promote U.S. economic and job growth. The bill would 
modernize our international tax rules for 21st century commerce 
and make them more certain so that U.S. companies are not at a 
competitive disadvantage with foreign companies. It would give 
American companies incentives to create jobs in the United 
States and undertake activities here at home so they can win 
globally. It would encourage U.S. companies to develop and keep 
rights to their ideas and inventions in the United States 
rather than shift them offshore.
    Do you agree that our current international tax system is 
outdated and places U.S. companies at a competitive 
disadvantage, that our system should move forward toward a 
territorial system?
    Secretary Mnuchin. Yes, Mr. Chairman. First of all, let me 
applaud you on the work that you have done, and we have studied 
this as we look forward to tax reform. I completely agree that 
the system is outdated. We have not had tax reform for 30 
years. That is way too long. And, yes, I also agree that we 
should be moving to a territorial system. Our worldwide system 
encourages companies to leave their money abroad as opposed to 
bringing it home.
    Chairman Enzi. Thank you. I also am hoping that as we do 
the corporate tax reform, we keep in mind those thousands and 
thousands of small businesses that are pass-through businesses 
so that we can keep it fair for both. But I know that you will 
have some questions about estate tax, and I have a lot of 
ranchers, farmers, small and medium-sized businesses in my home 
State of Wyoming. And I believe that family owned businesses 
should not face the threat of financial ruin caused by a tax on 
a tax. I mean, when they earned it, they paid for it. When they 
die, they have to pay again. We should free Americans from that 
burden of the death tax, allowing them to preserve the 
livelihoods for their families and future generations.
    Does the administration share this concern? And if so, how 
does it plan to address that tax reform?
    Secretary Mnuchin. Yes, Mr. Chairman, we do share your 
concern. We think that Americans should be taxed once and not 
twice, that the death tax is unfair, and especially for those 
family businesses that want to continue on and have been a 
large engine of driving growth in this country.
    Chairman Enzi. Thank you. I appreciate the brevity of your 
answers as well.
    Senator Sanders.
    Senator Sanders. Chairman, thank you. Thank you for leading 
me right into the question that I wanted to begin with. We have 
a little bit different take on it.
    Mr. Mnuchin, as you know, the estate tax applies only to 
the top two-tenths of 1 percent; 99.8 percent of Americans will 
not gain a nickel if the estate tax were repealed. So my first 
question is: Why do you think at a time when the middle class 
is shrinking and millions of our families are struggling to put 
bread on the table, they are working 50, 60, 70 hours a week--
not uncommon in my State of Vermont that people would be 
working three jobs. Why do you think it is a good idea to throw 
23 million people off of health insurance, to cut nutrition 
programs for low-income pregnant women and their babies, why do 
you think it is a good idea to make massive cuts in the Low 
Income Home Energy Assistance Program (LIHEAP) so that older 
people in Vermont can stay warm in the wintertime, why do you 
think it is a good idea when all over this country people are 
paying 50, 60 percent of their limited incomes for housing, why 
do you think it is a good idea to make massive cuts in those 
programs and yet, with regard to repealing the estate tax, give 
the wealthiest family in this country, the Walton family, up to 
a $52 billion tax break? Do you think most Americans who are 
struggling think it is a great idea to cut programs that impact 
working families and give unbelievable tax breaks to the 
wealthiest families in America?
    Secretary Mnuchin. Well, thank you for your question. Let 
me first assure you that as part of tax reform, the President 
very much wants us to have a middle-income tax cut that is 
focused on spurring the economy.
    Now, as it relates to the estate tax, the super rich have 
plenty of gimmicks so that they do not need to pay the estate 
tax. This is about eliminating the estate tax so that Americans 
who have built businesses and created jobs and want to pass 
those companies on and continue their farms and continue their 
industry do not have to sell those businesses to pay the death 
tax.
    Senator Sanders. No, actually, that is not what it is 
about. In fact, my good friend Chairman Enzi mentioned ranchers 
and farmers, and we are all concerned about it. The last study 
I saw thought that maybe 50--5-0--ranchers and farmers may be 
impacted.
    What this is really about--and we should be honest about 
it--is that people like the Koch brothers, second wealthiest 
family in America, have spent hundreds and hundreds of millions 
of dollars to get benefits like this. So do you really think, 
when you talk about families like the Koch brothers and the 
Walton family--and, by the way, the Trump family, who would get 
something like a $4 billion tax break. Do you really think that 
it makes sense, again, to cut programs that people desperately 
need, need to stay alive, and give massive tax breaks to the 
children of the wealthiest family in this country?
    Secretary Mnuchin. Well, I am not going to comment on the 
specifics of the Waltons or the Kochs. I am sure they have done 
plenty of estate planning, and they have both been very 
philanthropic in their charitable contributions.
    What this budget is about--and our tax reform is about 
creating 3 percent growth, and what this budget is about is 
sending a message that, one, the Trump administration believes 
we should have a balanced budget; and, two, we have made very 
difficult decisions, and I understand some of those programs I 
agree with are quite worthy, but we have made very difficult 
decisions to fund the military, to protect Americans. We have--
--
    Senator Sanders. I apologize for interrupting. We just do 
not have a lot of time, so please accept my apology here. You 
made difficult decisions to give tax breaks to 
multibillionaires and to cut programs for working families. I 
do not think those are difficult decisions. I think those are 
immoral decisions.
    Let me ask you another question. President Trump campaigned 
on the fact that he was going to take on Wall Street. He 
supported a 21st century Glass-Steagall Act. That is what he 
said during the campaign. You just recently introduced a report 
on Wall Street reform. Can you tell me where I could find the 
establishment of a 21st century Glass-Steagall Act, which would 
separate commercial banking from risky investment banking, 
something the President campaigned on? On what page might I 
find that?
    Secretary Mnuchin. OK. First of all, let me just comment 
that I think, as you know, I had the pleasure of traveling the 
country with the President during the campaign. I met with 
hundreds and hundreds of small and medium-sized businesses. 
During the campaign we specifically said that we believed in a 
21st century Glass-Steagall. That was differentiated from what 
was the Republican Party view of Glass-Steagall, and----
    Senator Sanders. Whoa, whoa. Let me get this straight. I do 
not mean to interrupt you, Mr. Secretary, but you are telling 
me----
    Secretary Mnuchin. But you are interrupting me. You are not 
letting me finish my comment.
    Senator Sanders. But I have very limited time, and what you 
are saying is that the language that Trump put into the 
Republican platform is not really the language that he believed 
in.
    Secretary Mnuchin. Again, let me be clear: The President 
did not put everything into the Republican platform. There was 
the Republican platform, and there was the Trump position, 
which I was very involved in, and I had the pleasure of 
speaking to Senator Warren about this when I testified several 
weeks ago, and I followed up with her office and had a personal 
meeting with her, and I explained to her the difference between 
what we had thought of as a 21st century Glass-Steagall and 
Glass-Steagall, and made it very clear in my last testimony in 
front of the Senate that the President did not support breaking 
up big banks. We think that that would hurt the economy, that 
would ruin liquidity in the market.
    What we are focused on is safe and prudent regulation for 
the large banks so we do not have taxpayer risk.
    Senator Sanders. In other words, the campaign, the Trump 
campaign, campaigned on reinstating Glass-Steagall----
    Secretary Mnuchin. No, it did not. It never campaigned on 
that, Senator, and with all due respect----
    Senator Sanders. But just put it into the Republican 
platform. I stand corrected.
    Secretary Mnuchin. Again, we differentiated, and we were 
very clear, and as I had said to Senator Warren, if we believed 
in it, we would have not labeled it a ``21st century Glass-
Steagall''----
    Senator Sanders. That is the name of legislation right now, 
as you know.
    Secretary Mnuchin. I understand that is hers, and that is 
an unfortunate coincidence.
    Senator Sanders. Right.
    Chairman Enzi. Senator Crapo.
    Senator Crapo. Thank you, Mr. Chairman, and, Secretary 
Mnuchin, I appreciate you being here. I do not know that I have 
ever seen a Secretary of the Treasury who has been more willing 
to engage with Congress, whether it is in testimony at hearings 
or coming out, as you just indicated, and meeting individually 
with Senators or with committees and working with us to achieve 
the objectives that we agree need to be achieved. So thank you 
for that.
    Secretary Mnuchin. Thank you.
    Senator Crapo. With regard to your opening statement, it 
basically covered what I was going to go through in my 
questions. I appreciate the approach you have taken. I just 
want to quickly highlight something. You have indicated that 
the budget that you are working on assumes about 2.9 percent 
growth over 10 years. Is that correct?
    Secretary Mnuchin. That is correct, and that is 
significantly lower than what President Obama used in his 
original budget of above 4 percent growth, I might just point 
out.
    Senator Crapo. Well, you beat me to my question again. That 
was going to be my question. Just by way of comparison, 
President Obama had assumed almost a percent of growth higher 
for the first 4 years of his budget. And something you already 
said, but just for context, I would like to get this out as 
well. A 3 percent growth rate, to see a 3 percent growth rate 
for our country is not an unusual thing, is it? What is the 
historic average of growth in the United States economy?
    Secretary Mnuchin. It is higher than that.
    Senator Crapo. That is what I thought.
    Let me move for the remaining time that I have to the 
Treasury report that was issued just last night, the one that 
was just referenced by Senator Sanders. I was very pleased to 
see this report come out. You have been tasked by the President 
and the Financial Stability Oversight Council (FSOC) and others 
have been working to analyze our regulatory system, which I 
believe is becoming one of the biggest drains on our ability to 
achieve economic growth. The regulatory burden in this country 
is estimated by some groups to be as much as $1.8 trillion of 
costs to our economy on a yearly basis. That is not a 10-year 
summary. That is a yearly estimate. And so I appreciate the 
report that you issued.
    This report is an important step in the effort to evaluate 
the effectiveness of post-crisis regulatory regimes, and I 
commend the excellent work you have done. It includes a 
plethora of helpful recommendations on a wide range of topics, 
including regulatory structure, capital and liquidity rules, 
stress testing, living wills, mortgage rules, and the Volcker 
rule.
    While I am still going through the report, I am encouraged 
by the report's recognition that rules need to be better 
tailored to reflect the size and complexity of the business 
models of the businesses that are regulated.
    Can you talk a little bit about the need to tailor and to 
give examples maybe to us of rules that can be more effectively 
tailored to reduce the overwhelming compliance burdens that 
institutions in America are facing?
    Secretary Mnuchin. Sure. Thank you very much, Senator. So, 
first, let me comment. I think that it has been a significant 
amount of time since Dodd-Frank was passed, and there are 
lessons learned, and the good news is that our banking system 
is now sufficiently capitalized.
    Our overarching theme is that we want to make sure that 
community banks, credit unions, and regional banks can grow 
properly. The top eight G-SIBs account for 50 percent of the 
assets in the U.S. banking system while over 12,000 regional 
banks and community banks and credit unions make up the rest. 
Those are not the banks that are putting our system at risk, so 
we want to make sure that the regulations are tailored, that 
small community banks do not have undue burdens of regulation, 
that they can afford to lend to small and medium-sized 
businesses. They understand how to make credit decisions. They 
understand community banking. And the primary focus of the 
report is around that sector of banking.
    Senator Crapo. Well, thank you very much for that.
    Last Congress, there was some bipartisan support for 
changing the Systemically Important Financial Institution 
(SIFI) threshold and the application of the enhanced prudential 
standards and the Comprehensive Capital Analysis and Review 
(CCAR). If Congress exempted some non-complex regional banks 
and streamlined the requirements for other banks, how would 
that impact broader economic growth?
    Secretary Mnuchin. We think that is critical to economic 
growth, and we think that is also critical to not having the 
large banks entirely fund the U.S. economy and have a situation 
where we do not put taxpayers at risk.
    So as I had said earlier, part of our mission in getting to 
3 percent growth, tax reform, regulatory reform, and trade. And 
our part of the regulatory reform is around financial services, 
so thank you.
    Senator Crapo. Thank you. And one last question. The report 
makes a number of recommendations to simplify and clarify the 
requirements of the Volcker rule and ensure the rule is applied 
in a more targeted fashion. Can you discuss broadly the costs 
and difficulties institutions have had trying to comply with 
the rule in its current form and how simplifying it can help 
spur economic growth?
    Secretary Mnuchin. Yes, so let me just say, you know, I do 
not think the Volcker rule is what created the financial 
crisis, and I know that Chairman Hensarling and others in the 
CHOICE Act called for a repeal of it, which we look forward to 
you working with him on additional legislation.
    Our main focus is what can we get done to fix it right now, 
and I have already been working with FSOC members, and our 
biggest concern is that we want to make sure that market makers 
can provide liquidity in market making, and we are going to 
work with the different regulators around the definition of the 
rule, not to allow proprietary trading within these banks but 
to make sure that proper market-making functions do occur.
    I was really at the G-7, and one of the economists spoke on 
this, and they said that banks' trading desks needed a lawyer 
and a psychiatrist to sit there and interpret what a trader was 
doing to be in compliance.
    Senator Crapo. Thank you.
    Chairman Enzi. Senator Wyden, you get to question the 
witness at the Finance Committee and here.
    Senator Wyden. Thank you. Yes, thank you, Mr. Chairman.
    Mr. Secretary, I thought it was very unfortunate yesterday, 
and I listened to what amounts to a multi-Pinocchio performance 
with respect to the Mnuchin rule, and I want to walk this 
through carefully.
    Ten days ago, you repeated in an interview the comment that 
you had made earlier on CNBC. That was your statement there 
would be no absolute tax cut for the wealthy. And as you know, 
in the Finance Committee, when I heard that, I said, ``That 
sounds good. We are going to call it the `Mnuchin rule.' '' You 
picked up on that in that recent interview when you said, ``I 
felt I was in great company with the Buffett rule and the 
Volcker rule. Now there is a Mnuchin rule.'' You had a real 
sense of pride that there was something called the ``Mnuchin 
rule,'' which said there would be no absolute tax cut for the 
wealthy.
    Yesterday you walked that back in the House Appropriations 
Committee. You said, and I quote, that now the Mnuchin rule is 
``an objective.'' Maybe it will happen, maybe it will not, but 
it was no longer a pledge, no longer a commitment. And then, 
regrettably, you went on to say that the President would not 
veto a massive tax break for the wealthy. So it seems to me 
there was a very substantial retreat yesterday from what, A, 
you said; B, in the Finance Committee you said you took pride 
in that there would be a Mnuchin rule with no absolute tax cut 
for the wealthy.
    So my question to you is: Will you reverse course again and 
return to your original commitment that, as part of tax reform, 
there will be no absolute tax cut for the wealthy?
    Secretary Mnuchin. So, first, it is a pleasure to see you, 
and I look forward----
    Senator Wyden. As well.
    Secretary Mnuchin [continuing]. To working on tax reform 
with you. And I am honored that you named a rule for me. As I 
have said before in several of these testimonies, I did not 
make this as a rule. You made it as a rule. Yes, in my first 
CNBC interview--and I have been through this now several 
times--I did comment that that was what we were trying to do, 
and that was the objective of the President. We are working 
closely with the House and the Senate on trying to get tax 
reform done because it has been too long. And as I have said in 
the past, that our objective is to create a middle-income tax 
cut and----
    Senator Wyden. No. Mr. Secretary, you made a commitment 
that there would be no absolute tax cut for the wealthy. And 
yesterday you changed that. You said, ``We have an objective to 
do that,'' so maybe it will happen, maybe it will not. Tell me 
why you changed from something, A, you said; and, B, you took 
great pride in when that is the way we developed it in the 
Finance Committee. It was based on your words. That is why I 
thought it was promising, and now it looks to me like it has 
basically been set aside.
    Secretary Mnuchin. First of all, we have had several 
conversations on this, so I have testified on this now at least 
three or four times, and I have clarified this three or four 
times. Yesterday was nothing new.
    So let me first say, again, I am quite honored that I am in 
good company with other people who have rules.
    So the second thing I would say is our focus is on getting 
tax reform done. To get tax reform done, it is my job to figure 
out what meets the President's objective, what meets the House 
and the Senate so that we can get something signed into law. 
And there will be compromises along the way on this.
    So, yes, you made it a rule. I did not make it a rule. I 
was honored that you named it----
    Senator Wyden. No. No, Mr. Secretary. You took great----
    Secretary Mnuchin. I said----
    Senator Wyden. You took great pride as we repeated what you 
said, and you again 10 days ago referenced the original comment 
by saying it on CNBC. You are the one who has walked it back. 
Nobody else has walked it back. You are the one who walked it 
back.
    Secretary Mnuchin. Well, I have walked it back from my CNBC 
interview, which I think was in January. But we have had the 
opportunity to talk about this several times, and, again, I 
look forward to coming to your office and talking about tax 
reform. And, again, tax reform, at the end of the day the 
President will evaluate what is on his desk, and he will make a 
decision whether he wants to sign it or not. My objective is to 
deliver tax reforms that we can get the economy back going. And 
as I have said before, our focus is on reducing and creating 
taxes for the middle class.
    Now, I just want to comment one thing----
    Senator Wyden. My time----
    Secretary Mnuchin. You may not think there is----
    Senator Wyden. My time is up, and I just want to close with 
one point. I think my colleagues especially on the Finance 
Committee know that I have a special commitment to bipartisan 
tax reform. I have written what are the only two complete 
bipartisan tax reforms since 1986. We will not get bipartisan 
tax reform when the Secretary of Treasury walks back a pledge 
to have no absolute tax cut for the wealthy. We need tax 
reform, which is what our colleagues, including Dan Coats most 
recently, now the Director of National Intelligence, agreed to, 
is we had tax reform that gave everybody in America the chance 
to get ahead. That is why got bipartisan proposals. We did not 
get them because the Secretary of Treasury walked back pledges.
    Thank you, Mr. Chairman.
    Secretary Mnuchin. Well, when we have the final plan that 
is more than the one page, as you have outlined, which we are 
working on developing, we look forward to coming and talking to 
you about it, and we hope there is many aspects--and I will say 
I continue to get hammered by the New York and California 
contingency who assures me there will be tax increases under 
the proposed plan.
    Chairman Enzi. I will look forward to going back through 
your two proposals again, too, to make sure there are not any 
breaks for the rich in those.
    Senator Toomey.
    Senator Toomey. Thank you, Mr. Chairman. And I would just 
like to echo Senator Crapo's opening comment about your 
accessibility and interaction with Members of the Senate in a 
variety of settings and ways. We appreciate that and recognize 
that, Secretary Mnuchin, so welcome back.
    I would like to stress your emphasis on economic growth. I 
think that is exactly right and absolutely essential. Misguided 
policies of the last 8 years have given us the weakest recovery 
since the Great Depression, and the U.S. economy is capable of 
much, much more than this meager barely 2 percent growth, and 
it makes a huge difference. Every single problem in America is 
easier to solve if the economy is booming. Some problems cannot 
be solved unless the economy is booming, and when the economy 
is booming--and I think this is an important point, and it is 
unfortunate that our ranking member has left, because I think 
some of our friends on the other side of the aisle have a cause 
and effect exactly backward. They would like to suggest that 
your mission is to reduce spending on various welfare programs 
in order to give a tax cut to wealthy people--that is what they 
like to say--when, in fact, if we get tax reform right, we are 
going to have so much more growth that far fewer people will 
need these welfare programs because they will have jobs and 
they will have higher wages and they will not need these 
programs to the same degree. And I think that should be the 
goal.
    And so if you would just take a moment, do you agree that 
the fundamental dynamic here is stronger economic growth 
diminishes the extent to which people have to depend on these 
programs?
    Secretary Mnuchin. I agree with you completely, Senator. 
Not only does it diminish their need, but it creates 
opportunities for people who have left the work force because 
they cannot find jobs. Although the unemployment rate is one of 
the lowest it has been in very long periods of time, there is a 
lot of people who have left the work force. And if you take 
into account other numbers, we are actually closer to an 8.5 or 
9 percent unemployment rate.
    So we are committed to creating good-paying jobs, and we 
are also to making sure that people who have jobs that have not 
had income, wage increases in the last 10 years can see that. 
And many, many economic studies show that more than 70 percent 
of the burden of corporate taxes are passed on to the workers.
    Senator Toomey. Right.
    Secretary Mnuchin. So our objective to fix the corporate 
tax system is about helping American workers.
    Senator Toomey. Absolutely. So let us talk a little bit 
about how we get there. Part of getting there is to have a 
really pro-growth Tax Code instead of this terrible Tax Code 
that we have now. I would also suggest that the $800 billion in 
tax increases that President Obama gave us that had nothing to 
do with Obamacare, they are still with us. That is still a drag 
on our economy. And as you know, Federal tax revenue as a 
percentage of our total economy is above its historical 
average. It is my view that we do not need to permanently lock 
in those tax increases and we should not do so.
    It is also my view--and I know you share this view--that it 
would be just mathematically wrong not to take into account the 
tax revenue surge that comes from a bigger economy. That 
growth, that extra economic output, is all taxed. And so we 
need to dynamically score this.
    One of my concerns is that our friends at the Congressional 
Budget Office (CBO) and Joint Tax, good people who do good 
work, may not take into account, as much as many of us do, this 
dynamic feedback. If they do not, then I hope we will 
acknowledge that the goal should be to maximize growth and get 
the right Tax Code, not to be held captive by this score that 
may not take into account that full growth.
    So as you know, if our Democratic colleagues do not want to 
work with us on this, we need to use the reconciliation tool 
that a budget resolution gives us. As you know, any increase in 
the deficit, according to our scorekeepers, outside that budget 
window is not permitted. And so you are in this bind where you 
are stuck with a temporary Tax Code, one that has to expire at 
the end of the budget window.
    So I would just like to suggest that you seriously consider 
a longer budget window than the traditional 10 years. As you 
know, the statute simply says the budget window must be at 
least 5 years. A permanent tax reform is the best, but it takes 
bipartisan support, and you just heard we are not going to get 
that.
    So the next best thing is a temporary great Tax Code, but 
making it long enough that we can actually enjoy the benefit. 
So I would just ask you to comment on and think about a longer 
budget window so that we can have the real tremendous benefits 
from a pro-growth Tax Code.
    Secretary Mnuchin. Well, first, let me just say I am 
hopeful that we can still get some bipartisan support because 
the issues we are focused on are about creating opportunities 
for the middle class, about simplifying the Tax Code, about 
making business competitive so that more Americans can have 
good-paying jobs.
    But as you said, if we cannot, reconciliation is an 
alternative, and I look forward to working with you and the 
Senate on ideas such as a 20-year window as opposed to a 10-
year window to explore that. And, yes, we fundamentally agree 
with you on dynamic scoring.
    Senator Toomey. Thank you very much, and thank you, Mr. 
Chairman.
    Chairman Enzi. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman. Secretary Mnuchin, 
welcome.
    We heard your testimony before the Finance Committee that 
the President's tax reform plan would be paid for, I quote you 
here, ``with economic growth and base broadening.'' On the same 
day, Office of Management and Budget (OMB) Director Mulvaney 
said that the President's tax reform plan would be deficit 
neutral without regard to growth. Which one of you is accurate? 
Which will be the plan?
    Secretary Mnuchin. So, first, let me say that we are hard 
working on tax reform, although we did put out a very short 
overview. The devil is in the details, and we hope that that is 
something that we can release soon. When the budget----
    Senator Whitehouse. Yes, but that is not responsive to my 
question.
    Secretary Mnuchin. I understand that. When the budget was 
done, we did not have tax reform done, so Mulvaney did not have 
tax reform to put into the budget. OK? Now, there are lots of 
different issues----
    Senator Whitehouse. But you will agree with me that, 
whether dynamic scoring is a figment of the Republican 
imagination or whether it is real, you cannot count it twice.
    Secretary Mnuchin. We have no intention of counting it 
twice.
    Senator Whitehouse. OK, good.
    Secretary Mnuchin. So as I have said before, I can assure 
you that when we come out with tax reform----
    Senator Whitehouse. We agree on that. It cannot be counted 
twice----
    Secretary Mnuchin. Absolutely.
    Senator Whitehouse. Not once in tax reform and another 
time----
    Secretary Mnuchin. The budget will be updated with updated 
projections, and there is no intent--and, obviously, we 
understand math. There will be no double counting.
    I did not think that dynamic scoring was something that was 
completely along a Republican and Democrat line. There is 
plenty of----
    Senator Whitehouse. Pretty close.
    Secretary Mnuchin. There is plenty of Democrat economists 
that support it.
    Senator Whitehouse. Pretty close, particularly in this 
unconstrained version.
    With respect to concern about the deficit, most of the 
witnesses, if not all of the witnesses, that have come before 
this committee have recognized that spending through the Tax 
Code that reduces revenues and gives benefits to either 
individuals or corporations has just as direct an effect on the 
deficit as appropriated spending, and that tax spending and 
appropriated spending are from a deficit point of view the same 
thing. Do you agree with that?
    Secretary Mnuchin. Well, let me just first say we are very 
concerned about the deficit. We are concerned about the debt 
having gone from $10 trillion to $20 trillion. And, yes, we 
need to make sure that if we have tax reform, which is not just 
tax cuts but tax reform, that it is paid for and accounted for.
    Senator Whitehouse. And if we are looking at trying to 
bring the deficit down, it would be important to close--let us 
say it would be valuable with regard to deficit reduction to 
close loopholes and, indeed, it would be just as valuable on a 
dollar basis as the same dollar value of appropriated spending 
cuts.
    Secretary Mnuchin. Well, again, it depends on what the 
impact is. The Tax Code and the changes we are trying to make 
to the Tax Code are all about creating economic growth that 
will create more revenues and will cut Government spending on 
various entitlement programs.
    Senator Whitehouse. One of the issues that we are going to 
face, I hope sooner or later, in this committee is the issue of 
savings in the health care system. As you probably know, the 
American health care system is more expensive than virtually 
all of our Organisation for Economic Co-operation and 
Development (OECD) competitors by a lot, like twice what the 
average is. And we do not do particularly well on some of the 
basic measures of health that you would think that much 
spending would pay for. So I look forward to working with you 
on that.
    One of the things we have seen is CBO reduced the out-year 
projections for Federal health care spending downwards by $3.3 
trillion since the Affordable Care Act. So I would urge you to 
keep an eye on that and not let those savings go to waste in 
the pursuit of the Affordable Care Act.
    And in the matter of that, it appears that the Affordable 
Care Act is being repealed through a secret process in which 
there will be no opportunity for Democratic amendments, Mr. 
Chairman. And there was so much criticism from the Republican 
side about the one moment when we used reconciliation for a 
last piece of the bill, but the bulk of the bill was done 
through our Health, Education, Labor and Pensions (HELP) 
Committee, as you will remember. And you yourself, Mr. 
Chairman, got more than 50--I think 50 amendments in that 
process, or at least had your name on 50 amendments. We put 160 
through that--160 Republican amendments passed in the HELP 
Committee, as I recall. We had days of hearings. We had 
amendment after amendment after amendment after amendment. The 
one that created the imaginary death panel thing was actually 
an amendment by Johnny Isakson, which I think was number 157 of 
the amendments that we took up in that committee.
    So I think we are turning the Senate into something very 
unfortunate if zero amendments are going to be allowed other 
than through the vote-a-rama process, and for those of you on 
the Republican side who actually had amendments during that 
process, I think it is really double dealing, and I hope we do 
not go that path.
    Thank you, Mr. Chairman.
    Chairman Enzi. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Secretary, I want to also confirm what Senator Crapo 
and Senator Toomey were saying in terms of your engagement and 
your willingness to work with us. I appreciate it. I think you 
are well--because of that engagement, I have got my own ideas 
on particularly corporate tax return that would treat C 
corporations like other pass-through entities and tax corporate 
income at the ownership level. There are many benefits to that, 
and I want to talk about one of them: the elimination of the 
harm caused by the double taxation of dividends. Senator 
Sanders was talking about, you know, the death tax only applies 
to the top. I come from what started out as a small 
manufacturing company that eventually became a medium-sized 
manufacturing company, the exact businesses I think you are 
talking to, that you engaged in the campaign, that are forced 
to sell to larger competitors. They pull them out of the free 
market competition of a free market economy, and that is 
exactly what the death tax does. It is also what double 
taxation of dividends does.
    In my own business, we probably had maybe a few hundred 
potential customers over 30 years consolidated because of 
double taxation of dividends, the hoarding of cash by large 
corporations, consolidated down to a few dozen. I think that is 
bad for a free market economy.
    I just kind of want you to speak to that aspect of tax 
reform because, from my standpoint, the more small and medium-
sized manufacturing companies, the more innovation, the more 
competition, the more restraint in prices, the higher quality 
because of innovation. And that is pro-growth. It is depressing 
to hear our colleagues on the other side dismiss the benefits 
of dynamic scoring. What is the point in tax reform if it is 
not going to be pro-growth? That if on a static basis it maybe 
shows you lose revenue, but because of economic growth you gain 
it back on a dynamic basis?
    So right now just talk about your own experience talking to 
small and medium-sized manufacturers about what they are 
complaining about, why they are not growing.
    Secretary Mnuchin. Well, first of all, let me say we look 
forward to continuing to work with you on tax reform, and we 
absolutely believe that small businesses that operate as pass-
throughs, that they should have the benefit of the business 
tax, that it just should not be about lowering corporate taxes. 
And we want to make sure that we do that and also in a way that 
we protect wages are properly taxed as well.
    So we look forward to working with you on that, and, again, 
as it relates to dynamic scoring, obviously the only reason we 
are trying to change the Tax Code is to create more growth, 
which the difference between 2 percent and 3 percent GDP is 
over $2 trillion of additional revenue to the Government. So we 
are all trying to do the same thing, which is more growth, more 
revenues, more good-paying jobs for American workers.
    Senator Johnson. By the way, I am making some pretty good 
progress. I have been tenaciously talking to CEOs, CFOs; they 
are very intrigued by the idea--and I know you are, too. You 
think it might be a little bit, you know, too much we are 
biting off, but I am actually quietly gaining some pretty good 
support for this concept, so I definitely want to keep working 
with you.
    Secretary Mnuchin. Thank you.
    Senator Johnson. The other point, I think the biggest 
impediment is--as uncompetitive as our tax system is, the 
biggest impediment to growth, particularly for small and 
medium-sized businesses, is overregulation. The big companies 
can deal with it. They can hire the compliance officers. Quite 
honestly, they can hire the lobbyists to come in here and make 
sure the rules, you know, work for them, do not work so good 
for their smaller competitors. The Competitive Enterprise 
Institute just updated their last study, $2 trillion, $15,000 
per year per household, the cost of complying with regulations.
    I applaud this administration for focusing on that. Speak a 
little bit about, you know, why that is so important.
    Secretary Mnuchin. We heard the same thing. The No. 1 thing 
we heard from business was regulation. The No. 2 thing we heard 
was tax. So we agree with you completely, and I would just also 
say that, as we develop this tax reform plan, we have literally 
met with hundreds and hundreds of businesspeople. We have had 
listening sessions both for business, for think tanks, a 
meeting with Members of the House and Senate. So we want to 
take a lot of input into this process.
    Senator Johnson. I think the President--and we actually had 
a joint hearing on this, the one-in/two-out rule. That is a 
really good start. But everything in Washington is additive. 
Here is finally a process within the administration with 
something that is subtractive. We have got to do so much more.
    So, again, you are certainly--with OMB and the Office of 
Information and Regulatory Affairs (OIRA), it is going to be 
incredibly important that we really focus on overriding 
regulation to eliminate old and outdated regulation that really 
is hampering our economy.
    Secretary Mnuchin. Thank you.
    Senator Johnson. Thank you.
    Thank you, Mr. Chairman.
    Chairman Enzi. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman. Good morning, 
Mr. Secretary. How are you?
    Secretary Mnuchin. Good. Nice to see you.
    Senator Van Hollen. Good to see you. I have a question on 
infrastructure, and it is the Budget Committee. Normally, we 
would not be asking the Secretary of Treasury that many 
questions about infrastructure, but since at least what I 
understand the plan shaping up may look like, it would involve 
a lot of Tax Code provisions.
    So a lot of us had hoped that we might get off to a start 
in this Congress on a bipartisan basis, focusing on modernizing 
our infrastructure. Senate Democrats put forward a $1 trillion 
plan. The President talked during the campaign about a $1 
trillion plan. But here we are in the Budget Committee, and if 
you look at the President's budget, while it has some plus-ups 
in the area of infrastructure, it also has some cuts in the 
area of infrastructure. And the University of Pennsylvania 
Wharton School--of course, the President's alma mater--looked 
at it and concluded that, on net, this budget would cut our 
national investment in infrastructure by $55 billion.
    Have you had a chance to look at that Wharton School study?
    Secretary Mnuchin. I have not, but I would look forward to. 
I will reach out to your staff, and we will get a copy of it, 
and I look forward to working with you. I can assure that the 
President is very focused on infrastructure. This is a big 
investment we need to make, and I hope this is an area where we 
can definitely have bipartisan support, because it is a huge 
issue in this country. We need to build out our infrastructure 
and rebuild our aged infrastructure.
    Senator Van Hollen. There is no doubt about that, and as I 
said, I had hoped that maybe we would begin with something like 
that. All the talk I hear out of the administration says maybe 
we will get to it in 2018. We have not seen any plan beyond the 
one-pager for infrastructure, just like we have a one-pager on 
the tax policy. And what we do have that is real, in some sense 
anyway, is the budget proposal, which, as I said, the Wharton 
School study cuts it by $55 billion, which was a surprise to 
many people.
    Let me talk briefly about the tax issues. When you appeared 
before the Banking Committee, you and I had a little discussion 
about the tax provisions in what is called the ``health care 
reform bill'' here, which, as you know, has significant tax 
cuts, and those tax cuts do go disproportionately to wealthy 
people. But let us just set that aside for a moment. We are 
going to be debating that. At least I hope we have some 
amendment process. As Senator Whitehouse said, no amendment 
opportunities yet.
    But let me ask you this about the proposals that you are 
thinking about, and I know there has been some conversation 
already this morning.
    The first question is: Will it adhere to the statement that 
you made last November about no absolute net tax cuts for the 
``upper class''?
    Secretary Mnuchin. So I already had the pleasure of talking 
about this this morning, I think before you got here. And let 
me just say I have now testified on this at least five or six 
or seven times. Again, I think the best thing we should do is 
we hopefully will soon have a more detailed plan that we can 
release. And when we have the detailed plan, obviously it is 
going to be scored. We are going through distributions, and we 
are happy to go through it at the time.
    So I have heard all different types of feedback. As I said, 
we have eliminated almost all deductions other than charitable 
and mortgage interest. I have heard from many States who do not 
like us getting rid of the tax break for high taxes in their 
States and worry about taxes going up. But when we have the tax 
plan come out, I am more than happy to get grilled on the 
details of it.
    Senator Van Hollen. OK. And just to followup on what 
Senator Johnson was asking you about in terms of dynamic 
scoring, we have had a long debate. Here the reality is the 
Joint Tax Committee will be doing dynamic scoring of whatever 
plan comes down, and my question to you is: Will you agree that 
it would be a bad idea to pass a tax plan that the Joint Tax 
Committee, using their dynamic scoring analysis, concludes will 
increase the deficit and the national debt?
    Secretary Mnuchin. Again, what I would say is our intent 
when we come out with the full tax plan is to have complete 
transparency----
    Senator Van Hollen. No, my question is not transparency. My 
question is on the deficit.
    Secretary Mnuchin. I am answering the question. So we 
believe in complete transparency, and I have been very clear in 
saying that there is a static score, which we do not agree 
with. There will be a Joint Tax, and when we see the Joint Tax 
scored, we have over 100 people that run models. If we agree 
with the Joint Tax score, I will tell you that. If we do not 
agree with it, I will explain why.
    So, again, we have said this tax plan will be paid for, and 
we will go through the details when it comes out.
    Senator Van Hollen. All right, Mr. Secretary. I hope at 
that time you will also explain how your growth projections of 
over 3 percent, which we would all like to see, without having 
provided us a plan, why they are so out of whack with every 
other forecaster, which I assume you depended on during your 
time in the private sector. So I look forward to that answer as 
well.
    Secretary Mnuchin. Thank you.
    Senator Grassley [presiding]. Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary.
    Secretary Mnuchin. Thank you.
    Senator Kennedy. Like our chairman, I appreciate your brief 
answers.
    The United States taxes our companies on income they earn 
in foreign countries, but only if they bring that money home. 
Is that correct?
    Secretary Mnuchin. That is correct.
    Senator Kennedy. We know that there are billions, perhaps 
trillions of dollars offshore, staying there because they do 
not want to pay those taxes. Is that correct?
    Secretary Mnuchin. That is correct. Why would they?
    Senator Kennedy. Why don't we make a deal with them, reach 
an agreement on how much taxes they would have to pay, get 
bipartisan support from both Democrats and Republicans in the 
U.S. Congress, bring that money home and use it for 
infrastructure?
    Secretary Mnuchin. Well, first, let me say my primary 
objective is to fix the Tax Code, and I think as you have 
outlined, a major fix has to be we need to move to a 
territorial system, because otherwise that money is not going 
to come back, even if we had a one-time issue. We have got to 
fix it permanently. Now----
    Senator Kennedy. I get that part. But why don't we fix it, 
work a deal? We can get bipartisan support and use it for 
infrastructure. You are matching non-recurring revenue with a 
non-recurring expense, so it is not going to add to the deficit 
in any way.
    Secretary Mnuchin. Again, I look forward to working with 
you and others on any idea that has bipartisan support. At the 
end of the day, the cash is fungible. We want to spend money on 
infrastructure. We want to bring that money back. Whether we 
link them or we do not link them, I look forward to working 
with you and the rest of the Senate on that.
    Senator Kennedy. What do you think about that idea?
    Secretary Mnuchin. I think it is an interesting idea, and 
we have talked about that. My job for the moment is to figure 
out what the right tax plan is for the American people and for 
the American public and something that can get passed. And as 
we look for ways to package that to get it through the House 
and the Senate, we look forward to working with you. So we 
appreciate your ideas.
    Senator Kennedy. That is not a yes, is it?
    Secretary Mnuchin. I think it is a yes, but what I am 
saying is, again, you know, there is the form and the 
substance. I am focusing on how we fix the Tax Code, and we 
will work with you and others on how we get it through the 
Senate.
    Senator Kennedy. I am just looking--look, we have 
infrastructure needs. We know our Tax Code generates money that 
is sitting offshore, so that is within your playing field. I 
think we could get bipartisan support on it. You would be 
matching non-recurring revenue with a non-recurring expense. It 
would not add to the deficit. We would not have to borrow 
money. Just think about it. OK? Just think about it. You talk 
to the President a lot. Talk to the President about it. I think 
we could get bipartisan support.
    Let us talk about the Tax Code. If you add up all the 
exemptions, exclusions, deductions, and credits, refundable and 
otherwise, in the United States Tax Code, how much money are we 
talking about?
    Secretary Mnuchin. It is a staggering number. I do not have 
it off the top of my head, but it is a monstrously staggering 
number.
    Senator Kennedy. OK. The more you tax something, the less 
you get of it.
    Secretary Mnuchin. That is correct.
    Senator Kennedy. The less you tax something, the more you 
get of it. So, presumably, when we choose not to tax something, 
we are supposed to get it, get something in return--generally 
jobs. Do you have people going through all the exemptions, 
exclusions, deductions, and tax credits in the Tax Code and 
asking, OK, why did we create this? What was the cost and what 
is the benefit? Presumably, economic development, jobs. Is the 
benefit greater than the cost?
    Secretary Mnuchin. We have said everything is on the table, 
and we are looking at all of them, as you have suggested.
    Senator Kennedy. I think some people call those tax 
expenditures, right?
    Secretary Mnuchin. Yes.
    Senator Kennedy. OK. Tell me what your tax reform proposal 
will do for the middle class, the working class. I am not 
talking about the folks at the top. I am not talking about the 
folks at the bottom that we take care of through our social 
programs. I am talking about the men and women that get up 
every day and they go to work and they pay their taxes and they 
obey the law. I am talking about a mom and dad each making 
$45,000 a year, 90,000 bucks. They have got two kids. They are 
not getting any breaks, and they are getting further and 
further behind. What are we doing for them?
    Secretary Mnuchin. Our objective is: one, for them to have 
a tax cut; two, for them to have simpler taxes so that they can 
do it simply; and, three, by making the business Tax Code more 
competitive, as I have suggested, over 70 percent of corporate 
taxes are borne by the worker, that they will have better, 
higher-paying jobs by us fixing the business tax system.
    Senator Kennedy. Thank you, Mr. Secretary.
    Secretary Mnuchin. Thank you.
    Senator Kennedy. Roads, infrastructure. It is something we 
can get bipartisan agreement on.
    Secretary Mnuchin. We look forward to working with you. 
Thank you.
    Senator Grassley. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair. Thank you, Mr. 
Secretary. Nice to see you.
    Secretary Mnuchin. Thank you.
    Senator Kaine. Mr. Secretary, after we, Congress, reached a 
budget deal at the beginning of May, working together, 
compromises made by both Houses, both parties, the President 
tweeted out a few days later that he thought it might be time 
for a ``good shutdown'' of the Government in September. That 
was the tweet, ``a good shutdown in September.'' Do you think 
there is any such thing as a good shutdown of the United States 
Government?
    Secretary Mnuchin. It is an unfortunate outcome. At times 
there could be a good shutdown, and at times there may not be a 
good shutdown.
    Senator Kaine. I represent a State that has got a lot of 
Federal employees. I have got a lot of people on Medicaid, 
Social Security disability, Medicare, and the thought of a 
shutdown just scares them to death. The 16-day shutdown in 
October 2013 was deeply unsettling to them. It was an injection 
of uncertainty into a State, a national economy that I think 
does better in terms of growth when there is certainty.
    Tell me what a good shutdown would look like.
    Secretary Mnuchin. Well, first, let me say I was not here 
in 2013, so I cannot comment on it.
    Second, it is not our primary objective to have a shutdown.
    Senator Kaine. Good. So you do not want to hypothesize what 
a good shutdown would look like. I actually think that is 
pretty wise not to, but, I mean----
    Secretary Mnuchin. I am happy to talk about the budget or 
questions you have on the budget. I am not here to kind of 
define what good shutdowns are, or bad shutdowns.
    Senator Kaine. But you are the Secretary of the Treasury, 
and so I think----
    Secretary Mnuchin. Yes, I am.
    Senator Kaine [continuing]. You are somebody who should 
have an opinion about whether shutting the Government of the 
United States down is ever a good thing.
    Secretary Mnuchin. There could be times. I do not--you 
know, again, we could go through a lot of hypothetical things 
today. There could be reasons at various times why that is the 
right outcome. But, again----
    Senator Kaine. But in your role as Secretary, can you see 
anything good about shutting the Government of the United 
States down?
    Secretary Mnuchin. I would never be in a position to want 
to shut down any of the critical infrastructure of the U.S. 
Government. If we were spending too much money on things and we 
could not come to agreements on things that were not critical, 
but I can assure you, just as I have said with the debt limit, 
our No. 1 objective is to raise the debt limit, and I can also 
assure you that we would never shut down critical functions of 
the Government.
    Senator Kaine. Great. Would you agree with me--in your 
testimony, you talk about things that you think are important 
to sustainable economic growth. ``The best way to achieve this 
is through a combination of tax reform, regulatory relief, 
protecting taxpayers.'' Would you also agree that providing 
some certainty is more helpful to growing the economy than 
continuing uncertainty about budgetary or other major policy 
matters?
    Secretary Mnuchin. Again, we are getting into hypothetical 
questions, which I cannot answer without knowing all the 
details. If the certainty is bad--I would rather have 
uncertainty that could lead to good outcomes than certain that 
assures bad outcomes. But these are very hypothetical 
situations. So if you want to describe a specific one.
    Senator Kaine. Defaulting on the debt ceiling or defaulting 
on debt, is that--that would----
    Secretary Mnuchin. I could not be clearer in my comments 
that, as it relates to the debt ceiling, I would like to have 
certainty. I would like Congress to act before they leave.
    Senator Kaine. How about having a budget versus not having 
a budget?
    Secretary Mnuchin. I would obviously prefer to have a 
budget than not have a budget.
    Senator Kaine. Doing an appropriations bill rather than 
doing a continuing resolution (CR)?
    Secretary Mnuchin. Again, I leave that--these are issues 
for the Senate to figure out, but, obviously, dealing with 
appropriations, the sooner we can get through appropriations 
and spend money, that is better for the U.S. economy.
    Senator Kaine. The way I described to my constituents the 
difference between an appropriations bill and a continuing 
resolution is I say one is like driving looking through the 
windshield looking forward, an appropriations bill, projecting 
forward; and a continuing resolution, where you are kind of, 
you know, doing what you did for the past--is like looking 
through the rearview mirror. As a general matter, it would be 
better to budget looking forward based on plans and priorities 
that you have committed going forward than just doing it based 
on looking at what you did in the last few months.
    Secretary Mnuchin. Well, I would say as a general matter, 
maybe at some point it makes sense to review the entire 
budgeting process and link the debt ceiling to budgets and look 
at capital budgeting and others. There is obviously a whole 
bunch of arcane parts of Government budgeting that I am 
learning.
    Senator Kaine. And not so arcane. I mean, I actually think 
there are some really profitable areas of working together 
between Democrats and Republicans, between Congress and the 
White House on budget reform issues. And I know the chairman, 
Chairman Enzi, is a big fan of this, and I am, too.
    Secretary Mnuchin. We would look forward to working with 
you on that.
    Senator Kaine. And just to use one example, back on the 
certainty thing--I am kind of a certainty freak because I was a 
mayor and Governor, and I always felt like if I could be 
certain everybody would at least know what to adjust to, it is 
hard to adjust to an asterisk or a question mark. One of the 
areas that we talk about a lot in this committee deals with 
debt, how much debt is too much. We have hearings on things 
like dangerous debt, but I can never get a witness to tell me 
what a debt policy should be. Do you have an opinion as 
Secretary of the Treasury about, for example, what our debt-to-
GDP ratio should be or what percentage of our annual budgetary 
outlays should go into debt service versus current programming?
    Secretary Mnuchin. Well, I mean, first, I would say I have 
a general concern about the size of the national debt and how 
it has grown from $10 trillion to $20 trillion. And we want to 
make sure that it goes back in the other direction at some 
point. I think, as you know, that the last time we had a 
surplus, it was when we had economic growth. So the issue here 
is we need to create economic growth. That is the No. 1 way of 
dealing with the debt problem in my mind.
    Senator Grassley. Senator Gardner.
    Senator Kaine. Thank you.
    Senator Gardner. Thank you, Mr. Chairman, and thank you, 
Secretary, for your service and your time today.
    This question on debt, debt policy, and other issues, a $10 
trillion debt to now a $20 trillion debt and growing, one of 
the things I am most concerned about is how we drive Federal 
spending. In my time at the State legislature, I watched as the 
State would look for ways to shift funding out of State 
spending and off of State revenues and onto Federal dollars. 
And I think most recent reports of various census data show 
that on average I think a third of States' general fund 
revenues come from the Federal Government today. Obviously, in 
education it can vary greatly. In welfare programs, it can vary 
greatly what the State is depending on the Federal Government 
for their share. Transportation, another one.
    In your conversations across the country, do you speak with 
Governors about how States are driving Federal spending and 
what can be done as that becomes part of a focus of our debt 
policy?
    Secretary Mnuchin. I think it is a very important issue and 
something that I look forward to working with you on. It has 
not been my focus for the moment, but I think it is a very 
important point.
    Senator Gardner. Thank you. And, Mr. Secretary, I was at a 
hearing with Secretary Tillerson just before I came into this 
hearing, and it was brought up by Chairman Cardin that rarely 
are committees on budget about the budget, and they are about 
other things. And so I am going to vary from the script of the 
Budget Committee hearing, if you do not mind.
    I want to draw your attention and colleagues on the 
committee attention to two reports that came out this past week 
regarding North Korea, and the first report released yesterday 
by an independent organization known as C4ADS. They identified 
over 5,000 Chinese companies that are doing business with North 
Korea. These Chinese businesses are responsible for about $7 
billion worth of trade with North Korea. That is about 90 
percent of North Korea's total global trade.
    Moreover, the report from C4ADS said that only 10 of these 
companies, only 10 of those 5,000 companies, control 30 percent 
of Chinese exports to North Korea. That was just in 2016. And 
one company alone out of those 10 out of the 5,000 controlled 
nearly 10 percent of total imports from North Korea. Some of 
these companies even had satellite offices and businesses in 
the United States.
    The second report that I would highlight released by the 
Royal United Services Institute in the United Kingdom last week 
concluded, ``The report finds that not a single component of 
the United Nations sanctions regime against North Korea 
currently enjoys robust international implementation.''
    In February of this year, the United Nations (U.N.) Panel 
of Experts on North Korea similarly addressed that Pyongyang's 
illicit networks overseas were ``increasing in scale, scope, 
and sophistication.''
    So with these reports in mind, and what we are seeing from 
reports of the U.N., what efforts can we undertake to 
strengthen global enforcement of North Korean sanctions, what 
efforts are you taking, and what efforts has the administration 
taken to date as it relates to these sanctions and our efforts 
to peacefully de-nuclearize the North Korean regime?
    Secretary Mnuchin. Well, first, let me just comment, I do 
take my responsibility overseeing our terrorist financing and 
intelligence function of the Treasury very seriously. I am 
probably spending 50 percent of my time on these issues right 
now. And let me first say that the President and we believe in 
sanctions. We think they work. We think in the case of Iran it 
is the only reason why they came to the table. And we think we 
could have had a better deal. So they work best when there is 
international cooperation. I think as you know, the President 
is concerned about the recent activity in North Korea and the 
missile tests.
    During our meeting with the Chinese, President Trump and 
President Xi specifically discussed North Korea. I am having 
discussions with my counterparts there. Also, every single 
meeting I have with my foreign counterparts of the G-7 or the 
G-20, I talk about sanctions, whether it is North Korea, Iran 
on their ballistic missile program, their terrorist financing, 
Syria. So I assure you we are doing everything we can.
    As it relates to the report you just referenced that came 
out yesterday, I did just get briefed on it this morning. I 
have not had a chance to go through the entire findings, but I 
can assure you I am focused on that with my staff.
    Senator Gardner. Well, yesterday, I think you are aware, 
Secretary Mattis declared that North Korea is the most urgent 
national security threat facing the United States. I know 
President Trump and President Xi have had conversations about 
North Korea. There have been some reports that China is doing 
more today than they had in the past when it comes to North 
Korea.
    However, if you look at the first quarter trade between 
China and North Korea, that trade activity increased by roughly 
40 percent between China and North Korea just in the first part 
of this year alone.
    So do you believe that China is meeting its agreements that 
it has said it would carry out with the Trump administration?
    Secretary Mnuchin. Again, I want to be careful about 
talking about confidential or classified issues in this 
setting. I would be more than happy to followup with you in a 
different setting. But I can assure you we take these issues 
very seriously. I agree with General Mattis in his comments, 
and we are going to do everything we can with sanctions and 
other ways of dealing with this.
    Senator Gardner. Thank you. We will followup on some 
timeline matters on sanction disagreements.
    Thank you, Mr. Chairman.
    Senator Grassley. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman. And good to have 
you with us, Mr. Secretary.
    Secretary Mnuchin. Thank you.
    Senator Merkley. I wanted to share with you part of a 
letter I received from John Rose, of Ashland, Oregonian. He 
said, ``The President's tax plan contains less detail than some 
supermarket receipts. Moreover, it would explode the deficit 
while stealing from everyday Americans to give even more to the 
rich, including the President and his family.''
    Now, his commentary could not be truer when it comes to the 
tax cuts included in the GOP health care proposal, the American 
Health Care Act (AHCA) plan. I have a chart which demonstrates 
the winners and losers of the tax cuts included in the 
Republican health care plan. The winners are clear. That health 
care plan, which is estimated to strip health care from 23 
million Americans, delivers to Americans making more than $1 
million an average $50,000 tax cut. Hardworking Americans 
making less than $200,000 are the losers, and this seems like 
just bizarre that slashing health care, the peace of mind that 
goes with knowing that your loved one will get the care they 
need and that you will not go bankrupt in the process, but 
using that bill to actually do a giveaway of the Treasury to 
the richest Americans.
    [The referenced chart follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    

    Senator Merkley. And then there is the so-called Mnuchin 
rule, an assurance that you made that the President's tax plan 
would benefit middle-class taxpayers, not the highest earners.
    Doesn't the health care bill itself violate this Mnuchin 
rule?
    Secretary Mnuchin. Well, again, I have commented a few 
times earlier today on what was not my naming of the rule, but 
Senator Wyden's naming of the rule. But let me just comment on 
the health care and the chart that you just put up. The health 
care is just reversing $1 trillion of taxes that were put on 
this economy, and most of those taxes are on capital. And the 
problem with taxing capital is that capital can move freely, 
can move freely between countries, it can move freely between 
opportunities. And capital is what creates investment, it 
creates productivity, and creates jobs.
    Senator Merkley. So just to be very clear, you are very 
comfortable with the notion of giving $50,000 on average to the 
richest Americans while slashing health care from 23 million 
Americans.
    Secretary Mnuchin. Again, I am not going to comment on the 
specifics of the health care bill, which I am less involved in. 
What I will comment on is that it is reversing $1 trillion of 
taxes, which is a drag on the economy. So, yes, that part is 
just a pure drag on the economy.
    Senator Merkley. Well, if we turn to the fiscal year 2018 
budget proposal, it also lays out a strategy of including $3.6 
trillion in tax cuts with three-quarters of that going to the 
top 1 percent of Americans, and wow. So here we are, already in 
America the top 1 percent control 40 percent of the wealth and 
the top 10 percent control three-quarters of the wealth. The 
top 10 percent receive 50 percent of the income. So we have the 
very few at the top doing very well indeed.
    So why would there be a tax proposal completely contrary to 
the principle you asserted that this administration was not 
going to be about enriching the rich but helping the middle 
class? Why would there be a proposal completely dedicating even 
more to the richest Americans while taking away basic programs 
that support struggling and working families?
    Secretary Mnuchin. Well, again--and I would like to 
separate the discussion on what is health care and what is tax 
reform. When we come out with the full tax reform, we will go 
through an outline of what the distribution effects are and how 
we think it impacts the middle class and the economy.
    Senator Merkley. Well, can you pledge today that you will 
make sure that that tax reform proposal, in fact, does not give 
away the Treasury to the richest but strengthens the foundation 
for struggling and working families?
    Secretary Mnuchin. What I can say is that the President's 
objective is to create economic growth, simplify taxes, and 
create a middle-income tax cut. And we are working closely with 
the House and Senate on this.
    Senator Merkley. So you are completely abandoning the 
principle that you asserted before?
    Secretary Mnuchin. Again, I am not abandoning anything. We 
have said all along our objective is not about creating tax 
cuts for the rich. Our objective, OK, is to simplify the Tax 
Code. And in the case of the wealthy, we have taken away every 
single deduction other than charitable contributions and 
mortgage interest. And when we come out with the full tax plan, 
I am more than happy to talk about it. And, again, I would be 
happy to focus on budget things today.
    Senator Merkley. Mr. Chairman, my allocated time is done, 
but I see I am the last person here. Do you want to continue 
this committee a bit longer, or are you anxious to wrap it up?
    Senator Perdue [presiding]. Well, I am anxious to wrap it 
up, but I have not gone yet myself.
    Senator Merkley. OK.
    Senator Perdue. But if you have another question, I will 
allow that. Thank you.
    Senator Merkley. Yes, I want to--OK. Thank you. I will just 
ask one of the many I have here. But we had a real crisis that 
was driven by predatory mortgages, both mortgages that were 
undocumented and mortgages that had exploding interest rates, 
that included kickbacks to the mortgage originators to move 
people into subprime mortgages who qualified for prime 
mortgages. We also had big bets being made by Wall Street in 
situations where they were banks that are insured by the 
Federal Government. And so those two things, the Volcker rule 
and the controls to make sure a mortgage is a fair, square, 
wealth-building American dream rather than an American 
nightmare, those two things we have improved on greatly. Do you 
support dismantling either or both of those foundations for 
success?
    Secretary Mnuchin. Well, again, I think--let me first 
comment on the mortgages, which I have firsthand experience, 
and let me clarify. I have not been in investment banking for 
over 15 years. I have been focused on regional banking. I know 
the mortgage business very well. I took over some of the worst 
mortgages that were ever made when we bought IndyMac. So we are 
100 percent committed--and I can assure you in my job, having 
the Office of the Comptroller of the Currency (OCC) as part of 
Treasury, we are 100 percent committed to make sure that 
Americans have access to mortgage capital, but that they can 
afford those mortgages.
    And as it relates to the Volcker rule, people do not do 
proprietary trading within the bank. They do it outside the 
bank, but within holding companies. Our objective is to fix the 
Volcker rule, and that is what we are working on.
    Senator Merkley. Well, I hope you will also be 100 percent 
committed to the principle of not allowing predatory mortgages 
back into the marketplace.
    Secretary Mnuchin. Thank you.
    Senator Merkley. Thank you.
    Senator Perdue. Mr. Chairman, thank you for being here.
    Secretary Mnuchin. Thank you.
    Senator Perdue. I think I may be the only thing between you 
and lunch, so I will be direct.
    I want to go back to your earlier comments today talking 
about growth, because I know the administration has talked 
about that. And the purpose of the growth--and let us just put 
this in supervision--in my mind is we have a $20 trillion debt. 
You referred to that earlier.
    Secretary Mnuchin. Yes.
    Senator Perdue. What we are not talking about is that 
unless we do something now to this baseline budget that we have 
today, that exists today, we will add another $10 trillion to 
that debt over the next 10 years. I have got several questions.
    To get the growth to deal with this insurmountable debt, in 
my mind, there are some $200 trillion of debt in the world 
totally; 60 of that is basically sovereign debt. We have a 
third of that sovereign debt today. I just do not know how much 
longer the bond markets are going to allow us to continue to 
eat up more and more debt capital that way, and my question to 
you today specifically on the debt--you mentioned that the size 
of the debt bothers you, but I think you might have said 
peripherally. So the question then is: If interest rates were 
to move to their more historic norm of somewhere around 5 
percent, we would be paying about $1 trillion of interest on 
this debt as it exists today. And, also, the duration of our 
debt is very, very short. Some 60 percent or over half of our 
debt is 3 years or less; whereas, Britain has moved their 
position to about 48 percent of theirs is 20 years or longer.
    So the question I have, first of all, is: On the position 
of the debt, what is the Treasury's position relative to the 
budget, how it is dysfunctional, how it impacts the debt, and 
then how it is draining the ability to grow because of sucking 
more capital, more debt capital to the needs of the Federal 
Government?
    Secretary Mnuchin. Well, let me first comment on the 
duration, which you commented on, and I have talked about this 
publicly, that we are exploring what we call ``ultra-long 
bonds,'' 50-year bonds or 100-year bonds, to explore 
lengthening the duration. And we have reached out to the 
Treasury Borrowing Committee as well as institutional investors 
to explore whether it makes sense to do that.
    Senator Perdue. But even the--I am sorry to interrupt, but 
even moving more to 30-year Treasurys would help.
    Secretary Mnuchin. It would.
    Senator Perdue. It would just take longer to get----
    Secretary Mnuchin. It would, and we explore what the 
capacity is at different parts of the market and what the most 
efficient way is to extend the maturity. So that is something 
we are looking at.
    Senator Perdue. So let us continue on with this debt. There 
is about $6 trillion--some estimates are greater than that--
that are not at work in the economy today--roughly about $2 
trillion on the Russell 1000 balance sheets, about $2 trillion 
on small community banks and regional banks, and then somewhere 
around $2 to $3 trillion overseas in unrepatriated profits. I 
know in your one-page tax proposal you eliminate the 
repatriation tax. What else can you summarize for the committee 
that this tax bill will do relative to growth and dealing with 
unleashing that capital? Because it seems to me that the 
economic miracle over the last 70 years, Secretary, happened 
because of innovation, capital formation, and the rule of law. 
And we have messed around with capital formation here in the 
last 8 years, and I would like to know what the 
administration's position is relative to growth, what we are 
doing regarding capital formation.
    Secretary Mnuchin. Well, I agree with you completely, and 
on the business side, we need to simplify and make the business 
tax system more competitive, and that starts with we have a 
business rate that is way too high. It is one of the highest 
rates in the world. As you have suggested, we tax on worldwide 
income. That encourages with deferral. That encourages our 
companies to leave trillions of dollars offshore. We want to 
bring that money back to put it to work for the American 
workers. And we want to make the system work so that, going 
forward, companies bring back their foreign earnings and 
reinvest it here.
    And we are also committed, not just on multinationals, but 
we are also committed that small and medium-sized businesses 
should have tax relief as well. That is the engine of growth in 
our economy.
    Senator Perdue. Would you repeal Dodd-Frank if you were 
king for a day?
    Secretary Mnuchin. If I were king for the day, I would. I 
would start all over, and I think most of it is unnecessary. 
But since I am not king for the day, we went through what we 
thought the critical portions were, and we delivered to the 
President yesterday on our Executive order, and we think about 
70 or 80 percent of what is critical to get done we can get 
done through Executive orders and working with the regulators, 
and we look forward to working with the House and the Senate on 
other things.
    Senator Perdue. When will we see that?
    Secretary Mnuchin. It came out last night.
    Senator Perdue. OK.
    Secretary Mnuchin. So we will make sure it is delivered to 
your office.
    Senator Perdue. All right. Thank you.
    One last question. The budget process is broken. It has 
only worked four times in the last 43 years. This year--well, 
like over the last 43 years, we have used 178 continuing 
resolutions. I just walked out of an Armed Services Committee 
hearing where we heard the dire straits of if we have another 
CR this year. It is almost guaranteed that we will not have a 
budget process that will be effected normally this year, and 
that we are headed for either a CR in the end of September--I 
think we have 43 days left, Senate working days left before the 
end of this fiscal year. So the best we could hope for would be 
an omnibus before that time.
    When the Director of OMB was before the committee a couple 
weeks ago, we talked about this. You are involved in this from 
the Treasury. What is your perspective on the budget process 
that has not worked since 1974? And what do you think we need 
to do to make this relevant so we can fund the Government, 
which is the No. 1 priority of the Congress, according to 
Article I, which we are not doing, and since 1921, when the 
OMB--or when the budget capability of the administration was 
created, it seems like the legislative responsibility has 
become less and less and less every year.
    So how would you as part of the administration advise us to 
move on this budget process that is not working?
    Secretary Mnuchin. Well, if I got to be king for a day, I 
would probably choose to fix the budget process even over Dodd-
Frank.
    Senator Perdue. Would you really?
    Secretary Mnuchin. I would. I mean, it is completely 
broken. And I think there is the process of the budget, there 
is the process of spending, and there is the process of 
appropriation. And, you know, it is not going to be resolved 
this year, but this is something that, you know, I would look 
forward to working with you on.
    Senator Perdue. Well, it is dire. We are supposed to 
appropriate 12 bills a year to fund the Federal Government. 
Over the last 43 years, we have averaged two and a half. It is 
just----
    Secretary Mnuchin. That is not a good record.
    Senator Perdue. There is no way in any other environment 
that----
    Secretary Mnuchin. No sports team would be doing very well 
with that.
    Senator Perdue. No. The coach would be gone. The 
quarterback would be gone. The wide--everybody would be gone.
    Secretary Mnuchin. That is the reason to drain the swamp.
    Senator Perdue. Exactly.
    Mr. Chairman, I think we are out of questions. I want to 
thank you for appearing before the committee today. Your full 
statement will be included in the record.
    As information to all Senators, questions for the record 
are due by 6 p.m. today with a signed hard copy delivered to 
the committee clerk in Dirksen 624. Under our rules, Secretary 
Mnuchin will have 7 days from receipt of our questions to 
respond with his answers.
    With no further business, this hearing is adjourned. Thank 
you, Mr. Secretary.
    Secretary Mnuchin. Thank you.
    [Whereupon, at 11:36 a.m., the committee was adjourned.]

                     ADDITIONAL COMMITTEE QUESTIONS

    [The following submitted questions were not asked at the 
hearing but were answered by the witness subsequent to the 
hearing:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



                                <all>
</pre></body></html>
